  Department of Defense Office of Inspector General - National Safety Council




 Combat Power
  Begins with
   Safety
  DEPARTMENT OF DEFENSE
                                                 NATIONAL SAFETY COUNCIL
OFFICE OF INSPECTOR GENERAL
                     www.dodig.mil                                    www.nsc.org
 DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL


                                                         MISSION STATEMENT

       The Office of the Inspector General promotes integrity, accountability, and
       improvement of Department of Defense personnel, programs and operations
            to support the Department’s mission and to serve the public interest.


                 Senior Leader                                                                Active Duty
Maj. Gen. John R. Vines, Commander Coalition                                 Aviation Ordnanceman Airman Brian Miller of
Task Force 82, and Brig. Gen. C. William Fox,                                Cleveland, Ohio, assigned to the "Mighty
Deputy Chief Joint Staff 180, salute as the                                  Shrikes" of Strike Fighter Squadron Nine Four
remains of an airman killed in action pass by                                secures the fins on an AIM-7 Sea Sparrow
them, during a ceremony held at Bagram Air                                   missile attached to an F/A-18E Super Hornet on
Field, Afghanistan.                                                          the flight deck of the nuclear powered aircraft
(U.S. Army photo by Sgt. 1st Class Milton H. Robinson)                       carrier USS Nimitz (CVN 68).
                                                                             (U.S. Navy photo by Photographer's Mate 3rd Class
                                                                             Maebel Tinoko)



                     Civilian                                                               Guard & Reserve
A civilian construction worker removes a nail                                Pfc. Melissa M. Telaak, from 1st Platoon, 164th
from a board during construction of a new                                    Military Police Company, pulls convoy security
cement security wall, Incirlik Air Base, Turkey.                             duty in Kabul, Afghanistan.
(U.S. Air Force photo by Senior Airman                                       (This photo appeared on www.army.mil)
Matthew Hannen)




                                               NATIONAL SAFETY COUNCIL

                                                         MISSION STATEMENT

                To educate, protect and influence society to adopt safety, health and                                            D E PA R T M E N T O F D E F E N S E

             environmental policies, practices and procedures that prevent and mitigate                                                                                 To report fraud, waste, mismanagement, and abuse of authority.

                              human suffering and economic losses.
                                                                                                                                 hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                                                        Phone: 800.424.9098          e-mail: hotline@dodig.mil         www.dodig.mil/hotline
                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                          Senior Leader Safety Survey Results


                             Evaluation of the DoD Safety Program
                                                Senior Leader Safety Survey Results
                                                                         June 2008
Purpose
On May 19, 2003, the Secretary of Defense instructed DoD senior leaders to
reduce preventable accidents by 50 percent over a two-year period. That goal was
subsequently revised in March 2004 to 75 percent by 2008. On August 9, 2004,
the Office of the Deputy Under Secretary of Defense for Readiness requested this
evaluation to assist DoD management develop strategies to improve the
effectiveness of the DoD safety program and provide observations to help
management reduce the Department’s accident rate, as directed.
Methodology and Scope
This report presents an overview of the evaluation process and the results of the
DoD senior leader safety survey. In April 2005, the Office of the Inspector
General entered into a contract arrangement with the National Safety Council
(NSC) to assist the evaluation team to develop, administer, and analyze two safety
surveys – a senior leader safety survey, and a safety perception survey
administered to three distinct populations: active duty military, civilian, and
reserve component military. The latter NSC-designed survey was included as an
element within the Defense Manpower Data Center annual personnel survey.
The senior leader survey was a Web-based survey sent to all flag officers and
senior executive service members. The survey was designed to measure how DoD
leaders viewed their role as safety advocates and to collect their opinions of the
DoD safety program. This survey had 17 questions—12 multiple choice, 3
demographic, and 2 open-ended, write-ins. There were 1299 responses--a 48
percent response rate. There were over 1,000 write-in comments.
Survey Results
The survey results in this report establish a baseline for future perception surveys.
The offices of the Secretary of Defense, Combatant Commanders, and Services
should review these survey results and perform additional analyses to best support
the objectives of their safety programs.
Overall, senior leaders had a positive perception of their safety program. Leader
responses to questions concerning leadership sincerity and commitment to
ensuring personnel safety were ranked among the highest of any organization in
the National Safety Council database. Leader perceptions were significantly less
positive concerning:
   •   adequacy of resources to manage and support safety-related programs;
   •   consideration of safety performance when rating personnel;
   •   cooperation across the Services on safety-related issues;
   •   acceptance that all accidents and mishaps are preventable;
   •   achievability of reducing the DoD accident and mishap rate by 50% over
       the next two years; and,
   •   adequacy of safety program representation in the budget process.

We concluded from the survey responses that DoD senior leaders understood the
importance of safety, but they believed they were constrained from making
systemic changes to the program.
                                                                                    IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                   Senior Leader Safety Survey Results


                                                     TABLE OF CONTENTS
                                    EVALUATION OF THE DOD SAFETY PROGRAM:
                                       SENIOR LEADER SAFETY SURVEY RESULTS

1 Evaluation of the DoD Safety Program — Project Overview ......................................................1
   1.1 Introduction..........................................................................................................................1
   1.2 Evaluation Purpose ..............................................................................................................1
   1.3 Historical Perception – A Chronology of Significant Events..............................................1
   1.4 Evaluation Context ..............................................................................................................3
   1.5 Evaluation Process ...............................................................................................................3
       1.5.1 Safety Surveys ............................................................................................................5
              1.5.1.1 Leveraging NSC’s Safety Barometer Survey Process...................................5
              1.5.1.2 Other Partnerships .........................................................................................5
       1.5.2 Data Analysis and Results ..........................................................................................5
              1.5.2.1 Data-set Benchmarking Analysis and Results...............................................5
              1.5.2.2 Results Communication ................................................................................6
   1.6 Prevention Model.................................................................................................................6
2 Summary-- Senior Leader Safety Survey .....................................................................................8
   2.1 Overview..............................................................................................................................8
   2.2 Results..................................................................................................................................8
       2.2.1 Survey Questions ........................................................................................................8
       2.2.2 Demographics .............................................................................................................8
       2.2.3 Open-Ended, Write-In Questions ...............................................................................9
       2.2.4 Use of Results ...........................................................................................................10
3 Senior Leader Safety Survey Results..........................................................................................11
   3.1 Introduction .......................................................................................................................11
   3.2 The National Safety Council Partnership ..........................................................................11
   3.3 Survey Administration .......................................................................................................11
       3.3.1 Survey Form..............................................................................................................11
       3.3.2 Web-Based Survey....................................................................................................12
   3.4 Survey Analysis .................................................................................................................12
       3.4.1 Survey Questions ......................................................................................................12
       3.4.2 Survey Analysis ........................................................................................................13
   3.5 Results................................................................................................................................13
       3.5.1 Survey Response and Response Rate .......................................................................13
              3.5.1.1 Conclusions .................................................................................................15
       3.5.2 Analysis of Percent Distribution of Responses.........................................................15
              3.5.2.1 Conclusions .................................................................................................17
       3.5.3 Analysis of Average Response Scores......................................................................17
              3.5.3.1 Conclusions .................................................................................................19
       3.5.4 Analysis of Benchmarked Percentile Scores ............................................................20
              3.5.4.1 Very high percentile scores .........................................................................22
              3.5.4.2 Lower-rated percentile scores .....................................................................22
              3.5.4.3 Conclusions .................................................................................................23
                                                                                    IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                   Senior Leader Safety Survey Results


        3.5.5 Comparison of Survey Responses by Subgroup.......................................................24
               3.5.5.1 Comparison of Survey Responses by Flag Officer versus Senior Executive
                            Service Member .......................................................................................24
                      3.5.5.1.1 Conclusions .....................................................................................26
               3.5.5.2 Comparison of Survey Responses by Category (Service)...........................27
                      3.5.5.2.1 Conclusions .....................................................................................31
        3.5.6 Comparison of Survey Responses by Duty Status....................................................32
               3.5.6.1 Conclusions .................................................................................................36
        3.5.7 Comparison of Survey Responses by Category/Duty Status....................................37
               3.5.7.1 Conclusions .................................................................................................41
        3.5.8 Comparison of Survey Responses by Organization .................................................42
               3.5.8.1 Conclusions .................................................................................................45
    3.6 Respondent Comments.......................................................................................................46
        3.6.1 Comments Regarding Suggested Actions.................................................................47
               3.6.1.1 Motor-Vehicle and Off-Duty Safety ...........................................................47
               3.6.1.2 Discipline and Accountability .....................................................................48
               3.6.1.3 Award and Incentive Programs ...................................................................48
               3.6.1.4 Funding and Budgeting ...............................................................................49
               3.6.1.5 Operational Readiness and Force Protection ..............................................50
               3.6.1.6 Best Practices ..............................................................................................50
               3.6.1.7 Leadership Involvement and Commitment .................................................50
               3.6.1.8 Individual Responsibility ............................................................................52
               3.6.1.9 Cooperation Across Services.......................................................................52
               3.6.1.10 Safety Stand-Downs ..................................................................................53
               3.6.1.11 Pace of Duties............................................................................................53
               3.6.1.12 Measurement and Metrics .........................................................................54
               3.6.1.13 Training .....................................................................................................55
               3.6.1.14 Safety Personnel ........................................................................................56
               3.6.1.15 Supervisor Involvement ............................................................................56
               3.6.1.16 Safety as an Item on Performance Appraisals...........................................56
               3.6.1.17 Communication of Information and Programs..........................................57
               3.6.1.18 Risk Management......................................................................................57
               3.6.1.19 Safety Integration and Culture Change .....................................................58
               3.6.1.20 Other Topics ..............................................................................................59
        3.6.2 Other Written Comments..........................................................................................60
               3.6.2.1 Appropriateness of the 50 Percent Reduction Goal (SecDef).....................60
               3.6.2.2 Accepting that Accidents and Mishaps Will Occur ....................................61
               3.6.2.3 Praise for Current Safety Efforts .................................................................62
               3.6.2.4 Acknowledgement of the Importance of Safety Issues and the Need to Do
                         More ............................................................................................................63
               3.6.2.5 Comments Regarding the Survey................................................................64
4. Conclusions................................................................................................................................67
    4.1 Overview ............................................................................................................................67
    4.2 Path Forward......................................................................................................................67
    4.3 List of Report Conclusions ................................................................................................68
                                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                         Senior Leader Safety Survey Results




Appendices
      Appendix A      Source Documents ................................................................................75
         A-1 SecDef Memorandum Directing a 50% Reduction in Preventable Accidents ......75
         A-2 Defense Safety Oversight Council Charter as Amended.......................................76
         A-3 Copy of Paragraph Directing a 75% Reduction in Accidents by 2008 .................79
         A-4 Signed Announcement Memorandum ...................................................................80
         A-5 SecDef Memorandum (Jun 06)..............................................................................81
         A-6 USD (AT&L) Memorandum (Nov 06)..................................................................82
         A-7 SecDef Memorandum on Zero Preventable Accidents (May 07)..........................83
      Appendix B      Scope and Methodology........................................................................84
      Appendix C      DoD Senior Leader Survey Form and Letters.......................................85
      Appendix D      Response Frequency and Percentage Distributions ..............................92
      Appendix E      NSC Methods and Data Analysis..........................................................94
      Appendix F      Response Distributions by Flag Officer versus
                      Senior Executive Service Member ........................................................97
      Appendix G      Response Distributions by Category .....................................................99
      Appendix H      Response Distributions by Organization.............................................106
      Appendix I      Respondent Comments – Suggested Actions ......................................110
      Appendix J      Respondent Comments – General .......................................................176
      Appendix K      List of Acronyms.................................................................................207
      Appendix L      Definitions ...........................................................................................208
      Appendix M      Distribution List ..................................................................................209
This Page Intentionally Left Blank
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results


        1 Evaluation of the DoD Safety Program--Project Overview

1.1 Introduction
The Deputy Under Secretary of Defense for Readiness (DUSD [R]) requested this evaluation of
the Department of Defense (DoD) safety program. In support of the overall objective, the Office
of the Inspector General (OIG) surveyed personnel perceptions of the DoD safety program. The
results of the survey are described in four separate documents:

    Senior Leader Safety Survey (Report No. IE-2008-006)
    Active Duty Safety Survey (Report No. IE-2008-007)
    DoD Civilians Safety Survey (Report No. IE-2008-008)
    Guard and Reserve Forces Safety Survey (Report No. IE-2008-009)

This report describesthe perceptions of DoD senior leaders in regard to safety responsibilities
and performance in their organizations, as well as throughout DoD. In addition to the
observations presented in this report, it is recommended the reader review the respondent
comments tabulated in appendixes I and J.

1.2 Evaluation Purpose
The purpose of this evaluation was to assist DoD management with developing strategies to
improve the effectiveness of the DoD safety program and reduce the Department’s accident rate.

1.3 Historical Perspective—A Chronology of Significant Events
•   October 2001: The Secretary of Defense (SecDef) sent the first of a series of personal notes
    expressing his concerns regarding safety in DoD. The Secretary:
         o Ordered an executive assessment of the DoD safety program;
         o Declared DoD senior leaders must be personally involved in safety.

•   May 2003: SecDef issued a memorandum (App A-1) challenging senior leaders to “reduce
    the number of mishaps and accident rates by at least 50% in the next two years.” The
    memorandum directed the Under Secretary of Defense for Personnel and Readiness (USD
    [P&R]) to lead the effort.

•   June 2003: USD (P&R) established the Defense Safety Oversight Council (DSOC), which
    includes an OIG representative as an associate (non-voting) member. The overall purpose of
    the DSOC is to provide governance of DoD-wide efforts to reduce preventable mishaps
    (App A-2). The primary tasks of the DSOC are to:
         o Establish and monitor metrics to reduce accidents and injuries for each Military


                                               -1-
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results

           Department and DoD Agency by 50 percent by the end of 2005 (later increased to
           75 percent by the end of FY 2008), using FY 2002 as a baseline.
         o Assess, review, and advise to improve DoD-wide safety and injury prevention
           information management systems.
         o Promote the development and implementation of safety initiatives.
         o Make recommendations for improving policies, programs, and investments.

•   March 2004: SecDef adjusted the objective to reduce accident rates from 50 to 75 percent by
    the end of 2008, as stated in the FY 06-11 Strategic Planning Guidance (App A-3).

•   August 2004: On behalf of the USD (P&R) and the DSOC, the DUSD (R) requested the
    Inspections and Evaluations Directorate (I&E) of the OIG evaluate the DoD safety program
    and Department efforts to achieve the SecDef’s mishap and accident reduction goal.

•   November 2004: I&E announced the formation of a safety evaluation team (the Team) and
    initiation of an OIG evaluation of the DoD safety program (App A-4). The Team’s
    objectives were:
           o Evaluate the DoD safety program and provide observations to help achieve a
               reduction in accidents, as directed by the SecDef;
           o Identify safety issues within DoD and provide a roadmap for change to improve the
               Department’s safety program.

•   April 2005: I&E contracted with the National Safety Council (NSC) to assist the Team
    administer, conduct, and evaluate safety perception surveys.

•   March 2006: I&E briefed the DSOC on the outcomes of the Leadership and Perception
    Safety Surveys, and suggested four preliminary recommendations.

•   June 2006: SecDef issued a memorandum (App A-5) on reducing preventable accidents. He
    stated, “We will not simply accept the status quo” and “We can no longer consider safety as
    nice-to-have.”

•   October 2006: I&E briefed the DoD Safety and Health Forum on options to improve
    installation and command safety and health programs; I&E also briefed the National Safety
    Congress on the safety evaluation’s progress and achievements.

•   November 2006: In response to the June 2006 SecDef memorandum, the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD [AT&L]) addressed safety over
    the entire life cycle of systems by directing changes to DoD Instructions 5000.2 and 6055.7
    to reduce preventable accidents (App A-6).




                                              -2-
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

•   March 2007: I&E engaged both the European Tri-Service Safety Conference and the Joint
    Service Safety Congress on the preliminary results and recommendations of the evaluation.

•   May 2007: The new SecDef issued a memorandum (App A-7) stating he remains committed
    to the 75 percent accident reduction target by 2008, and setting a new goal of “zero
    preventable accidents.”

•   July 2007: I&E briefed the Joint Planning Development Office (JPDO) working group of the
    Next Generation Aviation Transport System program on a comparative analysis of Safety
    Management Systems (analysis is at http://www.nsc.org/resources/dod-matrix.aspx). The
    JPDO is a unique partnership of government agencies (the Departments of Commerce,
    Defense, Homeland Security, and Transportation; the Federal Aviation and National
    Aeronautical and Space Administrations; and the White House Office of Science and
    Technology Policy) and commercial and general aviation.

•   April 2008: In response to a request from the Director of the Joint Staff, USD(AT&L)
    developed and issued Change 1 to DoD Instruction 6055.07, establishing policy for mishap
    investigations of friendly fire events.

1.4 Evaluation Context

The evaluation addresses the SecDef’s memo that established the DoD mishap and accident
reduction goal. This goal applies to military personnel – active duty, Guard, and Reserve – as
well as over 700,000 Department civilians in both appropriated and nonappropriated positions.
The evaluation does not examine combat-related mishap and accident data, allowing for
comparative analysis with any business enterprise inside or outside DoD. However, this
limitation is not intended to minimize the importance of safety and accident prevention in areas
of ongoing operations.
                                                         Figure 1. Process Diagram for
                                                         Evaluation of the DoD Safety Program
It is important to remember that all accidents and
mishaps, regardless of whether they occur on or off
                                                                         Com.nunicate
duty, affect readiness and the Department’s capability                   .Obiervarlons
to accomplish its mission.                                                             I
                                                                                             Con duct Safety
1.5 Evaluation Process                                    Identify Policy. Procedures.
                                                                                            Perception Survey
                                                                                            Cukure U Climate
                                                                (laps OverIap
Figure 1 illustrates the evaluation process and the
                                                          Analyze Exceptional Practices
specific safety program elements that were evaluated:
climate and culture, policy, organizational structure,
                                                                                         Review O.ganizas lanai
and resources. Throughout the project the Team                                              Structure, Roles
                                                                  Relate Resourcing
captured exceptional practices.                                                            dt Re. potuibilites
                                                                i rrogç   . Execution



                                               -3-
                                                                    IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                   Senior Leader Safety Survey Results



During and following information collection activities, the Team analyzed perception survey
data, reviewed safety programs of other organizations to identify benchmarks, and studied
various models of safety management systems.

1.5.1 Safety Surveys

The Team partnered with the National Safety Council (http://www.nsc.org/) and the Defense
Manpower Data Center (http://www.dmdc.osd.mil/) to develop, administer, and analyze two
safety surveys. The targeted populations for these surveys were:
•     Senior Leader Survey – administered to DoD senior leaders (flag officers and senior
      executive service (SES) members).
•     Safety Perception Survey – administered to:
           o Active Duty Personnel (enlisted and officers O-6 and below, all Services).
           o DoD Civilian Personnel (all grades below SES).
           o Guard and Reserve Personnel (enlisted and officers O-6 and below, all Services).

The objectives of the surveys were to:
     measure the current perception of the safety culture throughout DoD; and,
     establish a safety climate baseline against which DoD can measure improvement.
    Safety Culture consists of values, attitudes, perceptions, competencies and behavior of the people
    that make up the organization. In an organization with a positive safety culture there are high levels
    of trust; people agree that safety is important and that safety management systems are effective.
    Safety Climate consists of attitudes and perceptions but does not contain values, competencies and
    behavior. It differs from safety culture since it is specific to one time and location. It can be used as
    an indicator of the underlying safety culture.
    These definitions indicate that safety climate is a sub-set of safety culture, which is a broader, more
    enduring organizational feature.
    “PRISM FG1 Safety Culture Application Guide” – Final Version 1.1 – 8 August 2003, www.keilcentre.co.uk.

The senior leader survey was a Web-based survey sent to all flag officers and senior executive
service members. The survey was designed to measure how DoD leaders viewed themselves as
safety advocates and to collect their opinions of the DoD safety program. This survey had 17
questions – 12 multiple choice, 3 demographic, and 2 open-ended, write-ins. The Team received
1299 responses for a 48 percent response rate. There were over 1000 write-in comments. This
report provides the descriptions, analyses, and results of the senior leader survey.

Additionally, a safety perception survey was mailed to 330,000 DoD personnel as part of the
annual personnel survey conducted by DMDC. The survey results provided an excellent
empirical picture of the DoD safety climate and identified specific areas for further study and
improvement. The survey response rates were: active duty – 37 percent, civilian – 63 percent,


                                                        -4-
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

and Guard and Reserve – 36 percent. See reports IE-2008-007 through -009 for the descriptions,
analyses, and results of the safety perception survey for each population.

1.5.1.1 Leveraging NSC’s Safety Barometer Survey Process

The NSC Safety Barometer survey elicits opinions about a broad spectrum of elements that
contribute to successful safety management. At the time of data analysis, 232 organizations
(government and non-government) had taken the NSC Safety Barometer survey. The NSC
maintains their responses in a database. To the extent possible, the DoD surveys were based on
the NSC Safety Barometer survey to allow the evaluation team to benchmark results against the
NSC database by generating comparative percentile scores on a scale of 0 to 100. A further
benefit of this approach was the ability to prioritize problem areas based on the percentile scores.

1.5.1.2 Other Partnerships

In addition to partnering with NSC and DMDC, the Team worked with the OIG Quantitative
Methods Directorate (http://www.dodig.mil/inspections/qmd/index.htm) for the administration
and validation of the survey questionnaires. The Quantitative Methods Directorate also
independently reviewed the survey data.

1.5.2 Data Analysis and Results

This evaluation was designed and executed to comprehensively identify broad, crosscutting
issues within DoD, then suggest changes to guide DoD leadership in making systemic changes in
the DoD safety program that would yield program improvements. Two aspects of the evaluation
process warrant specific discussion: data-set benchmarking and results communication.

1.5.2.1 Data-Set Benchmarking Analysis and Results

As mentioned above, use of the NSC Safety Barometer survey as the basis for the surveys
allowed the Team to benchmark results against the NSC database of government and non-
government organizations. Reports IE-2008-007 through -009 describe the results of this
benchmarking in detail.

The Team also analyzed large, private sector companies (with 30,000-60,000 employees) that
were recipients of the Occupational Hazards Magazine’s award for excellence in safety
performance. The Team reviewed organizations with excellent safety records, such as DuPont,
Texas Instruments, and Delta Airlines, to identify essential safety program practices.
Additionally, the Team studied the United States Postal Service, an organization that employs
approximately 800,000 people and has similar structural challenges as DoD.



                                                -5-
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

1.5.2.2 Results Communication

The Team practiced “constructive engagement” as a communication technique to keep
stakeholders informed of project status and findings. This process included briefing our
observations to DoD management and providing progress reports on the safety evaluation
throughout the project. We posed questions during interviews to stimulate introspection by
senior officials and encourage dialogue among diverse organizations. This approach encouraged
decision makers and safety program managers to initiate program improvements immediately
following an engagement, well before release of completed reports.

1.6 Prevention Model

Figure 2 graphically depicts the continuum of activities associated with the DoD safety program
centered around a decision, mishap, or other event (incident). Risk management should focus on
prevention programs, while consequence management efforts should identify and fix mishap root
causes. The Team believes a balanced approach between risk management and consequence
management is a necessary condition to achieve the SecDef’s accident reduction goal. The
results of this survey provide stakeholders with a compendium of leading indicators that should
be considered to improve safety program risk management.
                            Figure 2. Prevention Parabola Model

                  Risk Management                Consequence Management


       LEADING INDICATORS                                       LAGGING INDICATORS
         Near-miss Data                                         Aircraft Mishaps
                                            INCIDENT



      Perception Surveys                                  Motor Vehicle Accidents
            Process Measures                                                Fatality Rates


                                    Mishap Prevention
The illustration is constructed around an incident, which represents a management decision,
policy release, mishap, or other event affecting safety performance. The green arrow along the
center axis shows the time preceding and following the incident.

The blue parabola (left side) encompasses actions taken and data generated prior to the incident.
Influencing incidents prior to the event requires leaders and managers to collect and analyze


                                               -6-
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

leading indicators. The chart lists several methods for obtaining leading indicators, including
gathering near-miss data, conducting perception surveys, and analyzing current processes.
Leading indicators focus on risk reduction by measuring, reporting, and managing safe
behaviors. The left side of the chart emphasizes prevention programs and leading indicators.

The orange parabola (right side) represents actions taken and data generated after the incident.
Investigations, inspections, and analysis of mishap data allow leaders and managers to influence
behavior subsequent to an occurrence. Today’s DoD safety program emphasizes lagging
indicators as the common measurement for safety performance. Discovering the root causes and
managing the consequences of mistakes and poor decisions has generated a measure of success
in safety programs across the board. However, overemphasis on after-the-fact metrics may
detract attention and resources from prevention activities.




                                               -7-
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

2 Summary -- Senior Leader Safety Survey

2.1 Overview
The senior leader survey was a Web-based survey sent to all flag officers and senior executive
service members. The survey was designed to measure how DoD leaders viewed themselves as
safety advocates and to collect their opinions of the DoD safety program. This survey had 17
questions—12 multiple choice, 3 demographic, and 2 open-ended, write-ins. There were 1299
responses--a 48 percent response rate (see App C – subsequent reminders, and survey
questionnaire). There were over 1,000 write-in comments.

The e-mail mechanism for disseminating survey instructions and collecting responses worked
well. Although the survey period extended one week beyond the original schedule, it’s unlikely
additional extensions would have increased the response rate significantly. Statistically, the 48
percent response rate is considered good.

2.2 Results
2.2.1 Survey Questions

Respondents replied on a 5-point scale from strongly agree to strongly disagree. The degree of
positive response varied considerably among the 12 questions in the survey. For some items,
over 95 percent of respondents answered positively, while for other items less than 45 percent
answered positively. This indicates good differentiation by respondents among survey topics.
Nearly all of the questions with highest marks are broad, culture-related issues. It is clear
leaders believe the climate is in place to make necessary changes to support safety. Of the 12
questions, 7 were similar to NSC survey items. We compared DoD senior leader survey
responses for those 7 questions with responses from the 232 organizations in the NSC database
and calculated a percentile score between 0 and 100. Four of the 7 items received benchmarked
scores above the 95th percentile and three scored 85 or below. Senior leaders gave the highest
ratings to leadership sincerity and positive commitment regarding personnel safety. The three
questions receiving average response scores should be targets for improvement, and comparison
with other organizations reinforces that conclusion. The perception of adequate resources to
manage and support safety-related programs scored lower than other items when compared with
outside organizations, achieving a comparative percentile score of only 55.

2.2.2 Demographics

We analyzed the survey responses by various demographic subgroups:




                                               -8-
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

•   Flag Officers versus SES members. Flag officers had higher scores, and thus more positive
    perceptions, compared to their SES counterparts. The difference should be investigated to
    determine why SES members’ perceptions are lower and what countermeasures might be
    applied specifically to the SES group.
•   Branch of Service. The Air Force had the highest perception scores overall, followed closely
    by the Army, then the Navy. The lowest scores came from the Marine Corps and Non-
    Service Civilians (DoD civilians employed by an agency such as the Office of the Secretary
    of Defense, Washington Headquarters Services, or the Defense Logistics Agency rather than
    by one of the Service Departments [i.e., Army, Navy, Air Force, or Marine Corps]). The
    disparity among responses by category was similar to NSC survey results of other
    organizations. However, targeted efforts to elevate perceptions of the safety program for
    Marine Corps and Non-Service Civilian personnel would be an effective strategy for
    strengthening safety perceptions for the organization.

•   Duty Status. The Guard respondents had the highest perception scores both overall and for 8
    of the 12 survey questions. Civilians had the lowest perception scores for the survey and for
    9 of the 12 survey items. Dialogue among the duty status groups will facilitate obtaining a
    clearer picture of the accident and mishap problem for DoD, and should level the differences
    in perceptions.
•   Organization of Assignment. Perception scores for MAJCOM/MACOM/CLAIMANT-level
    respondents were highest overall, and also highest for 6 of the 12 survey items. OSD Staff
    had the lowest perception scores overall and for 7 of the 12 survey items. All command-
    related organizations had response scores above the overall average, while all staff-related
    organizations had response scores below the overall average. Disparity among scores from
    highest to lowest was fairly large.

2.2.3 Open-ended, Write-in Questions

Respondents were asked to provide their comments to two open-ended, write-in questions. The
number and quality of written comments were exceptional. Over 700 respondents provided
comments for the first open-ended item regarding suggested actions for improving safety, and
nearly 300 respondents answered the second open-ended item asking for general comments.

As a group, the written comments provide high quality, insightful observations on the status of
safety issues and suggestions for improvement. Therefore, we listed all the comments in
Appendices I and J. Table 1 below summarizes the written comments into 23 broad categories.




                                               -9-
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results

                       Table 1. Summarized Written Comment Categories

 • Motor-Vehicle and Off-Duty Safety               • Supervisor Involvement
 • Discipline and Accountability                   • Safety as an Item on Performance Appraisals
 • Award and Incentive Programs                    • Communication of Information and Programs
 • Funding and Budgeting                           • Risk Management
 • Operational Readiness and Force Protection      • Safety Integration and Culture Change
 • Best Practices                                  • Appropriateness of 50 Percent Reduction Goal
 • Leadership Involvement and Commitment           • Accepting that Accidents and Mishaps Will Occur
 • Individual Responsibility                       • Praise for Current Safety Efforts
 • Cooperation across Services                     • Safety Personnel
 • Safety Stand-downs                              • Comments Regarding the Survey
 • Measurement and Metrics                        • Acknowledgement of the Importance of Safety
 • Training                                              Issues and the Need to Do More


2.2.4 Use of Results

The results of this survey, both the data from the multiple choice items and the write-in
comments, should be used to develop strategies to improve the effectiveness of the DoD safety
program and generate specific recommendations and initiatives to help reduce the Department’s
accident rate by 75 percent by 2008.




                                                - 10 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

   3 Senior Leader Safety Survey Results

3.1 Introduction

As previously described in the Project Overview section, this report documents the results of the
Senior Leader Safety Survey. This survey was designed to measure how DoD leaders viewed
themselves as safety program advocates and to identify their opinions of the DoD safety
program. The survey measures the perceptions of DoD senior leaders regarding safety
knowledge, climate, involvement, resources, priority-setting, and other leadership-related issues.

3.2 The National Safety Council Partnership

In April 2005, the OIG entered into a contract arrangement with the National Safety Council
(NSC) to assist the evaluation team develop, administer, and analyze the safety perception
surveys. To the extent possible, the survey design was based on the NSC Safety Barometer
survey, which allowed the evaluation team to generate percentile scores on a scale of 0 to 100
and benchmark results against the NSC database of responses from 232 government and non-
government organizations. A further benefit of this approach was the capability to generate a
prioritized list of problem areas based on the percentile scores.

The analyses that follow include a comparison of DoD responses to other organizations in the
NSC database by percentile scores. Responses by personnel subgroups were also compared so
we could develop a more specific understanding of each subgroup’s assessment, with priorities
customized and targeted for each group. The results can be used to facilitate management
decisions to improve the safety program and reduce mishap and accident rates.

3.3 Survey Administration

3.3.1 Survey Form

The survey form is provided at appendix C. Given the demands on senior leaders’ schedules, the
survey was designed to be brief. To take advantage of the NSC database, the questions and
responses were adapted to be compatible with the Safety Barometer survey and used a 5-point
scale from strongly agree to strongly disagree. Also, respondents completed a demographics
section to identify their population subgroup by Rank, Service, and Organization.

In addition to data-oriented responses, two open-ended written sections were included:

   •   “If you were to suggest one action that would improve safety in DoD, what would it be?
   •   “Please provide any other general comments you may have.”



                                               - 11 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results



These sections allowed respondents to provide suggestions and reactions beyond their fixed-
answer responses.

        Both standardized and customized questions were used in the survey. Standardized
questions were based on the NSC Safety Barometer survey, with slight wording changes to adapt
the statements to DoD terminology. The evaluation team created five customized questions to
garner perceptions of DoD-unique safety climate issues.

3.3.2 Web-Based Survey

The NSC administered the Web-based survey (See appendix B). DMDC provided the names
and e-mail addresses of all the flag officers and SES members.

 • April 11, 2005. The OIG sent the initial e-mail announcing the Senior Leader Survey to all
   2,698 flag officers and SES members – 1,615 flag officers and 1,083 SES members. This e-
   mail contained the rationale for the survey, a brief description of the survey format, and
   assurances regarding the confidentiality of their responses.
 • April 18, 2005. NSC sent the initial e-mail with instructions and the internet link to complete
   and submit the survey. Electronic responses were forwarded directly to the NSC.
 • May 3, 2005. NSC sent a first follow-up e-mail to non-responders to remind them of the
   May 9, 2005 survey deadline date. A second follow-up e-mail was sent a week later. (Note:
   Although survey responses were confidential, NSC used a numerical tracking system that
   allowed survey researchers to send targeted follow-up e-mails to non-responders at
   appropriate periods of time, reminding them to complete the survey.)
 • May 16, 2005. The survey deadline was extended. All completed surveys received by May
   16 were included in the survey analysis and results.

3.4 Survey Analysis
3.4.1 Survey Questions

Statements from the Senior Leader Safety Survey present either a positive or negative
description or perception of the safety program. Of the 12 items contained on the survey form,
10 are positive descriptions and 2 are negative descriptions.

The two items with negative descriptions are:
     Q5 Safety takes a back seat to mission in our organization
     Q12 We have to accept that accidents and mishaps will occur in our line of work
Interspersing negative statements with positive statements helps to ensure the respondents focus
on the topic of the questions, rather than give a blanket response for all items.



                                                - 12 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results



3.4.2 Survey Analysis

For each item, an average response score is determined by assigning a value of +2 for a strongly
positive response; +1 for a positive response; 0 for a neutral response; -1 for a negative response;
-2 for a strongly negative response; and then calculating the average value of all responses for
that item. For example, a survey response of “Strongly Agree” is scored +2 for a positive item
such as “Safety funding is adequately represented in the budget process.” However, a response
of “Strongly Agree” is scored -2 for “Safety takes a back seat to mission,” because it is a
strongly negative response. In order to compare items and rank order their average response
scores, all statements must be construed as positive. A higher average response score then
indicates a more favorable response than a lower average response score, and items can be
compared as apples to apples. For continuity and ease of understanding, the negative items have
been reworded positively in some sections. See Appendix E for more information regarding
methods of analysis.

Using standardized items on the survey form allows for benchmarking against the NSC database.
Inclusion of benchmarked data offers an additional perspective to understand population
perceptions.

The tables, figures, and charts to follow present safety program issues ranked by priority.
Analyzing data from demographic subgroup identifiers allows for comparing responses across
personnel categories, and ultimately, setting priorities at the subgroup level. Inferences
regarding the prioritization of problem areas can be made from these graphics.

Response frequency and percent distribution of responses for all Senior Leader Survey items are
shown in Appendix D. Response frequency and percentage distributions by Flag Officer versus
SES member, Service, and organization are presented in appendixes F, G, and H respectively.
Respondent comments are presented in Appendices I and J. Appendix K is the list of acronyms,
and Appendix L is the report distribution list.

3.5 Results
3.5.1 Survey Response and Response Rate

During the response period, eight e-mails were received that indicated the survey recipient was
retired or otherwise should not have been included in the survey population. Deleting these
eight individuals from the list of respondents resulted in a total of 2,691 potential survey
respondents.

A total of 1,303 survey responses were submitted during the response period. Initial analysis of


                                               - 13 -
                                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                             Senior Leader Safety Survey Results

data showed that four responses were duplicates. These records were removed from the data file,
resulting in a total of 1,299 valid responses--835 from flag officers and 456 from SES members.
The flag officer response rate was 52 percent, the SES member response rate was 42 percent, and
the total response rate for the survey was 48 percent.

The number of responses by date of response is shown in Figure 3 and follows the classic pattern
of peaks and valleys related to original and reminder e-mail dates. Magnitude of the response
peaks diminished with successive reminders, nearing zero as the deadline date approached.
Given this pattern, it is unlikely that successive reminders or an extension of the response period
would have generated a significant number of additional responses.

        Figure 3. Number of Survey Respondents by Date (April 18 - May 16, 2005)
                 UWnber 01 Rcpond,I




                                                                     May 04
                                                   Apr 26




                                                                                      May 09
                                          Apr 19




                                                                                                      May 16
                                      C




3.5.1.1 Conclusions

•   The overall response rate for the survey was good – 48 percent. While multiple factors
    always influence response rates, a 48 percent response rate for this particular target
    population equates to 1,299 respondent submissions.
•   This response rate indicates the survey population took the survey seriously and considered
    advancing safety a worthwhile effort.
•   The response rate for flag officers was 10 percentage points greater than for SES members,
    indicating greater motivation to complete the survey. Possible reasons for this higher
    response rate may include:
       (1) more knowledge or background to contribute,
       (2) greater perceived responsibility toward achieving the safety goals, or
       (3) other motivating reasons.
•   The e-mail mechanism for collecting information worked well, and provided a relatively
    straightforward and non-intrusive method of surveying top leaders. There was no indication
    that confidentiality and anonymity were significant concerns.




                                                            - 14 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

•   The length of the survey seemed appropriate. There was no indication of a significant
    abandonment rate once respondents initiated the survey process.
•   It is unlikely that either extension of the survey deadline date or subsequent reminders would
    have increased the response rate significantly.


3.5.2 Analysis of Percent Distribution of Responses

The percent distribution of responses from all respondents for each statement is shown in
Figure 4. For each item, the percentage of respondents for each statement is indicated by the
numbers shown in the bar for that response. Statements shown in Figure 4 are sorted from top to
bottom by those items answered most positively to those answered least positively, when
comparing the average response score.

The most positive responses were given to the item dealing with the belief that leadership is
sincere in its efforts to ensure personnel safety (Q1). For this item, more than 98 percent of
respondents answered positively, including 70 percent answering strongly positive. The next
most positive response was given to “Leadership consistently demonstrates a positive
commitment to personnel safety” (Q3). For this item, about 95 percent of respondents answered
positively, including 55 percent with a strongly positive response.

In contrast to Q1 and Q3, which had 95 percent or higher positive responses, no other items on
the survey had more than an 85 percent positive response. Four survey items had between 80
percent and 85 percent positive responses. They include, “Appropriate safety goals are set
annually by leadership” (Q2), “Making truly beneficial changes in our safety environment is a
high priority for leadership” (Q8), safety is as important as mission in our organization (Q5), and
“Implementing successful organizations’ best practices in safety is one of the most effective
ways to bring about change” (Q9). Each of these items had between 10 percent and 17 percent
neutral responses and between 3 percent and 8 percent negative responses.

The remaining 6 survey items had 60 percent or less positive responses, and between 11 percent
and 30 percent negative responses. “Leadership has provided adequate resources to manage and
support safety-related programs” (Q11) had 60 percent positive response, while 51 percent
responded positively to “Supervisors consider safety performance when rating their personnel”
(Q4). The item “Good cooperation exists across the Services on safety-related issues” (Q10) had
43 percent positive responses. For each of these 3 items, Q11, Q4 and Q10, neutral responses
were between 25 percent and 50 percent. Although neutral responses are not necessarily
negative, larger percentages of neutral responses often indicate an element is not sufficiently
visible from the respondents’ perspective. Increasing the visibility of the items or programs so
that a greater portion of personnel are aware of the activity is an appropriate goal representing an
opportunity for improvement.


                                               - 15 -
                                                                                   IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                  Senior Leader Safety Survey Results


                                                  FIGURE 2
                               Figure 4. Percent Distribution of Reponses
                                            Percent Distribution of Responses                                                                      1
                                                                                                                                                   1
               Q1 I believe
Q1 I believe leadership     leadership
                         is sincere in is
                                       itssincere
                                           efforts in
                                                    toits efforts to
                                                       ensure                                 70                             28             11 0
personnel safety            ensure personnel safety

                                                                                                                                                   1
         Q3 Leadership
Q3 Leadership          consistently
              consistently           demonstrates
                           demonstrates   a positivea positive
                                                                                         55                             40                  410
                  commitment
commitment to personnel  safety to personnel safety


Q2 AppropriateQ2 Appropriate
               safety        safety
                      goals are  set goals are set
                                     annually  by annually by                     34                         49                   14        3 0
leadership                      leadership


              Q8beneficial
Q8 Making truly   Making truly  beneficial
                           changes         changes
                                       in our   safetyin our safety               33                         51                   13        4 0
environment is a high priority for leadership for leadership
                 environment  is a high  priority


Q5 Safety takesQ5 a back
                    Safetyseat to as
                           being   mission in our
                                     important as mission in our
                                                                                   36                        47                   10    6    2
organization (in this case Greenorganization
                                    represents strong
disagreement. See 3.4.2 for explanation)
             Q9 Implementing successful organizations' "Best
Q9 Implementing    successful
          Practices"             organizations’
                      in safety is               “best
                                   one of the most  effective ways            26                        54                        17        3 1
practices” in safety is onetoof the about
                              bring most change
                                           effective ways to
bring about change
            Q11 Leadership has provided adequate resources to
Q11 Leadership has provided adequate resources to                        10                   50                        26             12    1
            manage and support safety-related programs
manage and support safety-related programs

              Q4 Supervisors consider safety performance when
Q4 Supervisors consider safety  performance                              12                  39                    35                  13    1
                         rating their personnelwhen rating
their personnel

           Q10 Good cooperation exists across the Services on
Q10 Good cooperation exists across the  Services on                      7              36                         47                  10 1
                      safety-related issues
safety-related issues

             Q12 Refusal to accept that accidents and mishaps
Q12 We have to acceptwill that accidents   andofmishaps will                 16                   41              12         25              5
                            occur in our line   work
occur in our line of work *

           Q7 Decreasing the DoD accident and mishap rate by
Q7 Decreasing 50%
               the DoD   accident  and  mishap   rate by                 8               39                   27              22             4
                    over the next two years is achievable
50 percent over the next two years is achievable

              Q6 Safety funding is adequately represented in the
Q6 Safety funding is adequately represented                            7                35                    37                  18         3
                           budget  process in the
budget process

                                                                   0%              20%            40%        60%         80%            100%
                                                                                   Percent Distribution of Responses


                 Strongly Positive             Positive          Neutral                Negative              Strongly Negative




                                                                - 16 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results

The final 3 survey items in Figure 4 each had more than 20 percent negative responses. The
highest was 30 percent for not accepting that accidents and mishaps will occur in the DoD line of
work (Q12). Note that 57 percent of respondents answered positive to not accepting accidents
are inevitable. The next item, “Decreasing the DoD accident and mishap rate by 50 percent over
the next 2 years is achievable” (Q7), had a 26 percent negative response. Finally, 21 percent
responded negative to “Safety funding is not adequately represented in the budget process” (Q6),
while 37 percent responded neutral to the same question.

3.5.2.1 Conclusions

•   The degree of positive response varied considerably among the 12 survey items, with
    positive response ranging from more than 95 percent for some items to less than 45 percent
    for other items. This level of differentiation indicates respondents took the survey seriously.
•   Respondents gave very high marks to the survey items dealing with believing that:
       1.    Leaders are sincere in their efforts to ensure personnel safety.
       2.    Leaders are consistently demonstrating a positive commitment to personnel safety.
       3.    Appropriate safety goals are being set annually by the leadership.
       4.    Making truly beneficial changes in the safety environment is a high priority for
             leadership.
       5.    Safety is as important as mission in the organization.
    Nearly all of these items with highest marks are broad, culture-related issues. It is clear
    leaders believe the climate is in place to make necessary changes to support safety.
•   About 80 percent of respondents agreed that implementing successful organizations’ best
    practices in safety is one of the most effective ways to bring about change. This should be
    viewed as affirmation for the best practices approach to identifying potential program items,
    practices, and countermeasures.
•   Three survey items had 35 percent or more neutral response. These items dealt with
    supervisors considering safety performance when rating their personnel, good cooperation
    existing across the Services on safety-related issues, and safety funding being adequately
    represented in the budget process. If elevated levels of neutral responses are due to lack of
    knowledge about these issues, that lack should not be seen as an acceptable justification. Not
    only should activities be undertaken to support safety, they should be important enough to be
    emphasized so they are known to exist, or at least perceived to exist, by all personnel.

3.5.3 Analysis of Average Response Scores

Presented in Figure 5 are the average (mean) response scores for all respondents for each



                                                - 17 -
                                                                                 IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                Senior Leader Safety Survey Results

statement. Average response scores are calculated by assigning a value of +2 for a strongly
positive response; +1 for a positive response; 0 for a neutral response; -1 for a negative response;
and -2 for a strongly negative response. If all respondents answered strongly positive for an
item, the average response score would be +2; if all answered strongly negative, the average
response score would be -2; if all answered neutral, the average response score would be 0, etc.
More information regarding methods of analysis is detailed in appendix E.


                                                        FIGURE
                                             Figure 5. Average  3
                                                               Response Scores
                                                Average Response Scores



         Q1 Ileadership
Q1 I believe   believe leadership
                         is sincere inisits
                                          sincere   in ensure
                                            efforts to its efforts   to
                                                                                                                         1.67
personnel safety      ensure personnel safety
   Q3 Leadership
Q3 Leadership      consistently
              consistently        demonstrates
                           demonstrates a positive a positive                                                          1.48
commitment to commitment     to personnel safety
              personnel safety

         Q2 Appropriate safety goals are set annually by
Q2 Appropriate safety goals are set annually by leadership                                                      1.12
                           leadership
         Q8 Making truly beneficial changes in our safety
Q8 Making truly beneficial changes in our safety environment                                                    1.11
            environment
is a high priority          is a high priority for leadership
                   for leadership

          Q5 Safety being as important as mission in our
Q5 Safety takes a back seat to mission in our organization **                                                  1.10
                           organization
     Q9 Implementing
Q9 Implementing             successful
                    successful           organizations'
                                organization               "Bes
                                              best practices in t
safety is one of in
                  thesafety
                      most effective
                                                                                                               1.02
   Practices"                is one ofways
                                       the to bringeffective
                                            most    about change
                                                             ways

Q11Q11  Leadership
    Leadership        has provided
                has provided        adequate
                              adequate        resources
                                       resources         to
                                                 to manage                                              0.57
       manage
and support      and support
            safety-related     safety-related programs
                           programs

      Q4 Supervisors consider safety performance when
Q4 Supervisors consider safety performance when rating their                                           0.48
personnel            rating their personnel
   Q10 Good cooperation exists across the Services on
Q10 Good cooperation exists across the Services on safety-                                            0.39
related issues     safety-related issues
     Q12 Refusal to accept that accidents and mishaps
Q12 We have to accept that accidents and mishaps will occur                                           0.39
in our line of work will
                    ** occur in our line of work
   Q7 Decreasing the DoD accident and mishap rate by
Q7 Decreasing the DoD accident and mishap rate by                                                   0.26
        50%
50 percent overover the next
                the next      two years
                         two years        is achievable
                                   is achievable
     Q6 Safety funding is adequately represented in the
Q6 Safety funding is adequately represented in the budget                                           0.25
process                 budget process

                ** Calculated from reversed scores.                   -2.00 -1.50 -1.00 -0.50 0.00 0.50 1.00 1.50 2.00
                   See 3.4.2 for details.                                           Scale: -2 to +2 (+2 being best)


Average response scores for the 12 survey items range from +1.67 to +0.25, with items in
Figure 5 ranked by average response score. The 2 most positive items on the survey were



                                                                      - 18 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

answered considerably more positively than other items, with response scores of +1.67 and
+1.48. These items dealt with belief that leadership is sincere in its efforts to ensure personnel
safety (Q1) and leadership consistently demonstrates a positive commitment to personnel safety
(Q3). Next were 4 items with response scores between +1.02 and +1.12. These included the
items dealing with appropriate safety goals being set annually by leadership (Q2), making truly
beneficial changes in the safety environment being a high priority for leadership (Q8), safety
being as important as mission in the organization (Q5), and implementing successful
organization best practices being one of the most effective ways to bring about change (Q9).

The remaining 6 survey items had responses that were considerably less positive compared with
the previous items. Each had an average response score less than +0.60. These comparatively
lower-scoring items included leadership providing adequate resources to manage and support
safety-related programs (Q11), supervisors considering safety performance when rating their
personnel (Q4), good cooperation existing across the Services on safety-related issues (Q10),
refusal to accept that accidents and mishaps will occur in the DoD line of work (Q12), believing
that decreasing the DoD accident and mishap rate by 50 percent over the next 2 years is
achievable (Q7), and safety funding being adequately represented in the budget process (Q6).

3.5.3.1 Conclusions

•   When examining the average (mean) score for the 12 survey items, 2 were scored
    substantially higher than others, 4 items were midrange, and 6 items scored substantially
    lower.
•   Highest ratings were given to items dealing with leadership sincerity and positive
    commitment to ensuring personnel safety. Midrange items dealt with appropriate safety
    goals being set, change being a priority for leadership, safety being as important as mission,
    and acceptance of the best practices approach.
•   Less positive average responses were given to items concerning adequate resources being
    given to leadership to manage and support safety programs, supervisors considering safety
    performance when rating their personnel, good cooperation existing across the Services on
    safety-related issues, and refusal to accept that accidents and mishaps will occur. These
    items should be viewed as potential target areas for improvement, especially in comparison
    to the strongly positive responses given to other survey items.
•   The least positive average scores on the survey were given to the following items: belief that
    decreasing the DoD accident and mishap rate by 50 percent over the next 2 years is
    achievable; and safety funding being adequately represented in the budget process. Each of
    these items had less than 50 percent positive response, more than 20 percent negative
    response, and each should be viewed as a strong target for improvement efforts.




                                               - 19 -
                                                                   IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                  Senior Leader Safety Survey Results

3.5.4    Analysis of Benchmarked Percentile Scores

As stated earlier, the senior leader survey consisted of two groups of items: those similar to items
on NSC standardized surveys; and non-standardized items customized to particular safety issues
within DoD. Of the 12 survey items, 7 were similar to NSC survey items and are listed in the
following table, along with the comparable standardized wording.

                          Table 2. DoD Items Similar to the NSC Standard
                DoD Senior Leader Survey                                 NSC Standardized Survey
        • I believe leadership is sincere in its efforts        • I believe management is sincere in its
          to ensure personnel safety (Q1)                         efforts to ensure employee safety
        • Appropriate safety goals are set annually by          • Management annually sets injury rate or
          leadership (Q2)                                         other safety goals for which all employees
                                                                  are held accountable
        • Leadership consistently demonstrates a                • Management shows that it cares about
          positive commitment to personnel safety                 employee safety
          (Q3)
        • Supervisors consider safety performance               • It is well known that management ignores a
          when rating their personnel (Q4)                        person’s safety performance when
                                                                  determining raises and promotions
        • Safety takes a back seat to mission in our            • Safety takes a back seat to production
          organization (Q5)
        • Good cooperation exists across the Services           • Good teamwork exists among departments
          on safety-related issues (Q10)
        • Leadership has provided adequate resources            • Management has provided adequate staff to
          to manage and support safety-related                    manage and support its safety programs
          programs (Q11)


DoD senior leader survey responses were compared with responses from the 232 organizations
in the NSC database for these 7 items. Percentile scores calculated from this comparison are
shown in Figure 6. A percentile score expresses the percentage of database organizations with a
lower average response score than DoD senior leader survey responses.

Possible percentile scores range from 0 to 100, with 0 representing the lowest score in the
database and 100 representing the highest. For example, a percentile score of 100 indicates that
all of the 232 organizations in the NSC database received a lower average response score than
DoD. A percentile score of 50 indicates that half (116) of the 232 organizations were lower than
DoD.

Items with the highest average response scores do not necessarily have the highest percentile
scores. Since some statements tend to be answered more positively or negatively than others
because of the topic or the wording of the statement, comparing results against the NSC database
automatically adjusts for the varying difficulty of the survey statements.


                                                           20
                                                                                             IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                            Senior Leader Safety Survey Results




                            Figure 6. Percentile Scores forFIGURE 4
                                                            Standardized Safety Items
                                               Percentile Scores for Standardized Safety Statements


Q1 I believe Q1leadership     is sincere
                  I believe leadership     in its efforts
                                        is sincere           to ensure
                                                   in its efforts to ensure
personnel safety                   personnel safety
                                                                                                                                               100
(Stnd: I be(Stnd:
            lieve Imanagement        is sincere
                    believe management            in its
                                           is sincere      efforts
                                                       in its effortsto
                                                                      to ensure
ensure employee safety)            employee safety)


Q3 LeadershiQ3 p consistently   demonstrates
                  Leadership consistently         a positive
                                           demonstrates a positive
commitment to personcommitment
                         nel safety to personnel safety                                                                                         99
(Stnd: Ma(Stnd:
          nagement    shows
                Management     thatthat
                            shows   it cares
                                        it caresabout
                                                 about employee
                                                       employee safety)
safety)

             Q5 Safety being as important as mission in our organization
          takesSafety
Q5 Safety(DoD:   a back
                      takesseat to seat
                            a back mission    in ourinorganization
                                         to mission     our organization)                                                                      98
(Stnd: Safety take s a back
                 (Stnd: Safetyseat
                              takes to  production)
                                     a back             **
                                             seat to production)



Q2 AppropQ2   Appropriate
           riate          safety goals
                 safety goals          are annually
                                  are set   set annually
                                                       bybyleadershi
                                                             leadershipp
       (Stnd:
(Stnd: M      Management
         anagement         annually
                       annually      setsinjury
                                   sets   injury rate
                                                 rateororother safety
                                                           other      goals
                                                                  safety                                                                       96
goals for whichfor
                 allwhich all employees
                     employees            are held
                                    are held        accountable)
                                               accountable)

Q4 SuperQ4     Supervisors
            visors   consider  consider
                                   safetysafety performancewhen
                                           performance       when rating
                                                                   rating their
their personnel                          personnel
                                                                                                                                               85
(Stnd: It is (Stnd: It is well that
              well known        known that management
                                    management            ignores
                                                      ignores     a person's
                                                                safety
performansafety   performance
             ce when               when determining
                          determining     raises and  raises and promotions)
                                                        promotions)

Q10 Good cQ10   Good cooperation
             ooperation          exists across
                         exists across         the Services
                                          the Services   onon safety-
safety-related issues           related issues                                                                                                 71
(Stnd: Good tea(Stnd:
                 mworkGood teamwork
                         exists amongexists among departments)
                                          departments)

Q11 LeadQ11  Leadership
         ership         has provided
                 has provided           adequate
                                  adequate       resourcesto
                                              resources      to manage
manage aand  support safety-related
         nd support   safety-related programs (Stnd: Management has
                                         programs                                                                                              55
(Stnd: Manaprovided
            gementadequate    staff to manage
                     has provided              and staff
                                        adequate   support
                                                         to its safetye
                                                             manag
and support its safety program)    program)


                    ** Scores reversed before comparison.                         0    10   20     30    40    50    60    70       80   90   100
                       See 3.4.2 for details.                                                    Scale: 0 to 100 (100 being best)


                           Stnd: Standardized items from the NSC SAFETY BAROMETER survey.




     Items in Figure 6 are listed in order of decreasing percentile score. Items at the top of Figure 6
     are more highly ranked among DoD senior leader survey responses compared with other
     organizations’ responses. Items at the bottom are those evaluated less positively compared with
     responses from other organizations. Items with the lowest percentile scores represent priority
     items for DoD safety program improvement efforts.



                                                                              - 21 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

The majority of opinions from DoD senior leader responses regarding the DoD safety program
and culture are moderate to very high compared to the NSC database participants. Of the 7
items, 4 scored above the 95th percentile. Although all 7 items scored above the 50th percentile,
which is considered the database average, 3 items received moderate scores between 55 and 85.
As percentile scores were only available for 7 of the 12 survey items, no overall percentile score
was calculated.

3.5.4.1 Very high percentile scores

As shown in Figure 9, the four highest items received very high percentiles—above 95. These
highest rated items, with their comparative percentile scores, in order from highest to lowest are:
     Q1    I believe leadership is sincere in its efforts to ensure personnel safety (100)
     Q3    Leadership consistently demonstrates a positive commitment to personnel
            safety (99)
     Q5    Safety [does not take] a back seat to mission in the organization (98)
     Q2    Appropriate safety goals are set annually by leadership (96)
The percentage of respondents who answered positively and negatively for these items was
discussed earlier. Of note is the fact that the top-scoring item, leaders’ sincerity in efforts to
ensure personnel safety (Q1), received the highest possible percentile score of 100, meaning that
its score was higher than any of the other 232 comparable scores from other organizations in the
database. Of these 4 highest-scoring items, 3 dealt with climate-related issues of leadership
sincerity, positive commitment to ensure personnel safety, and safety being as important as
mission. Appropriate safety goals are set annually by leadership is the only item that is more
activity focused. According to the perceptions of top DoD personnel, the safety climate appears
to be positive. The safety climate should not pose significant barriers to activity-related
countermeasures that are implemented based on survey results.

3.5.4.2 Lower-rated percentile scores

Three items received comparative percentile scores of 85 or below. Items with percentiles less
than 50 are usually identified as potential target areas. The 3 lowest scoring items below should
be candidates for improvement priorities, especially in comparison to all other standardized
survey items with percentiles above 95.

The lowest scored items (with their percentile scores), in order from lowest to highest are:
     Q11 Leadership has provided adequate resources to manage and support safety-related
         programs (55)
     Q10 Good cooperation exists across the Services on safety-related issues (71)
     Q4 Supervisors consider safety performance when rating their personnel (85)



                                               - 22 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

Of these items, 2 are activity-related and 1 is climate-related. Results for these items indicate
that candidates for improvement priorities developed from survey results should include action
items concerning the level of resources provided by leadership to manage and support safety-
related programs (Q11), the extent of cooperation across the Services on safety-related issues
(Q10), and supervisors considering safety performance when rating their personnel (Q4).

As presented in this section, benchmarking against other organizations in the NSC database adds
to the understanding of survey results and supplements the use of average response scores.
Average response scores can indicate which survey items were answered more positively than
others, but benchmarked percentile scores provide an additional frame of reference to indicate
whether those average responses should be regarded as satisfactory or somewhat lacking. Those
interpreting survey results will need to apply their own judgment regarding organizational goals
to decide what score is satisfactory for the organization.

In the case of this survey report, note that since only leadership was surveyed, higher percentiles
would be expected compared to other organizations for which all employees were surveyed. In
addition, survey questions focused mainly on leadership activities, which may have generated
higher scores by those same leaders who are responsible for the activities. In this light, high
percentiles might be regarded as expected. Lower scores for items take on added significance as
priority items.

3.5.4.3 Conclusions

•   The two items on the survey with the highest average response scores were also scored
    extremely high when compared with responses from other organizations in the NSC
    database. These items dealt with leadership sincerity and positive commitment regarding
    personnel safety, and received percentile scores of 100 and 99, respectively. In other words,
    of all the organizations who have taken the NSC Safety Barometer Survey, DoD senior
    leaders had the highest scores for these two items. Clearly these items are strengths within
    DoD.
•   Two additional items with midrange responses also received percentile scores in the 90s
    when compared to other survey items. These items addressed safety being as important as
    mission in the organization, and appropriate safety goals being set annually by leadership.
    These results indicate that ratings for DoD survey items that were in the midrange when
    compared with other DoD survey responses were still rated extremely high when compared
    with outside organizations.
•   Three other survey items had relatively lower comparative percentile scores of 85 and below:
    supervisors considering safety performance when rating their personnel, good cooperation
    existing across the Services on safety-related issues, and leadership providing adequate
    resources to manage and support safety-related programs. Earlier analysis of average


                                               - 23 -
                                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                        Senior Leader Safety Survey Results

    response scores for these items indicated these items should be targets for improvement, and
    comparison with outside organizations reinforces that conclusion.
•   Special attention should focus on the item regarding whether leaders provide adequate
    resources to manage and support safety-related programs. Not only was this item in the
    group of lowest rated average response scores, it also was clearly lower than other items
    when compared with outside organizations, achieving a percentile score of only 55.


3.5.5 Comparison of Survey Responses by Subgroup

This section contains analysis of survey responses by personnel subgroup. Except where noted,
figures and tables in this section are sorted in order from highest to lowest average response
score.

3.5.5.1 Comparison of Survey Responses by Flag Officer Versus Senior Executive Service
Member

Of the 1,299 respondents, the number           Table 3. Flag Officer versus SES Member Response
of respondents representing each of
                                                                                                   Number of            Percent of
the two categories of Flag officer                 Flag Officer versus SES Member
                                                                                                  Respondents          Respondents
versus SES member is shown in                  Flag Officer                                                835               64
Table 3. The frequency and percent             SES Member                                                  456               35
distributions by Flag officer versus           Unspecified                                                  8                1
SES member subgroups are included
in Appendix F.

Figure 7 graphically compares the overall safety perceptions of Flag officers versus SES
members, as indicated by overall average response scores for all survey items combined. Scores
were obtained by calculating the mean across the 12 individual item means.
                                                                    Figure 7.
                                                                     FIGURE 5
Responding flag officers                OverallOverall
                                                Average    Response by Flag Officer versus SES Member
                                                       Average Response Scores by Flag Officer vs. SES
had higher perceptions
                                Flag Officer
overall than their SES            (n=835)
                                                                                                              0.88

member counterparts. The
overall average response       SES Member
                                 (n=456)
                                                                                                           0.72

score for flag officers was
0.88 compared to 0.72 for        OVERALL                                                                     0.82

SES members. The overall
                                           -2.00      -1.50      -1.00     -0.50      0.00       0.50         1.00    1.50   2.00
average response score for                                               Scale: -2 to +2 (+2 being best)

all respondents combined
                                                                   Note: (n=number of respondents in each subgroup)
was 0.82. Although the


                                                        - 24 -
                                                                             IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                            Senior Leader Safety Survey Results

disparity between flag officers and SES members is not extreme compared to that typically
found for subgroup comparisons of other survey results, these results still suggest that targeted
efforts to elevate perceptions of safety program elements for SES members to the same level as
flag officers may be an effective strategy for strengthening safety perceptions for the
organization.

Figure 8 compares safety perceptions of DoD senior leaders according to Flag officer versus SES
member for each of the individual survey items. Although perceptions for Flag officers were
higher than SES members, analysis of Figure 8 indicates whether this difference was maintained

    Figure 8. Overall Average Response ScoresFIGURE
                                              by Flag6Officer versus SES Member
                              Overall Average Response Scores by Flag Officer vs. SES


                     Q1 I believe leadership is sincere in its efforts to                                                  1.75
Q1 I believe leadership is sincere in its efforts to ensure
                                ensure personnel safety
                                                                                                                         1.55
                                                                                                                          1.67
personnel safety
                      Q3 Leadership consistently dem onstrates a                                                         1.58
Q3 Leadership consistently demonstrates a positive                                                                    1.29
                       positive commitment to personnel safety                                                          1.48
commitment to personnel safety
                   Q2goals
                      Appropriate                                                                                  1.23
Q2 Appropriate safety      are setsafety goals
                                   annually byare set annually by
                                               leadership                                                       0.93
                                          leadership                                                              1.12


                       Q8 Making truly beneficial changes in our safety                                            1.26
Q8 Making truly beneficial   changes in our safety environment is                                             0.86
                        environment is a high priority for leadership                                            1.11
a high priority for leadership
                   Q5 Safety being as important as mission in our                                                  1.20
Q5 Safety takes a back seat to mission in our organization **
                                    organization
                                                                                                                0.93
                                                                                                                  1.10

                    Q9 Implementing successful organizations ' "Best                                              1.07
Q9 Implementing successful
                     Practices"organization   best
                                in safety is one  of practices in ctive
                                                     the most effe                                              0.92
                                                                                                                 1.02
safety is one of the most effective
                              ways toways
                                       bringtoabout
                                               bring change
                                                      about change
                Q11 Leadership has provided adequate resources                                             0.65
Q11 Leadership has   provided adequate resources to manage                                              0.42
                  to manage and support safety-related program s                                          0.57
and support safety-related programs
                Q4 Supervisors consider safety performance when                                           0.61
Q4 Supervisors consider safety performance when rating their                                          0.27
                             rating their personnel                                                      0.48
personnel
               Q10 Good cooperation exists across the Services                                         0.40
Q10 Good cooperation exists across the Services on safety-                                             0.38
                            on safety-related issues                                                   0.39
related issues
                  Q12 Refusal to accept that accidents and mishaps                                     0.32
Q12 We have to accept   that accidents and mishaps will occur in                                         0.52
                            will occur in our line of work                                              0.39
our line of work **
                  Q7 Decreasing the DoD accident and mishap rate                                      0.23
Q7 Decreasing the  DoD accident and mishap rate by 50 percent                                          0.35
                    by 50% over the next two years is achievable                                      0.26
over the next two years is achievable
                                                                                                      0.26
Q6 Safety fundingQ6
                  is Safety funding is adequately represented in the
                     adequately   represented in the budget                                           0.22
                                   budget process                                                     0.25
process
                                                                                                               0.88
            ** Calculated from reversed scores.               OVERALL                                        0.72
               See 3.4.2 for details.
                                                           OVERALL                                            0.82


                                                                          -2.00 -1.50 -1.00 -0.50 0.00 0.50 1.00 1.50 2.00
                                                                                     Scale: -2 to +2 (+2 being best)

                                                  ALL RESPONDENTS                     SES Member              Flag Officer



                                                              - 25 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

across all survey items or whether relative perceptions of the subgroups differed depending on
the survey item topic.

For 8 of the 12 survey items, Flag officer respondents had generally higher perceptions than SES
members, consistent with overall results. However, perceptions of SES members were more
positive than Flag officers for 2 items: refusal to accept that accidents and mishaps will occur in
the DoD line of work (Q12), and belief that decreasing the DoD accident and mishap rate by 50
percent over the next 2 years is achievable (Q7). Perceptions of Flag officers and SES members
were nearly identical for good cooperation existing across the Services on safety-related issues
(Q10) and safety funding being adequately represented in the budget process (Q6). Interestingly,
all 4 of these items were the lower scoring items for the survey.

Results in this section indicate that for the lowest scoring items on the survey, there is relative
agreement by both Flag officers and SES members on these items as priorities, with Flag officers
in some cases rating these items less positive compared to their SES member counterparts.

3.5.5.1.1 Conclusions

•   Perceptions for the survey were higher for responding Flag officers, with an overall average
    response score of 0.88, compared to their SES member counterparts with an overall average
    response score of 0.72. This difference is not extreme, but should be investigated to
    determine why SES member perceptions are lower and what countermeasures might be
    applied specifically to the SES group.
•   For individual survey items, differences between the Flag officer group and SES group
    mirrored the overall average difference with the exception of 4 survey items:
           1. For items pertaining to good cooperation existing across Services on safety-
              related issues and safety funding being adequately represented in the budget
              process, perceptions of the two groups were nearly identical.
           2. For items pertaining to refusal to accept that accidents and mishaps will occur in
              the DoD line of work and belief that decreasing the accident and mishap rate by
              50 percent over the next 2 years is achievable, perceptions of the SES group were
              actually more positive than Flag officer group.
•   Investigation into reasons for differences in responses between Flag officers and SES
    members should address why the pattern of responses for those 4 items varied from the
    overall. A possible explanation may be that SES members are more involved with or
    responsible for activities that occur across Services or in budgeting and funding activities,
    and therefore are more likely to have favorable responses for items concerning these
    activities. Likewise, SES members may have higher expectations regarding the potential for




                                               - 26 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

    accident prevention than Flag officers who face risk management decisions in their line of
    work on a more frequent basis.
•   Reasons for these differences should be investigated with a goal of sharing viewpoints and
    expectations of each group, and for tailoring of subsequent interventions, actions or
    countermeasures to the specific personnel subgroups. Dialogue between groups to share
    viewpoints will facilitate obtaining a clearer picture of the accident and mishap problem for
    DoD, and should result in decreasing differences in perceptions.

3.5.5.2 Comparison of Survey Responses by Category (Service)

The 1,299 respondents represent five categories as shown in Table 4. In this report, the category
Non-Service Civilian represents those SES members who are not a member of one of the
Services. The category Civilian, used
                                                      Table 4. Responses by Category
later in this report, refers to all SES
members, whether or not they belong to a                                Number of      Percent of
                                                       Category
                                                                       Respondents Respondents
Service. Non-Service Civilian
                                                Army                        485            37
respondents are included as a category in
                                                Navy                        243            19
this analysis in order to assign all            Marine Corps                 78             6
respondents. Frequency and percent              Air Force                   319            24
distributions by category subgroup can be       Non-Service Civilian        166            13
calculated from distributions by Service        Unspecified                   8             1
as presented in Appendix G.

Figure 9 graphically compares the safety perceptions of DoD senior leaders by category, as
indicated by overall average response scores for all survey items combined. Overall scores were
obtained by calculating the mean across the 12 individual item means. The Air Force had the
highest perception overall, followed closely by the Army, then Navy. Non-Service Civilian and
Marine Corps respondents had lower perceptions. The overall average response score was 0.87
for Air Force, 0.86 for Army and 0.83 for Navy, compared to 0.68 for Non-Service Civilian and
0.65 for the Marine Corps. The overall average response score for all respondents was 0.82.

The disparity among responses by category is not extreme compared to that typically found for
comparisons of other NSC survey results. However, these results still suggest that targeted
efforts to elevate perceptions for Non-Service Civilian and Marine Corps personnel to the same
level as the other categories may be an effective strategy for strengthening safety perceptions for
the organization. Figure 9 compares safety perceptions of DoD senior leaders according to the
category for each survey item.




                                               - 27 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




              Figure 9. Overall Average Response Scores by Category (Service)




                                                                   10

                                                               I




                  -2_     -1      ta               o      o.            i.   i
                                        S    .2   2('2         tt
                                        Note n=number of respondents



Table 5 shows these data in tabular form with rankings and each group’s score. Highest scores
are indicated with green shading; lowest scores are indicated with red shading. While overall
perceptions for Air Force, Army, and Navy are higher than for Non-Service Civilian and Marine
Corps, analysis of Figure 10 and Table 5 indicates whether this difference was maintained across
all survey items or whether relative perceptions of the subgroups differed depending on the
survey question.

Air Force had the highest perceptions overall for 6 of the 12 survey items. However, they had
the lowest perceptions on the survey item regarding good cooperation existing across the
Services on safety-related issues (Q10) and the second lowest perception regarding refusal to
accept that accidents and mishaps will occur in the DoD line of work (Q12).

Army had the second highest perceptions overall, and had the highest perceptions regarding
supervisors considering safety performance when rating their personnel (Q4) and good
cooperation existing across the Services on safety-related issues (Q10). Army respondents had
the second lowest ratings on items regarding belief that a 50 percent reduction in the accident
and mishap rate is achievable (Q7) and safety funding being adequately represented in the
budget process (Q6).




                                              - 28 -
                                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                        Senior Leader Safety Survey Results


     Figure 10. Overall Average Response Scores
                                    FIGURE  8 by Category (Service)
                   Overall Average Response Scores by Branch of Service


Q1 I believe leadership
      Q1 I believe       is sincere
                   leadersh           in its in
                             ip is sincere   efforts   to to
                                                its efforts
ensure personnel e safety
                    nsure personnel safety



Q3 Leaders  hipLeadership
           Q3   consistently demonstrates
                          consistently     a
                                       demonstrates a
positive compositive
             mitmentcommitment
                     to personneltosafety
                                   personnel safety



Q2 ApprQ2
        opriate safety safety
           Appropriate goals are setare
                              goals   annually by by
                                        set annually
leadership               leadership



Q8 MakQ8
       ingMaking
           truly beneficial   changes
                   truly beneficial      in ourinsafety
                                    changes       our safety
environme nt is a high is
         environment     priority
                           a highfor leadership
                                  priority for leadership



Q5 SafeQ5
        ty takes
           Safetyabeing
                   backas
                        seat to mission
                          important     in our in our
                                    as mission
organization **         organization

Q9 Implementing successful organization best
practicQ9
        esImplementing   successful
           in safety is one           organizations'
                             of the most  effective "Best
ways toPractices"  in safety
         bring about   changeis one of the most effective
                  ways to bring about change


          Q11 Leadership
Q11 Leadership           has adequate
                has provided  provided adequate
                                        resources
to manresources to manage
       age and support    and supportprograms
                       safety-related  safety-related
                            programs


Q4 Supervisors   consider safety performance when
           Q4 Supervisors consider safety performance
rating their personnel rating their personnel
                   when



Q10 Good   cooperation exists across the Services
     Q10 Good cooperation exists across the Services
on safety-related on
                  issues
                     safety-related issues



Q12 We have to accept that accidents and
             Q12 Refusal to accept that accidents and
mishaps will occmishaps
                 ur in ourwill
                           lineoccur
                                of work  ** line of work
                                     in our


Q7 Decreasing the DoD accident and mishap rate
     Q7 Decreasing the DoD accident and mishap rate
by 50 percent over the next two years is
       by 50% over the next two years is achievable
achievable

     Q6 Safety funding is adequately represented in the
Q6 Safety funding is adequately represented in
                     budget process
the budget process
       ** Calculated from reversed scores. See 3.4.2.

           Air Force                             OVERALL
           Army
           Navy
                                                           -2.00 -1.50 -1.00 -0.50 0.00 0.50 1.00 1.50 2.00
           Non-Service Civilian
           Marine Corps                                               Scale: -2 to +2 (+2 being best)
           ALL RESPONDENTS



                                                               29
                                                                                                                                               IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                                                                              Senior Leader Safety Survey Results

                                                                          Table 5
                                                       Ranking of Average Response Scores¹ by Category

                                                                                                Average Response Scores¹ and Ranking²
                                                                                                                                                                          ALL RESPONDENTS
                                                                                                                                     Non-Service
            Survey Item                                                        Air Force            Army              Navy
                                                                                                                                      Civilian
                                                                                                                                                           Marine Corps

          1 I believe leadership is sincere in its efforts to
                                                                               1.73 (1)          1.72 (2)          1.65 (4)            1.48 (5)             1.68 (3)           1.67
            ensure personnel safety
          3 Leadership consistently demonstrates a positive
                                                                               1.58 (1)          1.55 (2)          1.41 (4)            1.18 (5)             1.44 (3)           1.48
            commitment to personnel safety
          2 Appropriate safety goals are set annually by
                                                                               1.22 (1)          1.20 (2)          1.06 (3)            0.83 (5)             1.01 (4)           1.12
            leadership
          8 Making truly beneficial changes in our safety
                                                                               1.19 (3)          1.20 (2)          1.05 (4)            0.76 (5)             1.21 (1)           1.11
            environment is a high priority for leadership
          5 Safety takes a back seat to mission in our
                                                                               1.21 (1)          1.15 (2)          1.11 (3)            0.88 (4)             0.86 (5)           1.10
            organization *
- 30 -




          9 Implementing successful organization best
            practices in safety is one of the most effective                   1.08 (2)          1.01 (3)          1.09 (1)            0.92 (4)             0.73 (5)           1.02
            ways to bring about change
         11 Leadership has provided adequate resources to
                                                                               0.69 (1)          0.60 (2)          0.46 (4)            0.49 (3)             0.37 (5)           0.57
            manage and support safety-related programs
          4 Supervisors consider safety performance when
                                                                               0.56 (2)          0.64 (1)          0.36 (4)            0.11 (5)             0.39 (3)           0.48
            rating their personnel
         10 Good cooperation exists across the Services on
                                                                               0.23 (5)          0.51 (1)          0.37 (3)            0.34 (4)             0.51 (1)           0.39
            safety-related issues
         12 We have to accept that accidents and mishaps
                                                                               0.28 (4)          0.29 (3)          0.76 (1)            0.52 (2)             0.06 (5)           0.39
            will occur in our line of work *
          7 Decreasing the DoD accident and mishap rate
                                                                               0.28 (3)          0.26 (4)          0.40 (1)            0.33 (2)            -0.35 (5)           0.26
            by 50% over the next two years is achievable.
          6 Safety funding is adequately represented in the
                                                                               0.37 (1)          0.21 (4)          0.22 (3)            0.32 (2)            -0.08 (5)           0.25
            budget process
            OVERALL                                                            0.87 (1)          0.86 (2)          0.83 (3)            0.68 (4)             0.65 (5)           0.82
           ¹ Calculated by assigning a value of +2 for strongly positive response; +1 for a positive response; 0 for neutral response; -1 for a negative
             response; and -2 for a strongly negative response. (See Appendix C for more information regarding methods of analysis)
           ² The ranking of each group's score is indicated in parentheses. "1" indicates most positive response; "5" indicates the least positive.
          * Calculated from reversed scores. See 3.4.2 for details.
            For each statement, the highest performing group is shaded green.                 The lowest performing group is shaded red.
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results



Navy had the third highest perceptions overall, but had the highest perceptions regarding 3
survey items: implementing successful organization best practices being one of the most
effective ways to bring about change (Q9), refusal to accept that accidents and mishaps will
occur in the DoD line of work (Q12), and belief that a 50 percent reduction in the accident and
mishap rate is achievable (Q7).

Non-Service Civilian had the second lowest perceptions overall, but the lowest perceptions
regarding 5 survey items. Three of these lowest-scoring items dealt with the safety climate
within DoD: belief that leaders are sincere in their efforts to ensure personnel safety (Q1),
leadership consistently demonstrates a positive commitment to personnel safety (Q3), and
making truly beneficial changes in the safety environment being a high priority for leaders (Q8).
 Two other items that were scored lowest by Non-Service Civilians involve activity-related
items: appropriate safety goals being set annually by leadership (Q2), and supervisors
considering safety performance when rating their personnel (Q4). Consideration should be given
to whether these activity-based items are scored lowest by Non-Service Civilians because of lack
of knowledge on their part. For all survey respondent subgroups, lack of visibility of elements
should not be considered an acceptable contributor to low scores. In the highest functioning
safety programs, having elements that are present and effective is not sufficient. Great care must
be taken to ensure that the elements are visible. Awareness by all DoD senior leaders is essential
to the program’s success.

Marine Corps respondents had the lowest perceptions for the survey and for 6 of 12 survey items.
However, the Marine Corps had the highest perceptions of all Services for 2 survey items, relating to
making truly beneficial changes in the safety environment being a high priority for leadership (Q8)
and (tied with Army) regarding good cooperation existing across the Services on safety-related
issues (Q10). These responses indicate that Marine Corps leaders are aware of the need for change
and perceive that cooperation across the Services is in place to bring about that change.

There were several important differences in results for individual survey items among the
categories. As such, there may be value in considering the development of customized priorities
for each Service and Agency in addition to the development of priorities at the DoD level.

3.5.5.2.1 Conclusions

•   Perceptions for the survey were highest for Air Force, with an overall average response score
    of 0.87, followed closely by Army and Navy with average response scores of 0.86 and 0.83,
    respectively. Non-Service Civilian and Marine Corps had lower perceptions, with average
    response scores of 0.68 and 0.65, respectively. These differences are not extreme, but should
    be investigated to determine particularly why perceptions are lower for the Non-Service



                                              - 31 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

    Civilian and the Marine Corps groups and what countermeasures might be applied
    specifically for these two groups.
•   Air Force had the highest perceptions overall as well as for 6 of the 12 survey items.
    However, they had relatively lower perceptions on 2 survey items regarding cooperation
    among the Services and refusal to accept that accidents and mishaps will occur.
•   Army had the second highest perceptions overall, but scored particularly low regarding belief
    that a 50 percent reduction in the accident and mishap rate is achievable and regarding safety
    funding in the budget process.
•   Navy had the third highest perceptions overall, but scored particularly high regarding
    acceptance of the best practices approach, refusal to accept that accidents and mishaps will
    occur, and belief that a 50 percent reduction in the accident and mishap rate is achievable.
•   Marine Corps had the lowest perceptions for the survey and for 6 of the 12 survey items.
    However, they had the highest perceptions regarding change being a high priority for
    leadership and regarding good cooperation across the Services on safety-related issues.
•   Non-Service Civilians had the second lowest perceptions overall, but had the lowest
    perceptions regarding 5 survey items. It may be that non-service civilians are not as aware of
    these issues, or that they perceive those in the Services to be more responsible for these
    activities.
•   Investigation into reasons for differences in responses among the different categories should
    address why the pattern of responses for certain items varied from the overall. Reasons for
    the overall differences by subgroup and the variations for individual items should be
    investigated, with a goal of sharing viewpoints and expectations of each category and for
    tailoring of subsequent interventions, actions or countermeasures to the specific subgroups.
    Dialogue among the Services to share viewpoints will facilitate obtaining a clearer picture of
    the accident and mishap problem for DoD, and should result in decreasing differences in
    perceptions among the Services.


3.5.6 Comparison of Survey Responses by Duty Status

Table 6 shows the number of respondents from each of the four duty status subgroups. Note that
Civilian in this case refers to all SES members. Frequency and percent distributions by duty
status subgroups can be calculated from distributions by Service, as presented in Appendix G.




                                               - 32 -
                                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                         Senior Leader Safety Survey Results

                                 Table 6. Survey Responses by Duty Status

                                                                        Number of          Percent of
                                     Duty Status
                                                                       Respondents        Respondents
                   Active                                                     591               46
                   Guard                                                      135               10
                   Reserve                                                    121                9
                   Civilian                                                   444               34
                   Unspecified                                                 8                1

Figure 11 graphically compares the safety perceptions of DoD senior leadership according to
duty status, as indicated by overall average response scores for all survey items combined.
                                         FIGURE 9
                  Figure 11. Overall Average Response Scores by Duty Status
                      Overall Average Response Scores by Duty Status

              Guard (n=135)                                                      0.98



              Active (n=591)                                                    0.87



             Reserve (n=121)                                                   0.83



              Civilian (n=444)                                                0.71



                   OVERALL                                                     0.82


                             -2.00   -1.50    -1.00   -0.50     0.00   0.50    1.00     1.50   2.00
                                               Scale: -2 to +2 (+2 being best)

                                     Note: (n=number of respondents in each subgroup)
                                             Note: n=number of respondents

Overall scores were obtained by calculating the mean across the 12 individual item means.
Guard respondents had the highest perceptions overall, followed by active duty and reserve.
Civilian respondents had the lowest perceptions. The overall average response score was 0.98
for guard, 0.87 for active duty, 0.83 for reserve, and 0.71 for civilian respondents. The overall
average response score for all respondents was 0.82. While the disparity among responses by
duty status is not extreme compared to that typically found for other NSC survey results, these
results still suggest that targeted efforts to elevate perceptions of safety program elements for
civilians (and to some extent for reserve and active personnel) to the same level as the Guard
may be an effective strategy for strengthening safety perceptions for DoD.




                                                              - 33 -
                                                                                IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                               Senior Leader Safety Survey Results

Figure 12 compares safety perceptions of DoD senior leaders according to duty status for each of
the individual survey items.

                 Figure 12. Overall Average Response Scores by Duty Status
                                         FIGURE 10
                            Overall Average Response Scores by Duty Status

    Q1 I believe leadership is sincere in its efforts to
    ensure pQ1  I believesafety
             ersonnel     leadership is sincere in its efforts to
                          ensure personnel safety


    Q3 Leadership consistently demonstrates a
                Q3 Leadership consistently demonstrates a
    positive commpositive
                  itment commitment
                          to personneltosafety
                                         personnel safety


    Q2 Appropriate safety goals
             Q2 Appropriate safetyare setare
                                  goals   annually  by by
                                             set annually
    leadership                leadership



    Q8 MakinQ8
             g truly beneficial
                Making            changes
                        truly beneficial       in ourinsafety
                                          changes       our safety
    environmenenvironment
               t is a high priority
                             is a highfor leadership
                                        priority for leadership



    Q5 SafetyQ5takes
                 Safety
                      a being
                        back as  important
                              seat         as mission
                                   to mission  in our in our
                               organization
    organization **

            Q9 Implementing successful organizations' "Best
    Q9 ImplePractices"
             menting successful       organization
                        in safety is one of the mostbest
                                                     effective
    practices in safetyways
                         is one  of the
                             to bring    most
                                      about    effective
                                             change
    ways to bring about change
                  Q11 Leadership has provided adequate
           resourceshas
    Q11 Leadership   to manage  and
                         provided   support
                                  adeq uatesafety-related
                                            resources
                             programs
    to manage and support safety-related  programs

                 Q4 Supervisors consider safety performance
    Q4 Supervisors conwhen
                        siderrating
                              safety  performance
                                    their personnel when
    rating their personnel

            Q10 Good cooperation exists across the Services
                       on safety-related
    Q10 Good cooperation    exists acrossissues
                                            the Services
    on safety-related issues
           Q12 Refusal to accept that accidents and mishaps
    Q12 We have towill
                     accept  that accidents and
                        occur in our line of work
    mishaps will occur in our line of work **

    Q7 Dec reasing
          Q7       the DoD
             Decreasing        accident
                          the DoD        andand
                                    accident   mishap
                                                  mishaprate
                                                          rate
    by 50 perby
             cent over
                50% overthe
                         thenext   two years
                              next two  yearsisisachievable
    achievable

    Q6 SafQ6
           etySafety
               funding   is adequately
                     funding            represented
                              is adequately           ininthe
                                            represented    the
    budget process           budget process

           ** Calculated from reversed scores. See 3.4.2.
               Guard                                   OVERALL
               Active
               Reserve
               Civilian                                          -2.00 -1.50 -1.00 -0.50 0.00 0.50 1.00 1.50 2.00
               ALL RESPONDENTS
                                                                              Scale: -2 to +2 (+2 being best)



                                                                          Note: See Table 6 for numerical data.

                                                                 - 34 -
                                                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                         Senior Leader Safety Survey Results



Table 7 shows these data in tabular form with rankings of each group’s score among duty status
categories shown in parentheses. Highest scores are indicated with green shading; lowest scores
are indicated with red shading. Although perceptions for guard respondents are higher than
active and reserve respondents, which in turn are higher than civilian respondents, analysis of
Figure 12 and Table 7 indicates whether this difference was maintained across all survey items
or whether relative perceptions of the subgroups differed depending on the survey item topic.

                             Table 7. Ranking of Average Response Scores¹ by Duty Status

                                                                              Average Response Scores¹ and Ranking²                               ALL
    Survey Item                                                          Guard             Active            Reserve           Civilian       RESPONDENTS

  1 I believe leadership is sincere in its efforts to
                                                                       1.70 (3)          1.75 (2)          1.78 (1)           1.53 (4)             1.67
    ensure personnel safety
  3 Leadership consistently demonstrates a positive
                                                                       1.54 (3)          1.59 (1)          1.55 (2)           1.29 (4)             1.48
    commitment to personnel safety
  2 Appropriate safety goals are set annually by
                                                                       1.27 (1)          1.21 (2)          1.18 (3)           0.93 (4)             1.12
    leadership
  8 Making truly beneficial changes in our safety
                                                                       1.22 (2)          1.28 (1)          1.16 (3)           0.85 (4)             1.11
    environment is a high priority for leadership
  5 Safety takes a back seat mission in our
                                                                       1.18 (2)          1.24 (1)          1.04 (3)           0.93 (4)             1.10
    organization *
  9 Implementing successful organization best
    practices in safety is one of the most effective                   1.16 (1)          1.05 (3)          1.09 (2)           0.91 (4)             1.02
    ways to bring about change
 11 Leadership has provided adequate resources to
                                                                       0.76 (1)          0.63 (2)          0.59 (3)           0.43 (4)             0.57
    manage and support safety-related programs
  4 Supervisors consider safety performance when
                                                                       0.73 (1)          0.59 (2)          0.50 (3)           0.26 (4)             0.48
    rating their personnel
 10 Good cooperation exists across the Services on
                                                                       0.55 (1)          0.38 (2)          0.38 (2)           0.37 (4)             0.39
    safety-related issues
 12 We have to accept that accidents and mishaps
                                                                       0.58 (1)          0.29 (3)          0.26 (4)           0.51 (2)             0.39
    will occur in our line of work *
  7 Decreasing the DoD accident and mishap rate
                                                                       0.65 (1)          0.12 (4)          0.25 (3)           0.35 (2)             0.26
    by 50% over the next two years is achievable
  6 Safety funding is adequately represented in the
                                                                       0.36 (1)          0.27 (2)          0.14 (4)           0.21 (3)             0.25
    budget process
     OVERALL                                                           0.98 (1)          0.87 (2)          0.83 (3)           0.71 (4)             0.82
   ¹ Calculated by assigning a value of +2 for strongly positive response; +1 for a positive response; 0 for neutral response; -1 for a negative
     response; and -2 for a strongly negative response. (See Appendix D for more information regarding methods of analysis)
   ² The ranking of each group's score is indicated in parentheses. "1" indicates most positive response; "5" indicates the least positive.
   * Calculated from reversed scores. See 3.4.2 for details.
     For each statement, the highest performing group is shaded green.                The lowest performing group is shaded red.


Guard had the highest perceptions overall and for 8 of the 12 survey items. This is a relatively
consistent result for Guard across all survey items. However, they had the second lowest
perceptions on the survey item regarding the belief that leadership is sincere in its efforts to
ensure personnel safety (Q1) and leadership consistently demonstrates a positive commitment to
personnel safety (Q3).


                                                                         - 35 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

Active Duty had the second highest perceptions overall, but had the highest perceptions
concerning 3 of the 12 survey items, including: leadership consistently demonstrates a positive
commitment to personnel safety (Q3); making truly beneficial changes in the safety environment
being a high priority for leadership (Q8); and safety being as important as mission in the
organization (Q5). However, active duty respondents had the lowest perceptions of all duty
status subgroups regarding belief that a 50 percent reduction in the accident and mishap rate is
achievable (Q7).

Reserve had the second lowest perceptions overall, but had the lowest perceptions of all duty
status groups regarding two survey items: refusal to accept that accidents and mishaps will occur
in the DoD line of work (Q12) and safety funding being adequately represented in the budget
process (Q6). In contrast, the reserve subgroup had the highest perceptions regarding the belief
that leadership is sincere in its efforts to ensure personnel safety (Q1).

Civilian had the lowest perceptions overall and also the lowest perceptions regarding 9 of the 12
survey items. This is a relatively consistent result for civilian respondents across all survey
items. As indicated earlier regarding non-service civilian respondents, consideration should be
given to determine whether these items are scored lowest by civilian respondents because they
lack knowledge compared to the other duty status subgroups. For all survey respondent
subgroups, lack of visibility of a safety program element should not be considered an acceptable
contributor to low scores. In the highest functioning safety programs, having elements that are
present and effective is not sufficient. Great care must be taken to ensure that the elements are
visible and that DoD senior leaders are aware they are essential to the program’s success.

Results in this section show some variation did occur by individual survey item, such as with
active respondents scoring low on belief that a 50 percent reduction in the accident and mishap
rate is achievable, and with reserve respondents scoring high on belief that leadership is sincere
in its efforts to ensure personnel safety. As such, there would be value in developing targeted
priorities for each duty status category in addition to the development of priorities for DoD.

3.5.6.1 Conclusions

•   Perceptions for the survey were highest for guard respondents, with an overall average
    response score of 0.98, followed closely by active and reserve respondents with average
    response scores of 0.87 and 0.83, respectively. Civilian respondents had the lowest
    perception, with an average response score of 0.71. These differences are not extreme, but
    should be investigated to determine particularly why perceptions are lower for the civilians.
•   Guard had the highest perceptions overall and for 8 of the 12 survey items. However, they
    had relatively lower perceptions on 2 survey items regarding leadership sincerity in safety
    efforts and leadership consistently demonstrates positive commitment to safety.


                                               - 36 -
                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                             Senior Leader Safety Survey Results

•   Active Duty had the second highest perceptions overall, but scored particularly high
    regarding leadership demonstrates commitment, change being a priority for leadership, and
    safety being as important as mission. However, active respondents scored particularly low
    regarding belief that a 50 percent reduction in accidents is achievable.
•   Reserve had the second lowest perceptions overall, but scored particularly high regarding
    leadership sincerity in safety efforts. However, they had the lowest responses of any group
    regarding refusal to accept that accidents and mishaps will occur and safety funding in the
    budget process.
•   Civilians had the lowest perceptions for the survey and for 9 of the 12 survey items.
    Consideration should be given to determine whether these items are scored lowest by civilian
    respondents because they lack knowledge compared to the other duty status groups.
•   Investigation into reasons for differences in responses among these duty status groups should
    address why the pattern of responses for certain items varied from the overall. Reasons for
    the overall differences by subgroup and the variations for individual items should be
    investigated with a goal of sharing viewpoints and expectations of each duty status group and
    for tailoring of subsequent interventions, actions or countermeasures to the specific duty
    status subgroups. Dialogue among duty status groups to share viewpoints will facilitate
    obtaining a clearer picture of the accident and mishap problem for DoD, and will lead to
    decreased differences in perceptions.


3.5.7 Comparison of Survey Responses by Category/Duty Status

Table 8 shows the number of respondents categorized by both service and duty status.
                             Table 8. Responses by Category/Duty Status
                           Number of   Percent of                                Number of   Percent of
       Service                                               Service
                          Respondents Respondents                               Respondents Respondents
Army-Active                  231          18        Air Force-Guard                  52               4
Army-Guard                    83           6        Air Force-Reserve                19               2
Army-Reserve                  79           6        Air Force-Civilian              63               5
Army-Civilian                 92          7         Marine Corps-Active             62               5
Navy-Active                  113           9        Marine Corps-Reserve             5               *
Navy-Reserve                  18           1        Marine Corps-Civilian            11              1
Navy-Civilian                112           8        Non-Service Civilian            166              13
Air Force-Active             185          14        Unspecified                       8               1
*less than 0.5 percent.
As indicated earlier, the non-service civilian category represents those SES members who are not
a member of one of the Services. Frequency and percent distributions by Service are included in
Appendix G.




                                                    - 37 -
                                                                 IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                Senior Leader Safety Survey Results

Figure 13 graphically compares the safety perceptions of DoD senior leaders according to
Service, as indicated by overall average response scores for all survey items combined. Overall
scores were obtained by calculating the mean across the 12 individual item means. The order of
presentation for categories in Figure 13 is not highest to lowest, but rather by category within
duty status subgroups.


                                       FIGURE 11
           Figure 13. Overall Average Response Scores by Category/Duty Status
                          Overall Average Response Scores by Service

                    Army-Active (n=231)                                      0.87
                     Navy-Active (n=113)                                      0.91
              Marine Corps-Active (n=62)                                  0.62
                Air Force-Active (n=185)                                      0.92


                     Army-Guard (n=83)                                        0.95
                 Air Force-Guard (n=52)                                          1.02


                   Army-Reserve (n=79)                                       0.82
                    Navy-Reserve (n=18)                                     0.79
             Marine Corps-Reserve (n=5)                                      0.82
                Air Force-Reserve (n=19)                                     0.88


                    Army-Civilian (n=92)                                     0.81
                    Navy-Civilian (n=112)                                   0.75
             Marine Corps-Civilian (n=11)                                   0.78
                 Air Force-Civilian (n=63)                                0.60
             Non-Service Civilian (n=166)                                  0.68


                               OVERALL                                       0.82

                                         -2.00 -1.50 -1.00 -0.50 0.00 0.50 1.00 1.50 2.00
                                                   Scale: -2 to +2 (+2 being best)

                                                 Note: n=number of respondents


Air Force-Guard had the highest perceptions overall of any specific subgroup, followed by
Army-Guard, Air Force-Active, and Navy-Active. Of the active duty subgroups, all had
relatively consistent responses overall, with average response scores between 0.87 and 0.92,
except for the Marine Corps-Active which had an average response score of 0.62. The Army
Guard and Air Force-Guard had high overall scores. There was little variation among the
reserve subgroups, all with average response scores above the overall average range of 0.82 to
0.88. By contrast, all civilian subgroups had average response scores below the overall average,
ranging from a high of 0.81 for Army-Civilian to a low of 0.68 for Non-Service Civilian.




                                                    - 38 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results

The disparity among subgroup responses from highest to the lowest is relatively large compared
to that typically found in other NSC survey results. These results suggest that targeted efforts to
elevate perceptions of the lowest ranking groups (for example, Air Force-Civilian and Marine
Corps-Active) to the same level as Guard respondents may be an effective strategy for
strengthening safety perceptions for DoD.

Table 9 compares safety perceptions of DoD senior leaders according to categories/duty status for
each of the individual survey items. This table indicates whether the differences discussed above
for overall survey results by subgroup were maintained across all survey items or whether relative
perceptions of the subgroups differed depending on the survey item topic. In Table 9, rankings of
each subgroup’s score among categories/duty status are shown in parentheses. Highest scores are
indicated with green shading; lowest scores are indicated with red shading. Since Marine Corps-
Reserve had only 5 respondents, this group was eliminated from the analysis in Table 9.

Perceptions for Air Force-Guard were highest overall and for 3 of the 12 survey items, namely the
belief that leaders are sincere in their safety efforts (Q1), supervisors consider safety performance
when rating personnel (Q4), and belief that decreasing the DoD accident and mishap rate by 50
percent over the next 2 years is achievable (Q7). Army-Guard had the highest perceptions for 1
survey item: good cooperation existing across the Services on safety-related issues (Q10). Air
Force-Active had the third highest average response score overall, but had the highest scores for 6
of the 12 survey items.

Navy-Active had the fourth most positive perception of the categories/duty status subgroups
overall, but had the most positive perceptions in regard to refusal to accept that accident and
mishaps will occur in the DoD line of work (Q12). Navy-Reserve had only the tenth highest
overall, but had the highest perceptions of any group in regard to appropriate safety goals being
set by leadership (Q2) and implementing successful organization best practices being one of the
most effective ways to bring about change (Q9). However, Navy-Reserve also had the lowest
perceptions in regard to good cooperation existing across the Services on safety-related issues
(Q10).

Air Force-Civilian had the lowest perceptions of any categories/duty status subgroup overall and
for 3 of the 12 survey items. Marine Corps-Active had the second lowest scores overall and the
lowest for 4 of the 12 survey items. Non-Service Civilian had the third lowest scores overall and
the lowest for 4 of the 12 survey items.




                                               - 39 -
                                                                                                                                                                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                                                                                                                                 Senior Leader Safety Survey Results

                                                                                           Table 9. Ranking of Average Response Scores¹ by Categories/Duty Status

                                                                                                                                                     Average Response Scores¹ and Ranking²
                                                                                                                                                                                                        Marine                                                      ALL
                                                                      Air Force-                     Air Force-                       Air Force-                   Army-       Army-         Navy-                   Navy-     Non-Service Marine     Air Force- RESPONDENTS
            Survey Item                                                Guard
                                                                                    Army-Guard
                                                                                                      Active
                                                                                                                     Navy-Active
                                                                                                                                       Reserve
                                                                                                                                                 Army-Active
                                                                                                                                                                   Reserve     Civilian     Reserve
                                                                                                                                                                                                        Corps-
                                                                                                                                                                                                                    Civilian    Civilian Corps-Active Civilian
                                                                                                                                                                                                        Civilian
          1 I believe leadership is sincere in its                    1.81 (1)        1.64 (9)        1.81 (1)         1.68 (7)       1.74 (6)        1.77 (4)    1.77 (4)    1.63 (11)   1.78 (3)     1.64 (9)    1.59 (12)   1.48 (13)   1.66 (8)     1.44 (14)   1.67
          3 Leadership consistently demonstrates a
            positive commitment to personnel safety                   1.63 (2)        1.49 (7)        1.71 (1)         1.47 (8)       1.42 (10)       1.62 (3)    1.54 (6)    1.45 (9)    1.56 (4)     1.55 (5)    1.33 (12)   1.18 (14)   1.37 (11)    1.22 (13)   1.48

          2 Appropriate safety goals are set annually
                                                                      1.37 (2)        1.20 (6)        1.28 (4)         1.12 (7)       1.32 (3)        1.28 (4)    1.08 (9)    1.08 (9)    1.39 (1)     1.09 (8)    0.96 (11)   0.83 (14)   0.95 (12)    0.90 (13)   1.12
            by leadership
          8 Making truly beneficial changes in our
            safety environment is a high priority for                 1.22 (3)        1.22 (3)        1.34 (1)         1.21 (5)       1.05 (9)        1.28 (2)    1.19 (6)    0.98 (11)   1.00 (10)    1.09 (8)    0.89 (12)   0.76 (14)   1.19 (6)     0.78 (13)   1.11

          5 lSafety
                d takes
                    hi a back seat to mission in our
                                                                      1.27 (3)        1.12 (7)        1.39 (1)         1.19 (6)       1.32 (2)        1.24 (5)    1.04 (9)    1.04 (9)    0.94 (11)    1.27 (3)    1.05 (8)    0.88 (12)   0.82 (13)    0.62 (14)   1.10
            organization *
- 40 -




          9 Implementing successful organization
            best practices in safety is one of the most
                                                                      1.20 (3)        1.13 (6)        1.14 (5)         1.26 (2)       0.89 (11)       0.99 (8)    1.05 (7)    0.93 (9)    1.39 (1)     1.18 (4)    0.88 (13)   0.92 (10)   0.59 (14)    0.89 (11)   1.02
            effective ways to bring about change

         11 Leadership has provided adequate
            resources to manage and support safety-                   0.73 (4)        0.78 (3)        0.82 (1)         0.58 (5)       0.79 (2)        0.58 (5)    0.57 (7)    0.53 (8)    0.33 (12)    0.36 (10)   0.35 (11)   0.49 (9)    0.32 (13)    0.25 (14)   0.57
            related programs
          4 Supervisors consider safety performance
            when rating their personnel                               0.83 (1)        0.67 (2)        0.61 (4)         0.50 (7)       0.47 (8)        0.67 (2)    0.57 (6)    0.58 (5)    0.39 (11)    0.45 (9)    0.22 (13)   0.11 (14)   0.41 (10)    0.23 (12)   0.48

         10 Good cooperation exists across the
                                                                      0.32 (10)       0.69 (1)        0.22 (12)        0.34 (8)       0.26 (11)       0.47 (4)    0.53 (3)    0.46 (5)    0.00 (14)    0.45 (7)    0.46 (5)    0.34 (8)    0.56 (2)     0.17 (13)   0.39
            Services on safety-related issues
         12 We have to accept that accidents and
            mishaps will occur in our line of work *                  0.65 (3)        0.53 (5)        0.15 (13)        0.83 (1)       0.63 (4)        0.19 (11)   0.21 (10)   0.40 (7)    0.29 (8)     0.18 (12)   0.76 (2)    0.52 (6)    0.08 (14)    0.26 (9)    0.39

          7 Decreasing the DoD accident and mishap
            rate by 50% over the next two years is                    0.81 (1)        0.55 (2)        0.11 (11)        0.46 (3)       0.32 (9)        0.10 (12)   0.22 (10)   0.45 (4)    0.44 (5)     0.00 (13)   0.34 (7)    0.33 (8)    -0.43 (14)   0.35 (6)    0.26
            achievable
          6 Safety funding is adequately represented
                                                                      0.37 (2)        0.35 (3)        0.48 (1)         0.34 (4)       0.32 (5)        0.19 (8)    0.13 (9)    0.20 (7)    -0.06 (13)   0.09 (11)   0.13 (9)    0.32 (5)    -0.15 (14)   0.08 (12)   0.25
            in the budget process
            OVERALL                                                  1.02 (1)        0.95 (2)         0.92 (3)        0.91 (4) 0.88 (5) 0.87 (6)                  0.82 (7)    0.81 (9)    0.79 (10)    0.78 (11)   0.75 (12)   0.68 (13)   0.62 (14)    0.60 (15)   0.82
          ¹ Calculated by assigning a value of +2 for strongly positive response; +1 for a positive response; 0 for neutral response; -1 for a negative
            response; and -2 for a strongly negative response. (See Appendix D for more information regarding methods of analysis)
          ² The ranking of each group's score is indicated in parentheses. "1" indicates most positive response; "5" indicates the least positive.
          * Calculated from reversed scores. See 3.4.2 for details.
            For each statement, the highest performing group is shaded green.      The lowest performing group is shaded red.
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results

Results in this section show that overall results across duty status categories generally were borne
out when considering individual survey items. Almost all of the 12 survey items were scored
highest by either the Air Force-Guard, Army-Guard or Air Force-Active groups, while almost all
of the 12 survey items were scored lowest by either the Air Force-Civilians, Marine Corps-Active,
or Non-Service Civilian groups. However, some variation did occur by individual survey item,
such as with Navy-Active respondents scoring highest on refusal to accept that accidents and
mishaps will occur in the DoD line of work, with Navy-Reserve scoring highest on setting
appropriate safety goals annually and on beliefs regarding implementing best practices, and with
Navy-Reserve scoring lowest on good cooperation existing across the Services in regard to safety.

3.5.7.1 Conclusions

•   Air Force-Guard had the highest perceptions overall of any specific categories/duty status
    subgroup, with an overall average response score of 1.02, followed by Army-Guard, Air Force-
    Active, and Navy-Active, with averages response scores of 0.95, 0.92, and 0.91, respectively.
    Air Force-Civilian had the lowest perceptions, with an average response score of 0.60, followed
    by Marine Corps-Active, Non-Service Civilian, Navy-Civilian, and Marine Corps-Civilian,
    with scores of 0.62, 0.68, 0.75, and 0.78, respectively. In general, Marine Corps and Civilian
    subgroups had the lowest perceptions, while 3 of the top 5 subgroups were Air Force. Disparity
    among scores from highest to lowest scoring subgroups was fairly large.
•   Almost all of the 12 survey items were scored highest by the Air Force-Guard, Army-Guard,
    or Air Force-Active subgroups. The only exceptions were regarding refusal to believe that
    accidents and mishaps will occur, which was scored highest by Navy-Active, and regarding
    safety goals being set by leadership and belief in best practices, both of which were scored
    highest by Navy-Reserve.
•   Almost all of the 12 survey items were scored lowest by the Air Force-Civilian, Marine
    Corps-Active, or Non-Service Civilian subgroups. The only exception was regarding good
    cooperation existing across the Services, which was scored lowest by Navy-Reserve.
•   Particular attention should be paid to the Air Force-Civilian subgroup. It scored lowest in
    perceptions of all the Service subgroups, and contrasted with the other 3 Air Force
    subgroups, each of which was 1 of the top 5 scoring subgroups. Reasons for the disparity
    should be investigated.
•   Investigation into reasons for differences in responses among these subgroups should address
    why the pattern of responses occurred. Reasons for the overall differences by subgroup and
    the variations for individual items should be investigated with a goal of sharing viewpoints
    and expectations of each categories/duty status subgroup and for tailoring of subsequent
    interventions, actions or countermeasures. Dialogue to share viewpoints will facilitate
    obtaining a clearer picture of the accident and mishap problem and should result in
    decreasing differences in perceptions.


                                               - 41 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results



3.5.8 Comparison of Survey Responses by Organization

Table 10 shows the number of respondents representing each of the 11 organizations.

                        Table 10. Survey Responses by Organization
                                                         Number of        Percent of
                           Organization
                                                        Respondents      Respondents
            OSD Staff                                        64                 5
            JSC Staff                                        29                 2
            DoD Agencies                                     93                 7
            COCOM and other Joint Commands                   83                 6
            Service Secretariat Staff                        78                 6
            Service Headquarters Staff                      174                13
            MAJCOM/MACOM/CLAIMANT                           189                15
            Major Subordinate Commands and Below            351                27
            DoD Field Activities                            48                 4
            Joint Service Schools                            18                 1
            Other                                           150                12
            Unspecified                                      22                 2



Frequency and percent distributions by organization are presented in Appendix H. Since the
Joint Service Schools had only 18 respondents, they were combined with the category “Other”
for analysis in this section.

Figure 14 graphically compares the safety perceptions of responding DoD senior leaders
according to organization, as indicated by overall average response scores for all survey items
combined. Overall scores were obtained by calculating the mean across the 12 individual items’
means. MAJCOM/MACOM/CLAIMANT had the highest perceptions overall of any
organization group, followed by the Major Subordinate Commands and Below, Other, DoD
Agencies, and COCOM and other Joint Commands. All of these organizations had average
response scores at or above the overall average score of 0.82. The OSD Staff and JSC Staff had
the lowest perceptions, with scores of 0.51 and 0.62, respectively. Other organizations with
scores below the overall average included the Service Secretariat Staff, DoD Field Activities,
and
Service Headquarters Staff. It should be noted that all command-related organizations had
average response scores above the overall average, while all staff-related organizations had
average response scores below the overall average.




                                             - 42 -
                                                                IE-2008-006 Evaluation of the DoD Safety Program:
                                                                               Senior Leader Safety Survey Results



                                                         FIGURE 12
                  Figure 14. Overall    Average
                             Overall Average      Response
                                             Response         Scores
                                                      Scores by        by Organization
                                                                Organization Assigned


               MAJCOM/MACOM/CLAIMANT
                                                                                      0.91
                       (n=189)

                Major Subordinate Commands
                                                                                      0.87
                     and Below (n=351)


                               Other (n=168)                                         0.84



                        DoD Agencies (n=93)                                          0.83


                     COCOM and other Joint
                                                                                     0.82
                       Commands (n=83)

                   Service Headquarters Staff
                                                                                     0.80
                            (n=174)


                   DoD Field Activities (n=48)                                      0.77


                     Service Secretariat Staff
                                                                                    0.76
                              (n=78)


                             JSC Staff (n=29)                                      0.62



                            OSD Staff (n=64)                                   0.51



                                   OVERALL                                           0.82


                                             -2.00 -1.50 -1.00 -0.50 0.00   0.50    1.00     1.50   2.00

                                                         Scale: -2 to +2 (+2 being best)

                                                       Note: (n=number of respondents)

The disparity among responses by organization from the highest to the lowest is relatively large
compared to that typically found in comparisons of other NSC survey results. These results
suggest that targeted efforts to elevate perceptions of the lower scoring staff groups to the same
level as command-related respondents may be an effective strategy for strengthening safety
perceptions for DoD.

Table 11 compares safety perceptions of responding DoD senior leaders according to
organization for each of the individual survey items. This table indicates whether the differences
discussed above for overall survey results by organization were universal for all survey items or
whether relative perceptions of the organizations differed depending on the survey item topic. In
Table 11, rankings of each group’s score among organization are shown in parentheses. Highest
scores are indicated with green shading; lowest scores are indicated with red shading. As noted
earlier, the Joint Service School respondents were included in the Other category.


                                                    - 43 -
                                                                                                                                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                                                                                                                          Senior Leader Safety Survey Results


                                                                                    Table 11. Ranking of Average Response Scores¹ by Organization

                                                                                                                                       Average Response Scores¹ and Ranking²
                                                                                                Major                                                                                                                                   ALL
                                                                            MAJCOM/                                                                                                          Service
                                                                                              Subordinate                                            COCOM and   Service HQ   DoD Field                                             RESPONDENTS
            Survey Item                                                      MACOM/
                                                                                             Commands and
                                                                                                                     Other         DoD Agencies
                                                                                                                                                      other JC      Staff     Activities
                                                                                                                                                                                            Secretariat    JSC Staff    OSD Staff
                                                                            CLAIMANT                                                                                                          Staff
                                                                                                Below
          1 I believe leadership is sincere in its efforts to                 1.76 (1)          1.73 (3)          1.64 (7)           1.62 (8)        1.75 (2)    1.68 (6)     1.71 (5)      1.60 (9)      1.72 (4)     1.27 (10)       1.67
          3 Leadership consistently demonstrates a positive
                                                                              1.60 (1)          1.58 (2)          1.46 (5)           1.40 (6)        1.54 (3)    1.40 (6)     1.50 (4)      1.39 (8)      1.38 (9)     0.94 (10)       1.48
            commitment to personnel safety
          2 Appropriate safety goals are set annually by
                                                                              1.30 (1)          1.21 (3)          1.05 (6)           1.12 (4)        1.24 (2)    1.03 (8)     0.96 (9)      1.04 (7)      1.07 (5)     0.58 (10)       1.12
            leadership
          8 Making truly beneficial changes in our safety
                                                                              1.23 (1)          1.22 (2)          1.08 (6)           1.02 (7)        1.12 (3)    1.12 (3)     0.94 (8)      1.12 (3)      0.93 (9)     0.63 (10)       1.11
            environment is a high priority for leadership
          5 Safety takes a back seat to mission in our
                                                                              1.29 (1)          1.16 (2)          1.08 (5)           1.00 (8)        1.12 (4)    1.15 (3)     1.02 (6)      1.01 (7)      0.72 (10)    0.75 (9)        1.10
            organization *
          9 Implementing successful organization best
- 44 -




                                                                              1.15 (1)          1.05 (2)          0.96 (7)           1.04 (3)        1.02 (5)    0.97 (6)     0.94 (8)      1.03 (4)      0.79 (10)    0.86 (9)        1.02
            practices in safety is one of the most effective
         11 Leadership has provided adequate resources to
                                                                              0.71 (2)          0.55 (5)          0.65 (3)           0.73 (1)        0.51 (6)    0.59 (4)     0.40 (7)      0.36 (8)      0.28 (9)     0.24 (10)       0.57
            manage and support safety-related programs
          4 Supervisors consider safety performance when
                                                                              0.53 (5)          0.66 (1)          0.56 (3)           0.31 (7)        0.55 (4)    0.41 (6)     0.58 (2)      0.15 (9)      0.28 (8)     -0.11 (10)      0.48
            rating their personnel
         10 Good cooperation exists across the Services on
                                                                              0.43 (4)          0.38 (8)          0.29 (10)          0.42 (6)        0.45 (2)    0.39 (7)     0.45 (2)      0.43 (4)      0.62 (1)     0.34 (9)        0.39
            safety-related issues
         12 We have to accept that accidents and mishaps
                                                                              0.28 (9)          0.44 (3)          0.60 (1)           0.41 (6)        0.33 (8)    0.34 (7)     0.42 (5)      0.45 (2)      -0.32 (10)   0.44 (3)        0.39
            will occur in our line of work *
          7 Decreasing the DoD accident and mishap rate
                                                                              0.34 (2)          0.27 (5)          0.34 (2)           0.34 (2)        0.10 (8)    0.19 (7)     0.09 (9)      0.45 (1)      -0.07 (10)   0.21 (6)        0.26
            by 50% over the next two years is achievable
          6 Safety funding is adequately represented in the
                                                                              0.33 (2)          0.17 (6)          0.31 (3)           0.60 (1)        0.13 (7)    0.29 (4)     0.23 (5)      0.05 (9)      0.07 (8)     0.05 (9)        0.25
            budget process
            OVERALL                                                           0.91 (1)          0.87 (2)          0.84 (3)           0.83 (4)        0.82 (5)    0.80 (6)     0.77 (7)      0.76 (8)      0.62 (9)     0.51 (10)       0.82


          ¹ Calculated by assigning a value of +2 for strongly positive response; +1 for a positive response; 0 for neutral response; -1 for a negative
            response; and -2 for a strongly negative response. (See Appendix D for more information regarding methods of analysis)
          ² The ranking of each group's score is indicated in parentheses. "1" indicates most positive response; "5" indicates the least positive.
          * Calculated from reversed scores. See 3.4.2 for details.
            For each statement, the highest performing group is shaded green.                The lowest performing group is shaded red.
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


Showing notable consistency, perceptions for MAJCOM/MACOM/CLAIMANT were
highest overall and also highest for 6 of the 12 survey items. The Major Subordinate
Commands and Below had the second highest perceptions overall, but responded most
positively of any group regarding supervisors considering safety performance when rating
their personnel (Q4). The DoD Agencies had the fourth highest perceptions overall, but had
the highest perceptions regarding safety funding being adequately represented in the budget
process (Q6) and leadership providing adequate resources to manage and support safety
programs (Q11).

The Service Secretariat Staff had the third lowest perceptions overall and the lowest
perception regarding safety being adequately represented in the budget process (Q6).
However, the Service Secretariat Staff had the highest perceptions of any organization
regarding the belief that decreasing the DoD accident and mishap rate by 50 percent over the
next 2 years is achievable (Q7). The JSC Staff had the second lowest ratings overall and
rated 4 of the 12 survey items lower than any other organization. However, the JSC Staff
gave the highest rating of all organizations to the item regarding good cooperation existing
across the Services on safety-rated issues (Q10). OSD Staff had the lowest perception
overall and for 7 of the 12 survey items.


Results in this section show that overall results across organizations generally were borne out
when considering individual survey items. Almost all of the 12 survey items were scored
highest by either the MAJCOM/MACOM/CLAIMANT, the Major Subordinate Commands
and Below, or the DoD Agencies, while almost all of the 12 survey items were scored lowest
by either the Service Secretariat Staff, the JSC Staff, or the OSD Staff. However, some
variation by individual survey items did occur, such as with the Service Secretariat Staff
scoring highest on belief that decreasing the accident and mishap rate by 50 percent is
achievable and with the JSC Staff scoring highest on belief that good cooperation exists
across the Services on safety-related issues.

3.5.8.1 Conclusions

•   MAJCOM/MACOM/CLAIMANT had the highest perception overall of any specific
    organization with an overall average response score of 0.91, followed by the Major
    Subordinate Commands and Below, Other, DoD Agencies, and COCOM and other Joint
    Commands. All of these organizations had average response scores at or above the
    overall average score of 0.82.
•   The OSD Staff and JSC Staff had the lowest perceptions, with average response scores of
    0.51 and 0.62, respectively. Other organizations with scores below the overall average




                                             - 45 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


    included the Service Secretariat Staff, DoD Field Activities, and Service Headquarters
    Staff.
•   All command-related organizations had average response scores above the overall
    average, while all staff-related organizations had average response scores below the
    overall average. Disparity among scores from highest to lowest was fairly large.
•   Almost all of the 12 survey items were scored highest by either the
    MAJCOM/MACOM/CLAIMANT, the Major Subordinate Commands and Below, or the
    DoD Agencies. The only exceptions were regarding belief that decreasing the accident
    rate by 50 percent was achievable, which was scored highest by the Service Secretariat
    Staff, and regarding good cooperation existing across the Services, which was scored
    highest by the JSC Staff.
•   Almost all of the 12 survey items were scored lowest by either the Service Secretariat
    Staff, the JSC Staff, or OSD Staff. The only exception was regarding good cooperation
    existing across the Services, which was scored lowest by those in the Other category.
•   Investigation into reasons for differences among these organizations should address why
    the pattern of responses for certain items varied from the overall. Reasons for the overall
    differences by organization and the variations for individual items should be investigated
    with a goal of sharing viewpoints and expectations and for tailoring of subsequent
    interventions, actions or countermeasures. Dialogue to share viewpoints will facilitate
    obtaining a clearer picture of the accident and mishap problem and should result in
    decreasing differences in perceptions.


3.6 Respondent Comments
DoD senior leaders provided written comments to the two open-ended questions at the end of
the survey form:
    • If you were to suggest one action that would improve safety in DoD, what would it
        be?
    • Please provide any other general comments you may have.
The number and quality of comments provided were extremely high when compared to other
NSC surveys. Approximately 722 respondents provided comments for the first open-ended
item regarding suggested actions. This represents over 55 percent of respondents, while the
threshold of a 50 percent response rate on comments is considered excellent. Nearly 300
survey respondents also provided responses for the second open-ended item regarding
general comments. It is clear that respondents took the survey subject very seriously and
cared enough about the issue to take the extra time to provide their thoughts. It is also clear
that the brevity of the survey allowed respondents to provide meaningful comments before



                                             - 46 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


they tired of the survey task or were distracted by other duties.

Those responsible for interpreting survey results and considering follow-up actions should
allow time for reading the comments in their entirely. As a group, they provide high quality
and insightful suggestions for improvement and observations on the status of safety issues.
While the path forward from survey results to implementation of countermeasures should be
based on survey data and input from many groups, the written comments provide an
excellent starting point for the process of translating the survey into action.

3.6.1 Comments Regarding Suggested Actions

Comments from the first open-ended item regarding suggested actions that would improve
safety in DoD are included in Appendix I. We deleted names, unit, and location to preserve
respondent anonymity and edited inappropriate language, but otherwise the comments are
verbatim. The comments were categorized and are described briefly in this section in order
to summarize the most common suggestions and themes communicated by respondents.

3.6.1.1 Motor-Vehicle and Off-Duty Safety

One of the most frequent suggestions made by commenters was to focus on what is perceived
to be the major DoD accident and mishap problem – motor-vehicle accidents, especially in
off-duty privately-owned vehicles. The primary contributing factors to these accidents
appear to be alcohol, speed, lack of seat belt use, fatigue, and reckless driving. The issue
seems to be especially common among young people and involves an attitude of risk taking.

Regarding alcohol, many commenters labeled this issue as the most pressing one for motor-
vehicle safety. Some specific suggestions included closing stores selling alcohol on all
military installations, a mandatory breathalyzer key ring, mandatory designated drivers at
military clubs that serve alcohol, and stricter enforcement of the uniform 21-year-old
drinking age. Some questioned leaders’ commitment to the alcohol issue in particular. This
indicated there may be some denial it is a problem or that anything can be done about it.
Several respondents indicated those who have accidents found to be alcohol-related should
have the accident classified as not in the line of duty, with the possibility the individual
would have to fund his or her own medical care, and family members would not receive
survivor benefits.

Regarding seat belt use, suggestions mainly focused on education, communication, and
penalties. Commenters called for increased penalties for lack of seat belt use, such as loss of
driving privileges for a month or other serious penalties.

Special attention was also paid to the topic of motorcycles, the most serious issue for off-


                                              - 47 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


duty motor-vehicle safety. Many commenters suggested the problem is so serious it warrants
an outright ban on motorcycle use by military personnel. Others suggested prohibiting them
on installations, either overseas, in the U.S., or both. As a minimum, respondents call for
implementing DoD-wide standards for motorcycle safety, such as helmet use, regardless of
varying state laws.

By far, the most commonly suggested countermeasure to improve motor-vehicle safety was
widespread implementation of driver training. Format of the suggested training varied,
including all new personnel to an installation getting a 1-hour driving course, remedial
courses just for those with speeding violations or poor driving records, practical hands-on
training, specific training for motorcycle operators, etc. Some mentioned this should be part
of a new comprehensive motor-vehicle safety program focused on education and training and
uniformly implemented across Services.

3.6.1.2 Discipline and Accountability

Accountability at various levels of the organization was a topic frequently mentioned by
respondents. Many felt accountability needs to be implemented at the commander level.
Others felt the supervisor, non-commissioned officer, or safety officer is the appropriate
level, or that accountability needs to be built into the system at the lowest levels. Several
respondents indicated accountability needs to be implemented throughout the organization
and felt at all levels.

Comments addressing accountability ranged from specific suggestions for the off-duty
motor-vehicle safety issue to consequences for a poor safety record within the command.
Comments on motor-vehicle safety accountability included implementing standards like
helmets for motorcycle riders even if the State does not require them, suspending a drivers
license upon identification of unsafe actions, imposing stiffer penalties for those riding
without seat belts, and taking cars away from DoD personnel who break speed limits.

In general, respondents felt that while goals have been established and safety is discussed
more than ever, the likelihood of real change is limited without a critical change in the
system of accountability from the top down, including relieving commanders who “do not
have an effective safety program, who fail to set the personal example necessary, or who
exercise poor judgment by sacrificing safety for expedience.”

3.6.1.3 Award and Incentive Programs

As a companion to discipline and accountability, respondents felt that rewards and incentives
were important keys to improving safety. Many mentioned rewards/incentives and
discipline/accountability as related issues. However, others felt that rewards were even more


                                             - 48 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


important than accountability since it is a positive way of modifying behavior, and because
Service members want to succeed regarding safety. Some implied that the
discipline/accountability system was in place to a greater extent than the rewards/incentives
system.

Suggestions for addressing rewards and incentives ranged from financial versus non-
financial, individual versus unit-level, and one-time versus cumulative. Specific ideas
included an increase in organizational budget, a bonus or increase in individual pay, time off,
unit or individual recognition, special celebratory events, and competition/award for best unit
safety or number of accident-free miles.

Respondents indicated the awards need to be valuable and visible to others, be closely
aligned with the achievement of specific safety improvements or performance indicators, and
be coordinated throughout the organization so that all individuals and commands had the
opportunity to compete. Commenters felt the cost of any increase in the rewards/incentive
program would be minimal compared to the savings in reduced accidents. Some commenters
indicated that since personal motor-vehicle accidents are the biggest issue, the
rewards/incentive program should focus on this issue first.

3.6.1.4 Funding and Budgeting

Funding was one of the most common themes expressed by respondents as a suggestion to
improve safety. Many comments were brief, indicating simply that funding is the critical
element and needs to be increased. Other comments were specific regarding which programs
or initiatives need to be funded, where the funding needs to be focused, or why the current
system of funding is not working.

Some commenters noted rhetoric and goals are not sufficient to bring about change, and
setting goals without addressing the funding issue is irresponsible. Commenters addressed
the timeliness of funding, indicating that many times goals are set first with funding put in
place many years later. Many indicated safety needs to be a separate line item in the budget,
so leaders would not be faced with the choice of funding an operational war fighting program
or the safety office. In these instances, safety usually places second, according to responders.
Some suggestions for funding went beyond the specific safety-related offices, programs, or
initiatives and implied inadequate funding for the organization’s manpower and equipment
also affect safety.

In regard to specific activities that need to be funded, respondents listed training,
continuation and expansion of incentive programs, safety staff or civilian safety experts,
driving simulators and other specific training equipment, and an adequate budget for


                                             - 49 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


acquisitions. Responders stated safety is currently funded only to the make-do level, many
mandated programs are not funded, and the current level of funding will not be sufficient to
achieve the step change the SecDef is looking for in regard to safety.

3.6.1.5 Operational Readiness and Force Protection

Several commenters suggested advancing safety by including it as an element in a variety of
broader issues related to moral, ethical, or practical principles. In this way, safety would not
be regarded as a stand alone issue, but a by-product of professionalism and doing things the
right way. Many commented on the relationship between safety and force protection or
operational readiness, principles that are readily embraced by military leaders and Service
members alike. Actions to ensure all Service members understand the impact of safety on
force protection and operational readiness would also make them aware the safety decisions
they make on or off duty affect more than just themselves. They would realize their presence
(or absence) impacts the whole unit. Addressing the sense of obligation to the unit may be
more effective than emphasizing the individual benefits of safe behavior.

Commenters suggested that this appeal to Service members’ sense of duty would be
effective. Many in the Service feel a strong sense of its underlying spirit or sentiment
regarding values and the obligations of a warrior. One commenter also extended this
connection to patriotism, “To operate safely should be recognized as a good American
citizen’s obligation/duty to himself/herself and every other citizen whose life or property he
or she may affect.”

3.6.1.6 Best Practices

Many comments focused on the theme of best practices – that is, sharing of the best or most
effective ideas, methods, initiatives, programs, or trends. This sharing could be done from
one unit to another. Several comments specifically mentioned the possible application of
aviation best safety practices to ground operations. Expanding the source of best practices
was mentioned by many respondents to include benchmarking against the American
insurance or loss prevention industry, general industry or industry leaders. Others
mentioned, however, that the unique aspects of the military required potential best practices
from industry be subjected to a filtering process so that appropriate modifications could be
made.

One commenter indicated past efforts to share among Services met with obstacles and
roadblocks such as funding, attitude, and applicability. These would need to be overcome.
Another commenter suggested that since safety is not a stand-alone issue, sharing best
practices should focus on organizations that successfully perform the mission in the most
effective way, not those with simply the best safety program.


                                             - 50 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results



3.6.1.7 Leadership Involvement and Commitment

Many respondents indicated leadership involvement and commitment are the most critical
factors in achieving the 50 percent reduction goal. The perception is that current goals are
established, but they don’t have top-tier attention to match the rhetoric. Safety is seen as a
priority for the organization, but not as high a priority as it needs to be to achieve stated
goals.

Respondents commented on many facets of leadership involvement and commitment,
including issues of responsibility, accountability, focus, attention, and participation by
leaders. Various levels of leadership were discussed, with the majority indicating the higher
in rank leaders are, the more critical they are to creating change. Many indicated
commanders are the key, and there is little chance of any success unless it is a well-known
concern of the senior commander. Conversely, when the commander believes and
communicates, then things happen. Others indicated involvement of non-commissioned
officers or other junior leaders is critical. With the trend toward younger non-commissioned
officers this means less experience and a greater need for communication and training
regarding management issues such as safety. Junior leaders need to be taught how to
conduct accident and tactical risk mitigation. Still others felt civilian leadership is critical,
and until the Service members see their leaders giving safety more than just rhetoric, only
marginal reductions in accidents will be achieved.

Many commented on the special nature of leadership involvement required. It is not just an
element in the process, but rather it is the one critical element that supersedes others. Some
commenters indicated it is so important the whole focus on safety should shift from a
programmatic approach to one of active leader involvement. Descriptions of the nature of
leaders’ involvement portray the need for it to be personal, genuine, vocal, open, active,
continuous and consistent. It must also be pervasive, aggressive, and intrusive. It must be
part of a leader’s culture and the caring command climate the leader sets. It must be subject
to constant discussion and focus. Leaders must also personally set the example for following
good safety practices and raising the awareness of safety issues.

Key messages that should be communicated by leadership’s involvement include: some
accidents are unavoidable but the vast majority result from a chain of events within
leadership’s ability to manage; accidents can be prevented if procedures are known,
understood, followed, and enforced; and safety and mission for the organization are one and
the same. Leadership involvement needs to be of such magnitude that it sends the message
that the safety and well-being of the people is not a once or twice a year emphasis, but an
everyday job.


                                              - 51 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results



Besides general comments on the nature of leadership involvement, there were suggestions
for more specific actions that should be taken. These included:

•   Safety needs to be strongly emphasized in all leadership development training
•   Senior commanders need to play a role in developing and communicating safety program
    changes within their organizations
•   Leaders need to understand and be trained in how they can influence Service members’
    off-duty behavior
•   A program should be created for safety akin to those already created for drugs, alcohol,
    and sexual harassment in the Service
•   Address safety by means of a strategic communication plan with safety given priority in
    all guidance and directives
•   Safety should be mentioned by leadership in every speech they make, similar to current
    common references to core values
•   Safety should be an element of the President’s Management Agenda

3.6.1.8 Individual Responsibility

In contrast to many respondents who focused on the roles and responsibilities of leadership
in regard to safety issues, many others commented on safety involving an individual or
personal responsibility. Many felt individuals should be held accountable for safety
violations or unsafe acts instead of placing the entire responsibility on leaders or the
organization. In this way, individuals would also take ownership of the safety problems,
issues, and goals.

Some commenters suggested that people who willfully put themselves at risk should be held
accountable, especially in their use of alcohol, or where individual judgment is a significant
contributing factor. Personal adherence to standards is an important part of the military
culture and should be applied to safety as well. Many commenters suggested that
accountability is not a leadership versus individual issue, but that all personnel at all levels
must be held accountable.

3.6.1.9 Cooperation Across Services

Besides sharing of best practices as described above, commenters expanded the discussion of
cooperation across the Services to include other elements. Several respondents commented
on the need for a joint or OSD safety center instead of Service safety centers. These



                                              - 52 -
                                                     IE-2008-006 Evaluation of the DoD Safety Program:
                                                                    Senior Leader Safety Survey Results


commenters noted it would reduce differences among Service reporting formats, align the
Services with common, clearly defined terminology, and make better use of information on
accidents across Services that share common activities. They indicated that since most
ground mishaps and off-duty accidents share common elements among the Services,
determining these common elements and working to solve the behavior that contributes to
them could benefit all the Services.

Commenters indicated sharing among the Services is insufficient and the safety approach
varies significantly among the Services. Establishing one safety office at the OSD level may
help solve the division of responsibility between P&R and AT&L. It would be necessary to
provide the adequate resources in terms of personnel and funding to a joint safety center.

Some commenters indicated there should be an Assistant Secretary of Defense for safety.
That individual would then be empowered to leverage safety requirements globally, establish
policy, and be part of the SecDef hierarchy to attend daily or weekly meetings.

3.6.1.10 Safety Stand-Downs

Several commenters indicated the need for periodic safety stand-down days or safety-event
days. These would help draw attention to the issue of safety, focus all personnel at one time
on the issue, and show safety is integral to the mission. The most common time frame
mentioned was at least annually. Variations on the theme included a safety fair, symposia, or
demonstrations where more comprehensive information on recreational, home or off-duty
safety could be communicated. General safety activities to be performed during a stand-
down included cleaning up office areas, removing hazardous items that block hallways, and
every organization receiving an unannounced visit from a Flag officer or SES member.

3.6.1.11 Pace of Duties

The pace of work and level of staffing was a topic many respondents indicated was a major
contributor to accidents and mishaps. Many called for reduced OPSTEMPO, PERSTEMPO,
and reduced task overload to allow adequate time for performance of duties. In their view,
there is reduced manning with increased mission demands resulting in cut corners and little
time to plan. Several commenters noted most safety violations or incidents occur when the
workforce is under pressure. To gloss over this fact or not acknowledge it harms the
credibility of leadership when calling for reduced mishap rates.

The related issue of fatigue, especially while performing critical tasks, was also noted by
several commenters. Sufficient crew rest, proper relief, monitoring of required work hours,
and enforcement of worker rest periods in the field were all called for by respondents.
Training was also mentioned as a related issue, as the increased number of events and


                                            - 53 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


complexity of the mission has resulted in a greater need for training but less actual time for
it.

Suggestions from commenters included having the senior leaders of major commands,
Services, and OSD say “no” to increased mission activities unless they are adequately funded
and staffed. Some commenters focused on non-mission distractions as a target, indicating
that unnecessary ancillary activity and program changes during these times of high
OPSTEMPO should be questioned. Some called for increases in the “organizational
constancy of purpose” so people are more able to focus on mission performance, as there are
“too many good ideas and new visions coming from too many organizations at too fast a
pace.” One respondent suggested a need to “control change without compromising our
ability to train and execute our mission safely” and that “change should be governed so that
only a few things that can be done well are initiated simultaneously, while permitting our
limited personnel to safely accomplish their normal day-to-day missions.”

3.6.1.12 Measurement and Metrics

Many commenters called for increased use of statistical tracking and measuring of safety
performance as a key driver for reducing accident and mishap rates. Leaders should agree on
specific metrics, review them regularly, and use them universally throughout DoD, as some
commenters indicated mishap reports are currently not shared and lessons learned are not
universally addressed. Some indicated metrics for safety should mirror those used to address
other operational factors, so that safety readiness is measured similarly to combat readiness.
In this way, the mission would be managed safely rather than safety being managed
separately from the mission.

Several respondents called for creation or enhancement of a database of accidents for
analysis. Location, circumstances, primary contribution factors, and good root cause data for
analysis would be included. The database would be used not just for enumeration of past
events, but for trend analysis, correlations, and finding commonalities of causes so that
actionable prevention strategies could be implemented. Modeling of the data may also
enable predicting when a certain type of mishap is most likely to occur, related to
deployment levels, experience levels, and mission types. Other suggestions regarding the
database included collection of cost-benefit information showing statistical tracking of safety
versus impact on mission, dollars or time lost, or the operational impact of accidents or
safety improvements.

Another specific suggestion related to creation of accident databases focused on the need to
collect information on near misses and first-aid cases. Having a definition that includes any
unplanned event in any critical operation, whether or not injury or damage occurs, would


                                             - 54 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


capture leading indicators and allow a more proactive approach to safety management and
accident prevention. This would ensure DoD benefits from lessons learned and prevent more
serious accidents from occurring.

Communication and publicizing metrics and statistics was also a common theme. Many
indicated the need to make sure the safety trend is always in front of everyone and the need
to show the goal and progress toward it. All personnel need a better picture of safety-related
challenges and opportunities in their specific work areas.

3.6.1.13 Training

Increasing the level of training provided on safety issues was mentioned frequently by
respondents. Most indicated that training should be required while funding and resources
should be provided. Also, safety education should begin during basic training and be
included in professional development.

Respondents indicated that while each individual Service member needs ongoing periodic
safety training, there is an additional need to target younger members and all top leaders,
especially first-level commanders. Additional attention should also be paid to those involved
in activities with moderate to high risk. Refresher training should occur on a regular
quarterly or annual basis through an established training format or a newly created Web-
based format.

Suggestions regarding content of the training were many:

   • a clear focus on safety at work, at home, and during travel;
   • compliance with established safety principles;
   • how to mitigate risks as part of everyday activities;
   • use of best behavior modification and influencing science;
   • training on responsibility and decision making;
   • presentation of relevant data and statistics to create an ongoing awareness; and
   • training on new equipment under conditions where the equipment will be used.

It was suggested that commanders and top non-commissioned officers should be required to
periodically conduct a training session with their direct reports and their staff to discuss
safety and risk assessment “as the leader, with the focus on leadership, truly demonstrating
the caring for the welfare of the soldier.” One commenter indicated training time is so brief
and precious the content of the training should be considered carefully to derive the greatest
benefit.




                                             - 55 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


Another commenter indicated the need to include safety in the culture change training
leaders receive. DoD culturally conditions officers as they mature, but there is little
purposeful grooming of command skills concerning safety. There is a substantial dimension
to safety dealing with the psychology and conditioning of Service members. It requires well-
developed skills to identify leading indicators of safety downturns or upturns. The
commenter indicated the need to train leaders to recognize problematic scheduling, equipage,
discipline and attitude, to understand the safety office doesn’t “own” safety, and other related
issues.

3.6.1.14 Safety Personnel

Several respondents described issues involving safety personnel, including the number
required, reporting structure, and specifics of their role. Most indicated personnel with
specific expertise in safety are required in greater numbers and their role is critical in
facilitating various aspects of the safety program. Safety officers’ involvement in developing
plans and orders would have a positive influence by making everyone aware of safety, risk
management, and mitigation of risks.

Commenters addressed the level where safety personnel are needed. It was suggested the
SecDef needs a dedicated safety chief to consolidate lessons learned, communicate with the
field, and fix common issues and problems. Some suggested putting more safety officers at
several levels since safety personnel are overworked at the installation. Others
recommended the safety office contain a special staff officer reporting to the commander,
giving them better access to the command group. Still others recommended the position be
at the unit level. Regardless of the level of placement, most respondents indicated the
position needs to be full-time, not an additional duty or responsibility, and staffed with the
most capable, experienced, and professional safety personnel available.

Some commenters addressed specific functions of the safety office or safety personnel.
Many indicated their focus needs to be solely on safety practices, safety information, safety
training, and military member safety integration operations. It was suggested current data
would show that those organizations with a dedicated safety structure and assigned personnel
demonstrate operational and training safety improvements. Compared to the current
structure, some respondents indicated the need for a more tactical safety focus, shifting
towards specific training, information sharing tools, and authority.

3.6.1.15 Supervisor Involvement

The critical role of the supervisor or junior enlisted leader in terms of visible involvement,
participation, and responsibility was mentioned by several commenters. Supervisors often
have the benefit of a close working relationship with direct reports and can leverage their


                                              - 56 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


parental role to model safe behavior or intervene in risky practices in the workplace or off-
duty. Commenters suggested supervisors conduct personal risk mitigation with each direct
subordinate, be given more authority to impose limited disciplinary punishments, and be held
accountable for training and mishaps in their unit.

3.6.1.16 Safety as an Item on Performance Appraisals

A substantial number of commenters indicated the need to have safety be rated as an item on
performance evaluations. In this way, commanders and senior non-commissioned officers
would be forced to take safety seriously. Safety would be rated in a leader’s career
development equally with other tasks, and accountability and reward would be facilitated.

Specifically, respondents suggested safety should be a rated item on all performance
appraisals with mandatory comment by the rater as to how the individual performed in
accordance with current safety guidelines and how successful the individual was in reducing
accidents or initiating a new concept to protect his/her personnel. Safety should be included
on all supervisors’ performance appraisals and in the subordinate’s evaluation. One
commenter indicated that safety performance should be a positive consideration in the
calculation of promotion scores for E-4 and below, and mandatory in performance reporting
for E-5 through Flag officer. Another commenter indicated the answers or goals regarding
items in this senior leader survey should be tied to an officer’s performance report.

3.6.1.17 Communication of Information and Programs

Communication of safety information was mentioned by many commenters as a useful and
necessary tool. Respondents indicated that regular reminders about safety can educate,
motivate, elevate awareness, and help avoid complacency. Format of the suggested
communications varied from posters, videos, signs, and visual aids to effective e-mail
messages sent to all in the workforce on a regular basis. It was suggested since safety has a
short half-life, constant, new, and innovative ways to remind the workforce and get the safety
message across are needed.

Content in the messages can range from informational to motivational. Organizational safety
goals should be in full view of the workforce everyday. Beneficial safety programs or real
case studies of superior safety programs in units can be communicated. Conversely, near
miss information or safety reports can be distributed to gain the widest audience and the most
benefit of lessons learned. Safety tips and reminders can be distributed in print or e-mail
newsletters.

Several commenters mentioned the need to have communication materials developed by a
central office and then distributed for use at the unit level. These tools should be easy to use,


                                              - 57 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


and would provide commands with the material to promote safety and address critical safety
concerns. These safety materials would also facilitate public discussion of safety issues by
all levels of leadership and their subordinates.

3.6.1.18 Risk Management

Respondents had high praise for one approach that has been implemented within DoD – a
formal risk management process called operational risk management (ORM). This process
formalizes procedures for identifying hazards, assessing risks, considering risk control
measures, making control decisions, implementing risk controls, and supervising and
reviewing. Many commenters indicated though the ORM approach is in place, change is
necessary to actualize its potential.

Some claimed ORM is not understood well and many indicated it is not emphasized enough
to become part of the DoD culture. Others indicated risk assessment too often takes place
with no real attempt to mitigate the risk. Risk decisions may be made at an inappropriate
level where rhetoric is not taken seriously until an accident occurs. In some instances, ORM
has become a function or mechanical process rather than an integrated approach to leadership
and supervision.

Respondents indicated risk management training needs to be implemented throughout the
organization, beginning very early in institutional training. The risk management process
needs to be standardized across DoD and incorporated into every operational plan and
training event. The process needs to be an instinctive and integrated part of the actions of all
personnel. Many indicated examples of personally seeing the process work efficiently and
effectively. One respondent pointed to recent reductions in mishaps for a certain operation
as a result of continuous communications pertaining to safety and ORM practices. It can
“focus a crew and supporting personnel on the importance of prevention and directly
influence mishap reductions attributable to human factors.” Another respondent praised
ORM by indicating it “doesn’t say we won’t accomplish the mission, it says we must find a
safe way to accomplish the mission.” Others claimed too many programs or processes are
difficult to manage and make stick, but ORM provides a process that all can understand if
sufficient training occurs and if emphasis is placed on integration into daily processes.

3.6.1.19 Safety Integration and Culture Change

A substantial number of respondents addressed the need for culture change within the
organization regarding safety, as well as the related need to integrate safety within everyday
DoD operations. The need to elevate the status of safety was evident to many respondents.
They provided the following thoughts: safety can’t be legislated, but rather needs to be
imbedded as a value in every Service member’s life; safety should be considered a value


                                              - 58 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


instead of a priority because while priorities change, values are never compromised; safety is
an attitude consisting of many small actions, not one action. A final comment of note was
the need to instill the type of leadership that allows an openness where personnel can say
when they can't do what they’re tasked in the time frame given – the “can do and roger that
to everything ego/attitude gets in the way of smart operating procedures.”

Several commenters were disappointed with the current status of safety within their
organization. They indicated it’s discussed far less than other things like cost savings,
leading to the conclusion it is not a high priority. Others indicated that aside from goals set
once in a while, they rarely heard from their leaders at OSD or in the Services that safety is
important.

Many addressed the need to change the current stove-pipe way safety is treated, and instead
integrate it into daily operations. They indicated safety is not a separate stand-alone process,
an afterthought, a square filler, a category to turn on or off or address at convenient times, a
special project add-on, or a distinct topic parsed from mission performance. Rather, it needs
to be built in to the entire process starting with receipt of mission all the way through
execution, and inextricably woven into all that Service members do every day.

Some commenters noted current safety initiatives, while well-meaning, have actually done
some harm in achieving the necessary culture regarding safety. Separate activities like safety
meetings, safety days, chiefs of safety, and safety non-commissioned officers all reinforce
that safety is a stove pipe. Respondents suggest this may have been a mistake since safety is
not the result of programs, but a mindset and a value that must be inculcated at basic training
and reinforced throughout one’s career. The current culture separates and segregates safety
from the operation flow, and assigns it to people who do not fully understand the reason to
practice safety has an operational rationale. Safety needs to be mainstreamed into the line
management function and a routine part of operations, not left the responsibility of the safety
department.

Respondents acknowledged changing culture is not a quick or easy task. In fact, it is the
most difficult but most necessary of tasks. Culture change takes years and should commence
when people first come into the Service. The resulting change will create a culture of safety
awareness where personnel look after one another, where peer pressure will prevent a safety
mistake, where mishaps are not tolerated, where the idea that accidents will happen is never
accepted, and where all these concepts are woven into the everyday way of life.

3.6.1.20 Other Topics

Commenters mentioned several other topics in the first write-in question, but less frequently


                                              - 59 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


compared to those listed above. Some of the other topics were as follows:

•   Excessive driving distances because of location of Service members’ homes in relation to
    the installation should be investigated to shorten or eliminate the drive
•   Consider involving family members in terms of education and safety emphasis
•   Ensure an open leadership atmosphere is in place that empowers Service members to stop
    a mission activity if they feel it is unsafe, as opposed to compromising safety to get a job
    done in order to please a supervisor
•   Budgetary considerations are important for modernization of the equipment used, which
    many felt had an impact on safety
•   A high risk area for safety incidents is when Service members return from deployment
•   Properly maintain roads, buildings, and infrastructure, including snow and ice removal
•   Gear the safety program specifically to young Service members using findings regarding
    that age group from the sciences of learning and psychological development

3.6.2 Other Written Comments

Comments from the second open-ended item regarding “any other general comments you
may have” are included in Appendix J. We deleted names, unit, and location to preserve
respondent anonymity and edited inappropriate language, but otherwise the comments are
verbatim. The comments were categorized and are described briefly in this section in order to
summarize the most common suggestions and themes communicated by respondents.

3.6.2.1 Appropriateness of the 50 Percent Reduction Goal (SecDef)

Many respondents commented on whether the DoD 50 percent goal in reduction of accidents
and mishaps was appropriate. While some applauded the initiative, the vast majority of these
comments were negative, indicating the goal is unrealistic, not achievable, daunting, useless,
not helpful, or a bridge too far for most leaders. Many commenters indicated not only was
the goal not achievable, it was actually damaging to the safety program and detracted from it.
 Unreasonable goals turn people off, rob the program of credibility, and cause people to not
take the subject seriously. Some indicated if goals aren’t relevant, both the goal and the
program will be ignored. Others indicated the goal will not result in a decrease in rates, only
an increase in frustration.

Another theme regarding the negative impact of the 50 percent goal focused on a perceived
inference the current program is poor or insufficient. Commenters indicated the goal implies
the current program is not working, those responsible are not doing all they could, and it



                                             - 60 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


doesn’t give credit for huge improvements in safety already achieved. Many felt safety has
been emphasized within the Services for many years with significant reductions, many
qualified people have been working hard at this issue for a long time, and if it were as easy as
just setting a goal there would have been far fewer accidents and mishaps by now.

Other negative comments about the goal included its appearance as absolutely arbitrary, a
top-down decision, and not based on any science, scientific data, or comprehensive study of
its feasibility. Some commenters indicated the goal was not accompanied by any realistic
program of achieving the results, or any thought to what actions and resources are necessary
to make it possible. Reasons given for why the achievement of the goal seemed doubtful
included the current OPSTEMPO in the Services, perceived limitations on ability to
influence young drivers’ behavior, and lack of resources, manpower, or training. Some
questioned whether the goal would only be reached with creative paperwork, and wondered
what the reaction would be when or if the goal wasn’t reached. One commenter hoped it
would be seen as a failure to set reasonable goals rather than a failure to perform.

Various alternatives to the current goal and approach were suggested. Some acknowledged
goals should be tough and lofty, but also reasonable and achievable. Several suggested
achieving the 50 percent goal over a longer period of time, with reasonable annual or
intermediate goals such as 10 percent per year improvement for 5 years. Some commenters
acknowledged the goal has succeeded in focusing attention on the issue. A few commenters
took an opposing approach, indicating the 50 percent goal was inappropriate because it didn’t
go far enough—the only appropriate goal was zero accidents and mishaps.

3.6.2.2 Accepting that Accidents and Mishaps Will Occur

There were many comments addressing the topic of the final item (Q12) on the senior leader
survey regarding whether or not it should be accepted that accidents and mishaps will occur
in the DoD line of work. Many felt the military environment is by nature dangerous and the
profession has many inherent risks. Some indicated the dangers can’t be removed entirely,
and it is important to acknowledge that eliminating all risk is not the goal.

Many commenters indicated it is important to be realistic and admit accidents are going to
happen no matter how intensive a program is planned or executed. These respondents felt
because risk exists, accidents will occur due to the nature and complexities of the military
environment and human behavior. Some commenters indicated a zero point will never be
reached, especially in regard to motor-vehicle accidents and wartime activities. Most felt
being realistic doesn’t mean anyone should accept unsafe tactics or procedures or shouldn’t
strive constantly for a safer situation. Nor does it mean that education, risk assessment, risk
management, or any other safety activity shouldn’t be refined, enhanced, improved, or occur


                                             - 61 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results


more frequently. Some indicated being realistic “doesn’t mean we can’t do anything about
the accidents or strive for anything less than 100 percent safety.” There were also comments
to the effect that accidents should never be repeat events, given that lessons should have been
learned from previous events.

However, there were many comments addressing the subtle, yet profound, difference
between acknowledging that accidents may occur versus accepting that accidents will occur.
The difference is embodied in their corresponding attitudes. Acknowledgement understands
there is a measure of uncertainty in the universe and appropriate actions must be taken to
eliminate or reduce associated risk. Acceptance, on the other hand, is a fatalistic value that
offers “if it’s going to happen anyway, why bother?” attitude. Acceptance results in reduced
or no prevention, and subsequently, increased losses.

Some commenters felt safety is already interfering with operations, or were concerned about
additional emphasis on safety activities. These respondents felt the military had “long since
reached the point where mission effectiveness was being reduced without corresponding
payback,” or that decreasing mishap rates drastically “became impossible a long time ago
without bringing the enterprise to a halt.” Another commenter felt there is “a fine line
between doing great risk management to increase force protection and reduce accidents,
versus creating an environment where leaders stop conducting realistic, demanding training
because they are afraid to fail to make their accident numbers.”

3.6.2.3 Praise for Current Safety Efforts

Many respondents commented on the current status of safety within DoD and praised the
amount of attention and level of dedication it receives. Among the comments on this theme
were:

   •   The focus on decreasing accidents is important and the message is getting through
   •   There is sufficient leadership focus on safety
   •   Safety is preached at the senior leadership level
   •   Safety permeates all that is done within DoD
   •   DoD personnel across the board care about safety and work diligently to make it a
       central element of their lifestyle and work habits
   •   Appropriate programs are in place and are actively supported
   •   Safety climate is superb
   •   Safety receives considerable attention



                                             - 62 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results


   •   DoD is doing all it can to reduce or mitigate accidents
   •   Safety community is a dedicated group that tries to get the message across
   •   DoD has lots of good people and experts who are addressing the matter of safety and
       who care deeply about it
   •   Safety is the fabric of how we do business
   •   Considering the daily work environment, DoD has an outstanding safety record
   •   All resources are adequate, except for time

Several expressed sincere appreciation to safety personnel and all within DoD for their
genuine dedication to this important issue. Others noted the improvements in safety within
DoD either over a period of time or recently. Commenters mentioned the tremendous strides
the military has made regarding safety, indicating that virtually every aspect of safety has
improved over the last several decades. Death or serious injury used to be commonplace, but
are now considered a rarity. People are working harder and great progress is being made at
lower levels with new initiatives. Some commenters felt encouraged by seeing much more
recent emphasis on safety issues and by the strong push to fix the significant challenges.
Respondents felt that DoD is making progress, especially within the last year, but the last
few numbers are the hardest to reach.

Respondents specifically praised several organizations within DoD, including the Army’s
Combat Readiness Center, Army Corps of Engineers, U.S. Army Europe, and the Air
National Guard fighter community. For the most part, respondents either were a part of these
organizations or knew of their operations intimately enough to single them out as
exceptional. In praising the military’s safety operations, some commenters differentiated
between on-duty and off-duty issues. They indicated the military’s safety program was
excellent in regard to on-duty incidents, but off-duty issues were more challenging and had
experienced less success.

3.6.2.4 Acknowledgement of the Importance of Safety Issues and the Need to Do More

Many commenters went beyond praising current safety efforts, indicating the topic of safety
is so important DoD needs to do more. Some statements had a tone of frustration or
impatience that actions or results are not matching the importance of the principle of safety.
Among the comments on this theme were:

   •   DoD may be serious about safety, but not serious enough to put real money behind it
   •   DoD can do much better than it currently does in regard to safety and accident
       prevention and must do all it possibly can do to reduce or mitigate accidents,


                                             - 63 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


       especially among a population of Service members who often feel themselves
       invulnerable
   •   DoD senior leaders can never do enough to ensure safety and must continue to
       increase efforts to emphasize safety across the board
   •   DoD needs to demand higher standards of itself; leaders must do more and demand
       higher standards of those they work with and those who they lead
   •   Senior leaders do a better job of talking about safety than living it or enforcing it
   •   DoD spends lots of time talking about safety, but very little getting it done
   •   DoD needs to get serious about safety from the top down; some processes have not
       changed in decades
   •   Telling people to be safe is not enough; we have been doing that for years and the
       results are not impressive
   •   The safety message has not been institutionalized and it needs to be
   •   The military is very busy; soldiers are complacent and not listening to leadership
   •   DoD is slowly getting better, but it can’t afford to be slow
   •   The loss of young service men and women due to private motor vehicle and
       motorcycle accidents is absolutely too high; safety has to be mission one
Some commenters indicated there should be zero tolerance for accidents and mishaps; the
goal or benchmark should be zero. Regarding the concept of improvement, several
commenters remarked on the continuous or constant nature of the attention that safety
required. They indicated safety is an attitude that must continually be reinvented to avoid
complacency, persistence is essential, safety must be in your face, and there are no off days,
times, or events. Others noted safety requires constant reinforcement and emphasis at all
levels of leadership. It is a journey, not a destination, since new troops are joining each day.

3.6.2.5 Comments Regarding the Survey

Many comments addressed the senior leader survey instrument, with both positive and
negative remarks and other suggestions for changes. On the negative side, some commenters
felt the survey was badly designed, pointless, stupid, or a waste of time. Others commented
on the topic of the questions, indicating they were not very meaningful or applicable, would
not provide anything of value, or would not “adequately get at what you are trying to
discern.” Some found the questions to be too general or innocuous, or felt the questions
unjustly implied there was a problem with safety.

Several commenters indicated they didn’t have enough information to answer a question


                                              - 64 -
                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                      Senior Leader Safety Survey Results


satisfactorily and provided a neutral rating as a result. Many indicated they would have
preferred a “not applicable” or “don’t know” response rather than having to indicate neutral.

On the positive side, many commenters expressed appreciation for the opportunity to
participate, lauded the focus on safety, and felt the survey was indicative of leadership’s
commitment to safety. Here is a partial list of positive comments:

   •   Thanks for soliciting our views and recommendations
   •   I appreciate the survey; in itself, the survey demonstrates leadership commitment
   •   Good survey
   •   The fact that leadership is concerned is demonstrated by the execution of this survey
   •   Thank you for looking into this important issue
   •   Appreciate the survey; I look forward to receiving the results along with any
       recommendations
   •   Thank you for making it concise
   •   Thanks for the opportunity to participate
   •   It is terrific to see this attention to safety as evidenced by devoting a survey such as
       this to safety
   •   Thanks for asking these questions
   •   Thanks for taking this on; a critical subject
   •   I laud the effort to get leadership thoughts on safety
   •   This is an important survey, and I hope the results are shared with the Services




                                              - 65 -
                      IE-2008-006 Evaluation of the DoD Safety Program:
                                     Senior Leader Safety Survey Results




This Page Intentionally Left Blank




             - 66 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results


      4 Conclusions

4.1      Overview
This report provides results for the first part of a four-part DoD Safety perception survey.

The results can be used to assess perceptions among DoD senior leaders regarding a variety
of culture and activity-based items, to identify priority problem areas for specific action, and
to analyze differences by Flag officer versus SES member, by Service, and by organization.
The data presented in this report can also be used as a baseline to measure future progress
and verify numerical advancement in perceptions of culture-related issues in the future. If
repeated on a periodic schedule, the survey can be useful to sustain corporate visibility on
safety and serve as a planning, management, and evaluation tool.

4.2      Path Forward
We encourage DoD leaders to use these results as a catalyst and guide for making current
safety program improvements. This report identifies lower-scoring priority items and
problem areas for the organization and for various subgroups of personnel. Each priority
identified should be examined by those interpreting results using a three-step process to:
      • Investigate, discuss, and understand why the areas have been identified as lower-
        scoring priorities by survey respondents;
      • Decide whether attention to each candidate priority element aligns with the broader
        culture and strategic initiatives of the organization; and
      • Select and implement specific, action-oriented strategies as countermeasures.
In addition, we encourage DoD senior leaders take the following actions to maximize use of
survey results:
      • Communicate survey results to those identified in the initial survey population and to a
        wider distribution within DoD, as appropriate
      • Create a result interpretation team or teams with members from all Services, duty
        status, rank, and levels of command
      • Task the team(s) to further understand survey results using the three-step interpretation
        process described above, then propose action-oriented strategies
      • Review the team’s strategies and implement them with clear support
      • Measure results of the action plans and conduct the senior leader survey again, using a
        timetable determined as far in advance as possible



                                               - 67 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results



While the path forward from survey results to implementation of countermeasures should use
the survey data and input from many groups, the survey respondents’ written comments
provide a starting point for the process of translating the survey into action. The number and
quality of comments provided were extremely high. Great care should be taken by those
responsible for interpreting survey results and developing follow-up actions to allow time for
reading the comment summaries provided in this text, or preferably, for reading the
comments in their entirety in appendixes I and J of this report. They provide concrete,
insightful suggestions for improvement and observations on the status of safety issues.

4.3      List of Report Conclusions
The following are specific conclusions from the report regarding results from the Senior
Leader Survey:

      4.3.1 The overall response rate for the survey was good – 48 percent. For this
      particular target population 48 percent equates to 1,299 responses. (3.5.1.1)
      4.3.2 The response rate indicates the survey population took the survey seriously and
      considered advancing safety a worthwhile effort. (3.5.1.1)
      4.3.3 The response rate for flag officers was 10 percentage points greater than for SES
      members, indicating greater motivation to complete the survey. Possible reasons for this
      higher response rate may include: (3.5.1.1)
              a. more knowledge or background to contribute,
              b. greater perceived responsibility toward achieving the safety goals, or
              c. other motivating reasons.
      4.3.4 The e-mail mechanism for collecting information worked well and provided a
      relatively straightforward, non-intrusive method of surveying top leaders. There was no
      indication that confidentiality and anonymity were significant concerns. (3.5.1.1)
      4.3.5 Length of the survey seemed appropriate. There was no indication of a significant
      abandonment rate once respondents initiated the survey process. (3.5.1.1)
      4.3.6 It is unlikely that either extension of the survey deadline date or subsequent
      reminders would have increased response rate significantly. (3.5.1.1)
      4.3.7 The degree of positive response varied considerably among the 12 survey items,
      with positive response ranging from more than 95 percent for some items to less than 45
      percent for other items. This indicates good differentiation by respondents among survey
      questions. (3.5.3.1)
      4.3.8   Respondents gave very high marks to survey items dealing with believing that:


                                                - 68 -
                                                   IE-2008-006 Evaluation of the DoD Safety Program:
                                                                  Senior Leader Safety Survey Results


       a. Leaders are sincere in their efforts to ensure personnel safety.
       b. Leaders consistently demonstrate a positive commitment to personnel safety.
       c. Appropriate safety goals are set annually by the leadership.
       d. Making truly beneficial changes in the safety environment is a high priority for
       leadership.
       e. Safety is as important as mission in the organization.
Nearly all of these items with highest marks are broad culture-related issues. It is clear
leaders believe the climate is in place to make any necessary changes to support safety.
(3.5.3.1)
4.3.9 About 80 percent of respondents agreed that implementing successful
organization best practices in safety is one of the most effective ways to bring about
change. This should be viewed as affirmation for the best practices approach to
identifying potential program items, practices, and countermeasures. (3.5.3.1)
4.3.10 Three survey items had 35 percent or more neutral response. These items dealt
with supervisors considering safety performance when rating their personnel, good
cooperation existing across the Services on safety-related issues, and safety funding
being adequately represented in the budget process. If elevated levels of neutral
responses are due to lack of knowledge about these issues, that lack should not be seen as
an acceptable justification. Not only should activities be undertaken to support safety,
they should be important enough to be emphasized so they are known to exist, or at least
perceived to exist, by all personnel. (3.5.3.1)
4.3.11 Of the 12 survey items, 2 were scored substantially higher than others, with 4
items in the midrange, and 6 items scored substantially lower. (3.5.4.1)
4.3.12 Highest ratings were given to items dealing with leadership sincerity and
positive commitment to ensure personnel safety. Midrange items dealt with appropriate
safety goals being set, change being a priority for leadership, safety being as important as
mission, and acceptance of the best practices approach. (3.5.4.1)
4.3.13 Less positive responses were given to items concerning adequate resources being
given to leadership to manage and support safety programs, supervisors considering
safety performance when rating their personnel, good cooperation existing across the
Services on safety-related issues, and refusal to accept that accidents and mishaps will
occur. These items should be viewed as potential target areas for improvement,
especially in comparison to the strongly positive responses given to other survey items.
(3.5.4.1)
4.3.14 The least positive scores on the survey were given to the following items: belief
that decreasing the DoD accident and mishap rate by 50 percent over the next 2 years is


                                          - 69 -
                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                 Senior Leader Safety Survey Results


achievable; and safety funding being adequately represented in the budget process.
These items had less than 50 percent positive response and more than 20 percent negative
response, thus each should be viewed as a strong target for improvement efforts.
(3.5.4.1)
4.3.15 The two items on the survey with the highest average response scores were also
scored extremely high when compared with responses from other organizations in the
NSC database. These items dealt with leadership sincerity and positive commitment
regarding personnel safety, and received percentile scores of 100 and 99, respectively. It
is clear that these items were strengths not only within DoD, but also compared to outside
organizations. (3.5.5.3)
4.3.16 Two additional items with midrange responses compared to other survey items
also received comparison percentile scores in the 90s. These items addressed safety
being as important as mission in the organization and appropriate safety goals being set
annually by leadership. These results indicate ratings for DoD survey items that were in
the midrange when compared with other DoD survey responses were still rated extremely
high when compared with outside organizations. (3.5.5.3)
4.3.17 Three other survey items had relatively lower percentile scores of 85 and below,
including supervisors considering safety performance when rating their personnel, good
cooperation existing across the Services on safety-related issues, and leadership
providing adequate resources to manage and support safety-related programs. While
analysis of average response scores for these items indicated they should be targets for
improvement, comparison with outside organizations reinforced that conclusion.
(3.5.5.3)
4.3.18 Special attention should focus on the item regarding whether leaders provide
adequate resources to manage and support safety-related programs. Not only did this
item receive a low average response score, it was significantly lower than other items
when compared with outside organizations, achieving a percentile score of only 55.
(3.5.5.3)
4.3.19 Perceptions for the survey were higher for responding Flag officers compared to
their SES member counterparts with overall average response scores of 0.88 versus 0.72,
respectively. This difference is not extreme, but should be investigated to determine why
SES member perceptions are lower and what countermeasures might be applied
specifically to the SES group. (3.5.6.1.1)
4.3.20 For individual survey items, differences between the Flag officer group and SES
group mirrored the overall differences with the exception of 4 survey items: (3.5.6.1.1)




                                         - 70 -
                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                 Senior Leader Safety Survey Results


        a. For items pertaining to good cooperation existing across Services on safety-
        related issues and safety funding being adequately represented in the budget
        process, perceptions of the two groups were nearly identical.
        b. For items pertaining to refusal to accept that accidents and mishaps will occur
        in the DoD line of work and belief that decreasing the accident and mishap rate
        by 50 percent over the next 2 years is achievable, perceptions of the SES group
        were actually more positive than Flag officer group.
4.3.21 Investigation into reasons for differences in responses between Flag officers and
SES members should address why the pattern of responses for these 4 items varied from
the overall. A possible explanation may be that SES members are more involved with or
responsible for activities that occur across Services or in budgeting and funding
activities, and therefore are more likely to have favorable responses for items concerning
these activities. Likewise, SES members may have higher expectations regarding the
potential for accident prevention than Flag officers who face risk management decisions
in their line of work on a more frequent basis. (3.5.6.1.1)
4.3.22 Reasons for these differences should be investigated with a goal of sharing
viewpoints and expectations of each group, and for tailoring of subsequent interventions,
actions or countermeasures to the specific personnel subgroups. Dialogue between
groups to share viewpoints will facilitate obtaining a clearer picture of the accident and
mishap problem for DoD, and should result in decreasing differences in perceptions.
(3.5.6.1.1)
4.3.23 Perceptions for the survey were highest for Air Force, with an overall average
response score of 0.87, followed closely by Army and Navy with average response scores
of 0.86 and 0.83, respectively. Non-Service Civilian and Marine Corps had lower
perceptions, with average response scores of 0.68 and 0.65, respectively. These
differences are not extreme, but should be investigated to determine why perceptions are
lower for the Non-Service Civilian and Marine Corps groups and what countermeasures
might be applied specifically for these two groups. (3.5.6.2.1)
4.3.24 Air Force had the highest perceptions overall, as well as for 6 of the 12 survey
items. However, they had relatively lower perceptions on 2 survey items regarding
cooperation among the Services and refusal to accept that accidents and mishaps will
occur. (3.5.6.2.1)
4.3.25 Army had the second highest perceptions overall, but scored particularly low
regarding belief that a 50 percent reduction in the accident and mishap rate is achievable
and regarding safety funding in the budget process. (3.5.6.2.1)
4.3.26 Navy had the third highest perceptions overall, but scored particularly high
regarding acceptance of the best practices approach, refusal to accept that accidents and


                                         - 71 -
                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                 Senior Leader Safety Survey Results


mishaps will occur, and belief that a 50 percent reduction in the accident and mishap rate
is achievable. (3.5.6.2.1)
4.3.27 Marine Corps had the lowest perceptions for the survey and for 6 of the 12
survey items. However, they had the highest perceptions regarding change being a high
priority for leadership and regarding good cooperation across the Services on safety-
related issues. (3.5.6.2.1)
4.3.28 Non-Service Civilians had the second lowest perceptions overall, but had the
lowest perceptions regarding 5 survey items. It may be that non-service civilians are not
as aware of these issues or that they perceive those in the Services to be more responsible
for these activities. (3.5.6.2.1)
4.3.29 Investigation into reasons for differences in responses among the different
Services should address why the pattern of responses for certain items varied from the
overall. Reasons for the overall differences by subgroup and the variations for individual
items should be investigated with a goal of sharing viewpoints and expectations of each
Service and for tailoring of subsequent interventions, actions or countermeasures to the
specific Service subgroups. Dialogue among the Services to share viewpoints will
facilitate obtaining a clearer picture of the accident and mishap problem for DoD, and
should result in decreasing differences in perceptions among the Services. (3.5.6.2.1)
4.3.30 Perceptions for the survey were highest for guard respondents, with an overall
average response score of 0.98, followed closely by active and reserve respondents with
average response scores of 0.87 and 0.83, respectively. Civilian respondents had the
lowest perception, with an average response score of 0.71. These differences are not
extreme, but should be investigated to determine particularly why perceptions are lower
for the civilians. (3.5.7.1)
4.3.31 Guard had the highest perceptions overall and for 8 of the 12 survey items.
However, they had relatively lower perceptions on 2 survey items regarding leadership
sincerity in safety efforts and leadership consistently demonstrates positive commitment
to safety. (3.5.7.1)
4.3.32 Active Duty had the second highest perceptions overall, but scored particularly
high regarding leadership demonstrates commitment, change being a priority for
leadership, and safety being as important as mission. However, active respondents
scored particularly low regarding belief that a 50 percent reduction in accidents is
achievable. (3.5.7.1)
4.3.33 Reserve had the second lowest perceptions overall, but scored particularly high
regarding leadership sincerity in safety efforts. However, they had the lowest responses
of any group regarding refusal to accept that accidents and mishaps will occur and safety
funding in the budget process. (3.5.7.1)


                                         - 72 -
                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                 Senior Leader Safety Survey Results


4.3.34 Civilians had the lowest perceptions for the survey and for 9 of the 12 survey
items. Consideration should be given to determine whether these items are scored lowest
by civilian respondents because they lack knowledge compared to the other duty status
groups. (3.5.7.1)
4.3.35 Investigation into reasons for differences in responses among these duty status
groups should address why the pattern of responses for certain items varied from the
overall. Reasons for the overall differences by subgroup and the variations for individual
items should be investigated with a goal of sharing viewpoints and expectations of each
duty status group and for tailoring of subsequent interventions, actions or
countermeasures to the specific duty status subgroups. Dialogue among duty status
groups to share viewpoints will facilitate obtaining a clearer picture of the accident and
mishap problem for DoD, and should result in decreasing differences in perceptions.
(3.5.7.1)
4.3.36 Air Force-Guard had the highest perceptions overall of any specific categories/duty
status subgroup, with an overall average response score of 1.02, followed by Army-Guard,
Air Force-Active, and Navy-Active, with averages response scores of 0.95, 0.92, and 0.91,
respectively. Air Force-Civilian had the lowest perceptions, with an average response score
of 0.60, followed by Marine Corps-Active, Non-Service Civilian, Navy-Civilian, and
Marine Corps-Civilian, with scores of 0.62, 0.68, 0.75, and 0.78, respectively. In general,
Marine Corps and Civilian subgroups had the lowest perceptions, while 3 of the top 5
subgroups were Air Force. Disparity among scores from highest to lowest scoring
subgroups was fairly large. (3.5.8.1)
4.3.37 Almost all of the 12 survey items were scored highest by the Air Force- Guard,
Army-Guard, or Air Force-Active subgroups. The only exceptions were regarding
refusal to believe that accidents and mishaps will occur, which was scored highest by
Navy-Active, and regarding safety goals being set by leadership and belief in best
practices, both of which were scored highest by Navy-Reserve. (3.5.8.1)
4.3.38 Almost all of the 12 survey items were scored lowest by the Air Force-Civilian,
Marine Corps-Active, or Non-Service Civilian subgroups. The only exception was
regarding good cooperation existing across the Services which was scored lowest by
Navy-Reserve. (3.5.8.1)
4.3.39 Particular attention should be paid to the Air Force-Civilian subgroup. They
scored lowest in perceptions of all the Service subgroups and contrasted with the other 3
Air Force subgroups, all of whom scored comparatively high. Reasons for the disparity
should be investigated. (3.5.8.1)
4.3.40 Investigation into reasons for differences in responses among these subgroups
should address why the pattern of responses occurred. Reasons for the overall
differences by subgroup and the variations for individual items should be investigated


                                         - 73 -
                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                 Senior Leader Safety Survey Results


with a goal of sharing viewpoints and expectations of each categories/duty status
subgroup and for tailoring of subsequent interventions, actions or countermeasures.
Dialogue to share viewpoints will facilitate obtaining a clearer picture of the accident and
mishap problem and should result in decreasing differences in perceptions. (3.5.8.1)




                                         - 74 -
                                                               IE-2008-006 Evaluation of the DoD Safety Program:
                                                                              Senior Leader Safety Survey Results



Appendix A – Source Documents
Secretary of Defense Memorandum: “Reducing Preventable Accidents”


                                    TIW        RFTARV OF DEFENSE
                                          1000 DEFENSE PENTAGON
                                       WAHINGT0N DC 20301.1000



                                                                              My 19, 2003


         MEMORMDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
                        CHAIRMAN OF THE JOINT CHIEFS OF STAFF
                        UNDER SECRETARIES OF DEFENSE
                        DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
                        ASSISTANT SECRETARIES OF DEFENSE
                        GENERAL COUNSEL OF TILE DEPARTMENT OF
                          DEFENSE
                        INSPECTOR GENERAL OF THE DEPARTMENT OF
                          DEFENSE
                        DIRECTOR, OPERATIONAL TEST AND EVALUATION
                        ASSISTANTS TO TIlE SECRETARY OF DEFENSE
                        DIRECTOR, ADMLNISThATION AND MANAGEMENT
                        DIRECTOR, FORCE TRANSFORMATION
                        DIRECTOR, NET ASSESSMENT
                        DIRECTOR, PROGRAM ANALYSIS AND EVALUA1ION
                        DIRECtORS OF THE DEFENSE AGENCIES
                        DIRECtORS OF THE DOD FIELD ACTIVITIES

         SUBJECT       Reducing Preventable Accidents

                World-class organizations do not tolerate preventable accidents. Our accident rates
         have increascdreccntly, and we need to turn this situation around.! challenge all of you
         to reduce the number of mishans and accident rates bvat least 50% in the next two veers.
         These goals are achievable, and will directly increase our operational readiness. We owe
         no less to the men and women who defbnd our Nation.

                I have asked the Under Secretary of Defense for Petaonnel and Readiness to lead a
         department-wide effort to focus our accident reduction effort I intend to be updated on
         oar, ewneresa rnufinelv The USD(P&R will orovide detailed instructions in senarate
         correspondence.




                                                    *                           U069 16-03



                                                                                                      Appendix A-1


                                                    - 75 -
                                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                 Senior Leader Safety Survey Results




Defense Safety Oversight Council Charter



                            DEFENSE SAFETY OVERSIGHT COUNCIL CHARTER


       I.   ESTABLISHMENT, PURPOSE AND SCOPE
            A. ESTAHLISHMFYcI

          The Deputy Secretary of Defense established the Defense Safety versight Council in July
       2003. herein referred to as the Council. The Charter delineates the Councils membership, and
       ,.....:r..
         pVLIl .s..
                  UIV
                                             _.j pIOcUWCS.
                             VI 4cIIS IIIS dilU       ,___.


               Pt pos

            The Council will provide governance on DoD-wide efforts to reduce preventable mishaps.

               Sco       OF ACTIVITY

            The Council shall:

                 1. Review accident and incident trends. ongoing safety initiatives. private sector and
                 other governmental agency best practices. and make recommendations to the Secretary
                 of Defense for safety improvement policies. programs. and investments.

                 2 The Council will establish and monitor metrics to reduce DoD accidents and
                 injuries by 75% of the FY 2002 levels for each Military Department and the Defense
                 Agencies by the end of FY 2008.

                 3. Assess, review and advise on improving all aspects of the coordination, relevance.
                 efficiency, efficacy, timeliness and viability of existing DoD-wide safety and injury
                 preention information management systems.

                 4.     Promote the dcvclopment and implementation of safety initiatives including:
                           Employing proven safety technologies; and
                           Applying systems safety for acquisitions and operations, to improve mission
                           success as well as preserve human and physical resources throughout DoD.

                 5. Oversee Council committees, receive regular progress reports on thc status of
                 approved action plans, serve as the approval authority for actions proposed by Council
                 committees. and endorse appointment letters for committee chairs and members
                 through their chain of command.

                 6. Coordinate with other federal agencies and industry leaders, to facilitate
                 communication, coordination, and integration of best practices into DoD planning.
                 development and implementation of initiatives and programs.

                 7. Support research to improve human performance andlor sustainment, safety training
                 and education standardsiprocedurcs. and equipment.



                                                                                                    Appendix A-2


                                                         - 76 -
                                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                             Senior Leader Safety Survey Results




Defense Safety Oversight Council Charter



       11. ORGANIZATION

               Thc Defense Safety O"crsight Council shall include committees, task fortes and work
       groups appointed by the Council. Each task force formed under this Council will submit a
       charter to the Council for approval. These charters will receive an annual review by the Council.

              The Under Secretary of Defense for Personnel and Readiness will chair this Council.

          C. The Council shall have overall responsibility for the implementation of this Charter, The
       Council shall consist of the principals and associate members. The principal members include
       the following:

              Under Secretary of Defense for Personnel and Readiness (as Chair)
              Under Secretary of Defense for Acquisition. Technology, and Logistics
              Under Secretary of Defense (Comptroller)IChief Financial Officer
              Vice Chairman of the Joint Chiefs of Staff
              ?tSISt4IlI    crir      UI 1JC&flSV IUr 1-lealta       iiiair
              Under Secretary of the Arms
              Under Secretary of the Navy
              Under Secretary of the Air Force
              Vice Chief of Staff of the Army
              Vice Chief of Staff of the Air Force
              Vice Chief of Naval Operations
              fl33lta1n, .,u,ILI IaLIuaI It Ut UIC vIal IIIC    UI


       The associate members will attend meetings of the DSOC when matters undcr their cognizance
       are addressed. Associate members include the following:

              Deputy Inspector General of the I)epartment of Defense (Inspections and Policy)
              Deputy Under Secretary of Defense (Installations and Environment)
              fl..n,,tv I n,1...r Z,.rr,.tnn, nf t.f,.,,c.. il..ns4.n,.cc
              Deputy Under Secretary (Civilian Personnel Policy)
              Deputy Under Secretary of Defense (Resource PlanningfManagcmcnt)
              Deputy Director (Administration & Management)
              Deputy Assistant Secretary of Defense (Clinical & Program Policy)

          D. The Director. Readiness Programming and Assessment. will serve as the Executive
       Scritirv fnr th.' Council

       Ill. PROCFDURS
           A. The Chair will convene the Council as needed, but at least semi-annually. All
       committees, task forces and work groups shall keep the Council current on all their respective
       actions.

           B. The Council Chair will regularly brief the Senior Executive Committee on all Council
       actions and recommendations.



                                                                                                              Appendix A-2


                                                               - 77 -
                                                               IE-2008-006 Evaluation of the DoD Safety Program:
                                                                              Senior Leader Safety Survey Results




Defense Safety Oversight Council Charter




          C. The Councd Chair will report for thc Council to the Secretary through the l)eputy
       Secretary as appropriate. The Council Chair may amend this charter as necessary to accomplish
       the Councils mission.

          D, Budgetary requirements and administrative support for the Council will be coordinated
      by the Chair.

          E. The Council Chair will ensure that communication of all activities will occur throughout
       DoD. The Executive Secretary will maintain historical documentation of accomplishments and
       recommendations.

        F. The Council will operate in accordance with DoD Directive 5105.18. 'DoD Committee
      Management Program. February 8. 1999.

       IV. DURATION OF COMMITIEE
      The Charier will conhinuc until amended, superseded, or reokcd.




                                                             //7.




                                                                                                 Appendix A-2



                                                    - 78 -
                                             IE-2008-006 Evaluation of the DoD Safety Program:
                                                            Senior Leader Safety Survey Results




FY 06-11 Strategic Planning Guidance – Unclassified Extract

   Workplace Safety (U)

    (U) Every lost workday due to injury reduces available end
    strength, adversely affects force readiness, and diverts funds
    that could be used for other military priorities. The Secretary of
    Defense’s current goal is to reduce accidents by 50 percent in
    FY 2005 over the FY 2002 baseline. Components will continue
    safety initiatives to achieve a net decrease of 75 percent from
    the baseline by FY 2008.




                                                                                 Appendix A-3

                                    - 79 -
                                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                 Senior Leader Safety Survey Results




Announcement Memorandum


                                         INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                      ARLINOTUN, VIR(IN1A ?2)2-4fU4




       1nCP        rrmir 1flP ITMnPRcrPrTAPV 1W flPPP?T1 (C'(MW1RC1 i: PR/
                                CHIEF F[NANCIAL OFFICER
                               UNDER SECRE1ARY OF DE1'LNSE IOI( PEHSUNNEL
                                AND READINESS
                               DEPUTY UNDER SECRETARY OF DEFENSE FOR
                                        I tLLtt I ILfl'4 A Kifl £tN
                                 fl..TC'fl' Al I A I'T#ThXTC' ttLNLI
                                 L1N
                                                                     EXTXtlflflT1t1.TP
                                                                       V ILIJiNiVLLi' I
                               DIRECTOR, JOINT STAFF
                               INSPECTOR GENEBAL OF THE ARMY
                               NAVAl 1NSPP1'Tñ1 GFNF1AL
                               INSPECTOR GENERAL OF THE AIR FORCE
                                 INSPEUIUI( UJKAL Ut 1hMAKNt,UtitU
                                 GENERAL ACCOUNTABiLITY OFFICE
                                 DEFENSE SAFETY OVERSIGHT CO'JNCIL

     SUBJECT:       Evaluation of DoD Safety Program (D2005-DIPOE2 .0051)

               We will begin the evaluation in November 2004. The Deputy Under Secretary of
     Defense for Readiness (DUSD(R)) and the Deputy Under Secretary of Defense for
                        A
     IiIrnirnLLv11. .21111 LdIVIIWLIIILILL (1  TeTh(1Pn\
                                           kLJU1J)                       t1-.
                                                   1.qLa.aL...s 1111.2 }J1%JJ%.#l./L. Th.
                                                                                      1111.2 %J1.'A-,-.11
                                                                                                    1111

     objective is to develop a roadrnap for overcoming identified challenges to improve the
     effectiveness of the DoD safety program. We will identify the best safety practices
     within Doll

             wepitn LU VISILUIeUIILULLIJUL) !I1SU1IU1LIUIIS,          1Vi   I1U1UtJV1 IULLLILLWLU
     headquarters, and elements of the Office of the Secretary of Defense responsible for
     safety. We will also collaborate with other Federal agencies such as the Department of
     Pnra Nitirrn1 Trnnnrtticn Siftv Rnrd Ntnnl Safety Cniincil and
     Occupational Safety and Health Administntion. Additional locations may be identified
     during the evaluation. We will provide a series or interim bnetlngs, management Icuers,
     and reports to DUSD(R), DUSD(I&E), arid appropriate commands during our evaluation.

            D1itt't r thi                                   i1iiitnn tn ('r1 Pnrrt R cniter it
     (703) 604-9120, e-mail address (fsprester(dodi.osdmil) or Dr. Sardar Q. Hassan at
     (703) 604-9146, e-mail (shassan(a)dodig.osd.miI)




                                                      4sen       in     ector Genra1
                                                         for Insp'ections and Policy


                                                                                                      Appendix A-4


                                                      - 80 -
                                                                   IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                  Senior Leader Safety Survey Results




Secretary of Defense Memorandum: Reducing Preventable Accidents

                                    THE SECRETARY OF DEFENSE
                                           1000 DEFENSE PENTAGON
                                        WASHINGTON, DC 20301-1000

                                                                                        JUN 22 3O6


      MEMORANDUM FOR SECRETARJES OF THE MELITARY DEPARTMENTS
                     CHAIRMAN OF THE JOINT CHIEFS OF STAFF
                     COMMANDERS OF THE COMBATANT COMMANDS
                     SERVICE CHIEFS


       UBJkA- I: Keaucing 'revCntabf C Accløeflts

              I have set some very specific mishap reduction goals for the Department to achieve.
      My congratulations to those who are progressing toward their respective goals, but others are
      not. We must rededicate ourselves to those goals - and achieve them.

             Too often we excuse mishaps by citing the difficult circumstances in which we
      operate. We have trained our men and women to oeerate safely in very trvin2 conditions.
      There is no excuse for losmg lives given proper planning, attention to detail, and the active
      involvement of the chain of command.

             Accountability is essential to effective leadership. I expect all the Departments
      leaders, from the Commander to the first line supervisors, to be accountable for mishaps
      under their watch. We simply will not accept status quo.
              ic.Vfl.. II%.l..0 (.0 (..ILUL% '.YUL LLCIUW15, LLLI}ILUVC
              Al                                                                                  ._.-._..i._
                                                                     ... OUt itiauci tat a.quiiiiuit, UI (ZIUCI (JUL
      business practices to save the precious lives of our men and women, we will do it. We will
      fund as a first priority those technologies and devices that will save lives and equipment. We
      will retrofit existing systems, and consider these devices as a "must fund priority for all new
      systems. We can no longer consider safety as "nice-to-have."

             I want to hear what you are doing to improve your safety performance and 1 want to
      see the results of your actions.




                                                      *                                        oso 9Oeceeo
                                                                                      111111 flhIIIIIlIIUl
                                                                                                      Appendix
                                                                                                            d A-5
                                                                                               900ZJ?219 c.6c:




                                                        - 81 -
                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                             Senior Leader Safety Survey Results




Under Secretary of Defense for Acquisition, Technology, and Logistics
Memorandum: Reducing Preventable Accidents

                           THE UNDER SECRETARY OF DEFENSE
                                     30t0 DEFENSE PENTAGON
                                    WASHI?4GTON. DC 20301 3010


   !CCD.00GV
   ,.c LOG YC

       MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
                      ChAIRMAN OF THE JOINT CHIEFS OF STAFF
                      CO l slANDERS OF TI IF COMBATANT COMMANDS
                      DIRECIOR. DEFENSE RESEARC1 I AND LN(iINEERING
                      DIRECTOR. OPERAI1ONAL TEST AND EVALUM1ON
                      l)IRECTOR, PROGRAM ANALYSIS ANt) EVALUATION
                      DIRECtORS OF TIlE DEFENSE AGENCIES
                      l)IRECTORS OF TILE DOl) FIEIl) ACI1VITIES

      sunJIcr: Reducing Prc cnthlc Accidents

            In response to the June 22, 2006. SECUEF memorandum. "Reducing I'rccntahlc
      Accidents." I am directing the changes belos to influcncc the entire life cycle of s stems.

             The Acquisition & l'echnulogy Programs [ask Force will develop a process to
      provide the DoD Joint Capabilities Integration and Deselopmeni System with
      recommendations that ha'e the potential to cost eflxtisely present accidents. iltese inputs
      should include all aSpCcLS of the MIL-S111-582D System Satety pruces.

             Effcctise immediately. all Acquisition Program Reviews and fielding decisions.
      regardless of the Acquisition ('atcgory. shall address the status of: each High and Serious
      risk using the MlI.-Sfl)-882D System Safcts niethJulog; and compliance with applicable
      salty technology requirements. e.g.. inscnsitic munitions. The next revision to DoDI
      5tXX).2. "Operation of the Defense Acquisition S.stem." will incorporate this change.

              DoE) Components will include in all system-relaled Class A and H mishap
      ins cstigation reports the sstcm program office analysis of haiards that contributed to the
      accident and recommendations for materiel risk mitigation measures. especially those that
      minimtze potential human errors. The next rcision to I)oI)I 6055.7. "Accident
      Ins esugation. Reporting, and Record Keeping." will incorporate this change.

            Successful implementation of these changes will contribute significantly to achies ing
      the SFCDEF's direction to reduce pies entahk accidents.




                                                                                              Appendix A-6


                                                   - 82 -
                                                            IE-2008-006 Evaluation of the DoD Safety Program:
                                                                           Senior Leader Safety Survey Results




Secretary of Defense Memorandum: Zero Preventable Accidents


                                    THE SECRETARY OF DEFENSE
                                         1000 DEFENSE PENTAGON
                                        WASHINGTON, DC 20301-1000
                                                                                     MAY 30


      MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
                     CHAIRMAN OF THE JOINT CHIEFS OF STAFF
                     UNDER SECRETARIES OF DEFENSE
                     ASSISTANT SECRETARIES OF DEFENSE
                     GENERAL COUNSEL OF THE DEPARTMENT OF DEFENSE
                     nrnr'r,mnn
                     !JIIWI1IJX,CYflfl S. 'rTr'.'Kr AT 'TFi("T'
                                  Jt1S./t1LIJLN!%L              S. kin CTA
                                                          II l--LNL/       I I r'. 'T'fflKI
                                                                        vtL'JrI1.-'I
                     INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE
                     ASSISTANTS TO THE SECRETARY OF DEFENSE
                     DIRECTOR. ADMINISTRATION AND MANAGEMENT
                     DIRECTOR, PROGRAM ANALYSIS AND EVALUATION
                     DIRECTOR, NET ASSESSMENT
                     DIRECTORS OF THE DEFENSE AGENCIES
                     DIRECTORS OF THE DOD FIELD ACTIVITIES

      SUBJECT: Zero Preventable Accidents

             I am committed to reducing preventable accidents as one of the cornerstones of the
      Department of Defense's Safety Program. Consistent with the President's Safety, Health,
                                    it,., a n'r' ,!.-------it ------a          .._-.fl...
      anu iteturn- i o-.mpioymenL i-ij.zc imuauvc, i nave et soiHe vciy pciin iiii1ij!
      reduction goals for the Department. We are focused on closely monitoring our most pressing
      mishap areas: civilian and military injuries, aviation accidents, and the number one non-
      combat killer of our military, private motor vehicle accidents.

             We can no longer tolerate the injuries, costs, and capability losses from preventable
      accidents. Accidents cost the Department about $3 billion per year, with indirect costs up to
      four times that amount. We have made progress in reducing aviation accidents and civilian
      lost work days, but have much more to do to address military injuries and private motor
      vehicle fatalities. Our goal is zero preventable accidents, and I remain frilly committed to
      achieving the 75% accident reduction target in 200S.

            The vurrent focus of our Safety Council is on increasing the accountability of
                     1..A...... -   .....11 ...                          A               ,.n
      leadership are key to an effective safety program. I urge you to continue to emphasize safety
      in the workplace and hold leaders accountable for their safety programs. Your efforts will
      make the Department a safer place to work, and more capable of defending the Nation and
      her interests. We have no greater responsibility than to take care of those who volunteer to
      serve.




                                                                                     OSD 07919-07

                                                                              uiuliIIlI111cIMI
                                                                                       Appendix A-7
                                                                                    5f31I2OJ7 9   40 AM




                                                   - 83 -
                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                     Senior Leader Safety Survey Results



Appendix B – Scope and Methodology
Scope. This is one of four reports by the DoD Office of Inspector General (DoD OIG)
documenting perception survey results. The purpose of this report was to evaluate the DoD
active duty members’ perception of safety, and to establish a baseline for future reviews. The
survey was designed and administered with the support of the National Safety Council (NSC).

Work Performed. The DoD OIG safety evaluation team, in conjunction with the NSC,
designed, developed, administered, and analyzed results of the DoD safety perception
surveys. This senior leader survey was designed to assess the overall DoD safety climate as
perceived by all Flag Officers and Senior Executive Service members. The survey was
deployed to a population of over 2900 DoD senior leaders. One hundred percent of the
senior leader population received the survey.

Seven questions on the survey were from prior NSC questionnaires with the wording slightly
adjusted to more clearly communicate using DoD terminology. Additionally, the DoD OIG
developed questions to address specific safety issues such as the Secretary of Defense 50
percent accident reduction goal.

The DoD OIG, with assistance from the NSC, analyzed the results and produced charts,
tables, and this report. Also, the DoD OIG has provided a series of results briefings to senior
leaders within the Office of the Secretary of Defense, Service staff offices, Service
Secretariats, Service Safety Centers, and others. These briefings were part of the OIG’s
constructive engagement process to provide DoD leaders with timely safety information as it
was identified.

All survey questions were reviewed by DoD OIG Inspections & Evaluations and vetted
through:
           • The National Safety Council
           • The Defense Manpower Data Center
           • The DoD OIG Quality Management Division

This report is intended to provide the Office of the Secretary of Defense a general program
analysis. Detailed analysis of Service, Defense Agencies, or other DoD subordinate
organization safety programs is beyond the scope and intent of this report.

The Team and the NSC performed the survey and analysis between January and August
2005. The OIG evaluation team performed the evaluation in accordance with the Quality
Standards for Inspections, the President’s Council on Integrity and Efficiency, January 2005.




                                             - 84 -
                                                                  IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                 Senior Leader Safety Survey Results


  Appendix C – DoD Senior Leader Survey Form and Letters




                               DoD Senior Leadership
                                     Survey
                   Access             l
                   Code:

         The folio wmg 12 questions deal with leadership and safety. Please answer the
         questions by clicking on the appropriate button. At tile end of the survey,
         please type your comments to (he questions n (lie two blocks provided.
         When responding, consider only the conditions at your current organization
         assigned. Thaik you for your participation in tills important effort
         01 I believe leadership is sincere in its             rrngi                             Stronyty
            efforts to ensure personnel safety.               Are Agree         Neu1ril Dsagree Disagree
                                                                r          r       r         r         r
         Q2 Appropriate safety goals are set annually rongfry                     Strongly
            by leadership.                            Ayee Agree Neutral Dsagree Disagree
                                                                           r       r         r         r
         Q3 Leadership consistently demonstrates a             rorig/                             Strongly
            positive commitrnentto personnel                  Atre       Agree t'Jeutral Disagree Disagree
              safety.                                           r          r       r         r         r
         04 Supervisors consider safety                       9rongly                            Strongly
             performance when rating their                    Agree      Agree Neutral Disagree Disagree
              personnel                                                                      r         r
         05 Safety takes a back seat to mission in            Strt,ng4'                      Sfrongly
             our organization.                                 Agree Agree Neutral Disagree Disagree
                                                                r          r       r                   r
         06 Safety fundng is adequately represented 'rong4'                                     Strorg!y
              in the budget process                           Agree      Agree Neutral Disagree Disagree
                                                                                   r         r         r
         QT Decreasing the DoD accident and                    rOrPQ4'                             Strongly
            mishap rate by 50% over the next two              Area       Agree Neulral Disagree Disagree
            years is achievable                                 r                  r
         08 Making truly beneficial changes in our             rOng4'                             Strongly
             safety environment is a high priority for        Agree Agree       Neutral Disagree Disagree
              leadership                                        r                            r         r


http /fwww nsc org/urveyId   jgenera1_se2r htn                                                             OO5




                                                     - 85 -
                                                                      IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                     Senior Leader Safety Survey Results
                                                                                                               Page? o13



         09 Implementing successful organizations'
             "Best Practices" in safety is one of the Strongly                      Strongly
             most effective ways to bring about        Agree Agree Neutral Disagree Disagree
              change,                                                r         C         C       C             C

         OlOGood cooperation exists across the                    Strongly                            Strongly
            Services on safety-related issues.                     Agree Agree       Neutral Disagree Disagree
                                                                     C         C         C       C             C

         OliLeadership has provided adequate                      Strongly                            Strongly
              resources to manage and support saFety- Agree                  Agree   Neutral Disagree Disagree
              related programs.                          r                     r         r        r            r
         012 We have to accept that accidents and                 Strongly                      Strongly
             mishaps wilt occur in our line of work.               Agree Agree Neutral Disagree Disagree
                                                                     r         r         r        r            r
                                                Demographics
                   Rank
                                                                                                [-Click Here

                   Service
                                                                                             kChIck Here..          :1
                   UFdFliLdtIfJlI MSSItJTlU
                                                                         I-C1cK Here--                              zi
                   I you were to suggest one action that would improve satety in DoD. what
                   would it be?
                                                                        -d




                   Please provide any other general comments you may have:




Ifltp:/ww%.ILcc.org/suncys/dodjlgeneral_se%2c.htm?#U##                                                             2005




                                                         - 86 -
                                                                       IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                      Senior Leader Safety Survey Results
                                                                                                             Page 3 o13




                                  Thank You For Your Feedback
                        Please click submit button below after completing this survey


                                                    Dcccl    I      ,*wv* I




http://www.nsc. org/surveys/dod/jtgeneral_ses2c.htm?####                                                      2005




                                                           - 87 -
                                                                                IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                               Senior Leader Safety Survey Results




From: D) Inspectcw GeraI[mam:stysurvedmiI]
Sent: Ma'iday, A'iI 11, 200529PM
To:
Suhlet: DoD IG Loatershç S&rvey




      9            INSPECTOR GENERAL
                   DEPARTMENT OF DEFENSE
                   4(1) ARMY NAVY CP/E
                   ARUP1)T014, VIPOIN4A 222024 704

      H EMORAN(IJM FOR OEPERAL AND FLAO OFFICERS AND HEM BERS OF THE SEMOR EXECIJTWE SERVICE OF TH
      DEPARTMENT OF DEFENSE


      SUBJECT DoD Seni      Leadrstp Sirey

      The Cepartn-ent or Derense Oe of Inspector Genera is e'aJating the DeD s-afep'ogri, i, rescese to Ire Secretary of
      De(ens.e nrrCridui11, Reckicirç Pre'er*Ie Acidents, dated Hay 19, 2003, to re& e the Departrrents cidents id rrusJiaps
      by 50 percent ,Thr 2 years As part tPis e'ajaticji, reqi* th you personally participate , an arcnyrYojs, Web-based
      survey, a&runrstered by tP* Natic,ial Sety C cunc (NSC)

      Within the rerl 5-7 days. the NSC wi send yj an enI exarin9 the ,*.re-y and ovide you a jryey cess code Please
      prtPy cOn- tetrs strey Yjr cancid respo-rseswe ensure acci.,ate and use(ii recorrirend1nsto n-çre the
      Depa,trrents s-aety rutiatres aid, thereby, n-jo'e rr.ssn reiiness

      If you ha'e any ueions. pase colal Hr Wm Brem MOrrisQ, my As1ai1 lnWectce General for Inspechens and Evuons,
      at 103-604-9151 (tEN 664-9151) or                   urcsl n-it




      Joseph E Schrrdz




                                                                       - 88 -
                                                                                   IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                  Senior Leader Safety Survey Results




From: Natc,a Safety CiriI [ma safetys&re'©nsccrq I
Sent: frda, Ap'I 18, 2005 15:41
To:
Suhiect: DoD Learsl1(            .rvey



      Dear Sir1Mad


      We are folCwng upon the tte yj receed va ernad asl week frOm Mr Joseph Sd,wtz, the Cepartrr*r of Defense nspector
      General Mr Schn-dz dentrfled       , rrecrl,t s-4ety e'uon underw      by the Depaftmer* of Defense Ome of Inspector Gene,
      (DoD 010) One oftby flrsl slept ,n'cved r tIlt eajabc, is the coflertion of data from DoCfs senor leadership fou    re seleted
      to parliate in this fort

      The DoD 010 palnered 4th Ire Nat,craI Sly Cxinc, ai nijependel no--oernmentaI piLl sere(e oranz4On, to
      niemen1 ths s.afery e'akjat,c, sure'y Your resp,se 5 etreneey n'c,1,t for the sijccess of ttis sajre'y tool f,i(h   II be used
      to rr-rre DOD safety nhiatres Please be carijud n your anrs as all ue,Ues are confident1 The s&rey wil te
      aroxmatePy 10 irlrijtes to ccrrlete Thank you for toil participation   , tils surey to he rr,o'e s'ety in CD'


      Please cIck o, the Ink beowto beçin


      Take the survey




                 RiS$tch & StkaI Sers
      N4On Sety CincI
      1121 Sprung Lake E1re
      Nasca, IL6O143.7OI




                                                                    - 89 -
                                                                            IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                           Senior Leader Safety Survey Results




From: NataI Safety Caircil (rna         afetysssveynecorgJ
Spnt: Tuesda, AI 2& 2C5 7:32 AM
10:
Subject: D) Leaders   Sixvey


   Cer S,rWadn

   As desu,bed n a riec*js e-mal you receked, tP DOD Offre of nsctor &ener (DOD 010) has urilertaken an rrç1ant S
   euat, One ct the eps n ths press str* S.afet ssre'y of CDs senor eJersHp This is a rerrinder to tieas.e partK)ate
   mth4.i.oaai1    jrey asasps1.
   The OtO OtO pitnered      sths tatita1 8y Cjncd, e ndepender* n-oernmentaI putir sere(e orpanizrin, to
    nement ths s.aVet e'akjat,, survey Your resp&rse 5 eitremey n1a,t for the success of His survey tOo' ,uch 4I   t   used
   to in,roe DoD safety niatrees

   P'ease be cI,dud , your arrers as al dentities are cort(der*ial Tt* sur'wey we take apwoim4eIy 10 n.rutes to crIe(e Thank
   you for you partipaton i His survey to teIp irrove s-lets in CD

   P'ease cick i the nk betowto begin


   Take the survey


                Fesearch & S1ira Seres
                r4u:ral Slets CincI
                1121 Sprung Lake cere
                ItIssa, L50143-f101




                                                             - 90 -
                                                                                IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                               Senior Leader Safety Survey Results




From: D) Inspectcr Gereral[maitth:saftysurvedmil]
Sent: Tuesday May 03, 20(15 3 t)5 PI1
To:
Sub ject: DoD Senor Leersh Sxvey

                  INSPECTOR GENERAL
                  CEPARTWEPITOF DEFENSE
                  4(X) ARMY NAVY   FVE

                  ARUII3TON. VIRGINLA 22202-4704

   MEMORANX)M FOR GEtERALAND FLAG OFFICERS AND MEMBERS OF THE SEMOR EXECLJTFVE SERVICE OF THE
   DEPARTEP4T OF DEFENSE

   SUBJECT DoD Seni        Ledwstp Suvey

   The Departrrent 01 (*Iense Ins*ctor 0ener (DoD 0) has partnered     the Naticlial Sety CcncI (NSC) to in.r.ster 11w
   suIeii survey T1w lSC ernaed the webbasad strvey 10 I senr Ieaers on AiiI 19, 2(XJ5 AlTh0ui all srev respc'ises are
   aronynous jr       cess c(aJelrinU system irCc4es th we have not rece,ed sot, reply Your partI()atIce n ths 9jre is
   very irro,1ant and we hope yj can flnd a few ngiules dt,in yo bjW shecjle to Qhe usyow leJershp pspectrves

   The Offices o(tP Secretary ofOefense requed our ass*4ce to con&ct a evaLiaon f supor1 SecDefs goi to reduce
   acderls and ritsaps b 50 percent Mttun 2 yeas This sure tll be used to descrte the baselre DoD safely cJtu,e and Mll
   serve as ie of m,'v elements in the eyajati, of the CoD safely prowam YJr part,catiui and responses to the sjryey II hep
   us deelop reon-meratisto rrrove the s4y proam and rrove rrison effectreress

   The sur      nejst be corrOetod r   laterthan Mw 9, 2005

   T3ke the survey

   If   ou have any qLeions. pase citact ne at (703) 604.9151 (DSN 664-91 51)        Crrind0di osd rid




   WiiiamBremMorris,. Ill
   As9stant Inspector C'eneal
   For Inspections aid EaIiatis




                                                              - 91 -
                                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                          Senior Leader Safety Survey Results


     Appendix D – Response Frequency and Percentage
     Distributions
                                                                                                            Total      1299     100.0     100.0
Q1       Leadership sincere in efforts to ensure
                                                    Valid    Cum                 Mean          1.522      Std dev        .648      Minimum       1.000
Value Label                Value Frequency Percent Percent Percent               Maximum       4.000
                                                                                 Valid cases    1294      Missing cases      5
Strongly Agree                 1       915    70.4    70.5       70.5            -------------------------------------------------------------------------
Agree                          2       357    27.5    27.5       98.0            Q4        Supvrs consider safety when rating perso
Neutral                        3        14     1.1     1.1       99.1                                                                    Valid     Cum
Disagree                       4        11      .8      .8       99.9            Value Label                 Value Frequency Percent Percent Percent
Strongly Disagree              5         1      .1      .1      100.0
                               .         1      .1 Missing                       Strongly Agree                 1       153    11.8    11.9        11.9
                                    ------- ------- -------                      Agree                          2       503    38.7    39.0        50.9
                           Total      1299   100.0   100.0                       Neutral                        3       455    35.0    35.3        86.1
                                                                                 Disagree                       4       170    13.1    13.2        99.3
Mean          1.325      Std dev        .549      Minimum       1.000            Strongly Disagree              5         9      .7      .7       100.0
Maximum       5.000                                                                                             .         9      .7 Missing
Valid cases    1298      Missing cases      1                                                                        ------- ------- -------
-------------------------------------------------------------------------                                   Total      1299   100.0   100.0
Q2        Safety goals set annually by leadership
                                                        Valid     Cum            Mean          2.519      Std dev        .890      Minimum       1.000
Value Label                 Value Frequency Percent Percent Percent              Maximum       5.000
                                                                                 Valid cases    1290      Missing cases      9
Strongly Agree                 1       436    33.6    33.6       33.6            -------------------------------------------------------------------------
Agree                          2       631    48.6    48.7       82.3            Q5        Safety takes back seat to mission
Neutral                        3       183    14.1    14.1       96.4                                                                    Valid     Cum
Disagree                       4        41     3.2     3.2       99.5            Value Label                 Value Frequency Percent Percent Percent
Strongly Disagree              5         6      .5      .5      100.0
                               .         2      .2 Missing                       Strongly Agree                 1        22     1.7     1.7         1.7
                                    ------- ------- -------                      Agree                          2        72     5.5     5.6         7.3
                           Total      1299   100.0   100.0                       Neutral                        3       126     9.7     9.8        17.0
                                                                                 Disagree                       4       605    46.6    46.9        63.9
Mean          1.882      Std dev        .795      Minimum       1.000            Strongly Disagree              5       466    35.9    36.1       100.0
Maximum       5.000                                                                                             .         8      .6 Missing
Valid cases    1297      Missing cases      2                                                                        ------- ------- -------
-------------------------------------------------------------------------                                   Total      1299   100.0   100.0
Q3        Ldrship demonstrates positive commitment
                                                        Valid     Cum            Mean          4.101      Std dev        .909      Minimum       1.000
Value Label                 Value Frequency Percent Percent Percent              Maximum       5.000
                                                                                 Valid cases    1291      Missing cases      8
Strongly Agree                 1       709    54.6    54.8       54.8            -------------------------------------------------------------------------
Agree                          2       513    39.5    39.6       94.4            Q6        Safety funding adequate in budget proces
Neutral                        3        53     4.1     4.1       98.5                                                                    Valid     Cum
Disagree                       4        19     1.5     1.5      100.0
                               .         5      .4 Missing
                                    ------- ------- -------

                                                                                                            Total      1299     100.0     100.0

Value Label                Value Frequency Percent Percent Percent               Mean          1.886      Std dev        .782      Minimum       1.000
                                                                                 Maximum       5.000
Strongly Agree                 1        88     6.8     6.8        6.8            Valid cases    1296      Missing cases      3
Agree                          2       450    34.6    34.8       41.6            -------------------------------------------------------------------------
Neutral                        3       484    37.3    37.5       79.1            Q9        Best practices is good way to bring abou
Disagree                       4       232    17.9    18.0       97.1                                                                    Valid     Cum
Strongly Disagree              5        38     2.9     2.9      100.0            Value Label                 Value Frequency Percent Percent Percent
                               .         7      .5 Missing
                                    ------- ------- -------                      Strongly Agree                 1       334    25.7    26.0        26.0
                           Total      1299   100.0   100.0                       Agree                          2       692    53.3    53.8        79.7
                                                                                 Neutral                        3       216    16.6    16.8        96.5
Mean          2.754      Std dev        .926      Minimum       1.000            Disagree                       4        37     2.8     2.9        99.4
Maximum       5.000                                                              Strongly Disagree              5         8      .6      .6       100.0
Valid cases    1292      Missing cases      7                                                                   .        12      .9 Missing
-------------------------------------------------------------------------                                            ------- ------- -------
Q7        Decreasing rate by 50% is achievable                                                              Total      1299   100.0   100.0
                                                        Valid     Cum
Value Label                 Value Frequency Percent Percent Percent              Mean          1.984      Std dev        .774      Minimum       1.000
                                                                                 Maximum       5.000
Strongly Agree                 1       109     8.4     8.4        8.4            Valid cases    1287      Missing cases     12
Agree                          2       500    38.5    38.7       47.1            -------------------------------------------------------------------------
Neutral                        3       354    27.3    27.4       74.5            Q10       Cooperation exists across Services
Disagree                       4       283    21.8    21.9       96.4                                                                    Valid     Cum
Strongly Disagree              5        47     3.6     3.6      100.0            Value Label                 Value Frequency Percent Percent Percent
                               .         6      .5 Missing
                                    ------- ------- -------                      Strongly Agree                 1        96     7.4     7.4         7.4
                           Total      1299   100.0   100.0                       Agree                          2       459    35.3    35.6        43.1
                                                                                 Neutral                        3       600    46.2    46.5        89.6
Mean          2.736      Std dev       1.010      Minimum       1.000            Disagree                       4       123     9.5     9.5        99.1
Maximum       5.000                                                              Strongly Disagree              5        11      .8      .9       100.0
Valid cases    1293      Missing cases      6                                                                   .        10      .8 Missing
-------------------------------------------------------------------------                                            ------- ------- -------
Q8        Making changes is high priority for ldrs                                                          Total      1299   100.0   100.0

                                                    Valid    Cum                 Mean        2.607   Std dev       .794  Minimum    1.000
Value Label                Value Frequency Percent Percent Percent               Maximum     5.000
                                                                                 Valid cases  1289   Missing cases    10
Strongly Agree                 1       422    32.5    32.6       32.6            --------------------------------------------------------------
Agree                          2       655    50.4    50.5       83.1            -----------
Neutral                        3       165    12.7    12.7       95.8
Disagree                       4        53     4.1     4.1       99.9            Q11         Ldrship has provided resources to suppor
Strongly Disagree              5         1      .1      .1      100.0                                                                                 Valid
                               .         3      .2 Missing                           Cum
                                    ------- ------- -------                      Value Label                        Value     Frequency    Percent   Percent




                                                                            - 92 -
                                                                                     IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                                    Senior Leader Safety Survey Results



 Percent

Strongly Agree                 1       134    10.3    10.4       10.4
Agree                          2       649    50.0    50.2       60.6
Neutral                        3       342    26.3    26.5       87.0
Disagree                       4       153    11.8    11.8       98.8
Strongly Disagree              5        15     1.2     1.2      100.0
                               .         6      .5 Missing
                                    ------- ------- -------
                           Total      1299   100.0   100.0

Mean          2.432      Std dev        .872      Minimum       1.000
Maximum       5.000
Valid cases    1293      Missing cases      6
-------------------------------------------------------------------------
Q12       We have to accept that accidents will oc
                                                        Valid     Cum
Value Label                 Value Frequency Percent Percent Percent

Strongly Agree                 1        62     4.8     4.8        4.8
Agree                          2       328    25.3    25.4       30.2
Neutral                        3       158    12.2    12.2       42.4
Disagree                       4       536    41.3    41.5       83.8
Strongly Disagree              5       209    16.1    16.2      100.0
                               .         6      .5 Missing
                                    ------- ------- -------
                           Total      1299   100.0   100.0

Mean          3.388      Std dev       1.165      Minimum       1.000
Maximum       5.000
Valid cases    1293      Missing cases      6
-------------------------------------------------------------------------
Q13       Rank
                                                        Valid     Cum
Value Label                 Value Frequency Percent Percent Percent


O-7 and Above                  1       835    64.3    64.7       64.7
SES                            2       456    35.1    35.3      100.0
                               .         8      .6 Missing
                                    ------- ------- -------
                           Total      1299   100.0   100.0

Mean          1.353      Std dev        .478      Minimum       1.000
Maximum       2.000
Valid cases    1291      Missing cases      8
-------------------------------------------------------------------------
Q14       Service
                                                        Valid     Cum
Value Label                 Value Frequency Percent Percent Percent

Army-Active                    1       231    17.8    17.9       17.9
Army-Guard                     2        83     6.4     6.4       24.3
Army-Reserve                   3        79     6.1     6.1       30.4
Army-Civilian                  4        92     7.1     7.1       37.6
Navy-Active                    5       113     8.7     8.8       46.3
Navy-Reserve                   6        18     1.4     1.4       47.7
Navy-Civilian                  7       112     8.6     8.7       56.4
Air Force-Active               8       185    14.2    14.3       70.7
Air Force-Guard                9        52     4.0     4.0       74.7
Air Force-Reserve             10        19     1.5     1.5       76.2
Air Force-Civilian            11        63     4.8     4.9       81.1
Marines-Active                12        62     4.8     4.8       85.9
Marines-Reserve               13         5      .4      .4       86.3
Marines-Civilian              14        11      .8      .9       87.1
DoD-Civilian                  15       166    12.8    12.9      100.0
                               .         8      .6 Missing
                                    ------- ------- -------
                           Total      1299   100.0   100.0

Mean          6.772      Std dev       4.605      Minimum       1.000
Maximum      15.000
Valid cases    1291      Missing cases      8
-------------------------------------------------------------------------
Q15       Org. Assign.
                                                        Valid     Cum
Value Label                 Value Frequency Percent Percent Percent

OSD Staff                      1        64     4.9     5.0        5.0
JSC Staff                      2        29     2.2     2.3        7.3
DoD Agencies                   3        93     7.2     7.3       14.6
COCOM and other JC             4        83     6.4     6.5       21.1
Service Secretariat            5        78     6.0     6.1       27.2
Service HQ Staff               6       174    13.4    13.6       40.8
MAJCOM/MACOM/CLAIMAN           7       189    14.5    14.8       55.6
Major Subordinate Co           8       351    27.0    27.5       83.1
DoD Field Activities           9        48     3.7     3.8       86.8
Joint Service School          10        18     1.4     1.4       88.3
Other                         11       150    11.5    11.7      100.0
                               .        22     1.7 Missing
                                    ------- ------- -------
                           Total      1299   100.0   100.0

Mean          6.703      Std dev       2.618      Minimum       1.000
Maximum      11.000
Valid cases    1277      Missing cases     22
-------------------------------------------------------------------------




                                                                            - 93 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results



Appendix E – NSC Methods and Data Analysis

Senior Leader Survey Form
The DoD Senior Leader survey gauged the perception of DoD senior leaders regarding safety
knowledge, climate, involvement, resources, priority-setting, and other leadership-related issues.
The survey form was intended to be brief, from 12 to 15 questions in length. Format of the
questions and response categories retained the format of the National Safety Council’s Safety
Barometer survey. Items were answered using a 5-point scale from strongly agree to strongly
disagree. The survey contained both standardized and customized items. Standardized items
were based on climate-related statements on the National Safety Council’s Safety Barometer,
with slight wording changes to adapt the items to DoD terminology. Customized items focused
on safety climate issues specifically identified at DoD, as well as more generic issues such as
budgeting, goals, and best practices.

Also included on the form was a demographics section in which respondents indicated their
appropriate organization subgroup identifiers. For this survey, the following demographics were
identified: Service, organization, and Flag Officer or Senior Executive Service (SES).

Besides these data-oriented responses, two open-ended written comments sections were
developed. In these sections, respondents were able to provide specific suggestions and
reactions to the topic of the survey. One of the open-ended items contained a relatively focused
request as follows: “If you were to suggest one action that would improve safety in DoD, what
would it be?” The other open-ended question was a more broad-based request, “Please provide
any other general comments you may have.”

Administration Process
The NSC conducted the survey for DoD senior leaders using a Web-based format. The survey
population included all DoD Flag Officers and comparable SES-level civilian members. A total
of 2,698 recipients (1,615 Flag Officers and 1,083 SESs) were sent an introductory e-mail from
the OIG informing them the survey would take place. The e-mail contained the rationale for the
survey, a brief description of the format, and assurances regarding the confidentiality of their
responses. Approximately five days later, survey recipients received an e-mail from the NSC
containing a link to a page on their website where they could securely complete and submit the
survey. Electronic responses were forwarded directly to the NSC database.

While the survey responses were confidential, a numerical tracking system allowed survey
researchers to send targeted follow-up reminder e-mails to non-responders at appropriate periods
of time. Two follow-up e-mails were sent to non-responders approximately one and two weeks
after the initial e-mail. Follow-up e-mails also contained the link to complete the survey.




                                               - 94 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results


National Safety Council Database
Seven of the 12 items on the survey were comparable to standard questions on the National
Safety Council’s Safety Barometer. Survey results from the Senior Leader survey were
compared with the 232 organizations within the NSC database.

The NSC database comparisons enable an organization to evaluate its results in relation to those
of other survey users. The database does not represent a random sample of organizations nor
does it reflect only the top performers in safety. Even so, results from organizations with a
similar need and/or desire to involve personnel directly in the examination of their safety
programs offer an external gauge against which to judge the DoD level of performance.

Survey Content
The Senior Leader survey asked respondents to indicate their level of agreement or disagreement
with items regarding a variety of safety and climate-related topics. These statements described
activities or conditions related to the operation of the DoD safety program from a leadership
perspective. Statements presented either a positive or negative description, as follows:

       Positive:   Describes a condition, attitude or practice that can be considered conducive
                   to safety
       Negative: Describes a condition, attitude or practice that can be considered detrimental
                 to safety

Of the 12 survey items, 10 items presented positive descriptions and 2 items presented negative
descriptions. Agreement with a positive statement or disagreement with a negative statement has
a positive safety implication for the DoD safety program. Disagreement with a positive
statement or agreement with a negative description has a negative implication.

Data Analyses
Responses to the senior leader survey items with positive descriptions were scored as follows:

           +2 = Strongly Agree
           +1 = Agree
            0 = Neutral
           -1 = Disagree
           -2 = Strongly Disagree

Responses to senior leader survey items with negative descriptions were scored oppositely. An
average (mean) response score was produced for each item by computing the average score for
all respondents in the group.

Average response scores were compared with scores from the NSC database for comparable
items. Percentile scores for each of the seven comparable Safety Barometer items in the senior


                                              - 95 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results


leader survey were computed by calculating the percentage of organizations in the database with
lower average response scores. Percentiles range from 0 to 100, with 0 representing the lowest
score in the database and 100 representing the highest.

Our intent was to provide senior leaders an overall but general analysis. The Services/Agencies
should review our results and perform additional analyses according to their needs.




                                             - 96 -
                                                                               IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                              Senior Leader Safety Survey Results


Appendix F – Response Distributions by Flag Officer versus
             Senior Executive Service Member
Q1   Leadership sincere in efforts to ensure   by   Q13   Rank                              +--------+--------+
                                                                                         5 |      2 |      6 |      8
            Count |O-7 and    SES                                          Strongly Disagre |    .2 |    1.3 |     .6
           Col Pct |Above               Row                                                 +--------+--------+
                   |     1 |      2 | Total                                          Column     830      452     1282
Q1         --------+--------+--------+                                                Total    64.7     35.3    100.0
                1 |    642 |    272 |    914
  Strongly Agree   | 76.9 | 59.8 | 70.9                                   Number of Missing Observations: 17
                   +--------+--------+                                    ------------------------------------------------------------
                2 |    186 |    167 |    353                              Q5 Safety takes back seat to mission by Q13 Rank
  Agree            | 22.3 | 36.7 | 27.4
                   +--------+--------+                                                Count |O-7 and    SES
                3 |      2 |     12 |     14                                         Col Pct |Above               Row
  Neutral          |    .2 |    2.6 |    1.1                                                 |     1 |      2 | Total
                   +--------+--------+                                    Q5         --------+--------+--------+
                4 |      5 |      3 |      8                                              1 |     13 |      7 |     20
  Disagree         |    .6 |     .7 |     .6                                Strongly Agree   |   1.6 |    1.5 |    1.6
                   +--------+--------+                                                       +--------+--------+
                5 |         |     1 |      1                                              2 |     47 |     25 |     72
  Strongly Disagre |        |    .2 |     .1                                Agree            |   5.7 |    5.5 |    5.6
                   +--------+--------+                                                       +--------+--------+
            Column     835      455     1290                                              3 |     43 |     81 |    124
             Total    64.7     35.3    100.0                                Neutral          |   5.2 | 17.8 |      9.7
                                                                                             +--------+--------+
Number of Missing Observations: 9                                                         4 |    381 |    220 |    601
------------------------------------------------------------                Disagree         | 46.0 | 48.4 | 46.8
Q2 Safety goals set annually by leadership by Q13 Rank                                       +--------+--------+
                                                                                          5 |    344 |    122 |    466
            Count |O-7 and    SES                                           Strongly Disagre | 41.5 | 26.8 | 36.3
           Col Pct |Above               Row                                                  +--------+--------+
                   |     1 |      2 | Total                                           Column     828      455     1283
Q2         --------+--------+--------+                                                 Total    64.5     35.5    100.0
                1 |    317 |    118 |    435
  Strongly Agree   | 38.1 | 25.9 | 33.7                                   Number of Missing Observations: 16
                   +--------+--------+                                    ------------------------------------------------------------
                2 |    417 |    210 |    627                              Q6 Safety funding adequate in budget proces by Q13 Rank
  Agree            | 50.1 | 46.1 | 48.6
                   +--------+--------+                                                Count |O-7 and    SES
                3 |     72 |    110 |    182                                         Col Pct |Above               Row
  Neutral          |   8.6 | 24.1 | 14.1                                                     |     1 |      2 | Total
                   +--------+--------+                                    Q6         --------+--------+--------+
                4 |     24 |     15 |     39                                              1 |     60 |     28 |     88
  Disagree         |   2.9 |    3.3 |    3.0                                Strongly Agree   |   7.2 |    6.2 |    6.9
                   +--------+--------+                                                       +--------+--------+
                5 |      3 |      3 |      6                                              2 |    311 |    138 |    449
  Strongly Disagre |    .4 |     .7 |     .5                                Agree            | 37.5 | 30.4 | 35.0
                   +--------+--------+                                                       +--------+--------+
            Column     833      456     1289                                              3 |    275 |    203 |    478
             Total    64.6     35.4    100.0                                Neutral          | 33.1 | 44.7 | 37.2
                                                                                             +--------+--------+
Number of Missing Observations: 10                                                        4 |    156 |     75 |    231
------------------------------------------------------------                Disagree         | 18.8 | 16.5 | 18.0
Q3 Ldrship demonstrates positive commitment by Q13 Rank                                      +--------+--------+
                                                                                          5 |     28 |     10 |     38
            Count |O-7 and    SES                                           Strongly Disagre |   3.4 |    2.2 |    3.0
           Col Pct |Above               Row                                                  +--------+--------+
                   |     1 |      2 | Total                                           Column     830      454     1284
Q3         --------+--------+--------+                                                 Total    64.6     35.4    100.0
                1 |    518 |    188 |    706
  Strongly Agree   | 62.2 | 41.5 | 54.9                                   Number of Missing Observations: 15
                   +--------+--------+                                    ------------------------------------------------------------
                2 |    290 |    220 |    510                              Q7 Decreasing rate by 50% is achievable by Q13 Rank
  Agree            | 34.8 | 48.6 | 39.7
                   +--------+--------+                                                Count |O-7 and    SES
                3 |     18 |     35 |     53                                         Col Pct |Above               Row
  Neutral          |   2.2 |    7.7 |    4.1                                                 |     1 |      2 | Total
                   +--------+--------+                                    Q7         --------+--------+--------+
                4 |      7 |     10 |     17                                              1 |     77 |     32 |    109
  Disagree         |    .8 |    2.2 |    1.3                                Strongly Agree   |   9.2 |    7.1 |    8.5
                   +--------+--------+                                                       +--------+--------+
            Column     833      453     1286                                              2 |    326 |    172 |    498
             Total    64.8     35.2    100.0                                Agree            | 39.1 | 38.1 | 38.8
                                                                                             +--------+--------+
Number of Missing Observations: 13                                                        3 |    178 |    174 |    352
------------------------------------------------------------                Neutral          | 21.4 | 38.5 | 27.4
Q4 Supvrs consider safety when rating perso by Q13 Rank                                      +--------+--------+
                                                                                          4 |    212 |     68 |    280
            Count |O-7 and    SES                                           Disagree         | 25.5 | 15.0 | 21.8
           Col Pct |Above              Row                                                   +--------+--------+
                   |     1 |      2 | Total                                               5 |     40 |      6 |     46
Q4         --------+--------+--------+                                      Strongly Disagre |   4.8 |    1.3 |    3.6
                1 |    108 |     45 |   153                                                  +--------+--------+
  Strongly Agree   | 13.0 | 10.0 | 11.9                                               Column     833      452     1285
                   +--------+--------+                                                 Total    64.8     35.2    100.0
                2 |    377 |    124 |   501
  Agree            | 45.4 | 27.4 | 39.1                                   Number of Missing Observations: 14
                   +--------+--------+                                    ------------------------------------------------------------
                3 |    257 |    196 |   453                               Q8 Making changes is high priority for ldrs by Q13 Rank
  Neutral          | 31.0 | 43.4 | 35.3
                   +--------+--------+                                               Count |O-7 and   SES
                4 |     86 |     81 |   167                                         Col Pct |Above               Row
  Disagree         | 10.4 | 17.9 | 13.0                                                     |     1 |     2   | Total




                                                                 - 97 -
                                                                             IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                            Senior Leader Safety Survey Results

Q8        --------+--------+--------+
               1 |    323 |     99 |    422                                         Count |O-7 and    SES
 Strongly Agree   | 38.8 | 21.8 | 32.8                                             Col Pct |Above               Row
                  +--------+--------+                                                      |     1 |      2 | Total
               2 |    421 |    230 |    651                             Q12        --------+--------+--------+
 Agree            | 50.5 | 50.5 | 50.5                                                  1 |     50 |     12 |     62
                  +--------+--------+                                     Strongly Agree   |   6.0 |    2.6 |    4.8
               3 |     73 |     90 |    163                                                +--------+--------+
 Neutral          |   8.8 | 19.8 | 12.7                                                 2 |    232 |     92 |    324
                  +--------+--------+                                     Agree            | 28.0 | 20.2 | 25.2
               4 |     16 |     35 |     51                                                +--------+--------+
 Disagree         |   1.9 |    7.7 |    4.0                                             3 |     88 |     70 |    158
                  +--------+--------+                                     Neutral          | 10.6 | 15.4 | 12.3
               5 |         |     1 |      1                                                +--------+--------+
 Strongly Disagre |        |    .2 |     .1                                             4 |    324 |    209 |    533
                  +--------+--------+                                     Disagree         | 39.0 | 45.8 | 41.4
           Column     833      455     1288                                                +--------+--------+
            Total    64.7     35.3    100.0                                             5 |    136 |     73 |    209
                                                                          Strongly Disagre | 16.4 | 16.0 | 16.3
Number of Missing Observations: 11                                                         +--------+--------+
------------------------------------------------------------                        Column     830      456     1286
Q9 Best practices is good way to bring abou by Q13 Rank                              Total    64.5     35.5    100.0

            Count |O-7 and    SES                                       Number of Missing Observations: 13
           Col Pct |Above               Row                             ------------------------------------------------------------
                   |     1 |      2 | Total
Q9         --------+--------+--------+
                1 |    242 |     92 |    334
  Strongly Agree   | 29.2 | 20.4 | 26.1
                   +--------+--------+
                2 |    435 |    251 |    686
  Agree            | 52.5 | 55.7 | 53.6
                   +--------+--------+
                3 |    120 |     94 |    214
  Neutral          | 14.5 | 20.8 | 16.7
                   +--------+--------+
                4 |     27 |     10 |     37
  Disagree         |   3.3 |    2.2 |    2.9
                   +--------+--------+
                5 |      4 |      4 |      8
  Strongly Disagre |    .5 |     .9 |     .6
                   +--------+--------+
            Column     828      451     1279
             Total    64.7     35.3    100.0

Number of Missing Observations: 20
------------------------------------------------------------
Q10 Cooperation exists across Services by Q13 Rank

            Count |O-7 and    SES
           Col Pct |Above               Row
                   |     1 |      2 | Total
Q10        --------+--------+--------+
                1 |     64 |     32 |     96
  Strongly Agree   |   7.7 |    7.1 |    7.5
                   +--------+--------+
                2 |    322 |    137 |    459
  Agree            | 38.8 | 30.4 | 35.8
                   +--------+--------+
                3 |    338 |    255 |    593
  Neutral          | 40.7 | 56.5 | 46.3
                   +--------+--------+
                4 |     98 |     25 |    123
  Disagree         | 11.8 |     5.5 |    9.6
                   +--------+--------+
                5 |      8 |      2 |     10
  Strongly Disagre |   1.0 |     .4 |     .8
                   +--------+--------+
            Column     830      451     1281
             Total    64.8     35.2    100.0

Number of Missing Observations: 18
------------------------------------------------------------
Q11 Ldrship has provided resources to suppor by Q13 Rank

            Count |O-7 and    SES
           Col Pct |Above               Row
                   |     1 |      2 | Total
Q11        --------+--------+--------+
                1 |     93 |     41 |    134
  Strongly Agree   | 11.2 |     9.1 | 10.4
                   +--------+--------+
                2 |    465 |    178 |    643
  Agree            | 55.8 | 39.5 | 50.0
                   +--------+--------+
                3 |    171 |    170 |    341
  Neutral          | 20.5 | 37.7 | 26.5
                   +--------+--------+
                4 |     97 |     55 |    152
  Disagree         | 11.6 | 12.2 | 11.8
                   +--------+--------+
                5 |      8 |      7 |     15
  Strongly Disagre |   1.0 |    1.6 |    1.2
                   +--------+--------+
            Column     834      451     1285
             Total    64.9     35.1    100.0

Number of Missing Observations: 14
------------------------------------------------------------
Q12 We have to accept that accidents will oc by Q13 Rank




                                                               - 98 -
                                                                             IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                            Senior Leader Safety Survey Results


Appendix G – Response Distributions by Category
Q1   Leadership sincere in efforts to ensure   by   Q14   Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q1         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |    181 |     57 |     61 |     61 |     77 |     14 |     74 |    154 |     43 |     14 |     35 |    911
  Strongly Agree   | 78.4 | 68.7 | 77.2 | 67.0 | 68.1 | 77.8 | 66.1 | 83.2 | 82.7 | 73.7 | 55.6 | 70.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     49 |     24 |     18 |     27 |     36 |      4 |     31 |     28 |      8 |      5 |     24 |    353
  Agree            | 21.2 | 28.9 | 22.8 | 29.7 | 31.9 | 22.2 | 27.7 | 15.1 | 15.4 | 26.3 | 38.1 | 27.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |         |        |        |     2 |         |        |     6 |      1 |      1 |         |     1 |     14
  Neutral          |        |        |        |   2.2 |         |        |   5.4 |     .5 |    1.9 |         |   1.6 |    1.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      1 |      2 |         |     1 |         |        |     1 |      2 |         |        |     3 |     11
  Disagree         |    .4 |    2.4 |         |   1.1 |         |        |    .9 |    1.1 |         |        |   4.8 |     .9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |         |        |        |        |        |        |        |        |        |        |        |     1
  Strongly Disagre |        |        |        |        |        |        |        |        |        |        |        |    .1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     231       83       79       91      113       18      112      185       52       19       63     1290
(Continued) Total     17.9      6.4      6.1      7.1      8.8      1.4      8.7     14.3      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q1 Leadership sincere in efforts to ensure by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q1         --------+--------+--------+--------+--------+
                1 |     41 |      5 |      7 |     87 |    911
  Strongly Agree   | 66.1 | 100.0 | 63.6 | 52.4 | 70.6
                   +--------+--------+--------+--------+
                2 |     21 |         |     4 |     74 |    353
  Agree            | 33.9 |          | 36.4 | 44.6 | 27.4
                   +--------+--------+--------+--------+
                3 |         |        |        |     3 |     14
  Neutral          |        |        |        |   1.8 |    1.1
                   +--------+--------+--------+--------+
                4 |         |        |        |     1 |     11
  Disagree         |        |        |        |    .6 |     .9
                   +--------+--------+--------+--------+
                5 |         |        |        |     1 |      1
  Strongly Disagre |        |        |        |    .6 |     .1
                   +--------+--------+--------+--------+
            Column      62        5       11      166     1290
             Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 9
----------------------------------------------------------------------------------------------------------------------------------
-
Q2 Safety goals set annually by leadership by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q2         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     92 |     26 |     25 |     28 |     37 |      8 |     29 |     83 |     21 |      8 |     20 |    434
  Strongly Agree   | 40.2 | 31.3 | 31.6 | 30.4 | 32.7 | 44.4 | 25.9 | 44.9 | 40.4 | 42.1 | 31.7 | 33.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |    114 |     50 |     41 |     46 |     59 |      9 |     50 |     75 |     29 |      9 |     25 |    627
  Agree            | 49.8 | 60.2 | 51.9 | 50.0 | 52.2 | 50.0 | 44.6 | 40.5 | 55.8 | 47.4 | 39.7 | 48.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     20 |      5 |      8 |     15 |     10 |      1 |     32 |     22 |      2 |      2 |     11 |    181
  Neutral          |   8.7 |    6.0 | 10.1 | 16.3 |        8.8 |    5.6 | 28.6 | 11.9 |        3.8 | 10.5 | 17.5 | 14.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      2 |      2 |      4 |      3 |      7 |         |     1 |      5 |         |        |     6 |     41
  Disagree         |    .9 |    2.4 |    5.1 |    3.3 |    6.2 |         |    .9 |    2.7 |         |        |   9.5 |    3.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      1 |         |     1 |         |        |        |        |        |        |        |     1 |      6
  Strongly Disagre |    .4 |         |   1.3 |         |        |        |        |        |        |        |   1.6 |     .5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     229       83       79       92      113       18      112      185       52       19       63     1289
(Continued) Total     17.8      6.4      6.1      7.1      8.8      1.4      8.7     14.4      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q2 Safety goals set annually by leadership by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q2         --------+--------+--------+--------+--------+
                1 |     16 |      3 |      2 |     36 |    434
  Strongly Agree   | 25.8 | 60.0 | 18.2 | 21.7 | 33.7
                   +--------+--------+--------+--------+
                2 |     33 |      2 |      8 |     77 |    627
  Agree            | 53.2 | 40.0 | 72.7 | 46.4 | 48.6
                   +--------+--------+--------+--------+
                3 |      8 |         |     1 |     44 |    181
  Neutral          | 12.9 |          |   9.1 | 26.5 | 14.0




                                                                    - 99 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

                  +--------+--------+--------+--------+
               4  |     4 |         |        |     7 |     41
 Disagree         |   6.5 |         |        |   4.2 |    3.2
                  +--------+--------+--------+--------+
               5 |      1 |         |        |     2 |      6
 Strongly Disagre |   1.6 |         |        |   1.2 |     .5
                  +--------+--------+--------+--------+
           Column      62        5       11      166     1289
            Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 10
----------------------------------------------------------------------------------------------------------------------------------
-
Q3 Ldrship demonstrates positive commitment by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q3         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |    147 |     48 |     47 |     45 |     58 |     10 |     50 |    138 |     33 |      8 |     28 |    706
  Strongly Agree   | 63.6 | 58.5 | 59.5 | 49.5 | 51.3 | 55.6 | 44.6 | 75.0 | 63.5 | 42.1 | 44.4 | 54.9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     81 |     29 |     29 |     43 |     50 |      8 |     51 |     39 |     19 |     11 |     25 |    508
  Agree            | 35.1 | 35.4 | 36.7 | 47.3 | 44.2 | 44.4 | 45.5 | 21.2 | 36.5 | 57.9 | 39.7 | 39.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |      2 |      2 |      2 |      2 |      5 |         |     9 |      6 |         |        |     6 |     53
  Neutral          |    .9 |    2.4 |    2.5 |    2.2 |    4.4 |         |   8.0 |    3.3 |         |        |   9.5 |    4.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      1 |      3 |      1 |      1 |         |        |     2 |      1 |         |        |     4 |     19
  Disagree         |    .4 |    3.7 |    1.3 |    1.1 |         |        |   1.8 |     .5 |         |        |   6.3 |    1.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     231       82       79       91      113       18      112      184       52       19       63     1286
(Continued) Total     18.0      6.4      6.1      7.1      8.8      1.4      8.7     14.3      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q3 Ldrship demonstrates positive commitment by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q3         --------+--------+--------+--------+--------+
                1 |     27 |      5 |      7 |     55 |    706
  Strongly Agree   | 43.5 | 100.0 | 63.6 | 33.5 | 54.9
                   +--------+--------+--------+--------+
                2 |     32 |         |     3 |     88 |    508
  Agree            | 51.6 |          | 27.3 | 53.7 | 39.5
                   +--------+--------+--------+--------+
                3 |      2 |         |     1 |     16 |     53
  Neutral          |   3.2 |         |   9.1 |    9.8 |    4.1
                   +--------+--------+--------+--------+
                4 |      1 |         |        |     5 |     19
  Disagree         |   1.6 |         |        |   3.0 |    1.5
                   +--------+--------+--------+--------+
            Column      62        5       11      164     1286
             Total     4.8       .4       .9     12.8    100.0

Number of Missing Observations: 13
----------------------------------------------------------------------------------------------------------------------------------
-
Q4 Supvrs consider safety when rating perso by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q4         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     41 |     12 |      9 |     12 |     13 |      1 |      9 |     22 |      6 |         |     9 |    152
  Strongly Agree   | 17.7 | 14.6 | 11.4 | 13.2 | 11.6 |             5.6 |    8.2 | 12.0 | 11.5 |             | 14.5 | 11.9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     96 |     39 |     38 |     40 |     45 |      6 |     32 |     84 |     34 |     10 |     12 |    502
  Agree            | 41.6 | 47.6 | 48.1 | 44.0 | 40.2 | 33.3 | 29.1 | 45.9 | 65.4 | 52.6 | 19.4 | 39.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     72 |     23 |     21 |     31 |     40 |     10 |     45 |     60 |      9 |      8 |     26 |    451
  Neutral          | 31.2 | 28.0 | 26.6 | 34.1 | 35.7 | 55.6 | 40.9 | 32.8 | 17.3 | 42.1 | 41.9 | 35.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     21 |      8 |     11 |      5 |     13 |      1 |     22 |     17 |      3 |      1 |     14 |    168
  Disagree         |   9.1 |    9.8 | 13.9 |      5.5 | 11.6 |      5.6 | 20.0 |      9.3 |    5.8 |    5.3 | 22.6 | 13.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      1 |         |        |     3 |      1 |         |     2 |         |        |        |     1 |      9
  Strongly Disagre |    .4 |         |        |   3.3 |     .9 |         |   1.8 |         |        |        |   1.6 |     .7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     231       82       79       91      112       18      110      183       52       19       62     1282
(Continued) Total     18.0      6.4      6.2      7.1      8.7      1.4      8.6     14.3      4.1      1.5      4.8    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q4 Supvrs consider safety when rating perso by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q4         --------+--------+--------+--------+--------+
                1 |      4 |         |     1 |     13 |    152
  Strongly Agree   |   6.6 |         |   9.1 |    7.8 | 11.9
                   +--------+--------+--------+--------+
                2 |     28 |      2 |      4 |     32 |    502
  Agree            | 45.9 | 40.0 | 36.4 | 19.3 | 39.2
                   +--------+--------+--------+--------+




                                                             - 100 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

               3  |    18 |      1 |      5 |     82 |    451
 Neutral          | 29.5 | 20.0 | 45.5 | 49.4 | 35.2
                  +--------+--------+--------+--------+
               4 |     11 |      2 |      1 |     38 |    168
 Disagree         | 18.0 | 40.0 |       9.1 | 22.9 | 13.1
                  +--------+--------+--------+--------+
               5 |         |        |        |     1 |      9
 Strongly Disagre |        |        |        |    .6 |     .7
                  +--------+--------+--------+--------+
           Column      61        5       11      166     1282
            Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 17
----------------------------------------------------------------------------------------------------------------------------------
-
Q5 Safety takes back seat to mission by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q5         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      2 |      2 |      2 |      3 |      1 |         |     1 |      5 |      1 |         |     4 |     22
  Strongly Agree   |    .9 |    2.5 |    2.6 |    3.3 |     .9 |         |    .9 |    2.7 |    1.9 |         |   6.3 |    1.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |      8 |      5 |      3 |      5 |      8 |         |     3 |      9 |      2 |         |     4 |     69
  Agree            |   3.5 |    6.2 |    3.8 |    5.4 |    7.1 |         |   2.7 |    4.9 |    3.8 |         |   6.3 |    5.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     13 |      6 |      5 |      9 |      6 |      6 |     19 |      2 |      2 |      1 |     16 |    126
  Neutral          |   5.7 |    7.4 |    6.4 |    9.8 |    5.3 | 33.3 | 17.1 |        1.1 |    3.8 |    5.3 | 25.4 |      9.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |    117 |     36 |     48 |     43 |     51 |      7 |     55 |     60 |     24 |     11 |     27 |    601
  Disagree         | 50.9 | 44.4 | 61.5 | 46.7 | 45.1 | 38.9 | 49.5 | 32.8 | 46.2 | 57.9 | 42.9 | 46.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |     90 |     32 |     20 |     32 |     47 |      5 |     33 |    107 |     23 |      7 |     12 |    465
  Strongly Disagre | 39.1 | 39.5 | 25.6 | 34.8 | 41.6 | 27.8 | 29.7 | 58.5 | 44.2 | 36.8 | 19.0 | 36.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     230       81       78       92      113       18      111      183       52       19       63     1283
(Continued) Total     17.9      6.3      6.1      7.2      8.8      1.4      8.7     14.3      4.1      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q5 Safety takes back seat to mission by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q5         --------+--------+--------+--------+--------+
                1 |         |        |        |     1 |     22
  Strongly Agree   |        |        |        |    .6 |    1.7
                   +--------+--------+--------+--------+
                2 |      9 |      2 |         |    11 |     69
  Agree            | 14.8 | 40.0 |            |   6.6 |    5.4
                   +--------+--------+--------+--------+
                3 |      6 |         |        |    35 |    126
  Neutral          |   9.8 |         |        | 21.1 |     9.8
                   +--------+--------+--------+--------+
                4 |     33 |      2 |      8 |     79 |    601
  Disagree         | 54.1 | 40.0 | 72.7 | 47.6 | 46.8
                   +--------+--------+--------+--------+
                5 |     13 |      1 |      3 |     40 |    465
  Strongly Disagre | 21.3 | 20.0 | 27.3 | 24.1 | 36.2
                   +--------+--------+--------+--------+
            Column      61        5       11      166     1283
             Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 16
----------------------------------------------------------------------------------------------------------------------------------
-
Q6 Safety funding adequate in budget proces by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q6         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     19 |      3 |      1 |      9 |      9 |         |     5 |     23 |      4 |      1 |      4 |     88
  Strongly Agree   |   8.3 |    3.7 |    1.3 |    9.9 |    8.1 |         |   4.5 | 12.4 |      7.7 |    5.3 |    6.3 |    6.9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     78 |     37 |     32 |     26 |     41 |      4 |     31 |     74 |     24 |      7 |     14 |    447
  Agree            | 33.9 | 45.1 | 41.0 | 28.6 | 36.9 | 22.2 | 27.7 | 40.0 | 46.2 | 36.8 | 22.2 | 34.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     72 |     31 |     24 |     33 |     42 |     10 |     52 |     60 |     13 |      8 |     31 |    482
  Neutral          | 31.3 | 37.8 | 30.8 | 36.3 | 37.8 | 55.6 | 46.4 | 32.4 | 25.0 | 42.1 | 49.2 | 37.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     50 |      8 |     18 |     20 |     17 |      3 |     22 |     24 |      9 |      3 |     11 |    229
  Disagree         | 21.7 |     9.8 | 23.1 | 22.0 | 15.3 | 16.7 | 19.6 | 13.0 | 17.3 | 15.8 | 17.5 | 17.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |     11 |      3 |      3 |      3 |      2 |      1 |      2 |      4 |      2 |         |     3 |     38
  Strongly Disagre |   4.8 |    3.7 |    3.8 |    3.3 |    1.8 |    5.6 |    1.8 |    2.2 |    3.8 |         |   4.8 |    3.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     230       82       78       91      111       18      112      185       52       19       63     1284
(Continued) Total     17.9      6.4      6.1      7.1      8.6      1.4      8.7     14.4      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q6 Safety funding adequate in budget proces by Q14 Service

                    Q14                           Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active  Reserve Civilian Civilian     Row




                                                             - 101 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

                  |    12 |     13 |     14 |     15 | Total
Q6        --------+--------+--------+--------+--------+
               1 |      2 |         |        |     8 |     88
 Strongly Agree   |   3.2 |         |        |   4.8 |    6.9
                  +--------+--------+--------+--------+
               2 |     15 |      3 |      3 |     58 |    447
 Agree            | 24.2 | 60.0 | 27.3 | 35.2 | 34.8
                  +--------+--------+--------+--------+
               3 |     20 |      1 |      6 |     79 |    482
 Neutral          | 32.3 | 20.0 | 54.5 | 47.9 | 37.5
                  +--------+--------+--------+--------+
               4 |     22 |      1 |      2 |     19 |    229
 Disagree         | 35.5 | 20.0 | 18.2 | 11.5 | 17.8
                  +--------+--------+--------+--------+
               5 |      3 |         |        |     1 |     38
 Strongly Disagre |   4.8 |         |        |    .6 |    3.0
                  +--------+--------+--------+--------+
           Column      62        5       11      165     1284
            Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 15
----------------------------------------------------------------------------------------------------------------------------------
-
Q7 Decreasing rate by 50% is achievable by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q7         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     18 |     13 |      4 |      6 |     13 |      3 |      6 |     15 |      9 |      4 |      4 |    109
  Strongly Agree   |   7.8 | 15.7 |      5.1 |    6.6 | 11.6 | 16.7 |        5.5 |    8.1 | 17.3 | 21.1 |        6.3 |    8.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     80 |     40 |     33 |     42 |     52 |      6 |     43 |     63 |     29 |      7 |     27 |    498
  Agree            | 34.6 | 48.2 | 41.8 | 46.2 | 46.4 | 33.3 | 39.1 | 34.1 | 55.8 | 36.8 | 42.9 | 38.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     51 |     15 |     22 |     31 |     22 |      6 |     45 |     45 |      9 |      1 |     20 |    351
  Neutral          | 22.1 | 18.1 | 27.8 | 34.1 | 19.6 | 33.3 | 40.9 | 24.3 | 17.3 |                     5.3 | 31.7 | 27.3
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     72 |     10 |     16 |     11 |     23 |      2 |     14 |     51 |      5 |      5 |     11 |    280
  Disagree         | 31.2 | 12.0 | 20.3 | 12.1 | 20.5 | 11.1 | 12.7 | 27.6 |                   9.6 | 26.3 | 17.5 | 21.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+

                5 |     10 |      5 |      4 |      1 |      2 |      1 |      2 |     11 |         |     2 |      1 |     47
  Strongly Disagre |   4.3 |    6.0 |    5.1 |    1.1 |    1.8 |    5.6 |    1.8 |    5.9 |         | 10.5 |     1.6 |    3.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     231       83       79       91      112       18      110      185       52       19       63     1285
(Continued) Total     18.0      6.5      6.1      7.1      8.7      1.4      8.6     14.4      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q7 Decreasing rate by 50% is achievable by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q7         --------+--------+--------+--------+--------+
                1 |      1 |         |        |    13 |    109
  Strongly Agree   |   1.6 |         |        |   7.9 |    8.5
                   +--------+--------+--------+--------+
                2 |     15 |      1 |      4 |     56 |    498
  Agree            | 24.6 | 20.0 | 36.4 | 33.9 | 38.8
                   +--------+--------+--------+--------+
                3 |      9 |      2 |      3 |     70 |    351
  Neutral          | 14.8 | 40.0 | 27.3 | 42.4 | 27.3
                   +--------+--------+--------+--------+
                4 |     29 |      2 |      4 |     25 |    280
  Disagree         | 47.5 | 40.0 | 36.4 | 15.2 | 21.8
                   +--------+--------+--------+--------+
                5 |      7 |         |        |     1 |     47
  Strongly Disagre | 11.5 |          |        |    .6 |    3.7
                   +--------+--------+--------+--------+
            Column      61        5       11      165     1285
             Total     4.7       .4       .9     12.8    100.0

Number of Missing Observations: 14
----------------------------------------------------------------------------------------------------------------------------------
-
Q8 Making changes is high priority for ldrs by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q8         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     93 |     31 |     24 |     25 |     40 |      4 |     25 |     80 |     18 |      5 |     14 |    419
  Strongly Agree   | 40.4 | 37.3 | 30.4 | 27.5 | 35.4 | 22.2 | 22.3 | 43.2 | 35.3 | 26.3 | 22.2 | 32.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |    112 |     41 |     47 |     45 |     60 |     10 |     58 |     90 |     28 |     10 |     30 |    650
  Agree            | 48.7 | 49.4 | 59.5 | 49.5 | 53.1 | 55.6 | 51.8 | 48.6 | 54.9 | 52.6 | 47.6 | 50.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     22 |      9 |      7 |     15 |     10 |      4 |     21 |     13 |      3 |      4 |     11 |    165
  Neutral          |   9.6 | 10.8 |      8.9 | 16.5 |      8.8 | 22.2 | 18.8 |        7.0 |    5.9 | 21.1 | 17.5 | 12.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      3 |      2 |      1 |      6 |      3 |         |     8 |      2 |      2 |         |     7 |     53
  Disagree         |   1.3 |    2.4 |    1.3 |    6.6 |    2.7 |         |   7.1 |    1.1 |    3.9 |         | 11.1 |     4.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |         |        |        |        |        |        |        |        |        |        |     1 |      1
  Strongly Disagre |        |        |        |        |        |        |        |        |        |        |   1.6 |     .1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+




                                                             - 102 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

            Column     230       83       79       91      113       18      112      185       51       19       63     1288
(Continued) Total     17.9      6.4      6.1      7.1      8.8      1.4      8.7     14.4      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q8 Making changes is high priority for ldrs by Q14 Service

                   Q14                            Page 2 of 2

            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q8         --------+--------+--------+--------+--------+
                1 |     25 |      3 |      3 |     29 |    419
  Strongly Agree   | 40.3 | 60.0 | 27.3 | 17.5 | 32.5
                   +--------+--------+--------+--------+
                2 |     27 |      2 |      6 |     84 |    650
  Agree            | 43.5 | 40.0 | 54.5 | 50.6 | 50.5
                   +--------+--------+--------+--------+
                3 |      7 |         |     2 |     37 |    165
  Neutral          | 11.3 |          | 18.2 | 22.3 | 12.8
                   +--------+--------+--------+--------+
                4 |      3 |         |        |    16 |     53
  Disagree         |   4.8 |         |        |   9.6 |    4.1
                   +--------+--------+--------+--------+
                5 |         |        |        |        |     1
  Strongly Disagre |        |        |        |        |    .1
                   +--------+--------+--------+--------+
            Column      62        5       11      166     1288
             Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 11
----------------------------------------------------------------------------------------------------------------------------------
-
Q9 Best practices is good way to bring abou by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q9         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     56 |     24 |     23 |     20 |     44 |      9 |     19 |     59 |     14 |      5 |     11 |    333
  Strongly Agree   | 24.5 | 29.3 | 29.1 | 21.7 | 38.9 | 50.0 | 17.0 | 32.2 | 27.5 | 26.3 | 17.5 | 26.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |    126 |     46 |     40 |     49 |     56 |      7 |     67 |     97 |     34 |      7 |     38 |    687
  Agree            | 55.0 | 56.1 | 50.6 | 53.3 | 49.6 | 38.9 | 59.8 | 53.0 | 66.7 | 36.8 | 60.3 | 53.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     37 |     11 |     14 |     20 |     11 |      2 |     21 |     21 |      2 |      7 |     11 |    214
  Neutral          | 16.2 | 13.4 | 17.7 | 21.7 |           9.7 | 11.1 | 18.8 | 11.5 |          3.9 | 36.8 | 17.5 | 16.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      8 |      1 |      1 |      3 |      2 |         |     3 |      5 |      1 |         |     2 |     37
  Disagree         |   3.5 |    1.2 |    1.3 |    3.3 |    1.8 |         |   2.7 |    2.7 |    2.0 |         |   3.2 |    2.9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      2 |         |     1 |         |        |        |     2 |      1 |         |        |     1 |      8
  Strongly Disagre |    .9 |         |   1.3 |         |        |        |   1.8 |     .5 |         |        |   1.6 |     .6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     229       82       79       92      113       18      112      183       51       19       63     1279
(Continued) Total     17.9      6.4      6.2      7.2      8.8      1.4      8.8     14.3      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q9 Best practices is good way to bring abou by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q9         --------+--------+--------+--------+--------+
                1 |      8 |      3 |      3 |     35 |    333
  Strongly Agree   | 13.6 | 60.0 | 27.3 | 21.5 | 26.0
                   +--------+--------+--------+--------+
                2 |     27 |      1 |      7 |     85 |    687
  Agree            | 45.8 | 20.0 | 63.6 | 52.1 | 53.7
                   +--------+--------+--------+--------+
                3 |     16 |      1 |      1 |     39 |    214
  Neutral          | 27.1 | 20.0 |       9.1 | 23.9 | 16.7
                   +--------+--------+--------+--------+
                4 |      8 |         |        |     3 |     37
  Disagree         | 13.6 |          |        |   1.8 |    2.9
                   +--------+--------+--------+--------+
                5 |         |        |        |     1 |      8
  Strongly Disagre |        |        |        |    .6 |     .6
                   +--------+--------+--------+--------+
            Column      59        5       11      163     1279
             Total     4.6       .4       .9     12.7    100.0

Number of Missing Observations: 20
----------------------------------------------------------------------------------------------------------------------------------
-
Q10 Cooperation exists across Services by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q10        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     24 |      9 |      9 |      8 |      5 |         |    11 |      6 |      3 |      2 |      3 |     96
  Strongly Agree   | 10.4 | 10.8 | 11.5 |         8.9 |    4.4 |         |   9.8 |    3.3 |    6.0 | 10.5 |      4.8 |    7.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     89 |     45 |     29 |     31 |     45 |      4 |     35 |     63 |     19 |      4 |     13 |    457
  Agree            | 38.7 | 54.2 | 37.2 | 34.4 | 39.8 | 22.2 | 31.3 | 34.2 | 38.0 | 21.1 | 20.6 | 35.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+




                                                             - 103 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

               3   |    90 |     23 |     35 |     46 |     46 |     11 |     61 |     84 |     19 |     10 |     40 |    594
 Neutral           | 39.1 | 27.7 | 44.9 | 51.1 | 40.7 | 61.1 | 54.5 | 45.7 | 38.0 | 52.6 | 63.5 | 46.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     24 |      6 |      4 |      4 |     17 |      2 |      5 |     28 |      9 |      3 |      6 |    123
  Disagree         | 10.4 |     7.2 |    5.1 |    4.4 | 15.0 | 11.1 |        4.5 | 15.2 | 18.0 | 15.8 |          9.5 |    9.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      3 |         |     1 |      1 |         |     1 |         |     3 |         |        |     1 |     11
  Strongly Disagre |   1.3 |         |   1.3 |    1.1 |         |   5.6 |         |   1.6 |         |        |   1.6 |     .9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     230       83       78       90      113       18      112      184       50       19       63     1281
(Continued) Total     18.0      6.5      6.1      7.0      8.8      1.4      8.7     14.4      3.9      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q10 Cooperation exists across Services by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q10        --------+--------+--------+--------+--------+

               1  |     7 |         |        |     9 |     96
 Strongly Agree   | 11.3 |          |        |   5.5 |    7.5
                  +--------+--------+--------+--------+
               2 |     25 |      1 |      5 |     49 |    457
 Agree            | 40.3 | 20.0 | 45.5 | 30.1 | 35.7
                  +--------+--------+--------+--------+
               3 |     26 |      3 |      6 |     94 |    594
 Neutral          | 41.9 | 60.0 | 54.5 | 57.7 | 46.4
                  +--------+--------+--------+--------+
               4 |      4 |      1 |         |    10 |    123
 Disagree         |   6.5 | 20.0 |           |   6.1 |    9.6
                  +--------+--------+--------+--------+
               5 |         |        |        |     1 |     11
 Strongly Disagre |        |        |        |    .6 |     .9
                  +--------+--------+--------+--------+
           Column      62        5       11      163     1281
            Total     4.8       .4       .9     12.7    100.0

Number of Missing Observations: 18
----------------------------------------------------------------------------------------------------------------------------------
-
Q11 Ldrship has provided resources to suppor by Q14 Service

                    Q14                                                                                           Page 1 of 2
            Count |Army-     Army-    Army-    Army-    Navy-    Navy-    Navy-    Air Forc Air Forc Air Forc Air Forc
           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q11        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     26 |      6 |      7 |     10 |     11 |         |    10 |     34 |      6 |      1 |      6 |    134
  Strongly Agree   | 11.3 |     7.2 |    8.9 | 11.1 |      9.7 |         |   8.9 | 18.5 | 11.5 |        5.3 |    9.5 | 10.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |    119 |     58 |     45 |     41 |     59 |      9 |     43 |     99 |     32 |     13 |     21 |    644
  Agree            | 51.5 | 69.9 | 57.0 | 45.6 | 52.2 | 50.0 | 38.4 | 53.8 | 61.5 | 68.4 | 33.3 | 50.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     51 |     15 |     14 |     27 |     29 |      6 |     38 |     35 |      8 |      5 |     22 |    342
  Neutral          | 22.1 | 18.1 | 17.7 | 30.0 | 25.7 | 33.3 | 33.9 | 19.0 | 15.4 | 26.3 | 34.9 | 26.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     33 |      3 |     12 |     11 |     13 |      3 |     18 |     16 |      6 |         |    11 |    150
  Disagree         | 14.3 |     3.6 | 15.2 | 12.2 | 11.5 | 16.7 | 16.1 |              8.7 | 11.5 |           | 17.5 | 11.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      2 |      1 |      1 |      1 |      1 |         |     3 |         |        |        |     3 |     15
  Strongly Disagre |    .9 |    1.2 |    1.3 |    1.1 |     .9 |         |   2.7 |         |        |        |   4.8 |    1.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     231       83       79       90      113       18      112      184       52       19       63     1285
(Continued) Total     18.0      6.5      6.1      7.0      8.8      1.4      8.7     14.3      4.0      1.5      4.9    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q11 Ldrship has provided resources to suppor by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q11        --------+--------+--------+--------+--------+
                1 |      2 |      1 |         |    14 |    134
  Strongly Agree   |   3.2 | 20.0 |           |   8.6 | 10.4
                   +--------+--------+--------+--------+
                2 |     31 |      3 |      5 |     66 |    644
  Agree            | 50.0 | 60.0 | 45.5 | 40.5 | 50.1
                   +--------+--------+--------+--------+
                3 |     16 |      1 |      5 |     70 |    342
  Neutral          | 25.8 | 20.0 | 45.5 | 42.9 | 26.6
                   +--------+--------+--------+--------+
                4 |     11 |         |     1 |     12 |    150
  Disagree         | 17.7 |          |   9.1 |    7.4 | 11.7
                   +--------+--------+--------+--------+
                5 |      2 |         |        |     1 |     15
  Strongly Disagre |   3.2 |         |        |    .6 |    1.2
                   +--------+--------+--------+--------+
            Column      62        5       11      163     1285
             Total     4.8       .4       .9     12.7    100.0

Number of Missing Observations: 14
----------------------------------------------------------------------------------------------------------------------------------
-
Q12 We have to accept that accidents will oc by Q14 Service

                    Q14                                                                                          Page 1 of 2
           Count   |Army-   Army-    Army-    Army-    Navy-      Navy-   Navy-   Air Forc Air Forc Air Forc Air Forc




                                                               - 104 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results

           Col Pct |Active   Guard    Reserve Civilian Active    Reserve Civilian e-Active e-Guard e-Reserv e-Civili     Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q12        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     17 |      3 |      4 |      3 |      3 |      1 |      2 |     14 |      1 |         |     3 |     62
  Strongly Agree   |   7.4 |    3.6 |    5.2 |    3.3 |    2.7 |    5.9 |    1.8 |    7.6 |    1.9 |         |   4.8 |    4.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     72 |     20 |     24 |     26 |     14 |      5 |     13 |     58 |     12 |      5 |     18 |    323
  Agree            | 31.3 | 24.1 | 31.2 | 28.3 | 12.4 | 29.4 | 11.6 | 31.5 | 23.1 | 26.3 | 29.0 | 25.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     25 |     10 |     10 |     11 |      9 |      2 |     16 |     19 |      2 |      1 |      9 |    157
  Neutral          | 10.9 | 12.0 | 13.0 | 12.0 |           8.0 | 11.8 | 14.3 | 10.3 |          3.8 |    5.3 | 14.5 | 12.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     83 |     30 |     30 |     35 |     60 |      6 |     60 |     73 |     26 |      9 |     24 |    534
  Disagree         | 36.1 | 36.1 | 39.0 | 38.0 | 53.1 | 35.3 | 53.6 | 39.7 | 50.0 | 47.4 | 38.7 | 41.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |     33 |     20 |      9 |     17 |     27 |      3 |     21 |     20 |     11 |      4 |      8 |    209
  Strongly Disagre | 14.3 | 24.1 | 11.7 | 18.5 | 23.9 | 17.6 | 18.8 | 10.9 | 21.2 | 21.1 | 12.9 | 16.3
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column     230       83       77       92      113       17      112      184       52       19       62     1285
(Continued) Total     17.9      6.5      6.0      7.2      8.8      1.3      8.7     14.3      4.0      1.5      4.8    100.0
----------------------------------------------------------------------------------------------------------------------------------
-
Q12 We have to accept that accidents will oc by Q14 Service

                    Q14                            Page 2 of 2
            Count |Marines- Marines- Marines- DoD-
           Col Pct |Active   Reserve Civilian Civilian     Row
                   |    12 |     13 |     14 |     15 | Total
Q12        --------+--------+--------+--------+--------+
                1 |      7 |         |        |     4 |     62
  Strongly Agree   | 11.3 |          |        |   2.4 |    4.8
                   +--------+--------+--------+--------+
                2 |     17 |      3 |      4 |     32 |    323

 Agree            | 27.4 | 60.0 | 36.4 | 19.3 | 25.1
                  +--------+--------+--------+--------+
               3  |    10 |      1 |      2 |     30 |    157
 Neutral          | 16.1 | 20.0 | 18.2 | 18.1 | 12.2
                  +--------+--------+--------+--------+
               4 |     20 |      1 |      4 |     73 |    534
 Disagree         | 32.3 | 20.0 | 36.4 | 44.0 | 41.6
                  +--------+--------+--------+--------+
               5 |      8 |         |     1 |     27 |    209
 Strongly Disagre | 12.9 |          |   9.1 | 16.3 | 16.3
                  +--------+--------+--------+--------+
           Column      62        5       11      166     1285
            Total     4.8       .4       .9     12.9    100.0

Number of Missing Observations: 14
----------------------------------------------------------------------------------------------------------------------------------
-




                                                             - 105 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results


Appendix H – Response Distributions by Organization
Q1   Leadership sincere in efforts to ensure   by   Q15   Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q1         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     25 |     21 |     60 |     64 |     49 |    120 |    151 |    263 |     34 |     15 |    101 |    903
  Strongly Agree   | 39.1 | 72.4 | 64.5 | 77.1 | 62.8 | 69.4 | 79.9 | 74.9 | 70.8 | 83.3 | 67.3 | 70.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     34 |      8 |     32 |     18 |     27 |     51 |     34 |     83 |     14 |      3 |     43 |    347
  Agree            | 53.1 | 27.6 | 34.4 | 21.7 | 34.6 | 29.5 | 18.0 | 23.6 | 29.2 | 16.7 | 28.7 | 27.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |      3 |         |        |        |     2 |      1 |      1 |      3 |         |        |     4 |     14
  Neutral          |   4.7 |         |        |        |   2.6 |     .6 |     .5 |     .9 |         |        |   2.7 |    1.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      1 |         |     1 |      1 |         |     1 |      3 |      2 |         |        |     2 |     11
  Disagree         |   1.6 |         |   1.1 |    1.2 |         |    .6 |    1.6 |     .6 |         |        |   1.3 |     .9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      1 |         |        |        |        |        |        |        |        |        |        |     1
  Strongly Disagre |   1.6 |         |        |        |        |        |        |        |        |        |        |    .1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      64       29       93       83       78      173      189      351       48       18      150     1276
             Total     5.0      2.3      7.3      6.5      6.1     13.6     14.8     27.5      3.8      1.4     11.8    100.0

Number of Missing Observations: 23
----------------------------------------------------------------------------------------------------------------------------------
-
Q2 Safety goals set annually by leadership by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q2         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      7 |      8 |     31 |     31 |     25 |     52 |     81 |    135 |     14 |      7 |     39 |    430
  Strongly Agree   | 10.9 | 27.6 | 33.3 | 37.3 | 32.5 | 30.1 | 42.9 | 38.5 | 29.2 | 38.9 | 26.0 | 33.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     29 |     15 |     46 |     43 |     32 |     83 |     90 |    169 |     23 |      8 |     81 |    619
  Agree            | 45.3 | 51.7 | 49.5 | 51.8 | 41.6 | 48.0 | 47.6 | 48.1 | 47.9 | 44.4 | 54.0 | 48.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     23 |      6 |     13 |      7 |     19 |     29 |     11 |     35 |      7 |      3 |     26 |    179
  Neutral          | 35.9 | 20.7 | 14.0 |         8.4 | 24.7 | 16.8 |        5.8 | 10.0 | 14.6 | 16.7 | 17.3 | 14.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      4 |         |     2 |      2 |         |     9 |      7 |     10 |      3 |         |     4 |     41
  Disagree         |   6.3 |         |   2.2 |    2.4 |         |   5.2 |    3.7 |    2.8 |    6.3 |         |   2.7 |    3.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      1 |         |     1 |         |     1 |         |        |     2 |      1 |         |        |     6
  Strongly Disagre |   1.6 |         |   1.1 |         |   1.3 |         |        |    .6 |    2.1 |         |        |    .5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      64       29       93       83       77      173      189      351       48       18      150     1275
             Total     5.0      2.3      7.3      6.5      6.0     13.6     14.8     27.5      3.8      1.4     11.8    100.0

Number of Missing Observations: 24
----------------------------------------------------------------------------------------------------------------------------------
-
Q3 Ldrship demonstrates positive commitment by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q3         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     11 |     11 |     43 |     47 |     37 |     88 |    123 |    219 |     27 |     10 |     81 |    697
  Strongly Agree   | 17.2 | 37.9 | 47.3 | 56.6 | 48.7 | 50.9 | 65.1 | 62.4 | 56.3 | 55.6 | 54.0 | 54.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     41 |     18 |     42 |     34 |     34 |     70 |     59 |    121 |     19 |      8 |     59 |    505
  Agree            | 64.1 | 62.1 | 46.2 | 41.0 | 44.7 | 40.5 | 31.2 | 34.5 | 39.6 | 44.4 | 39.3 | 39.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |      9 |         |     5 |      2 |      3 |     12 |      5 |      8 |      1 |         |     6 |     51
  Neutral          | 14.1 |          |   5.5 |    2.4 |    3.9 |    6.9 |    2.6 |    2.3 |    2.1 |         |   4.0 |    4.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      3 |         |     1 |         |     2 |      3 |      2 |      3 |      1 |         |     4 |     19
  Disagree         |   4.7 |         |   1.1 |         |   2.6 |    1.7 |    1.1 |     .9 |    2.1 |         |   2.7 |    1.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      64       29       91       83       76      173      189      351       48       18      150     1272
             Total     5.0      2.3      7.2      6.5      6.0     13.6     14.9     27.6      3.8      1.4     11.8    100.0

Number of Missing Observations: 27
----------------------------------------------------------------------------------------------------------------------------------
-
Q4 Supvrs consider safety when rating perso by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc           Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q4         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      3 |      1 |     10 |     12 |      8 |     18 |     23 |     43 |      7 |      7 |     18 |   150
  Strongly Agree   |   4.7 |    3.4 | 10.8 | 14.5 | 10.3 | 10.5 | 12.2 | 12.3 | 14.6 | 38.9 | 12.2 | 11.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |      9 |     10 |     23 |     29 |     17 |     66 |     80 |    179 |     19 |      5 |     61 |   498
  Agree            | 14.1 | 34.5 | 24.7 | 34.9 | 21.8 | 38.4 | 42.6 | 51.3 | 39.6 | 27.8 | 41.5 | 39.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     30 |     14 |     47 |     35 |     33 |     58 |     61 |     96 |     18 |      5 |     47 |   444
  Neutral          | 46.9 | 48.3 | 50.5 | 42.2 | 42.3 | 33.7 | 32.4 | 27.5 | 37.5 | 27.8 | 32.0 | 35.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     22 |      4 |     12 |      7 |     19 |     29 |     22 |     29 |      3 |      1 |     20 |   168
  Disagree         | 34.4 | 13.8 | 12.9 |         8.4 | 24.4 | 16.9 | 11.7 |          8.3 |    6.3 |    5.6 | 13.6 | 13.2




                                                                 - 106 -
                                                                            IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                           Senior Leader Safety Survey Results



                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               5 |         |        |     1 |         |     1 |      1 |      2 |      2 |      1 |         |     1 |      9
 Strongly Disagre |        |        |   1.1 |         |   1.3 |     .6 |    1.1 |     .6 |    2.1 |         |    .7 |     .7
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
           Column      64       29       93       83       78      172      188      349       48       18      147     1269
            Total     5.0      2.3      7.3      6.5      6.1     13.6     14.8     27.5      3.8      1.4     11.6    100.0

Number of Missing Observations: 30
----------------------------------------------------------------------------------------------------------------------------------
-
Q5 Safety takes back seat to mission by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc           Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q5         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |         |     1 |      2 |      1 |      2 |         |     1 |      9 |         |     1 |      4 |    21
  Strongly Agree   |        |   3.4 |    2.2 |    1.2 |    2.6 |         |    .5 |    2.6 |         |   5.6 |    2.7 |   1.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |      5 |      3 |      8 |      2 |      3 |     12 |     10 |     13 |      5 |         |    11 |    72
  Agree            |   7.8 | 10.3 |      8.7 |    2.5 |    3.9 |    7.0 |    5.3 |    3.7 | 10.4 |           |   7.4 |   5.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     17 |      5 |     12 |      6 |     10 |     16 |     10 |     25 |      6 |      2 |     11 |   120
  Neutral          | 26.6 | 17.2 | 13.0 |         7.4 | 13.0 |      9.3 |    5.3 |    7.1 | 12.5 | 11.1 |        7.4 |   9.5

                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |    31 |     14 |     36 |     49 |     39 |     78 |     80 |    171 |     20 |      6 |     68 |    592
 Disagree         | 48.4 | 48.3 | 39.1 | 60.5 | 50.6 | 45.3 | 42.6 | 48.7 | 41.7 | 33.3 | 45.6 | 46.7
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               5 |     11 |      6 |     34 |     23 |     23 |     66 |     87 |    133 |     17 |      9 |     55 |    464
 Strongly Disagre | 17.2 | 20.7 | 37.0 | 28.4 | 29.9 | 38.4 | 46.3 | 37.9 | 35.4 | 50.0 | 36.9 | 36.6
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
           Column      64       29       92       81       77      172      188      351       48       18      149     1269
            Total     5.0      2.3      7.2      6.4      6.1     13.6     14.8     27.7      3.8      1.4     11.7    100.0

Number of Missing Observations: 30
----------------------------------------------------------------------------------------------------------------------------------
-
Q6 Safety funding adequate in budget proces by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q6         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      2 |      1 |      9 |      7 |      3 |     14 |     16 |     20 |      3 |      3 |      8 |     86
  Strongly Agree   |   3.1 |    3.4 |    9.8 |    8.4 |    3.9 |    8.1 |    8.5 |    5.7 |    6.3 | 16.7 |      5.3 |    6.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     13 |      9 |     46 |     22 |     22 |     56 |     63 |    131 |     15 |      7 |     60 |    444
  Agree            | 20.3 | 31.0 | 50.0 | 26.5 | 28.6 | 32.6 | 33.3 | 37.6 | 31.3 | 38.9 | 40.0 | 35.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     37 |     10 |     28 |     33 |     33 |     73 |     80 |    101 |     21 |      7 |     49 |    472
  Neutral          | 57.8 | 34.5 | 30.4 | 39.8 | 42.9 | 42.4 | 42.3 | 29.0 | 43.8 | 38.9 | 32.7 | 37.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     10 |      9 |      9 |     17 |     14 |     24 |     28 |     80 |      8 |      1 |     30 |    230
  Disagree         | 15.6 | 31.0 |       9.8 | 20.5 | 18.2 | 14.0 | 14.8 | 23.0 | 16.7 |                5.6 | 20.0 | 18.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      2 |         |        |     4 |      5 |      5 |      2 |     16 |      1 |         |     3 |     38
  Strongly Disagre |   3.1 |         |        |   4.8 |    6.5 |    2.9 |    1.1 |    4.6 |    2.1 |         |   2.0 |    3.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      64       29       92       83       77      172      189      348       48       18      150     1270
             Total     5.0      2.3      7.2      6.5      6.1     13.5     14.9     27.4      3.8      1.4     11.8    100.0

Number of Missing Observations: 29
----------------------------------------------------------------------------------------------------------------------------------
-
Q7 Decreasing rate by 50% is achievable by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q7         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      4 |         |     8 |      5 |     10 |     11 |     22 |     30 |      3 |      1 |     14 |    108
  Strongly Agree   |   6.3 |         |   8.6 |    6.0 | 13.0 |      6.4 | 11.6 |      8.6 |    6.4 |    5.6 |    9.3 |    8.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     18 |     12 |     32 |     33 |     31 |     63 |     81 |    137 |     16 |      6 |     64 |    493
  Agree            | 28.6 | 41.4 | 34.4 | 39.8 | 40.3 | 36.6 | 42.9 | 39.1 | 34.0 | 33.3 | 42.7 | 38.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     29 |      6 |     37 |     14 |     22 |     51 |     35 |     92 |     12 |      7 |     39 |    344
  Neutral          | 46.0 | 20.7 | 39.8 | 16.9 | 28.6 | 29.7 | 18.5 | 26.3 | 25.5 | 38.9 | 26.0 | 27.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     11 |      8 |     16 |     27 |     12 |     41 |     42 |     78 |     14 |      4 |     27 |    280
  Disagree         | 17.5 | 27.6 | 17.2 | 32.5 | 15.6 | 23.8 | 22.2 | 22.3 | 29.8 | 22.2 | 18.0 | 22.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |      1 |      3 |         |     4 |      2 |      6 |      9 |     13 |      2 |         |     6 |     46
  Strongly Disagre |   1.6 | 10.3 |           |   4.8 |    2.6 |    3.5 |    4.8 |    3.7 |    4.3 |         |   4.0 |    3.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      63       29       93       83       77      172      189      350       47       18      150     1271
             Total     5.0      2.3      7.3      6.5      6.1     13.5     14.9     27.5      3.7      1.4     11.8    100.0

Number of Missing Observations: 28
----------------------------------------------------------------------------------------------------------------------------------
-
Q8 Making changes is high priority for ldrs by Q15 Org. Assign.

             Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
            Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc           Row
                    |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q8          --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+




                                                             - 107 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results



               1  |     9 |      7 |     25 |     21 |     27 |     56 |     72 |    136 |     11 |     10 |     44 |    418
 Strongly Agree   | 14.1 | 24.1 | 26.9 | 25.3 | 34.6 | 32.4 | 38.1 | 38.9 | 23.4 | 55.6 | 29.3 | 32.8
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               2 |     29 |     14 |     51 |     54 |     37 |     90 |     93 |    165 |     27 |      5 |     76 |    641
 Agree            | 45.3 | 48.3 | 54.8 | 65.1 | 47.4 | 52.0 | 49.2 | 47.1 | 57.4 | 27.8 | 50.7 | 50.3
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               3 |     19 |      7 |     11 |      5 |     10 |     19 |     19 |     41 |      4 |      3 |     23 |    161
 Neutral          | 29.7 | 24.1 | 11.8 |         6.0 | 12.8 | 11.0 | 10.1 | 11.7 |            8.5 | 16.7 | 15.3 | 12.6
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               4 |      7 |      1 |      6 |      3 |      4 |      8 |      5 |      7 |      5 |         |     7 |     53
 Disagree         | 10.9 |     3.4 |    6.5 |    3.6 |    5.1 |    4.6 |    2.6 |    2.0 | 10.6 |           |   4.7 |    4.2
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
               5 |         |        |        |        |        |        |        |     1 |         |        |        |     1
 Strongly Disagre |        |        |        |        |        |        |        |    .3 |         |        |        |    .1
                  +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
           Column      64       29       93       83       78      173      189      350       47       18      150     1274
            Total     5.0      2.3      7.3      6.5      6.1     13.6     14.8     27.5      3.7      1.4     11.8    100.0

Number of Missing Observations: 25
----------------------------------------------------------------------------------------------------------------------------------
-
Q9 Best practices is good way to bring abou by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q9         --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |     12 |      6 |     26 |     18 |     20 |     44 |     60 |     97 |     11 |      7 |     30 |    331
  Strongly Agree   | 19.0 | 20.7 | 28.6 | 21.7 | 26.0 | 25.9 | 31.7 | 27.9 | 22.9 | 38.9 | 20.0 | 26.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     31 |     14 |     49 |     54 |     45 |     90 |     98 |    183 |     24 |      8 |     84 |    680
  Agree            | 49.2 | 48.3 | 53.8 | 65.1 | 58.4 | 52.9 | 51.9 | 52.6 | 50.0 | 44.4 | 56.0 | 53.7
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     19 |      6 |     12 |      7 |      7 |     25 |     30 |     58 |     12 |      3 |     31 |    210
  Neutral          | 30.2 | 20.7 | 13.2 |         8.4 |    9.1 | 14.7 | 15.9 | 16.7 | 25.0 | 16.7 | 20.7 | 16.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      1 |      3 |      2 |      3 |      4 |      9 |      1 |      8 |      1 |         |     5 |     37
  Disagree         |   1.6 | 10.3 |      2.2 |    3.6 |    5.2 |    5.3 |     .5 |    2.3 |    2.1 |         |   3.3 |    2.9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |         |        |     2 |      1 |      1 |      2 |         |     2 |         |        |        |     8
  Strongly Disagre |        |        |   2.2 |    1.2 |    1.3 |    1.2 |         |    .6 |         |        |        |    .6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      63       29       91       83       77      170      189      348       48       18      150     1266
             Total     5.0      2.3      7.2      6.6      6.1     13.4     14.9     27.5      3.8      1.4     11.8    100.0

Number of Missing Observations: 33
----------------------------------------------------------------------------------------------------------------------------------
-
Q10 Cooperation exists across Services by Q15 Org. Assign.


            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q10        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      2 |      3 |      6 |      6 |      7 |     15 |     14 |     28 |      4 |      2 |      7 |     94
  Strongly Agree   |   3.2 | 10.3 |      6.5 |    7.2 |    9.1 |    8.7 |    7.4 |    8.0 |    8.5 | 11.1 |      4.7 |    7.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     18 |     15 |     36 |     37 |     26 |     53 |     72 |    128 |     18 |      5 |     46 |    454
  Agree            | 29.0 | 51.7 | 38.7 | 44.6 | 33.8 | 30.6 | 38.1 | 36.7 | 38.3 | 27.8 | 31.1 | 35.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     41 |      8 |     43 |     28 |     37 |     91 |     85 |    147 |     21 |      8 |     78 |    587
  Neutral          | 66.1 | 27.6 | 46.2 | 33.7 | 48.1 | 52.6 | 45.0 | 42.1 | 44.7 | 44.4 | 52.7 | 46.3
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      1 |      3 |      7 |     12 |      7 |     12 |     17 |     41 |      3 |      3 |     16 |    122
  Disagree         |   1.6 | 10.3 |      7.5 | 14.5 |      9.1 |    6.9 |    9.0 | 11.7 |      6.4 | 16.7 | 10.8 |        9.6
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |         |        |     1 |         |        |     2 |      1 |      5 |      1 |         |     1 |     11
  Strongly Disagre |        |        |   1.1 |         |        |   1.2 |     .5 |    1.4 |    2.1 |         |    .7 |     .9
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      62       29       93       83       77      173      189      349       47       18      148     1268
             Total     4.9      2.3      7.3      6.5      6.1     13.6     14.9     27.5      3.7      1.4     11.7    100.0

Number of Missing Observations: 31
----------------------------------------------------------------------------------------------------------------------------------
-
Q11 Ldrship has provided resources to suppor by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc           Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q11        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      3 |      2 |     12 |      8 |      8 |     19 |     28 |     34 |      3 |      5 |     10 |   132
  Strongly Agree   |   4.8 |    6.9 | 13.0 |      9.6 | 10.4 | 10.9 | 14.8 |          9.7 |    6.3 | 27.8 |      6.7 | 10.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     16 |     11 |     48 |     42 |     30 |     87 |     98 |    188 |     22 |     12 |     83 |   637
  Agree            | 25.8 | 37.9 | 52.2 | 50.6 | 39.0 | 50.0 | 51.9 | 53.9 | 45.8 | 66.7 | 55.3 | 50.1
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     36 |      9 |     27 |     18 |     23 |     49 |     46 |     68 |     14 |      1 |     43 |   334
  Neutral          | 58.1 | 31.0 | 29.3 | 21.7 | 29.9 | 28.2 | 24.3 | 19.5 | 29.2 |                     5.6 | 28.7 | 26.3
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |      7 |      7 |      5 |     14 |     14 |     16 |     15 |     53 |      9 |         |    13 |   153
  Disagree         | 11.3 | 24.1 |       5.4 | 16.9 | 18.2 |        9.2 |    7.9 | 15.2 | 18.8 |             |   8.7 | 12.0
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |         |        |        |     1 |      2 |      3 |      2 |      6 |         |        |     1 |    15
  Strongly Disagre |        |        |        |   1.2 |    2.6 |    1.7 |    1.1 |    1.7 |         |        |    .7 |   1.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      62       29       92       83       77      174      189      349       48       18      150    1271




                                                             - 108 -
                                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                                          Senior Leader Safety Survey Results



            Total     4.9      2.3      7.2      6.5      6.1     13.7     14.9     27.5      3.8      1.4     11.8    100.0

Number of Missing Observations: 28
----------------------------------------------------------------------------------------------------------------------------------
-
Q12 We have to accept that accidents will oc by Q15 Org. Assign.

            Count |OSD       JSC      DoD      COCOM     Service Service MAJCOM/M Major     DoD Fld Joint     Other
           Col Pct |Staff    Staff    Agencies and other Secreta HQ Staff ACOM/CLA Subbord Activit Service Sc            Row
                   |     1 |      2 |      3 |      4 |      5 |      6 |      7 |      8 |      9 |     10 |     11 | Total
Q12        --------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                1 |      2 |      1 |      4 |      4 |      6 |      7 |      8 |     22 |      2 |      2 |      3 |     61
  Strongly Agree   |   3.1 |    3.6 |    4.3 |    4.8 |    7.7 |    4.0 |    4.3 |    6.3 |    4.2 | 11.1 |      2.0 |    4.8
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                2 |     15 |     14 |     21 |     25 |     16 |     50 |     55 |     81 |     13 |      2 |     28 |    320
  Agree            | 23.4 | 50.0 | 22.6 | 30.1 | 20.5 | 28.7 | 29.3 | 23.2 | 27.1 | 11.1 | 18.9 | 25.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                3 |     13 |      7 |     13 |      8 |      9 |     15 |     25 |     34 |      5 |      3 |     23 |    155
  Neutral          | 20.3 | 25.0 | 14.0 |         9.6 | 11.5 |      8.6 | 13.3 |      9.7 | 10.4 | 16.7 | 15.5 | 12.2
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                4 |     21 |      5 |     43 |     32 |     31 |     81 |     77 |    147 |     19 |      7 |     64 |    527
  Disagree         | 32.8 | 17.9 | 46.2 | 38.6 | 39.7 | 46.6 | 41.0 | 42.1 | 39.6 | 38.9 | 43.2 | 41.5
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
                5 |     13 |      1 |     12 |     14 |     16 |     21 |     23 |     65 |      9 |      4 |     30 |    208
  Strongly Disagre | 20.3 |     3.6 | 12.9 | 16.9 | 20.5 | 12.1 | 12.2 | 18.6 | 18.8 | 22.2 | 20.3 | 16.4
                   +--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+--------+
            Column      64       28       93       83       78      174      188      349       48       18      148     1271
             Total     5.0      2.2      7.3      6.5      6.1     13.7     14.8     27.5      3.8      1.4     11.6    100.0

Number of Missing Observations: 28
----------------------------------------------------------------------------------------------------------------------------------
-




                                                             - 109 -
                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                             Senior Leader Safety Survey Results




Appendix I – Respondent Comments - Suggested Actions

                          U.S. DoD Survey Results - Senior Leader Survey


In the first of two open-ended written comment questions, respondents were asked, “If you were to
suggest one action that would improve safety in DoD, what would it be”?

We deleted the names, units and locations to preserve respondent anonymity, and edited out inappropriate
language, but otherwise the comments are verbatim.


 COMMENT       IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
   NO.         WOULD IT BE?


      1        A comprehensive program that addresses the safety of our soldiers while operating motor
               vehicles off duty. Statutory authority to impose more rigid requirements like helmets for
               motorcycle riders, even if the state does not require them. End of duty week safety briefings
               that include vignette films like the one of the Ft Hood POV accident a few months ago that
               shows the leadership on the scene the evening the accident occurred. Suspension of drivers
               license upon identification of unsafe actions.

      2        A real incentive/rewards program for achieving safety goals.

      3        Active leadership that mitigates risk as part of the every day mission and a support system that
               responds to requests from leaders.

      4        Additional funding for safety programs and staffs. Most staffs are woefully thin and don't have
               the personnel authorized; in an era of constrained resources, safety often takes a back seat. As
               I understand it, most Army fatalities seem to occur off-duty. There seems to be a recent rash of
               motorcycle death; we need to figure out better ways of discouraging unsafe motorcycle
               operation. Perhaps a required course of instruction for a motorcycle license in which the
               soldier must pay $400 or so to attend a one-week motorcycle safety course; hit them where it
               hurts,, the wallet and free time. Force the soldier to make a significant effort to be licensed on
               a vehicle that is killing dozens of great young soldiers, sailors, airmen, and marines every year.

      5        Adequately fund training sets of equipment and associated simulation(s).

      6        Aggressively work programs; small group sessions to address risk taking behavior off duty.

      7        Align programmatics with safety policy and execution in DoD.




                                                  - 110 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


   8      All Agencies and Military Departments develop a motor vehicle safety campaign plan that
          focuses on education and training of everyone from top to bottom. Certain safety awareness
          skills should be demonstrated. In addition, monthly or quarterly leader-led safety seminars
          [10-12 people in a seminar] to get everyone focused on the dangers and hazards and the
          expected conduct of every DoD employee--both on and off duty. To operate safely should be
          recognized as a good American citizen's obligation/duty to himself/herself and every other
          citizen whose life or property he or she may affect.

   9      I believe we have the guidance and requirements clear from senior leadership. We must keep
          focus on first line supervisors and junior leaders. All of my efforts in safety are directed
          towards this level of leadership. They are at the decision point many times in terms of effects
          and situational awareness about their soldiers and families.

  10      Better cross-service exchange of ideas and initiatives (best practices).

  11      Better integration with program managers as requirements are established, designs requested,
          testing, training, and fielding. Lastly, more on the ground analysis after fielding/employment.
          Things are better now, but could be even better.

  12      Better sharing of best practices.

  13      Carefully analyze the troop to task factors in Army formations to assess vulnerabilities
          generated by a comparatively high task and equipment to soldiers available ratio.

  14      Change focus on safety from a programmatic approach to one of active leader involvement and
          responsibility at all levels.

  15      Constantly emphasize individual responsibility for good safety conduct and individual/buddy
          risk management actions in advance of all activities

  16      Continue to educate Service members that they should behave responsibly at all times.

  17      Continue to educate the leadership and all of the members of DoD on the hazards of unsafe
          acts--down to the most junior level. When rolling up the numbers, it is truly staggering to see
          our losses due to preventable accidents. These statistics do not often reach the first line
          supervisor nor the Service members who take the unnecessary risks that often lead to
          preventable accidents.

  18      Continue to have senior DoD leaders reinforce the imperative of safety-focused mission
          execution in all that we do. Emphasis from the top leadership is essential.

  19      Continue to push hard at institutionalizing risk assessment in all that we do. It truly makes a
          difference when leaders at all levels proactively take action to prevent accidents.



                                              - 111 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  20      Continue to resource and reinforce leader training in risk mitigation at the junior leader level.

  21      Continue to stress driving safety -- drinking and driving, speed, rest, seat belts, etc. Each must
          be continuously reinforced because we bring into the Services so many young people each
          year.

  22      Continue to stress the need to apply common sense risk assessments in all we do.

  23      Continued emphasis on safety both in planning and execution.

  24      Create one DoD safety center, vice service safety centers and insure timely dissemination of
          mishaps from all Services...not just the US Army. We must have visibility of all safety
          mishaps, etc., and all DoD members, military, civilian, active, and reserve should undergo a
          rigorous safety course once a year.

  25      Direct safety stand-downs periodically that show that safety is part of the mission and requires
          focus.

  26      Emphasize the risk assessment process in officer and non-commissioned officer education
          programs to inculcate the idea that every operation, in training, garrison or combat requires a
          leader's assessment.

  27      Empower soldiers with the authority to stop any action that appears unsafe. Non-negotiable

  28      Enforce penalties for undisciplined behavior. We must find a way to get soldiers, civilians and
          family members to do what is right when leadership is not present. It must be engrained in our
          culture.

  29      Ensure every Army Brigade has a fully deployable civilian safety expert as part of the brigade
          staff. When we have funded these in the past, they have made clear and direct positive impact
          with the chain of command. Accidents have gone down.

  30      Ensure personnel get adequate rest and exercise.

  31      Establish crew rest standards for operators of ground vehicles just as we do for aviators.

  32      Establish baselines of performance and establish goals. Measure safety performance against
          those goals and hold unit leaders accountable.

  33      Find an effective way to deter youngsters (soldiers under 28) from drinking and driving.




                                             - 112 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  34      First line supervisor requiring their subordinates to take the common behavior assessment tests
          - particularly for those subordinates who portray common safety risks in their life styles.

  35      Focus on individual responsibility instead of red dots for safety. A good safety program starts
          with the individual and moves up the complete chain of command.

  36      Focus on POV accidents.

  37      For military vehicles, reduce speed by the use of governors which control max speed. Also,
          seat belt connection that then allows engine operation.

  38      For rotary wing aviation, adequately resource flight data recorders across our fleets.

  39      From the beginning, we need to treat soldiers as adults who have entered into an adult
          profession that has real threats, demands and challenges that requires their active participation
          to manage so that safety is an integral part of military life. Recognizing that most of our young
          soldiers, as they enter service, are just that, young, frequently immature and not completely
          formed, we need to integrate into our training bases the best of behavior modification and
          influencing science in order to produce young men and women who understand that safety is
          but one integral portion of the daily life of a soldier. Nothing will help reduce safety incidents
          in our military more than making everyone in it a situationally aware safety officer,
          themselves. Not that this is completely achievable, but should be the goal.

  40      Fund the authorized positions to a level equal to other type positions. Not asking to fund above
          other programs, but safety personnel authorizations should be filled.

  41      Highest risk areas for safety incidents are soldiers, sailors, airmen, or marines returning from
          deployment. Focus at the highest levels must occur.

  42      Hold leaders more accountable for the actions of their soldiers. Make a commander's safety
          record relative to his peers part of his evaluation. Do a better job teaching junior leaders how to
          conduct accident and tactical risk mitigation. Educate the senior leaders of DoD that despite
          our best efforts to ensure the safety of our soldiers, we are in a dangerous business.

  43      Hold leaders more responsible for the safety of their Service members!

  44      Hold people accountable for indiscipline.

  45      I am afraid I have no silver bullet to provide. We conduct risk managements, safety stand
          down days, safety alerts and notices, and I have had battalion safety talks to our soldiers on a
          weekly basis. First line supervisor involvement is key; I think the standard has been set,
          enforcing the standard requires constant emphasis.




                                             - 113 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  46      I believe DoD has already done a lot to achieve giving its employees a sense of security by
          increasing guards, implementing stricter rules, etc. Given the 9-11 disaster, there will always be
          a number of employees who lived through it wary, and it will always be difficult to make them
          feel safe.

  47      Immediate supervisors conduct personal risk mitigation with each direct subordinate.

  48      Implement a safety program as part of the basic training process. I am not sure if this has been
          done in either Army or other Service programs. I do believe it would have a positive affect on
          young Service members who tend to have higher accident rates.

  49      Implementation of risk management practices and tools across the department. Awareness is
          90% of the challenge.

  50      In my opinion, we need to move the ideas of safety and risk management/risk mitigation into
          the joint world. As a soldier, I am convinced that the Air Force has some of the best safety
          practices, yet (except in Army Aviation) I am not sure we have adopted those best practices
          that might make sense for the ground force. A truly joint border bureau could serve as a forcing
          function if properly resourced/empowered. The net result would at least be that each Service
          would get a different set of eyes looking at safety issues.

  51      In this command, safety has been, and remains a major focus of the commander. We have had
          this emphasis through two successive commanders. We have fully funded quarterly safety
          council meetings, and I have seen the results when you have senior commanders and non-
          commissioned officers focused on the issue. When the commander believes, and communicates
          to subordinates that safety is a major concern and interest of his, then things happen. Any
          successful force protection program will not achieve success unless it is a well known concern
          of the senior commander, and he plays a major role in developing and communicating the
          command's safety program.

  52      Increase force structure. In today's contemporary battlefield, operations will occur around the
          clock. We must have the personnel resources to conduct 24/7 operations. The history of the
          Red Ball Express has shown that you can't run 24 hour logistical operations with only one
          driver per truck over sustained time periods. We have to resource more personnel.

  53      Increase Safety budgets, mandatory comments in efficiency reports of commanders at all
          levels.

  54      Increase safety awareness as a matter of ethos and link good safety practice directly to mission
          accomplishment.

  55      Increase the end strength of the Army ; manage OPTEMPO and PERSTEMPO better.




                                             - 114 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  56      Increased funding for local commands to strengthen their safety awareness programs.

  57      Inculcate the concept of first echelon leader risk assessments – non-commissioned officer or
          officer first line leaders empowered to withhold liberty for high to unacceptable risk soldiers.

  58      Larger penalties for those riding in vehicles without seat belts.

  59      Leader checks at the first line supervisor level (Squad Leader / Staff Sergeant) with
          engagement by entire chain of command to ensure leaders trained to do checks. All accidents
          require after action review.

  60      Leader emphasis must be continuous and personal at the highest levels.

  61      Leadership accountability.

  62      Look at emergency escape hatches from up-armored HMMWVs that fall into canals in places
          like Iraq.

  63      Major area still not well understood is in the area of mental and behavioral health, particularly
          post traumatic stress, but also in general prevention of suicide and/or violence directed towards
          others. As we get army soldiers and marines back out of some fairly intense ground conflict, I
          think we have much to learn and probably more requirements to resource to adequately
          understand and control post traumatic stress.

  64      Make safety an integral part of the overall evaluation criteria of a supervisors/commander's
          annual performance rating. And supervisors and commanders must enforce compliance from
          the top down!

  65      Make the safety office a special staff officer to the commander, gives them better access to the
          command group.

  66      Mandatory driver training for all DoD personnel.

  67      Mandatory safety stand-down day for every class A accident in a unit.

  68      Mandatory safety education quarterly.targeted at younger soldiers.

  69      Marketing research into best techniques to get the attention of the most at risk portion of the
          DoD population.




                                              - 115 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  70      Migrate more of the safety considerations, practices, Tactics, Techniques and Procedures
          (TTPs) from the aviation community to the ground side. We have historically accepted minor
          accidents on the ground side as a price of doing business and not being a big deal because it
          might have resulted only in cosmetic damage to an armored combat vehicle. I believe that
          mindset sets the conditions for more serious accidents later. In the aviation community,
          cosmetic damage to aircraft usually results in some type of structural damage, so every
          accident (ground handling, maintenance or flight related), regardless of how minor is required
          to be fully documented and investigated.

  71      Money and resources for safety education and awareness has to be fully funded and the
          material needs to be impact loaded. The old boring classes on risk assessment will not work; it
          needs to be interactive and action packed. Ask people to make choices and then accept the
          consequences when they do not do a good analysis and risk mitigation; teach them how to
          think not what to think. Additionally, this should be a mandatory part of counseling and it
          should be included as a block check or a comment on efficiency reports.

  72      More emphasis on the elements of crew coordination for ground crews. The aviation
          community has led this effort for air frames. It has a huge potential payoff for ground systems.

  73      More experienced first line leaders, trained to standard, who understand how to supervise their
          Soldiers in the performance of their duties and how to positively influence their off duty
          behavior. The trend toward younger non-commissioned officers, lieutenants, captains means
          less experienced first line leaders.

  74      More formal training for leaders; could be web based. Recommend the use of the case studies
          as the basis for the training. The safety centers could be the resource for developing the case
          studies.

  75      More junior leader engagement with high risk populations at critical times such as when troops
          are about to be released after a long deployment, before a holiday where people are likely to
          travel long distances, troops with motorcycles - particularly new owners and young troops,
          allowing time for and emphasize/stress rehearsals prior to risky field training exercises/events,
          pairing experienced troops within experienced troops (buddy teams) for learning new duties.
          Junior leaders must know and care about their troops as individuals both on and off duty.
          Constant reinforcement at the junior level.

  76      More overt award programs for units and installations with best overall safety record and most
          improvement in the focus on our biggest problem area (s) like POV accidents and aviation.

  77      Motorcycle certification courses and strict enforcement of legal age to consume alcoholic
          beverages.




                                             - 116 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  78      Move to an effects based safety program. Apply all the elements in the kit bag... kinetic non
          kinetic; some more applicable than others. Chain of command from squadron leader on up
          must get to know soldiers and identify high risk soldiers in their formations...and document
          risk history in squad book. Platoon sergeants should know and document high risk squad
          leaders etc. They must understand full range of options in the kit bag to deal with high risk
          soldiers...but equally important recognize and reward low risk soldier behavior. Privileges and
          missions ascertained based on risk assessment.

  79      Need to fund more folks at the unit exercise level. Safety folks are overworked at the division
          level. In the new design safety folks went away --- we need to add them into the TDA ASAP.
          Continue to keep at BCT level too. They are worth their weight in gold.

  80      Need to keep safety and costs of not keeping safety on our leader’s scope. Hard to do with
          high OPTEMPO but doable with global net; easiest thing to do is shotgun something hot to the
          unit leaders. Package high impact, gory post mortem photos with simple lessons learned and
          distribute to every E-7/8/9 and every O-3/4/5/6/7/8 and every WO (all grades) in out Army.
          My sense is that a lot is already available but gets hung on a web page that most of us don't
          read. If we do a better job of sharing the electrons, more of it will turn into effective posters
          and email that folks will look at and show to their folks to overcome the way a lot of our young
          folks think about this issue (e.g. they're immortal). This will help keep leaders sensitized to
          horrific costs of inaction, help with reinforcement training. When I was in the 82d Airborn we
          used to have folks who had recently suffered static line burn accidents to be testimonial
          speakers down at green ramp to address soldiers about to jump.

  81      Need to take a closer look at the cause of accidents. If it is excessive driving distance because
          Service members live too far from base/post due to high cost of living, then we need to look at
          taking steps to mitigate that long drive, for example, construct of additional on base/post
          housing.

  82      Not sure of the specifics, but it would involve focusing on the factors that contribute to the
          majority of our accidents: off duty time, privately owned vehicles, alcohol, or illegal activity,
          for example, excessive speed, and reckless operation.

  83      Nothing significant to add. Many good initiatives presently ongoing that will require
          application and assessment over time to determine their respective value to the preservation of
          the lives of soldiers.

  84      OPTEMPO and lack of dwell time are major contributors. Reintegration efforts are good but
          need specific revisitation at 90 day and 120 day marks for redeploying soldiers. We need a
          system to track and reinforce the individual requirements for that after they return from theater
          and hop around the world with different chains of command.

  85      Outlaw cell phone use while operating motor vehicles.




                                             - 117 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  86      Ownership of this problem by individual soldiers, sailors, airmen, and marines instead of
          placing the entire responsibility on the leaders. It all comes down to individual decision
          making, and we need to start enforcing that right from the day these young men and women
          enter the military.

  87      Personal liability--as tough and traumatic as it is, we need to emphasize personal responsibility
          and hold people accountable for their failures. I have conducted too many safety violation after
          action reports with chain of command to discover all the leaders did the proper leading and
          soldier knew the standard, leaders enforced the standard but Soldiers ignored the standard.
          Dealing with I am invincible youth, levy real punishment for failures.

  88      Place more stress on initial entry Service men and women on safety and personal
          responsibility.

  89      POV/military vehicle are the greatest cause of accidents...require OPTEMPO to incorporate a
          waiting period before departing on leave or pass to ensure soldiers are provided appropriate
          opportunity to rest prior to driving. Supervision in military vehicles must be enforced,
          especially if it is a troop transport vehicle. Must have a policy that requires non-commissioned
          officers to do an appropriate risk assessment prior and during operations. The aviation
          community has the example for the Army to follow. Army needs to get on board and demand
          appropriate analysis and supervision at all levels. Unless there is a spotlight on leaders, we
          have little chance of reducing the accidents. We need to employ a better parachute with slower
          rate of decent.

  90      Promulgate the data base of accidents (location, circumstances, primary contributing factors) so
          unit commanders can conduct an "IPB" and operationalize their risk assessment.

  91      Properly fund-- rhetoric is not enough.

  92      Provide more resources to award good safety practices at all levels of the organization. We
          still do not have a good enough incentive program to leaders to pursue safe operations.

  93      Provide more tools for small unit leaders. We have great safety internet
          programs/questionnaires but do not have internet access down at the level where the leaders
          actually interact with the soldiers. Briefs well, tough in execution, suggestion, ensure internet
          access and computers at the small unit level where sergeants are interacting daily with soldiers.

  94      Publish actions taken against leaders who fail to ensure adherence to standards that affect
          individual safety.

  95      Queriable database on accidents and near misses with trend analysis to find commonalities of
          causes so that actionable prevention strategies can be implemented.




                                             - 118 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  96      Rapid situational awareness for safety lessons learned.

  97      Reduce OPSTEMPO in the force, with increased Active Force end strength.

  98      Reduce personal and OPSTEMPO.

  99      Reduce the task overload across the force. Add force structure and equipment to the
          appropriate force levels that are in overload. Best safety practices in operational zones
          (OEF/OIF) would lead to less mission accomplishment in the time and quality most units
          expect. Instill the type of leadership that allows an openness in their commands where in
          soldiers and leaders can tell them when they can't do what they are being asked to do in the
          time frame they are being tasked. The can do and roger that to everything ego/ attitude gets in
          the way of smart operating procedures to include the general wants stuff so leaders must be
          smart enough to recognize this effect and have some balance.

  100     Resource safety at the lowest level. Do not create a large overhead for safety. Must be
          accomplished at small unit level.

  101     Resources; both money and people.

  102     Rewards for units and individuals that practice safe operations. Hold first line supervisors
          accountable for safe training in units.

  103     Risk Management training from top to bottom.

  104     Safety and force protection are closely related. I believe we have made great strides in the area
          of force protection since 9/11, and continue to get better. We need to find a way to increase
          safety awareness through force protection...when it comes down to it, they are actually one and
          the same.

  105     Safety down day across the commands and services where the safety issues are covered. I
          would also do what the 1st Cavalry Division does and institute the power thought concept...it
          works!!

  106     Safety is currently a stove pipe. It is not integrated into everything we do. We are teaching
          and acting as if it is some separate process.. It insures under funding and under talented
          manning and separates it from the forces and soldier who have the accidents. We have
          excellent programs for risk analysis in combat and training. They need to be applied to soldier
          life, including. driving and recreational habits. At my last post we made is so difficult to ride a
          motorcycle (cheapest form of transport with current fuel rates), that troops rode off post with
          no training because it wasn't required. You cannot legislate and make policies to make folks
          safe, it needs to be an imbedded value for their own life and the well being of their family,
          make it a value.



                                              - 119 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  107     Safety must be a part of a leader's culture. Only then can the leader inculcate it into his own
          organization's culture. To do this requires a consistent, organized effort in order to raise the
          level of safety awareness and, hence, the level of safety performance. Once safety becomes a
          part of the culture, it becomes more of a way of doing business, and safety performance should
          improve in the long run.

  108     Safety must be a part of everyday planning and execution. It is a learned mental habit that
          must be a significant part of everything a soldier and their families do. We must help everyone
          to understand that safety check lists or risk evaluations are not just for ranges, road marches or
          fast roping training. They should and must be a mental process that every person goes through
          every time they do anything. If it is not as preconditioned a response or thought process as
          parachute training then it will never get the level of attention we intend or want. It must be so
          much a part of everyday thought that even if you are just going to the gas station 5 minutes
          down the road you think of all the possibilities of problems or accidents automatically. Only
          when thinking of risk as just part of every single thing we do will we begin to achieve the kind
          of result we desire.

  109     Safety must be embedded and not an after thought. It must be considered starting with receipt
          of the mission all the way through execution.Accidental risk and tactical risk must be analyzed
          to determine acceptable level of risk or mitigation techniques.

  110     Safety stand-down days.

  111     Safety training integrated into all levels of professional development.

  112     Since POV accidents are the biggest killer of soldiers (I have to assume that this trend spans all
          services, based on the demographics), we should consider some type of mandatory practical,
          hand-on POV drivers' training for our most vulnerable Service members, similar to what the
          Army requires of all motorcyclists.

  113     Slow down and prioritize.

  114     Slow the op tempo.

  115     Standardize risk management and resource it appropriately. Constantly changing names and
          bumper stickers will not make us safer. Accidents are not the cost of doing business and
          realism in training.

  116     Standardize training; establish standards, TTP's that are nonnegotiable.

  117     Stop being the world's policeman. Fight wars that truly threaten our security.




                                             - 120 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  118     Strengthen financial accountability to units and activities, rather than individuals for accidental
          damage to equipment.

  119     Tactical drivers training for operating in a combat environment.

  120     Talk about it daily and constantly enforce rules.

  121     Teach how to make risk assessments very early in institutional training for all services.

  122     The risk assessment process must be ingrained in all our leader programs. We must
          incorporate a culture of risk assessment into our planning and decision making processes that
          make it an instinctive and integrated part of everything we do. Preserving combat power is a
          leader responsibility at all levels.

  123     There are a lot of good ideas being brought up to improve safety but in most cases it is not
          funded. In many cases we are told to fund it out of our present budgets thus degrading training
          and war fighting capabilities.

  124     Tie safety related performance to evaluation reports. That would force commanders and senior
          non-commissioned officers to take safety seriously.

  125     Earnestly and adequately budget through multiple FYs the activities of all commands
          especially the joint and sub-unified commands, where the majority of the high risk operations
          are planned and executed.

  126     To truly be effective, a safety program has to be personalized, therefore it is imperative that we
          have the squad leader, platoon sergeant and platoon leader doing individual risk assessments on
          their soldiers and talking to them face to face. Generals standing on platforms giving speeches
          or sending out emails have absolutely no effect.

  127     Train as you fight, fight techniques, driving techniques, weapons handling.and so on. Strong
          supervisor review/supervision of service members traveling in POVs over long distances.

  128     Understand that we can never stop trying to prevent accidents that cause harm, pain, death etc.
          but also understand that, sadly, accidents happen no matter what we do. We should never give
          up!!




                                              - 121 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  129     We do a fairly good job of advertising safety failures. These tend to work to scare us into
          safety awareness. We do less well at advertising safety successes. I'm not talking about safety
          awards programs; I'm talking about vignettes that illustrate actions of leaders and supervisors--
          normally at the first line level--that result in saved lives and accidents prevented. The platoon
          sergeant who discovers the unlicensed driver in his convoy pre-combat checks. The battalion
          commander who restricts road movement due to adverse weather conditions. The mechanic
          who discovers the broken brake line during service inspections. There are plenty of positive
          vignettes that might inspire greater safety awareness.

  130     We have to have a larger Army to run at a slower pace. We have to run at a slower pace to
          truly make a dent in the accidents with the good programs available out there. We must set
          aside the time necessary to conduct the most effective programs on a regular basis. Train and
          educate our people to mitigate safety risks as a real part of everything they do.

  131     We must develop a more focused program to prevent motor vehicle accidents, both POVs and
          GOVs. Most of the fatalities are young people, so we've got to change their awareness and
          decision-making regarding risks, and their attentiveness and focus on driving skills.

  132     We need a program that stresses standards for accomplishing combat-related tasks and the
          leadership to enforce discipline to meet the standards.

  133     We need to provide more funding to our safety program. Safety is something that is continuous
          and it must be engrained early on in basic training with our soldiers.

  134     While I am not aware of what the other services do to influence safety in training and
          operations, I firmly believe that the Army, as a Service and a culture, places strong emphasis
          on safety in all operations. We have commanders who conduct risk assessments and
          mitigation, and we are appropriately applying composite risk management to all we do. Our
          safety center is ensuring the field and commanders get good, appropriate and timely
          information...in fact, the new general is unbelievable in the way he has turned the center
          around to provide better service to the field. I am concerned about the statements made by
          many in DoD that we will reduce accidents by 50 percent. While this might be an admirable, it
          is also a sad commentary about how little is understood by our civilian leaders about the
          operational tempo, the dangers related to combat operations, and compounded stress levels we
          are feeling in the field, and how those issues contribute to accident rates.

  135     Fund current year initiatives and stop trying to use the POM process for safety. We can't
          provide new aggressive programs without resources, and the funding needs to be timely. It
          does no good to talk about the issues and solution sets, then say, we will find the money in a
          few years.

  136     Adequate funding for both training and safety!




                                             - 122 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  137     Always allow adequate time for performance of duties and keep reminding soldiers at every
          level.

  138     Apply the same budget and modernization actions across the total force in a fair and equal
          manner. In other words, when we deploy active duty and reserve component soldiers give the
          reserve component soldiers the most up-to-date and or modern equipment as you give the AD.
          If all deployed equipment for active duty has total up-armored packages to include ballistic
          glass then reserve component soldiers should have the same. In most cases, NG equipment is
          suitable for the mission; however, add-on armor kits and appropriate updates are not available
          for the older equipment. We usually give the AD new and modern trucks or vehicles which
          have factory up-armor and or ballistic glass.

  139     As we alert, mobilize, train and deploy, involving safety officers in every phase of developing
          the OPLANS & OPORDERS I believe would have a more positive influence on making
          everyone aware of safety, risk management, and mitigation of risks. Also, involving spouses &
          family readiness groups in safety briefings and risk mitigation strategies would develop more
          of a team approach across our formations, particularly as it relates to POV accidents.

  140     Commanders and senior non-commissioned officers need to actively and personally stress and
          ingrain in our subordinate leaders and personnel the fact that safety is a force multiplier, and
          that, in almost all cases, accidents can be prevented if procedures are known, understood,
          followed and enforced.

  141     Conduct mandatory two hour safety classes annually for all personnel at all levels.

  142     Continue effort to make safety a way of life, a natural part of our values and warrior ethos.

  143     Continue to emphasize wearing seat belts!

  144     Continued command emphasis all the time with regard to every activity.

  145     Email a DoD safety oriented message daily to senior leaders in the same way the Army is
          emailing the stand-to to Army senior leaders daily.

  146     Fully fund all mandated programs and provide personnel resources necessary to accomplish the
          expansive training and compliance mission.

  147     I believe that safety and force protection are closely linked. If we say that we are doing all that
          we can to provide the proper training and providing the proper equipment for safety and force
          protection, check both up and down the chain to insure that it is being ordered and that it is
          being fielded.

  148     Improve replacement of 998's with 1114's in theater of operations.



                                              - 123 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  149     In every organizational formation of 500 or more personnel, a designated safety officer must be
          assigned either as TOE or TDA structure and funded by DoD. Their focus must be solely on
          safety practices; safety information; safety training; and soldier safety integration operations..
          Current data will show that those organizations with organized and dedicated safety structure
          and personnel assigned, realize and demonstrate operational and training safety improvements.
           This must be carried down to all formations affecting similar results. Once assigned, safety
          must be their primary focus and not additional duty and responsibility. If we are serious about
          safety, this is a manpower bill we must accept and pay.

  150     Include safety statistics in the supervisor's performance appraisal and in the subordinate's
          evaluation and rate them accordingly.

  151     Insure risk management is a well defined leader capability. Too often I see risk assessment
          with no attempt to ameliorate the risk. Too often I see risk decisions made at an inappropriate
          level. We have mounds of after-the-fact cover-your-butt investigations but little before-the-fact
          conscious and conscientious process to lower the risk of preventable accidents.

  152     It appears that safety is important to all leaders throughout the chain of command. However, it
          is not evident to me that it is paramount to the organization. I feel that safety is taken into
          consideration when assessing the mission; not sure about other times.

  153     It's not just about training safety. It is also about behaviors in general. Educating
          responsibility and decision making as contributory dynamics is important.

  154     Keep hammering home to wear seat belts!

  155     Keep the word going out to all that safety is our first mission as leaders and commanders.

  156     Keep things simple in the safety arena. Too much admin and CYA can get in the way of
          common sense. If we can't make it simple, let's at least make it clear.

  157     Like anything else. We reward supply excellence, deployment excellence, and maintenance
          excellence -- why do we not recognize the best in Active, Reserve and National Guard? Bring
          the best to DC and recognize the best.

  158     Make first line supervisors conduct a pre-activity safety brief for all actions, have safety
          discussed in all after action reports, and debrief soldiers on safety as they end their duty day
          (POV, alcohol impairment, and off-duty safety) daily.

  159     Make safety a rated item on all performance reports with mandatory comments by the rater as
          to how the individual performed in accordance with current safety guidelines and how
          successful the individual was in reducing accidents or initiating new concepts to protect our
          soldiers.



                                              - 124 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  160     Make safety improvement a required goal on the performance support form.

  161     Make the risk assessment process be taken seriously and not just given lip service in preparing
          for training events. My experience has been that no one really takes interest in Risk
          Assessment until after we've had an accident.

  162     Mandatory vehicle driver training. I can't believe all the automobile wrecks you see and hear
          about everyday in the DC area!

  163     Most POV accidents occur while soldiers and airmen are traveling to and from weekend
          training drills. Many weekend drills begin Friday evening which requires Guardsmen to travel
          directly from their place of work (8 hrs). These Guardsmen are already tired before the first
          formation. Additionally, at the conclusion of the weekend drill they are usually dismissed
          1630-1700 hrs to travel home, again fatigued. Leadership must rethink how it trains on
          weekends both at home station and in the field.

  164     New and improved seat belts in our High Utility -purpose Mobile Wheeled Vehicle
          (HUMMWV). The seat belt must be able to be worn with body armor, tactical load bearing
          equipment and a quick release. Many occupants do not wear their seat belts because they
          cannot get the straps around their bodies when wearing body armor and tactical load bearing
          equipment.

  165     Pay attention to what you are doing.

  166     POV driver safety program. Advanced drivers safety is an excellent program that all new
          enlistments must complete as part of IADT.

  167     Provide drivers training with actual up-armored HUMMWV to the battalion level. Currently
          no armored HUMMWV are being used as a training set. A unit is mobilized and gets no
          training on the equipment until they arrive in theater and then only on the job training but
          nothing formal. There is no systematic training on a heavy high center of gravity auto. If we
          want to stop roll-overs and deaths we need to train with actual equipment; not just talk about it.

  168     Reduce the very high OPTEMPO, it has all of us running around at a high rate of speed with
          little time to plan or reflect.

  169     Require that safety be a stated part of every commander's performance narrative.

  170     Resources to fund safety personnel down to at last battalion level. Safety has been around
          forever and a few years ago environmental came on the scene and if you use that as a request
          for resources, you get it no matter what, i.e. people, equipment, material etc. Safety on the
          other hand gets no resources even though everyone knows and agrees that it should. Do
          something to take care of our soldiers.



                                             - 125 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  171     Reward commanders who demonstrate sincere and meaningful commitments to accident
          prevention and discipline those who do not.

  172     Safety as a value and not priority. Values are never compromised while priorities change
          depending on the moment and situation. Safety must be imbedded in all soldiers.

  173     Safety must be made as high a priority as training accomplishment or any other mission
          assignment. Safety must be rated in a leader's career development equally with other tasks.
          There must be a real assessment of a leader's commitment to safety in planning and executing
          missions, so that a leader that ensures risk mitigation of tasks but does not accomplish as many
          tasks as a leader, who drives his soldiers without regard other than lip services to risk
          mitigation, is truly rated the superior leader. Currently, we reward the hard charger with a risk
          analysis chart who is lucky during his command and downgrade the leader who through risk
          mitigation accomplishes less on paper, but who truly practices safety in mission
          accomplishment.

  174     Since we have safety news letters/magazines, call bulletins, and so on, perhaps what we need is
          a significant part of our conferences (i.e. TRADOC, NGB, FORSCOM, etc.) dedicated to
          safety and safety issues. This should entail serious discussions on safety issues, not a slide
          presentation given by senior personnel. These discussions need to be preceded with preparatory
          material to make them effective.

  175     Take away the cars from DoD employees that break the speed laws. I live in Atlanta, and am
          passed on the interstate everyday by people in DoD vehicles that are flying low.

  176     The national safety objectives should be reviewed annually and passed down to the field.
          There should not be reductions in budgeting in this area.

  177     The US Army Combat Readiness Center does not provide a usable product for the M-Day
          (traditional guard member) safety officer/ non-commissioned officers in a guard unit. Their
          entire focus is active duty. NGB safety has made very little progress in this area either. Ninety
          percent of our safety officer/non-commissioned officers are traditional guard members (M-
          Day) who get almost no training and have nothing provided to them to do their job.

  178     We all must understand that safety.is not a program; it is a way of doing business. The key to a
          safe environment is through strong leadership and a caring command climate. The one action
          that I would recommend is that safety be strongly emphasized in all leadership professional
          development training with strong emphasis on risk management. You don't do safety, you do
          your business safely.

  179     We have to keep safety on the service member's mind.




                                             - 126 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  180     We should always include hands on training with new equipment under conditions where the
          equipment will be used. Because of the shortages of up-armored HUMMWVin theater,
          soldiers did not get the opportunity to drive these vehicles prior to arriving in Kuwait.
          Conditions in the combat zone included narrow dirt roads along canals. These were extremely
          hazardous conditions especially with night vision googles. The most effective mitigation is
          practice. The organization must be willing to go beyond normal training environments to
          insure soldiers gain the experience necessary to mitigate the hazards.

  181     A safety video should be made that shows the after effects of non-safe behavior. A video
          trainer similar to a playstation2 or x-box game could also created for use by new and younger
          soldiers to stress the importance of safety.

  182     Accidents occur when people don't think ahead. Leadership must model, not just talk about
          safety. Modeling occurs with on the spot corrections, creating a climate of safety, and
          inoculating soldiers by talking about safety specifics before and after any field events or
          deployments.

  183     Add safety, risk assessment analysis, to each soldier's performance evaluation.

  184     Adherence to standards.

  185     Admittance to the influence of alcohol on safety matters. In my opinion, some military leaders
          are in denial when it comes to the relationship between misuse of alcohol and accidents. I
          don't have data, but I wouldn't be surprised if we looked at accident data, particularly when off
          duty, and found that a substantial portion of our accidental injuries and deaths are associated
          with alcohol use.

  186     Adopt the best practices from the loss prevention efforts of the American insurance industry to
          improve work place safety.

  187     All new entries would get a one hour driver safety course.




                                             - 127 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  188     All officer and leader schools from the earliest schools should have a safety and risk
          management requirement that is relevant for that level of leadership. Consistent with this,
          commanders and top non-commissioned officers, from CG/CSM to CPT/1SG should be
          required to periodically conduct a session with their direct reports and their staff to discuss
          safety and risk assessment as a leader, with focus on leadership, truly demonstrating caring for
          the welfare of their soldiers. Fatigue, repetitiveness, poor lifestyle practices, fitness issues, and
          OPTEMPO conspire against the most prudent commanders. In the context of leadership and
          loving our soldiers, however, commanders and top non-commissioned officers must be
          required to slow down and reflect upon the consequences of accidents and to not consider
          safety and risk assessment as a program. This program is part of a larger bureaucracy that has
          too many programs and too many checked boxes. It does not sufficiently relate the potential for
          human loss back to the leader.

  189     Assure every man and woman understands the risk assessment process and applies it to daily
          activities as well as mission.

  190     Back to basics risk analysis prior to activities that have inherent dangers, with appropriate
          mitigation actions identified and taken to prevent accidents.

  191     Change the attitude/behavior of soldiers to make prudent driving decisions with their POVs
          when they are off duty and off the installation.

  192     Conduct more safety training in the school house to young soldiers--the ones who most need it
          and where it will be presented to them in a positive way at an early point in their careers.

  193     Continue to emphasize safety as a primary responsibility of all DoD personnel, reinforced via
          all media outlets.

  194     Continue to recognize units that are the leaders in maintaining safety standards.

  195     Continue to update the safety posters for distribution. Continue the competition for best unit
          safety awards and mile driven accident free.

  196     Continued awareness of trends and best practices.

  197     Current operations in Afghanistan and Iraq, as well as preparations for these action officers,
          makes safety much more challenging and requires increased attention by senior military
          leadership.




                                              - 128 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  198     Emphasize safety training at the first line supervisor level. Emphasis at the higher levels of US
          Army Reserves (USAR) has increased greatly in the last three years. Quarterly risk
          assessments are greatly improved. The US Army Reserve’s geographical dispersion and
          temporal dispersion (periodic assemblies/formations) dosn't provide for the continuous
          repetition necessary to create and instill the habit of safety. The publication of the Army
          Preliminary Loss Reports by email is a good effort to power down the awareness.

  199     Enforce sleep plans in the field.

  200     Ensure all soldiers see the individual/family impacts (physical, emotional, financial) of
          accidental injuries/deaths.

  201     Fully man the force with appropriate ranks and experience.

  202     Fund more safety training

  203     Get more scientific and psychological realism into the goals and methodologies. We just do
          statistical analysis on events and then say change the statistics. I have seen little meaningful
          human factors info that can be used, especially in a reserve environment where we exercise so
          little day-to-day influence and control over the behaviors/attitudes of our forces.

  204     Greater emphasis on the problems created by alcohol. Close the class VI stores on all military
          posts. If we're serious about drinking and driving then we must discourage drinking at every
          opportunity instead of selling alcohol at discount prices.

  205     I believe we are working hard on emphasizing safety in the workplace. However, expanding
          the emphasis to the families (family readiness groups) can also provide needed re-enforcement.
          The more information passed in a relentless approach could create an embedded awareness. It
          becomes a disciplined thought process in individuals that is habitual. Safety awareness
          overload can only be positive,

  206     If we require training in safety, use it wisely especially in Reserve Component elements. The
          need for classes on driving in winter weather held in a northern command seems a bit
          redundant to soldiers. It needs to be conducted but tailor it to winter driving in Germany or
          overseas not in a climate or conditions that soldiers already do almost three quarters of the year
          around. Training time is precious so make the most of it. And finally be realistic about it.
          Now that we have up armored equipment, we need to provide a type of each in all motor pools
          for Soldiers to train year round on the roads. You can not do it by going to mobilization site
          and do it for only two days etc. Not effective.

  207     Incorporate safety into all leader training top to bottom, also all operations!!

  208     Increase safety awareness and accident prevention.



                                              - 129 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  209     Integrate off-post traffic violations into our counseling programs. Establish visibility through
          police reporting scrubbed against personnel databases to ensure commanders are aware when
          their soldiers violate traffic laws. We do a good job with violations on-post but not off-post.
          Since by far the largest category of fatalities is off-post POVs due to fatigue, alcohol, speeding,
          reckless driving, we need visibility of those infractions. The best method for prevention is
          direct counseling up to and including administrative discipline for repeat violations. The
          commander’s guidance, training, intent, scheduling activities to facilitate safety and First
          Sergeant and Platoon Sergeant safety briefing is not going far enough. We must get into
          soldier's face when a violation occurs and need the information to do it. I don't believe, based
          on the continuing POV fatality numbers, which continually beating up the chain of command is
          working effectively to cut rate by 50 percent within 2 years. We need a better program to get to
          the soldier.

  210     Lead safety by personal actions.

  211     Make safety performance a mandatory evaluation report entry.

  212     Make sure that safety is part of everyday business, taking every opportunity to emphasis its
          importance in every formation, training session and briefing. Ensure that visual materials are
          made available as reminders. Every leader must make safety a priority.

  213     Match the suspension and steering of the HMMWV to the weight it is expected to carry at the
          speeds required for survivability in Theater.

  214     Placement of a FTS to manage and administer safety programs and training at brigade level.

  215     POV safety briefings weekly on active and monthly for reserve. Discuss all of the reasons for
          accidents. Make the briefings interactive and interesting and current!!

  216     Provide more equipment and opportunities for training in areas where accidents are more
          prevalent, such as up armor HMMWV training.

  217     Provide Medical Service Corps with more trained safety and occupational health professionals.

  218     Rate all service members on their commitment and participation in safety programs.

  219     Regularly scheduled refresher training at all levels of safety and risk assessments.

  220     Resource actual positions for dedicated safety professionals in all O-6 level commands and
          above. Aviation puts the right level of professional attention and diligence to their programs.
          All units should take a clue from them if they're resourced.




                                             - 130 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  221     Review/revamp the safety awards recognition program. Create different award for deployed
          units. Recently, a deployed truck company received an industry award for safety. No
          equivalent DoD award.

  222     Safety awareness training annually via the web or other means with safety standup talks
          periodically by organizational heads presenting relevant data and statistics to create an ongoing
          awareness.

  223     Safety is a first line leader's direct responsibility. It must be made a part of everyday work and
          cannot be made to be special. Only by making it part of everyday work will it get the attention
          that it deserves.

  224     Safety is an attitude and consists of many small actions, not one action. Constant awareness is
          a good thing. If DoD had installations inspect cars for safety when they gave out decals, that
          should have some small positive impact on accidents.

  225     Safety must be consistently emphasized from the top and sharing of best practices across the
          Services where there are similar type of operations.

  226     Sharing best practices to broadest audience possible.

  227     Slow down.

  228     Standardize the risk management process across services and incorporate it into every
          operational plan, training event. This needs to become a habit of the mind.

  229     Talk about the risk factor with every event.

  230     Teach, practice, and emphasize safety from the very start of military training basic and
          advanced individual training through Office Candidate School and initial officer training. I
          was taught safety was the sixth paragraph of my field order, it has always made a difference.

  231     Use the risk assessment properly and take mitigating actions to reduce risk.

  232     We must get the message across to our younger soldiers, sailors, airmen and marines. The
          message must be something that clearly focuses them on safety at home, at work, and in travel
          but must be tailored more to how they think and look at life (the Gen X/Gen Y people of our
          services). Our standard safety briefings for holiday periods and when they go on leave
          obviously are not getting things done.




                                             - 131 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  233     Adequate budget is not included for acquisition. As a result, project manager/program
          executive office are not willing to be a bill payer for the safety aspect of weapon research
          development test and evaluation activity. I suggest that a budget item/line for safety be
          included in every major acquisition system!! Otherwise, I fail to see how you can improve
          safety at DoD.

  234     Adequate garrison funding to improve the quality of installation services such as snow
          plowing, sanding, and general maintenance of floors and walkways would significantly
          decrease the occurrence of slips, trips and falls.

  235     Adequate training.

  236     Apply adequate resources.

  237     Broader education regarding benefits of safety to programs and to the Army in general. The
          culture needs to shift to a safety minded culture. Too often, safety like quality is added after the
          fact instead of built in.

  238     Commanders and leaders care about safety, but it seems there is no institutional reinforcement.
           Chain of commands are not being held responsible at the lowest levels and recognition for
          successful safety programs are not apparent. Seems most of the accidents are vehicular -
          especially motorcycles. Having to respond (Respond by Endorsement) to every accident my
          have an impact of leaders to enforce safety philosophy in their command philosophy. Want to
          get this into our psyche without breaking the spirit of soldiers, leaders and commanders.

  239     Continue the safety awareness programs now in use and continue to fund those programs at all
          costs.

  240     Do not accept that accidents and mishaps have to occur. Make safety best practices a routine
          part of business and owned by all.

  241     Don't assume that people know the rules of the road (and traffic laws) just because they have
          been driving a while. Actually, the better thing to do, but beyond the scope of DoD, is to
          change the focus of TV ads from adventure and speed to safety.

  242     Focus DoD more on safety of our soldiers/military/civilians/contractors in combat zones and
          recognize the huge efforts being put forth by Army to protect lives.

  243     Focus on standard operating procedures, and review/update whenever new or modified
          equipment comes into use, not just when an accident occurs.




                                              - 132 -
                                                            IE-2008-006 Evaluation of the DoD Safety Program:
                                                                           Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  244     Focus safety attention and activities on those portions of the community for which safety is an
          issue. In my activity, we do nothing but office work, and perform studies. Raising safety
          issues for us seems somewhat irrelevant.

  245     Imbed the risk analysis process down to the squad level.

  246     Improved vehicle safety training.

  247     Increased land vehicle safety.

  248     Keep up the visibility so that awareness stays fresh!

  249     Make it a standard in the manager's professional development.

  250     Make safety program funding a must fund item.

  251     Make sure soldiers are adequately trained in the use of their vehicles and other equipment.

  252     More awareness.

  253     More emphasis on traffic safety. Still the number one killer of our soldiers!

  254     Pareto chart of safety versus causes on impact on mission, dollars or time lost that shows
          operational impact of safety improvement, also gives sense of safety versus. other priority
          factors.

  255     Properly maintain roads, buildings, and infrastructure.

  256     Put full time safety civilians in all urine analysis. They are needed to assist the commander in
          his safety program and risk assessment process.

  257     Recognize that prolonged high OPTEMPO stresses the force and families. Regular reminders
          about safety are very helpful to avoid complacency.

  258     Regular safety messages that describe in very short stories messages about safety and the
          consequences of being unsafe, to keep people conscious that safety is an individual personal
          responsibility. It is not the organization's responsibility. It is each individual's responsibility.

  259     Remove the major cause, namely the pressure to achieve more than is possible, consistent with
          resources (personnel and financial).




                                               - 133 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  260     Require people to look at the goriest of accidents and discuss how they could have been
          prevented. This one thing had the most profound impact on me when I was a teenager.
          Watching the gore from foolish accidents was a sobering eye opener.

  261     Require safety performance measures to be included in military and civilian support forms.

  262     Safety falls in the category of, you can lead a horse to water but can't make him drink. Young
          people feel invulnerable; it is always going to happen to someone else.

  263     Safety in work place is the responsibility of each and every individual.

  264     Secretarial level commitment to welfare of civilian employees with a corresponding
          commitment by the CSA or VCSA for military employees.

  265     Shut down activities that fail safety inspections, have safety violations, and lack safety training
          program, either one or all of the above.

  266     Sufficient funding at the tactical level which allows positive incentives to be developed.

  267     Tell everyone they cannot ride motorcycles.

  268     This is a leadership issues. Make commanders at every level responsible and this will get
          done.

  269     Unfortunately this one is a tough issue to solve. It is agreed that there must be a viable and
          achievable safety program throughout DoD. However, when you categorize it as safety, it
          doesn't get the attention it should. If it was looked at in the light of force preservation or
          workforce preservation (or protection) it would take on the meaning that it is believed the DoD
          is trying to achieve. It is talked about, it is presented in forum after forum, and everyone is
          aware that "safety is important"--which it is--but to have the safetyofficer, who is usually an
          additional duty in most organizations, (and under resourced at that) running the safety
          program; it misses the mark. On the flightline, safety is inherent. In a vessel, safety is
          inherent. It would be simple to lock everyone into an office building, orderly room, or hanger
          and exercise positive control over their off duty time and that might reduce accidents by 50
          percent. However, there is a real world out here and some things are just going to happen.

  270     Use email to alert us to present or recurrent dangers.

  271     We lose more individuals in driving accidents. We should improve driver's ed and require
          individuals with speeding/poor driving records to attend remedial driver training for base
          access.




                                              - 134 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  272     A set of easy to use tools that can be provided to all commands to address critical safety
          concerns.

  273     Align the Services with common clearly defined terminology and metrical development
          systems.

  274     Awareness and that accidents don't just happen.

  275     Be more simple and specific about what categories of mishaps for which categories of
          personnel in the Navy have which specific tangible goals to be achieved. On the other hand, it
          appears that the only form of safety incidents that are truly being measured for 50 percent
          reduction are those that happen to a civilian GS only and then only if it leads to cash claims
          against the government. Clearly no leaders will stand up in front of their troops and tell only
          part of their troops to safe because they are the only ones that count against us.

  276     Become more proactive in the prevention actions. Requires focus on" near miss" or even first
          aid incidents as strongly as lost time accidents are tracked now.

  277     Better visibility into best practices from other services and industry. My service does an
          excellent job pushing our best practices. It is not clear if they include those from other
          services/sources.

  278     Bring the same drive to reducing mishaps on duty to off duty safety considerations.

  279     CJCS/DEPSECDEF needs to take to the tank and baseline the service programs

  280     Communicating the lessons learned.

  281     Connective alcohol responsibility education and training, starting with source and throughout.

  282     Continue our operational focus on safety, and increase our off-duty safety education

  283     Continue to communicate the importance of safety, and provide frequent updates on the
          achievement of goals. Heavily advertise our target and our progress toward achieving it.

  284     Continue to stress auto education.

  285     Create a pervasive, top-driven, mandatory program akin to those we have created in drugs,
          women in the service, and alcohol. Cultural change is simply the hardest thing, and this is
          cultural change.




                                               - 135 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  286     Creating a climate that clearly recognizes that safety is everyone's responsibility not just that of
          the safety officer and his/her staff.

  287     Culture needs to be addressed; safety needs to be part of our very fiber.

  288     Define minimum safety levels.

  289     Development of linked metrics among mission accomplishment, safety, personnel evaluations.

  290     Don't tolerate those who knowingly violate good safety practices. Establish a joint safety office
          and streamline Service safety organizations. Reduce the differences between Service reporting
          formats. Push meaningful help down the chain of command.

  291     Echelon II reviews of safety performance across the respective Claimancies.

  292     Ensure our sailors are getting an opportunity to sleep by monitoring the required workweek
          hours.

  293     Ensure resource allocation and actual leadership commitment matches rhetoric.

  294     Full court press on educating and communicating the need for personal vehicle safety.

  295     Fully understand the cause/effects which drive unsafe practices. We often put in place
          initiatives to improve safety, without knowing whether those initiatives will drive to the
          behavior we are looking for. We can generally design systems to be safe. The unsafe nature of
          those systems typically comes in the inappropriate operation of them. Office safety is similar,
          in that offices and the work we do in the Pentagon is typically safe. The unsafe nature of being
          here is mostly driven by the unsafe behavioral practices exhibited by the members working
          here. Knowing what the target of improvement is should be the fundamental focus of our
          analysis, to ensure we focus on the right improvement.

  296     Get internet access to all units, especially onto the piers. Our submarines cannot get the
          bandwidth to access NAVSAFECEN info and surveys. Also they cannot download files, such
          as safety notes, notice to mariners, and so on. This is a safety issue of the first magnitude.

  297     Give every Service member a breathalyzer key ring that is checked on-person each day.

  298     Have everyone in DoD, military and civilian, top to bottom, teach classes on safety. We
          usually only have middle/top management teach safety. We need our newest personnel, not
          only training but also teaching safety as well. If they are responsible for safety, they will have
          a higher degree of safety awareness.




                                              - 136 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  299     Hold regular safety fairs, symposia, demonstrations and such. to keep safety on the forefront.
          The Pentagon channel should have regular, informative programs on recreational and home
          safety. Distribute information on ways to improve safety at home and work. Set meaningful
          goals, equip people to achieve them and provide feed back. Merely pronouncing a 50 percent
          reduction goal has no analytical basis, nor likelihood of being achieved. Apply some analytical
          rigor to the problem, understand where to apply resources, set realistic, analytically based goals
          and then provide feedback to all.

  300     I believe we have to make safety a personal issue. We have made safety a very personal issue
          at this command soliciting the active participation of every member and their families. We
          stress watching out for oneself first and then watching out for others on and off the job. We
          talk about it at every opportunity, reemphasizing the personal nature of accidents and that no
          one is immune.

  301     I firmly believe that establishing a consistent set of principles (as opposed to simply urging that
          we be safe, and certainly in addition to ongoing good work in best practices and statistical
          tracking) is a solid way to attack this problem. We use the following principles to, what I
          believe, is great effect: integrity, level of knowledge, procedural compliance, formal
          communications, forceful backup, questioning attitude, and risk management.

  302     I think we are talking the talk, but not walking the walk. Need a communications campaign to
          all leadership and need to include safety as a performance appraisal metric. I think leaders and
          Commanders can do more, but are not oriented correctly. Leadership can help orient correctly.

  303     Increase resources in some areas.

  304     Institutionalize operational risk management (ORM) as a core competency within DoD.

  305     Institutionalize ORM throughout DoD. We use it, but it's not understood and it definitely isn't
          part of our culture.

  306     Keep the organizational safety goals in full view of the workforce everyday.

  307     Keep the press on motor vehicle safety!

  308     Keep the pressure on to reduce our overall mishap rate. Continue to focus equally on job and
          non-job related safety issues.

  309     Keep working on metrics--metrics that could better measure prevention success.




                                              - 137 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  310     Leadership is the key, specifically, intrusive leadership by the superiors of junior personnel is
          the most effective tool. Non-commissioned officers and chief petty officers questioning what
          their junior personnel are doing and how they are executing their plans in a constant drumbeat
          manner gets the point across. The same goes for the executive officer and junior officers.

  311     Let's get with it on aligning around tools for the forces to improve how we operate. Safety is a
          by product of operating to high standards of effectiveness. I believe ORM is about the best
          tool I've personally seen used effectively.

  312     Looking at very recent trends in naval aviation mishaps it is apparent that continuous
          communications pertaining to safety, and ORM best practices, can help focus aircrew and
          supporting personnel on the importance of prevention, and directly influence mishap reductions
          attributable to human factors. At the same time, technology insertion, such as MFOQA, can
          further assist aircrew and support personnel in addressing both material and human factor
          contributors to mishaps. Investment in MFOQA technologies must occur, and OSD can
          contribute to this undertaking.

  313     Make it clear that mishaps that occur when a member is in violation of a standing order (DUI,
          not wearing seat belts, not wearing helmet on motorcycle) will result in loss of all benefits to
          survivors. We are not serious if we reward bad behavior.

  314     Make it consistent across DoD from a priority. It appears that we only get lathered about
          safety after a rash of accidents. It is a simple formula leading change and how to get senior
          leadership to buy-in as the top priority. Safety is everyone's concern (bottom to top) on a daily
          basis 24/7. Leadership is the execution agent to enforce these standards.

  315     OSD provide funding for those programs which OSD recognizes as safety enhancements. A
          program budget decision which focuses on safety would provide funds and focus to support the
          50 percent requirement.

  316     Periodic safety stand downs.

  317     Place it on everyone's radar screen, do better marketing!

  318     Prohibit motorcycle operation by our personnel.

  319     Prohibit motorcycles on DoD bases.

  320     Prohibit the use of motorcycles at overseas locations. I would recommend in CONUS as well,
          but I don't think we could get away with this level of intrusion stateside.

  321     Prohibit the use of motorcycles by US military members in CONUS as we do for personnel
          stationed overseas.



                                             - 138 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  322     Protect and emphasize the privileged status of mishap investigation testimony and evidence.

  323     Put your money where your mouth is! Safety is under funded from my viewpoint.

  324     Reducing variation by targeting commands/activities with high rates of problems. 1. Reducing
          variation is the real key to near-term gains in either quality or safety programs. 2. It follows
          the Willie Sutton rule, go where the money is. 3. It provides focus for commanders.

  325     Reward commands and individuals for achieving organization safety goals financially with an
          increase in organizational budgets or individual pay. The recognition needs to be meaningful
          and substantial, something all command and individuals have the opportunity to compete for.
          Example: zero flight incidents for 12 month period, increase the command's operating budget
          by $10K or $1K for an individual effort. If this type of safety record is maintained for five
          consecutive years, the command should be rewarded with a $50K increase in its operating
          budget. (This is cheap considering they will have saved DoD millions over the 5 year period.)

  326     Safety is not a stand alone category or action for us to turn on or off or address at convenient
          times. It is inextricably woven into all we do, and most importantly is a critical subset / by
          product of professionalism. Change that mindset and you will ingrain that belief into a whole
          new generation of leaders.

  327     Safety needs to be better resourced and manned. We do not place the front runners in the
          safety officer billets or our safety organizations. The safety program is manned just enough to
          check the block. I am guilty of this as well. When faced with difficult choices to fund and
          man an operational war fighting program or the safety office, safety places second. I think a
          separate line in the DoD budget to provide the level of funding necessary is required. In the
          long run it is cheaper to pay for the preventative safety program than to replace damaged
          equipment and bury good men and women.

  328     Safety organizations should provide real tools for commanders to use in promoting safety
          rather than simply keeping the numbers.

  329     Set realistic, achievable goals towards reducing mishaps. In the Navy our goal is too high, a
          lofty, unachievable ambition. I predict it will only serve to frustrate and discourage those who
          are held accountable for achieving the goal. Let's be realistic. Take a better look at DoD
          accident rates compared to civilian rates. You will find that we are doing pretty well in
          comparison.

  330     Share methods with everyone on what has been successful in reducing mishaps.




                                             - 139 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  331     Since we can not be with the troops 24/7, we must continue to instill a safety mindset within
          our troops. Creating a safe environment does not preclude us from performing our mission;
          however, we must continue to ensure our sailors know that focus and education (knowledge
          about tactics, aircraft, mission) are the keys to preventing mishaps.

  332     Stress the 5S aspects of LEAN/6 SIGMA for our industrial activities. In other words, getting
          our industrial organizations to make their areas neat, orderly, get rid of excess material and all
          the other aspects of not having an exact place to put things. Messy areas invite accidents.

  333     Stress the universal application of ORM. ORM does not say we won't accomplish the mission;
          it says we must find a safe way to accomplish the mission, and it provides a process that all can
          understand that forces everyone to think through how they achieve the safe accomplishment of
          the mission. Everything we do is a mission of one sort or the other, so everything we do can be
          managed under an ORM umbrella. Too many programs/processes are difficult to manage and
          make stick. I would recommend focusing on this one.

  334     Sustain the momentum being generated by the current program.

  335     Thoroughly indoctrinate our recruits in basic training to create a mindset of personal safety
          from the beginning of their careers. Help them recognize their vulnerabilities and the need to
          think safety as they make decisions on and off duty.

  336     Tie performance in safety and answers/goals to the above questions to an individual's
          performance report.

  337     Top down enforcement of ORM.

  338     Train ORM at more levels, apprentice, journeyman and supervisor. ORM needs to be a core
          competency.

  339     Training simulation investment. Attempt to reduce accidents in training exercises for active
          forces.




                                              - 140 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  340     Understanding safety in relationship to cohort factors and science of learning/psychological
          development. For instance, in the youngest cohort of the military it has recently been widely
          published that brain research reveals that young men's brains are not fully developed as it
          relates to prudent risk management (versus risk taking) until mid-20s. On the other hand, the
          distractions of life and responsibilities will make an older person look at risk differently. Too
          often we seem to teach safety toward the reasonable and the rational rather than geared toward
          how the respective cohort really sees risk and risk-related behavior. Additionally, I believe that
          some of this is related to how important safety is viewed relative to real success. For instance,
          it is conceivable that, for example, an aviator is prudent and safe in his aviation practices but
          reckless in his personal life because he isn't being "graded" as such. This is also effective and
          needs to be understood more than we do now.

  341     Use the lean concept of visual management where the timely status on safety trends is always
          in front of everyone. Example: UPS has a stoplight as trucks return into the garage from their
          routes. If it is other than green drivers immediately know a safety incident has happened that
          day. Their safety results are always in front of them.

  342     We still tend to focus on workplace safety, an area in which we already are doing very well.
          The tough nut to crack is off duty behavior, particularly driving safety. The gains are now to be
          had in cutting the losses we suffer due to automobile and motorcycle accidents among our
          young folks.

  343     Conduct a mandatory semi-annual safety stand-down.

  344     Continue to address alcohol consumption of young military personnel.

  345     Determine a range of costs in terms of dollars, schedule impacts, and crew impacts when an
          officer or enlisted personnel is involved in a fatal or major injury accident. It should include
          officers from O1 to O10, and enlisted E1 to E9 and in each of the different communities. This
          information can be used in training and counseling sessions.

  346     Focus on junior enlisted and immediate supervisors.

  347     Have every organization visited by a Flag/SES during the coming year, with an unannounced
          stand own of about one hour, emphasizing our sincerity on the subject. Too many of our
          personnel think we give the subject lip service only. Second, make the safety department part
          of every department and every decision we make, not just the safety program.

  348     Hold people personally accountable for willfully putting themselves at risk, especially in the
          use of alcohol. Finding someone who's had an alcohol-related accident to be in the line of duty
          and fully compensating them only serves to perpetuate irresponsible conduct.

  349     Keep getting the attention of the E7-E9 leadership and add a data point on officer fit reps.



                                             - 141 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  350     Serious application of the principles of operational risk management.

  351     We should establish a target of no accidents/mishaps, and should make safety performance an
          element of annual performance ratings. If you look at companies who pride themselves on
          safety, they establish a culture of safety awareness where employees look after one another,
          and where there is inherent peer pressure to not make a safety mistake.

  352     Adequate funding of troop protection, including crashworthy seating on troop carriers
          (particularly rotary wing transports).

  353     Adequately fund preventative maintenance and training programs for all ordnance handling
          facilities including RDT&E sites.

  354     Apply Lean/6 Sigma approaches to the rules and processes in place to determine which ones
          are value-added, eliminating the rest so the resources can be more effectively applied.

  355     Appropriately resource improvement goals.

  356     Arbitrary goals like cut accidents by 50 percent are for show. Why is half the current accident
          rate acceptable? More meaningful goals should be used, rather than easy, get-safe-quick sound
          bites.

  357     As is done in our arena: To maintain an intense focus on safety, consider having a very
          rigorous accident definition that includes essentially any unplanned event in any critical
          operation whether or not injury or damage occurs. The basic strategy should be that all
          accidents (regardless of severity) must be reported to ensure we benefit from the lessons
          learned to prevent more serious accidents from occurring. By maintaining such a wide aperture
          perspective and classifying essentially any unplanned event as an accident to be
          reported/investigated for lessons learned, we capture the "leading indicators" to proactively
          address the behaviors that can lead to more serious events.

  358     Create a culture where mishaps are not tolerated, allow time to talk about safety frequently, and
          celebrate success in safety program. Okosuka has a model program where they invest time and
          attention on safety. I think too often, especially as resources and staff reduce, while workload
          increases, we get rushed to get the job done.

  359     Demonstrate the political will to hold leaders responsible when safety goals are not achieved.
          For executives, that might mean some percentage reduction in any bonus or pay increase
          achieved. For military, it might serve as a tie breaker for promotion boards.

  360     Develop and administer a drug that would make alcohol taste extremely bad since alcohol
          consumption is primary cause of many accidents.




                                             - 142 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  361     Embed quantitative safety measures in personnel evaluations at activities where safety is a
          prevalent concern (industrial sites, military bases).

  362     Ensuring that adequate, large signs exist to alert personnel to high voltage, toxic chemicals, and
          such.

  363     Establish metrics that are meaningful by type of command so that managers can communicate
          intent and measure progress. Case in point: Navy had a safety stand down some number of
          years ago, but for headquarters/administrative commands it was hard to develop action plans.
          It needs to be clear whether we are talking about off the job auto accidents or hazards in the
          work place and the relative priority/management accountability for each.

  364     Establish one safety office at the DoD level rather than having the current split of some
          responsibility in P&R and some in ATL (ESOH) and provide proper resources, both people
          and funding, to that office.

  365     Expect the unexpected! Keep an eye out for your fellow worker. Safety is everyone's
          responsibility.

  366     Fund safety improvement programs.

  367     Have our very senior leadership openly and aggressively address safety by means of a strategic
          communications plan. Ensure safety is given priority in all guidance and directives. Follow up
          words with resources---Safety always seems to be in the resource trade space, which does not
          send a very strong or positive signal to our work force.

  368     I provide leadership in the area of Navy/Marine Corps weapons systems and explosives safety.
           An area that would improve safety in this technical area would synergize safety efforts
          through process leveraging across the services. As our nation's conflicts are fought in a more
          joint process, we need to ensure that war fighters can take weapons from other services into
          broad conflict areas without sacrificing safety.

  369     I work in an office environment. Accidents increase due to slips and falls when we have ice or
          snow storms. At times, the base is not adequately prepared for pedestrians especially at the
          beginning of the work day. We need to make sure bases are safe before we open.

  370     I would institute a disciplined risk management process with probabilities based on
          standardized analytical procedures, hazard criteria that are numerically based, resourcing based
          on risk avoidance decisions by DoD leadership, risk acceptance authority limited to DoD
          leadership, process transparency via a public website that presents the details of risk accepted,
          risks mitigated, incident data, and a running tally of DoD performance history.




                                             - 143 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  371     If we could encourage DoD employees to take a few minutes, before undertaking a
          function/duty/activity, to consider the potential risks/health hazards/etc. and best practices then
          I think the DoD could significantly reduced the number of accidents and injuries.

  372     Implement Voluntary Protection Program (VPP) at all sites.

  373     Increased educational outreach regarding identifying hazardous waste issues and proper
          mitigations.

  374     Leadership should review safety metrics regularly and publish regularly.

  375     Make periodic safety reminder/refresher courses mandatory for all employees.

  376     Make safety officer an accountable position.

  377     Mandatory designated drivers at military clubs serving alcohol.

  378     Metrics, visibility of goals, and status.

  379     More complete and rapid snow/ice removal. Slips and falls on icy patches constitute most of
          what has happened to my staff.

  380     Safety must receive a higher priority. In the Navy where I work it is discussed far less than cost
          savings and lean. Hence my conclusion it is not a high priority.

  381     My Command recently achieved OSHA VPP star status. This accomplishment was achieved by
          teaming between management, labor, and the employees. We all had one common goal, cut our
          injury and illness rate (down by 50 percent in the last 5 years) and send everyone home every
          day safe and healthy. The team approach is critical to safety success. Both management and
          labor must have a united visible leadership role in the effort.

  382     Only purchase vehicles with side air bags.

  383     Put additional emphasis on systems safety as part of the systems engineering plan and the
          emphasis at SE reviews and DAB's. This level of attention would focus efforts, create positive
          tension in the program offices, and demonstrate top level leadership commitment to improving
          safety.

  384     Recognize people (monetarily and otherwise) for conducting their duties accident free at
          appropriate times (yearly, end of tour, end of career).




                                               - 144 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  385     Recognize that organic knowledge coupled with R&D of technological solutions can make the
          most difference in improving safety.

  386     Reduce unnecessary and ineffective security services supplied by contracting firms. Use the
          money saved for reducing accidents.

  387     Safety modifications to equipment should not compete financially with capability
          enhancements.

  388     Safety rules placed on simple readable signs at the appropriate locations (rather than in
          manuals).

  389     Say it is important, we rarely hear that safety is important by our leaders at OSD or NAVY. By
          just saying it delivers a message and starts many other actions.

  390     Spend funds on safety programs vice surveys.

  391     Step up the communications about safety. Keep the issue in front of employees and their
          leadership.

  392     Support technologies that enable safe operations by minimizing the man-in-the-loop.

  393     Yearly mandatory stand down for a day to refresh everyone.

  394     Safety Days to emphasize training and safety awareness/sensitivity.

  395     Adequate resourcing so people don't have to make do with what they have.

  396     Agree on specific metrics and demand performance.

  397     All aspects of safety have been stressed during my career. Best demonstrated by the dramatic
          decrease in on-duty accidents over the past 20 years. By the continuation of senior leadership
          interest/focus on safety issues and emphasis by commanders at all levels across each of the
          Services we will continue to see a decrease in accidents and incidents both on and off duty.
          The military has historically had the best safety program of any industry, and the record of the
          past 20 years is the proof. Commanders are the key.

  398     Balance - balance between safety, mission, attitudes, risk and resources.




                                             - 145 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  399     Ban motorcycles from military bases. This would not prevent airmen from owning
          motorcycles, but it would prevent using them to travel to and from work, and it would also
          require a motorcyclist to find some way to store it off base. This would turn the airman's cycle
          into more of a special use vehicle like an off-road vehicle or a boat rather than a commonly-
          driven vehicle.

  400     Better balance of resources to tasking. The most important risk factor to us all is the increasing
          ops tempo in the face of shrinking personnel and financial resources. We continue to do more
          and more with less and less. The people toll is significant and increasing.

  401     Better cross-Service cooperation (particularly regarding aviation safety standards and
          enforcement).

  402     Better job of using cross service, cross unit best practices.

  403     Better manning of career fields such as aircraft maintenance, civil engineers, and transporters
          who are among those we ask to do more and more with less and less. With better manning, we
          could share the load better, allowing for fewer people to have to work extremely long hours
          and therefore be more prone to accidents from mental lapses and fatigue. The stressed career
          fields efforts that have taken place are steps in the right direction, but not nearly enough. If we
          are really going to reduce accidents significantly, we must keep the pressure on!

  404     Better supervision and attention to detail at the workshop level. Too many immediate
          supervisors don't take on the parental role of intervening in risky practices in the work place.

  405     Better visibility of DoD goals coupled with accountability for attainment of those goals. While
          we currently have mishap reduction goals established, the perception is that they do not
          command top-tier attention.

  406     Centrally distribute more dramatically illustrative videotapes or DVDs that show consequences
          of poor safety practices. When viewed, these often provide greater impact to military and
          civilian members of units. These videos should not need to be produced by the US military as
          scores of them already exist through assorted state agencies, federal agencies, or private orgs.

  407     Conduct life-cycle analysis of the high accident potential vehicles (aircraft) to ensure the
          proper parts are ordered/structures or engines overhauled before in-flight failures begin to
          occur.

  408     Continue to build a culture of risk management vice safety as a stand alone.

  409     Continue to discuss safety in open forums.




                                              - 146 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  410     Continue to focus on safety at the highest levels. Air Force flight mishaps were at the lowest
          levels in our history last year. Constant attention by leaders at the highest levels keeps us all
          focused on safety 24 hours a day.

  411     Continued attention to detail to avoid the clear accidents that should be avoided.

  412     Creation of a lessons-learned or best practices program that is shared among all Services.

  413     Cross talk between Services is spotty at best. Most of our ground mishaps and off duty
          accidents share common elements. Determining the common elements and working to solve
          the behavior that contributes to off duty accidents could benefit all our safety efforts.

  414     Deglamorize motorcycle riding and you will save many lives this year!

  415     Develop one or two measures that are looked at by all levels of command on a regular
          basis...and ensure we have good root cause analysis...not just an enumeration of symptomatic
          causes.

  416     Do not set unrealistic goals. The proclamation on the SecDef, while admirable, has resulted in
          major subordinates setting goals so high that when they translate to the field units that our
          people see them as not relevant, or achievable, and therefore the effort is marginalized at the
          most important level of accomplishment.

  417     Emphasize awareness.

  418     Empower people. Reward those that stop a mission activity to ensure an unsafe action is
          prevented--often safety is compromised by a misplaced set of priorities that pushes mission
          accomplishment "at any cost."

  419     Ensure O & M shortages do not decrease training and readiness.

  420     Ensuring that equipment is properly designed/funded/modified to incorporate/correct
          deficiencies and mitigate/reduce human error.

  421     Everyone must focus on the mission, know their part in the mission, and know their craft well.
           If you do your job smart, know your procedures, follow guidelines, practice good techniques,
          then safety will be a natural by-product.

  422     Focus on fundamentals and compliance coupled with sound solid training.

  423     Fully fund and man the service safety centers that train and educate our safety staffs.




                                              - 147 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  424     Get a handle on alcohol and binge drinking.

  425     Get commanders to demonstrate that it is a top priority.

  426     Get the word out to stress the importance of taking care of each other. Supervisors can't watch
          over their troops 24/7. If they (especially the young airmen) truly watch out for each other
          using the Air Combat Command Wingman Concept, we could prevent a huge number of
          accidents.

  427     Give first-line supervisors more authority to impose limited disciplinary punishments
          (especially extra duty) in order to correct the behavior of young troops who make poor choices
          in safety matters.

  428     Give the services a little more leverage in bringing back personnel and aircraft from OIF/OEF.
          CENTCOM has the last vote, and our concerns for safety and readiness/training continue to be
          ignored. We are going down the wrong road, and it will take years to recover because we
          haven't been able to keep enough aircraft home to properly train our crews. I know the war has
          top priority, but we are not in balance at this time.

  429     Give us the right number of personnel in our various career fields, especially those that are
          stressed by low numbers and high deployment rates.

  430     I believe we have a good program. I'm sure there are a lot of contractors out there who think
          they can make it better. We work in a dangerous business, and the best can do is manage risk
          and minimize our troops to unnecessary risks.

  431     If we are serious about improving safety we need to benchmark off of industry leaders, and
          then invest in the education and training just like industry.

  432     Implement ORM across all services.

  433     Implementation of ORM as a leadership/supervisory process. It has become a function rather
          than an approach to leadership and supervision. In other words, it has become a mechanical
          process. We need to find a way to make it part of the way we think.




                                             - 148 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  434     In my experience, safety has been treated as a separate and distinct topic; parsed out from
          mission performance. We have safety meetings, safety days, Chiefs of Safety, Safety non-
          commissioned officers safety stovepipes, in other words, I think that has been a mistake. It is
          my belief that we learn by example and repetition. If safe practices are repeatedly
          demonstrated and demanded by commanders, instructors, and other unit leaders (both formal
          and informal) they will become the norm. This is nothing more than human nature. By
          definition, we will follow the example of our leaders, and at its core, leadership is about
          persuasion. Persuasion is about logos, ethos, and pathos, as Aristotle put it. It is in that context
          that our leaders must be held accountable for weaving safety into the fabric of everything we
          do. They set the example...not the safety officer.

  435     In my perspective, safety is both a mindset and cultural commitment. The mindset needs to be
          cultivated at the earliest opportunity, much like parents teach their children sound safety
          principals. With that said, safety and compliance to safety principals needs to start in basic
          training environments and then emphasized throughout the course of one's career. As we
          continue to do more with less we need to adjust expectations and timelines for production that
          allow safety principals to be adhered to. Most mishaps and violations of safety occur when the
          workforce is under pressure, either perceived or actual, anything that can be done to distance
          the workforce from this perception will translate into enhanced safety compliance.

  436     Incentivize good safety performance through generous funding awards to organizations who
          meet the DoD safety goals. Provide an additional bigger award to organizations who achieve
          the DoD goal for five years in a row (indicates sustained superior safety performance; they
          really get safety) DoD will have to define the criteria and the program requirements. Share the
          best practices from these successful organizations across the DoD to provide less successful
          organizations with insights needed on how to improve their safety programs to compete more
          effectively with the winners.

  437     Integrating ORM and safety training at every level, from military basic training to officer
          accession sources. You can never start too early to help people develop decision-making skills
          and assess risk in on and off duty activities.

  438     Keep after it in all discussions so it is a part of our culture. Sometimes it appears we are
          chasing ourselves over the past accidents.

  439     Leadership at all levels more directly accountable for the safety record in their area of
          responsibility.

  440     Looking for one golden BB here is not realistic, but let me suggest a comprehensive approach:
           reduce stress on the force by providing adequate manning and TEMPO management, breath
          ORM into our daily tasks, make safety a high priority (sometimes over the peacetime mission),
          hold recurring safety down days to internally focus on safety, and the very hard one--have our
          military practice ORM and sound judgment while off base in POVs and recreational vehicles.




                                              - 149 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  441     Make a corporate effort to reduce alcohol related incidents move away from the strict focus on
          DWI and attempt to establish a norm for our new recruits.

  442     Make alcohol abuse by young airmen, soldiers, sailors and marines a much more serious
          offense than it currently is. As I review recent mishaps a common thread is alcohol.

  443     Make operational risk management apply to all areas of DoD workplaces and workforce.

  444     Make safety reflected in commanders performance evaluation Examples: Best way to prevent
          malaria is to take prophylaxis. Marines in Africa did not take and 100+ evacuated, 44
          hospitalized unit ineffective for preventable disease because the commander did not think it
          was important to ensure safety of his troops. High rate of eye injuries in theater. Protective
          safety glasses available, but not worn in nearly all injuries. Commanders fail to enforce
          protective measures.

  445     Mandatory training by physical therapists before individuals are permitted to engage in
          organized sports. Could even make the argument that such training should be part of every
          member's orientation at first duty station. Sports injuries, after all, represent a significant cause
          of lost duty time.

  446     Modernization of the force.

  447     Modernize the equipment so that the at home extended PERSTEMPO can be reduced. Long
          hours required by our airmen to meet operational requirements for the training schedule.

  448     More direct, face to face emphasis from commanders/directors to their subordinates on the
          importance of safety in personal actions as well as military operations.

  449     Need to focus across the services with a standard approach to safety. Safety approach varies
          significantly between services and it shows in contingency operations.

  450     Never accept the idea that accidents will just happen as a way of life.

  451     Outlaw motorcycles! I realize that cannot be done, but we could discourage the use of
          motorcycles.

  452     Outlaw the use and driving of motorcycles for all DoD personnel including active duty, guard,
          reserve, and civilian personnel!

  453     Pay a bonus for employees who execute accident free for a year.

  454     Prohibit military personnel from riding motorcycles.




                                              - 150 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  455     Proper equipment for the troops.

  456     Properly man the career field.

  457     Provide adequate funding for flight data recorders.

  458     Provide adequate funding for safety-related initiatives; driving simulators, skid courses and
          vehicles, purchase of ESC systems on all new government-owned vehicles.

  459     Provide SE training at all PME courses.

  460     Put more substance in safety inspections, inspect what you expect. If we want 50 percent less
          accidents/incidents, we need to put 50 percent more effort in preventing them.

  461     Put the most capable people in our safety positions and fund them to fix known discrepancies
          and mishap board identified recommendations.

  462     Quit doing more with less. Resources and manning continue to reduce, yet mission demand
          increases; the natural, but unacceptable tendency is to cut corners, a safety nightmare.
          Services/MAJCOMs/DoD have to learn how to say no to increased missions unless they are
          properly funded and staffed.

  463     Raise drug & alcohol awareness and counter abuse.

  464     Recapitalize the geriatric aircraft force structure (greater than 15years average age) in the
          Services that is increasing the cost and probability of mishaps while decreasing mission
          capability.

  465     Recognize that some units people deploy but the unit mission increases or stays the same while
          those people are deployed. These units need additional people to maintain a safe pace of
          activity and number of hours on duty for those left behind.

  466     Reduce OPSTEMPO and PERSTEMPO. Fatigue is a factor way too much.

  467     Reduce OPSTEMPO.

  468     Reduce unnecessary exposure to dangerous situations.

  469     Reflect the support of safety initiatives through the budget.

  470     Resource safety offices from the unit up to the operational level with sufficient numbers and
          experience levels of personnel.



                                              - 151 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  471     Resources allocated to safety programs, especially authorized manpower is inadequate.
          Funding for equipment, both major end-items and ancillary equipment, is inadequate; result is
          more mishaps due to failed equipment.

  472     Safety can't be a once or twice a year emphasis item; it’s important that leadership constantly
          send the signal that safety, and the well being of our people is an everyday job. We have smart
          people who will catch on quickly if we ask them to be aware of the risk management they
          should employ on a day-to-day basis.

  473     Safety consciousness has a short half-life. Must constantly find new and innovative ways to
          get the message across; never let up.

  474     Safety, or risk management is a mindset (like a core value) that is not just a result of program
          but a value which must be inculcated at basic training and reinforced throughout one's career. I
          do feel that my Service understands this, and I feel there is great emphasis on Safety
          throughout our installations and units. But we must also accept that we deal with a young
          population of airmen and we deal with complex weapons and a stressful lifestyle. Our task is to
          manage down the number of mishaps. We can strive for zero accidents and we should. We
          must unfortunately accept that accidents do occur and will always occur. This does not mean
          we keep from trying to reduce them.

  475     Scheduled protected time off.

  476     Share best practices between services.

  477     Slow the OPSTEMPO.

  478     Slow the pace of demand.

  479     Some of the regulations in SE need to be revamped. During known problems, too many
          resources are dedicated to conduct class B or class A mishaps when it was a previously
          identified problem. Also, the money levels are too low. We need to keep up with inflation.

  480     Specific metrics tied to each MAJCOM/unit's strategic plan down to the shop/flight level, and
          resourced appropriately. When is the last time you heard anyone in the Pentagon give a safety
          brief, manage stress, exercise? And if so, does senior leadership practice what is being
          communicated?

  481     Start the culture of safety when people first come in the service. Make it part of mission
          accomplishment and not a goal unto itself.




                                             - 152 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  482     There is no magic pill to ensure the troops conduct themselves in a safe manner. Our challenge
          is to constantly balance mission demands with safety. We use operational risk management to
          make the risk/benefit tradeoffs that doing a demanding mission entails. The only way to be
          100 percent safe in this business is to sit in your office and never fly a sortie, or drive a car; not
          an option in our business. But we can work to ensure a culture of safety exists in our
          organizations, thus minimizing the unnecessary risks.

  483     This is a suggestion from my fighter operations background so I'm not sure how widely it
          applies, but here it is. Some units had a mission focused operational cadre and a rules focused
          safety and standardization cadre. The operators were pushing the edges of the rules in order to
          achieve more realistic training; the safety checkers were trying to tighten the rules to give the
          operators less wiggle room to hurt themselves. It became an arm wrestling contest between
          realistic training and safety--it bred disrespect for the rules and a culture where your best young
          leaders sometimes expressed disdain for the safety mafia and safety rules in general. By
          contrast, at the USAF Weapons School, the safety objectives were more broadly drawn, but
          were incorporated as basic mission elements, training tasks to be accomplished; parameters to
          be met, etc. They were rigorously briefed and debriefed, the same as other mission elements,
          whenever possible they were built into training scenarios.

  484     Tie safety to risk management and mission accomplishment better. You cannot view safety
          without also viewing the risk/reward tradeoff. Safety is a result of good planning, risk
          assessments, complete communication of the plan to the individuals involved, execution of the
          plan and reassessments of the plan when the assumptions change. If we execute a good plan, it
          is inherently safe.

  485     Train depot maintenance technicians (principally wage grade and contractor technicians) to the
          same standards that we train military maintenance technicians in the operational forces.
          Military technicians get screened for aptitude before their entry into service and undergo
          extensive academic technical training before hands-on qualification training both in training
          units and in their first duty assignments. Depot level technicians typically get the most general
          of introductions to the workplace before they are informally apprenticed to a more experienced
          technician for an unspecified period before they are trusted with working solo.

  486     Train first-level commanders. Although we culturally condition officers as they mature, there
          is no purposeful grooming of command skills concerning safety. There is a substantial
          dimension to safety dealing with the psychology and conditioning of your people. It requires
          very well-developed skills in seeing the leading indicators of safety downturns and upturns.
          We need to train to recognize problematic scheduling, equipage, discipline and attitude,
          physical condition, etc. As it is, we simply acquire this skill enroute to rank; some get it good,
          many do not. We know leaders don't get it right when officers refer to safety programs as
          programs, give ownership of safety to a safety office or staff agent, or thinks in terms of
          bumper stickers rather than the increasingly complex dynamics of a military organization.
          Train these guys. Train us. Bumper stickers are good devices--they don't replace educated and
          competent commanders.



                                              - 153 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  487     Walk the talk.

  488     Walk the talk. Put resources as well as ideas against the problems.

  489     Watch out for each other; situational awareness for yourself and those working with you.

  490     We lose the most people in off-duty mishaps, primarily POVs. We need to put even more
          emphasis on driving safety, especially for young people. This would include more mandatory
          education, rewards and incentives, simulating the effects of alcohol on reaction time, etc.

  491     We need a consolidated game plan to address safety -- it is currently fragmented in a way that
          mishap reports are not shared, lessons are not universally addressed, and funding to fix and
          prevent is not auditable to the safety results. The SecDef needs a safety chief and mechanisms
          to consolidate lessons, communicate with the field, and fix common issues and problems.

  492     We need more communications to our uniformed and civilian personnel on safety matters.
          This would start with public discussion of safety issues by all levels of leadership. The Navy
          has a quarterly all-hands message they put out that actually gets read because it's entertaining,
          yet the message is clearly there. When I was in a joint HQ, everyone I knew wanted to see it,
          and I believe it made an impression. As a commander, I always made safety a personal issue. I
          made alcohol offenses a matter of public record and was very vocal on motorcycle safety as
          both a commander and a rider. As a result, I felt the troops knew I was serious. Unfortunately,
          I have seen little of that kind of leadership involvement in my time in the military, and virtually
          none from any of our civilian leadership. Until the civilian leadership gets involved and the
          troops see that their leaders are giving this more than lip service, we will only achieve marginal
          reductions in accidents at best.

  493     We need to design in safety in all our acquisitions and make this a high priority or even a KPP
          in all our acquisition programs. We could afford to increase funding for research into
          modeling and simulation that helps us predict how our systems might harm humans in the loop.
           Human systems integration could benefit from more leadership attention.

  494     When the POM goes in it should be the number one priority.

  495     Actively promote a culture in which safety is an unconsciously integrated part of all actions
          and decisions.

  496     Besides emphasizing the value of our people, I believe we need to emphasize the value of our
          equipment. With declining resources, we need to encourage our people to treat our resources
          as if they are a cherished gift that needs to be preserved for a long time to come. Tech orders
          can be followed and fliers can fly by the rules but that doesn't always equate to really taking
          care of the equipment for the long term.




                                             - 154 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  497     Constant discussion and focus on safety by senior leaders in any organization is critical to
          creating the right environment. Focus needs to be on culture of an organization.

  498     Continue safety emphasis on national level with reminders to never let our guard down.

  499     Continued emphasis on operational risk management (ORM) and the fact that safety is in fact
          about combat capability and preservation of our most precious assets on and off duty.

  500     Definition of mission in mission first, safety always.

  501     Do not cut flying hour programs.

  502     Do not turn a blind eye to the responsibility to resource this effort. Everything costs money
          and a 50 percent reduction in mishaps over 2 years will cost us. Has that been assessed?

  503     During these times of high ops tempo, it is imperative that we care for our people, and do so
          without burdening them with non-mission essential distractions. It should help them stay
          focused on the mission as well as safety. We must be careful of what we ask them to do.
          Unnecessary ancillary activity and program changes during these times are a primary cause of
          these distractions. I would not consider the Air Force Wingman program a distraction but a
          very essential part of what we should do. The bottom line is good, effective leadership at the
          Wing level, leadership that is encouraged at the AF and ANG HQ level.

  504     Have it specifically recognized in the annual appraisal cycle.

  505     Increase manning to decrease OPSTEMPO. The increased stress of doing more and more with
          the same or fewer numbers of people to accomplish the work/mission of the global war on
          terrorism is wearing out our force which inevitably will lead to more and more mistakes and
          the accidents that accrue from these mistakes.

  506     Increase the awareness of off duty related accidents and stress their reduction. Utilize safe
          driving courses for automobiles and motorcycles. The injury rates in ATV's and other off road
          accidents are increasing at alarming rates.

  507     Increase the level of supervision where the work is taking place to include swing and grave
          shift as well as weekends.

  508     Insure Service men and women get sufficient rest during deployed operations to reduce
          accidents caused by fatigue.

  509     Live it and fund it.




                                             - 155 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  510     More focus on ORM during daily operations.

  511     OPSTEMPO! I think our ever increasing pace at times compromises safety. Training is a
          driver here along with deployments. Increased numbers of events and shorter currencies,
          increased deployments with less actual time for training, increased complexity of missions,
          along with greatly increased ground training requirements. Tempo is not just an aircrew issue
          but one across the board. Increasing requirements to the point of saturation results in poor
          performance which leads to accidents, whether they are on the flight line, the back shops or
          airborne. Not to say we can't stay busy and maintain a low accident rate. Statistics show a
          very low accident rate during major combat operations, but I suggest that's because the focus is
          totally on that operation. Not true during normal operations. Training, PME, families,
          inspections, etc. all are detractors and help individuals to lose focus.

  512     Provide a safety related funding stream. At the unit level we prioritize unfunded requirements
          and include a safety related category. These items almost always get funded with fallout
          money, depending on the RAC category of the item. However, as the budget process gets
          tighter, commanders will be forced to spend operational money on safety items, a tough
          decision with high levels of operational demands.

  513     Require every DoD Wing/Brigade to report safety readiness just as we do combat readiness
          with SORTS (Status of Readiness Training). Metrics should be well defined with little room
          for subjective measurement.

  514     Risk management and safety would be part of every school curricula.

  515     Senior leaders in all Services have to make safety a priority and follow through with their
          actions and resources. In a joint environment one service can not have the necessary impact
          needed to get everyone onboard.

  516     Showcase beneficial safety programs more frequently. More visibility on superior safety
          programs in use today.

  517     Suicide Prevention. Personnel who are demobilized, for the better part, do not have a
          healthcare professional from whom they might seek assistance. Suicides among Service
          members in this state are increasing as a result.

  518     The active Services must provide required training schools, in all areas, in sufficient numbers
          to ensure our military members are trained quickly, and not have to wait up to a year to get into
          a required school. I believe well-trained individuals increase safety for all.




                                             - 156 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  519     To provide processes and flexibility to identify and implement best practices from all sources.
          Many times, obstacles prevent use of best practices, unless they are within your specific branch
          of service. We are a joint Service and there are best practices used by one Service and we
          cannot use them in other Services because of funding, not viewed as a best practice" by the
          other Service, or like roadblocks.

  520     Better educate mid-level leadership about operational riskmanagement and its implications.

  521     Create, or better publicize, a suggestion program, with significant monetary awards, for
          changes in processes which increase safety.

  522     Emphasize operational risk management (ORM) at every level from top to bottom. Teach
          simple six step approach to all situations at work, at home or at play: 1. Identify the Hazard; 2.
          Assess the Risk; 3. Consider Risk Control Measures; 4. Make Control Decision; 5.
          Implement Risk Controls; 6.Supervise and Review.

  523     Ensure safety manning at the unit level is consistent with the unit's missions.

  524     Fund it, fund it, fund it; advocate it; live it everyday, every mission, every theatre, every
          Service.

  525     I attended the USAF Accident Investigation School at Norton AFB in the spring of 1986.
          From this training I learned to take safety programs very seriously and to incorporate safety
          into everything we did in operations and training throughout my organization. I supervised
          fighter operations at the squadron, group and wing level for over 20 years, including 11 years
          as a Wing Commander at three locations. During that time my units had almost a zero accident
          rate including zero class A mishaps. My safety officer was always one of the strongest officers
          available, and my safety programs were second to none. I have lost track of the number of
          safety awards my safety personnel, programs, and mishap rates have won, but it is at least 3-8
          per year. At an average of about 5 per year would make it over 100! The best action that
          would improve safety in DoD is formal training for leaders and managers at the earliest point
          in their careers.

  526     Increase experience level of operators in high risk jobs/weapon-systems. Increase training and
          proficiency for operators in high risk jobs/weapon-systems. Make sure regulations pertaining
          to operational high risk jobs/weapon-systems make sense and are understood by those bound
          by them. Stress risk management. Stress crew/team resource management in support and
          operations.




                                              - 157 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  527     Make safety a rating/performance factor and incorporate more proactive requirements. Safety
          can be seen as ancillary to the mission and that is the root. From my unit days, safety was a
          huge concern at inspection time and on the holidays, Sword of Damocles effect. We have the
          stick but not much of a carrot - have a mishap and you can be crucified, have a spotless safety
          record and you get an attaboy that doesn't have a great reward.

  528     On the job modernization and recapitalization of the aircraft fleet. It is depressing to think that
          we are planning to send our forces to wars in the future in aircraft that are older than the
          current naval fleet. These aircraft are already falling apart in peacetime conditions contributing
          to accidents. The lack of funding and the very visible OSD staff opposition to modernization
          also communicate a lack of concern for these issues to the troops in the field. Off the job, we
          have too many demands on our overstressed force, which leads to fatigue. Excessive
          deployments contribute to a reckless enthusiasm and risk taking behavior when not deployed
          among our youngest troops. We need to back away from some of the lesser commitments for
          our force to ease the burden they are carrying -- because we can't afford to keep adding force
          structure when budgets are already tight.

  529     Provide tangible awards for safety successes.

  530     Safety ought to be mentioned by leadership in every speech they make, immediately adjacent
          to the mandatory core values comments. We need to enforce safety procedures and walk the
          talk everyday.

  531     To emphasize the mindset of safety in the expeditionary environment, such as the operating
          locations in the CENTCOM AOR. The suggestion is to move a portion of the DoD safety
          workforce into a "tactical safety" focus -- with specific training, information sharing tools, and
          authority.

  532     Use the extensive system of safety databases for more than merely summarizing what
          happened last month/quarter/FY. Use the data to do real trend analysis; when a certain type of
          mishap is most likely to occur, look for correlations; before/after a big
          deployment/exercise/inspection; experience levels; mission types etc. I think this work should
          be contracted out to real experts who do analysis for a living..

  533     A healthy and fit work force would significantly reduce injuries. Fitness centers are available
          to military personnel; however, they typically are not adequate to accommodate the civilian
          work force particularly at depots where the civil service population is relatively large.
          Recommend funding be made available to construct additional fitness centers where needed to
          provide on-installation access for the civilian work force.

  534     Better cross-Service communication and coordination.




                                             - 158 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  535     Better cross talk, and better release of safety reports. Twenty-five years ago, safety messages
          were standard reading in a unit. Today with email and electronic distribution one would think
          it would be better, but policy constraints actually make it more difficult to get access to safety
          reports. In our desire to maintain privacy we have definitely kept the reports private.

  536     Focus on organizations successfully performing the mission in the most effective way using
          best practices, not on having a great safety program.

  537     Form voluntary (but well supported) motorcycle patrols with competitions for skillful
          formation driving. These should be led by some of the more senior (and mature) officers who
          are motorcycle proponents. This will help make a major impact on training the skills to
          successfully handle these vehicles which are a major problem for safety. The California
          Highway Patrol holds annual formation driving trials, I believe at Monterey.

  538     Get it in their face! Many heard of Sec. Rumsfeld 50 percent reduction a few years back and
          that was it nothing more other than a few teams would work specifics. So for 95 percent of the
          populous they are absolutely clueless as to the drive and who or what is being targeted to
          improve Safety.

  539     Include safety compliance as a required element in performance reports.

  540     Include workforce safety as an element of the President's Management Agenda.

  541     Leadership emphasis on a periodic basis (weekly?) that reminds and recommends safety
          planning. This should include appointing a safety supervisor for any unusual event in the
          workplace or at a social event (picnic, softball etc). Always have someone in the environment
          that thinks ahead and monitors for hazards or hazardous situations.

  542     Leadership support.

  543     Let us know what the problem is! We have no visibility into safety/mishap events until the
          straw breaks the camel's back and we move into the over-react mode. We don't know if we're
          trying to attack ground safety, acquisition safety, flight safety or office, industrial, highway, or
          deployed environments? Calmly approach the problem, let us know what the problem is, let us
          learn from (and read about) other's misfortune so we can apply the information to our own
          environments. Don't think folks want to do stupid things? And mandatory training for 1.6
          million folks isn’t the answer.

  544     Make commanders accountable for safety and its effectiveness within their areas of
          responsibility.

  545     Make personnel availability rates the metric (stop managing the accidents and start managing
          the mission).



                                              - 159 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  546     More aggressive operational risk management (ORM) approach/exercise at all levels of DoD.
          Not just a field activity, but everyone's responsibility.

  547     More investment in training for those involved in activities with moderate to high risk of loss
          or damage.

  548     More publicity and statistics.

  549     Periodic discussions at staff meetings, and town hall meetings.

  550     Provide adequate funds to accomplish mission. Corners are often cut when funds are tight to
          ensure mission success (these cut corners may compromise safety).

  551     Provide dollars for safety programs. Real change doesn't happen until, and unless, there is an
          organizational re-alignment that is funded.

  552     Raise it in to a higher level of senior leadership attention. Make sure the needed activities are
          adequately funded.

  553     Rate safety in performance assessments and provide incentives (recognitions, cash awards) for
          those who clearly excel because of measurable actions.

  554     Recognize that the severe funding cuts in infrastructure over the last decade have impacted the
          quality of the work environment. Safety-related incidents are a natural result.

  555     Safety programs should be tailored to the organization. A program that is appropriate for the
          flight line is probably not appropriate for an office environment. Many safety programs are not
          effective because they are not appropriate for the organization or the personnel. Safety
          programs that don't treat people as intelligent adults turn people off.

  556     Standardize processes and religiously adhere to tech orders and proven safety procedures.

  557     Strong leadership emphasis from the top.

  558     The safety and cleanliness of the Pentagon is improving with the renovations. However, the
          unimproved part is populated with rodents and insects. Also, there is considerable
          overcrowding in the Pentagon as additional contract support personnel are brought in and
          squeezed into existing workspace.




                                             - 160 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  559     We must continually emphasize safety to our personnel rather then when there is an actual
          accident. We are structured to give a safety briefing before 3 day week-ends, however, our
          people have accidents throughout the year. Make safety part of our workday every day, not a
          square filler.

  560     All leaders, especially with GOs, must personally and genuinely engage with their direct
          reports in terms of how they are doing, how their families are doing, and yes...safety. It sets
          the standard for the organization and radiates down. As I got more senior, especially as a GO,
          very few of my seniors even made gestures about my well-being. There may be a connection
          with safety in this.

  561     Better funding!

  562     Bridge the gap for Service members on duty and off-duty. Instill the same focus and
          accountability for safety off-duty as we do on-duty. Accepting managed risk is an inherent
          aspect of our business. Find a way to change the mentality of accepting risk off-duty.

  563     Build safety into the system: Incentivise weapon systems programs for building personnel
          safety system into their platforms. Put sunshine on safety but normalize the data for age and
          risk of activity. Hold commanders accountable.

  564     Commanders have to be held accountable. I do feel that some accidents are unavoidable, but
          the vast majority result from a chain of events that are within our ability to manage. Where
          commanders do not have an effective safety program, fail to set the personal example, or
          exercise poor judgment and sacrifice safety for expedience, then I regret to say they must be
          relieved.

  565     Continued focus on physical fitness that contributes to mental and emotional alertness.

  566     Continuity across the Services in holding personnel accountable for safety violations.

  567     Desegregate safety. Safety is really about protecting resources, people and material, while
          conducting operations, either combat or otherwise. Our culture segregates it, separates it from
          the operational flow and assigns people to it who do not understand that the reason to practice
          safety has an operational rationale. Safety should be integrated in all operational planning and
          execution as a basic element, not as someone looking at it as an outside QA factor.

  568     Educate the force. Hold personnel accountable for knowingly conducting unsafe acts.

  569     Ensure that your people have the knowledge, education, and/or tools to do the job safely and
          then hold people accountable at the lowest level feasible.




                                             - 161 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  570     Ensuring military police are funded, sourced and assigned to military installations instead of
          civilian security agencies.

  571     Focus must be at the non-commissioned officer’s level to reduce the first term safety issues.
          We must empower non-commissioned officers and give them ownership of the program. When
          they believe, everyone below them believes.

  572     Give the safety programs, and the safety focus, back to the services.

  573     Hold leaders at all levels accountable.

  574     Hold supervisors accountable for safety mishaps in their units, air and ground.

  575     I have been a school trained aviation safety officer at the squadron and aircraft group levels. I
          have had direct responsibility for five bases conducting aviation operations with 5000 of my
          own personnel and 15,000 tenant operators in dense airspace in the US southwest. My
          personnel and the tenants lived and worked in the high tempo ground environment of
          California interstates, alcohol, fatigue and combat training. Most senior civilians do not
          understand our environment. This is not my excuse to say we don't have problems. But, we
          need to better understand the why of the problems. Without understanding the environment
          that creates safe and unsafe practices, mandating a 50 percent reduction across DoD is an
          empty gesture. Even in aviation, the disparities are across the services, with significant Sigmas
          annually although there is a long term trend with major plateaus. Understanding short term
          trends and how to break through plateaus is part of the problem.

  576     I suspect the biggest accident category is probably traffic accidents. Find a way to improve our
          record in that one area.

  577     Implement a top down blue ribbon review of DoD safety programs.

  578     Implementation of the non-commissioned officers leadership program. This program places
          accountability and responsibility down at the non-commissioned officers level in the unit. It
          fosters leadership, accountability and empowers the small unit leader to help us get the
          message down to the high risk Marines in the unit. Safety is a by-product of professionalism
          and doing things the right way. There are two types of Marines: leaders and those who want to
          be leaders. This program relies on the basics, good leadership skills. This is something every
          Marine understands.

  579     Insist that leadership set the example for good safety practices. Traffic safety is in part learned
          from observing how others behave especially those in responsible positions. If their leader’s
          behavior says I'm invincible in traffic, then how can we expect that they won't aspire to the
          same invincibility and drive accordingly? Stand at the front gate and watch traffic exit the base
          at the end of the day, seatbelts off, cell phones on, drive like you're in a video game!



                                             - 162 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  580     Introduce a safety culture in the department, by indoctrinating safety into the lives of our men
          and women as early as possible.

  581     It is important to get the junior non-commissioned officers and officers involved with the
          safety campaign plan in order to bottom up buy in to the plan.

  582     Leadership is the key attribute that must be emphasized in reducing mishaps. At the same time
          you can't deny that the current high operating tempo increases risk and therefore accidents. To
          gloss over this fact impugns the credibility of OSD leadership when calling for reduced mishap
          rates.

  583     Look for realistic goals and achievable methods consistent with the mission, and apply
          appropriate resources. Just putting out percentage goals is almost meaningless.

  584     Make more resources available for safety programs, to include awareness and awards, both
          money and personnel.

  585     Make safety a mandatory comment on performance reports.

  586     Make safety management/leadership part of a supervisor's or leader's performance report.

  587     More invasive actions to ensure younger members (18-22) are supervised and monitored in
          areas such as off-duty liberty, purchase of motorcycles, sale of alcohol aboard base.

  588     Need to operationalize safety. programs tend to be add-ons and get special project status. Like
          transformation and change management, Safety should be matrixed throughout an organization
          and not just a Directorate's responsibility.

  589     OSD provide sufficient funding for safety initiatives.

  590     Properly budget safety programs in both personnel and money.

  591     Provide additional manning to supervise safety.

  592     Provide adequate funding to hire required professionals (civilian safety experts). Work to
          remove the stigma related to the assignment of ground safety billets.

  593     Raise the age of unlimited driving privileges to 21 nation wide. Some states have restrictions
          up through 18, others for the first 6-12 months of driving.

  594     Responsible alcohol consumption.




                                             - 163 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  595     Safety accountability all levels: we continue to have mishaps, but fail to remove poor
          leadership to include the command level. By not doing this, the lower ranks do not get the
          impression we are serious about changing the safety climate.

  596     Safety is directly proportional to O&M dollars and to command resourcing for training and
          education. GWOT budget flows are heavy in terms of cost of war and manpower. This is
          understandable. That said, O&M dollars which support TAD/TDY for training are essential to
          improve safety. These do not compete well when POM debates rack and stack funding
          priorities. If safety (and mishap redux) is a DoD priority, then service requests for O&M
          dollars must be better supported.

  597     Set realistic, achievable goals and address accountability.

  598     Specifically fund safety programs at the unit level.

  599     Standardize all state laws in regards to operating motorcycles. Licensing practices, helmet
          laws, and requirements to take motorcycle safety courses, are all different.

  600     The best contribution DoD can make to improving safety is to ensure that adequate resources
          are available for training and equipping the force.

  601     The Marine Corps is trying its best to reduce mishaps and deaths, both on and off duty. More
          needs to be done in the effort of reducing off duty fatalities and mishaps. Somehow we've got
          to get our young folks to believe that each Marine or soldier is a weapons system and that we
          need every weapons system with us in the war on terrorism. Right now our youngsters just
          think that its their own tough luck if they pile up their car or tear themselves up while home on
          leave. That is not the case, we need every one of them in the fight! We need to figure out how
          we make that point and make believers out of them.

  602     The only thing which will improve safety is to provide more training prior to deployment.
          Mistakes will happen and only training will mitigate that. Reducing non-operational safety is a
          leadership issue and all the campaigns, safety officers, safety fairs, and bill boards will not
          improve safety due to the age of the force. We just need to keep talking to the force and try to
          make them understand how important they are and to use their best mature judgment.

  603     There is no one thing that will dramatically improve the Service safety record. It will take a
          dedicated, broad front approach. Three primary aspects of this broad approach will have to be:
          1. Empowerment and facilitation of unit commanders; 2. Education of each individual Service
          member; 3. Recognition for those who achieve and accountability for those who fall short.
          This will require both time and money to accomplish.




                                             - 164 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  604     Tighten up on seatbelt usage. If you get caught without a seat belt on a military base you lose
          your driving privileges for a month. Develop a means to protect the turret gunner in a
          HUMMWV if the vehicle rolls over. The gunner needs to be pulled into the vehicle to prevent
          from being ejected and crushed.

  605     Understand that this is not a business and that business ways may not be the solution. We need
          to take the best from business, modify as necessary, and apply to our safety challenges. We
          need to recognize all the unique aspects of what we do.

  606     Understanding all the legal issues involved in this suggestion, give the commander the
          authority to restrict who drives on and off base, much like we do in overseas locations.

  607     We have been working hard to solve this problem within the Marine Corps. The issue appears
          to be one more of the lack of accountability and the absence of a 24/7 mindset among our
          personnel. The aforesaid is easier to talk about than to accomplish; however, I think we're at a
          critical juncture in the Corps, where an opportunity has presented itself. Due to the intensity of
          combat operations, the Corps is presently experiencing the strongest degree of combat
          cohesion that it has seen in decades. Combat focus, moreover, does not rest solely within the
          infantry and other combat arms fields; the entire Corps is engaged. Exploiting the aforesaid,
          the Corps will embrace active mentoring, initiated in the entry-level pipeline and carried
          throughout the entire Marine Corps. We will attack from bottom-up and top-down; we will
          orient on specific goals and lay out definitively success and/or failure in issues of
          accountability. The mentoring process will transcend safety and cover goals of personal and
          professional [conduct].

  608     We need to find positive ways of rewarding good performance. Marines like most Service
          members react positively when presented a challenge or goal. By finding numerous and
          imaginative rewards for safe exercises, training and liberty, we can get buy-in at the junior
          levels. Safety performance or lack thereof is not a result of uninspired or disinterested senior
          leadership. On the contrary, by bringing in more peer pressure to meet the standard or achieve
          a mission with tangible rewards is one action, among many, that will help foster a
          comprehensive command climate with respect to safety. Things like time-off, unit
          awards/recognitions, special events are just a few of the many ideas that exist. We need to
          make our service members want to succeed where safety is concerned, beyond its obvious
          readiness implications.

  609     We need to fully fund and resource our safety offices and programs.




                                             - 165 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  610     We should do a much better job in linking safety to operational readiness. We can do so by not
          treating safety as a stand alone issue, but rather as an integral part of the life cycle of all units.
          Reporting unit readiness must include safety statistics, and commanders should know that their
          own evaluations as leaders will, in no small part, be inclusive of their unit's safety record and
          this record should be composed of both on and off duty statistics. Too many commanders
          consider that off duty, or after hour, mishaps are not their responsibility, this is wrong. All
          commanders are responsible for all that their units do or fail to do; safety is a core value!

  611     Hold leadership responsible and accountable for serious mishaps.

  612     Make execution of safety plan a gradable item on fitness reports/evaluations.

  613     Make safe behavior as a positive consideration in the calculation of promotion scores for E-4
          and below, and mandatory in fitness reporting for E-5 through Flag officer.

  614     Provide resources and operational control for hiring full time safety experts down to the
          Battalion level without impacting service budgets.

  615     Work with and educate families, spouses, and local law enforcement on a continual basis in
          helping to reduce traffic accidents involving military personnel.

  616     A well developed campaign/communications plan with visible rewards for those who achieve
          high levels of safety.

  617     Annually, senior civilians must take an on-line ethics training course that takes about 30-45
          minutes to complete. There are also mandatory on-line security training courses that all
          personnel must take. It would be beneficial if all personnel would be required to take an
          annual safety refresher training course on-line. In this course, I would recommend that some
          real life incidents relative to our daily work activities be incorporated to make us more aware
          of what could happen in our daily environments. For instance, working here in the Pentagon, I
          am sure there are numerous safety incidents throughout the building. Some of these should be
          summarized so we in the Pentagon can be made aware of the types of accidents that occur.
          This should make all personnel, supervisors and subordinates more conscious of safety
          measures that can be taken. At this level/locale, statistics on aviation accidents or mishaps at
          depot maintenance facilities mean little to our daily activities.

  618     Leadership and accountability are the key to good safety. You can not always take the position
          that accidents will happen. When you put fire on friendlies or crash an airplane, consider
          holding the correct person responsible. Reflect their leadership and safety record in fitness
          reports and or assign Article 15 or an appropriate court-martial. Safety will improve quickly.
          This is based on nearly fifty years as a Marine, enlisted, commissioned Flag officer and now
          returned as an SES.




                                              - 166 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  619     Leadership at all levels walking the walk not just talking the talk, but leading by example, is
          the best way to influence the behavior of our young Marines. With regard to the civilian
          workforce, much of which is associated with our depot maintenance organizations, a
          carrot/stick approach with a definite requirement that supervisors rate their employees with
          regard to safety, and that supervisors up the chain be likewise held accountable for workplace
          safety within their area of responsibility..

  620     Slow down the pace of transformation and increase the organizational constancy of purpose so
          people are more able to focus on mission performance. There are too many good ideas and
          new visions coming from too many organizations and at too fast a pace. The folks trying to
          implement all the transformation visions are the very same folks trying to get the normal
          mission done safely. This is not to say we shouldn't have transforming vision. Rather, it says
          we need to learn to control change without compromising our ability to train and execute our
          mission safely. Change should be governed so that only a few things that can be done well are
          initiated simultaneously, while permitting our limited personnel to safely accomplish their
          normal day to day missions. New ideas seem to be generated in functional stovepipes without
          reference to each other, but execution results in convergence of different change initiatives in
          the same shops and operating units. Change leaders too often are shooting in the dark.

  621     Adequately resource troop support and force protection at an appropriate level with weapons
          systems acquisition. Renewed focus during OIF/OEF/GWOT is enabling this emphasis to
          occur, and it needs to be sustained once hostilities reduce as well.

  622     All senior occupants (E-5 through O-10) of ground and air vehicles should be provided a one
          day refresher course for the type of vehicle(s) for which they will be the senior occupant. For
          an E-5, it may include a HUMMWV and 5-ton truck. For an O-3, it may include a
          HUMMWV, BFV, and M1A1 Tank. For an O-5, it may include a HUMMWV, BFV, and UH-
          60. For an O-10, it may include a government sedan, HUMMWV, UH-60 and C-21.
          Successful completion of this annual course would be entered in unit training files and subject
          to IG audit. There would be no exceptions authorized, even to those working in major
          commands and the Pentagon.

  623     Awareness.

  624     Better training for civilians.

  625     Communicate safety top down with a focus on personal accountability for safety starting with
          the individual, but coalescing upward to supervision, management, and leadership.

  626     Communication.

  627     Consolidation of safety centers.




                                             - 167 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  628     Continue DoD efforts to train personnel and put in place programs that evaluate organization
          safety program.

  629     Continue installing tracking devices on ground vehicles, coupled with sensors for speed, and
          load, linked to the dispatch or command center.

  630     Continue to push operational risk management awareness and encourage people to think before
          they act.

  631     Continued top leadership emphasis.

  632     Continuous awareness of the importance of safety, including slogans, posters, and such.

  633     Control OPSTEMPO across the Services and their Guard and Reserve Components.

  634     Culture change to mainstream safety in the line manager function, as part of that function,
          instead of being considered the responsibility of the safety dept. Safety is line management
          responsibility, with the safety dept in a supporting role.

  635     DoD focus on cyclical safety issues. Time of the year and typical weather should drive some
          of the safety training; summer, water safety and working outside.

  636     Driver’s education.

  637     Each organization should have a safety officer who sustains a safety message and actively
          pursues education and awareness activities.

  638     Education.

  639     Emulate former Secretary of the Treasury O'Neill's actions when he was in industry in terms of
          the goals he set for improving safety for the workforce.

  640     Encourage acupuncture.

  641     Ensure individuals are not fatigued when performing critical tasks.

  642     Ensure that Pentagon floor waxing and wet cleaning occur after midnight and that warning
          signs are always posted.




                                            - 168 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  643     Especially after 9/11, employee safety (other than terrorist attack precautions) and working
          environment has certainly taken a back seat in both priority and budget allocation to the
          terrorist threat, real and perceived. The level of safety concern also appears to me to be
          inconsistent across organizations and facilities, government owned and commercially rented
          and occupied. Even in determination of suitable properties for occupancy there seems to be
          more interest in size standards, need for security and cost versus safety. I would suggest that
          there were a consistent, well understood and universally communicated safety policy and
          standard, for which the supervisors were held partially responsible for enforcing.

  644     Establish a proactive program that demonstrates safety practices during exercises. For
          example, in my organization we don't experience many safety issues other than falls.
          However, in mass evacuation or similar emergency situations we would be at more risk for
          safety mishaps. I believe it would be beneficial to practice safety measures during contingency
          exercises.

  645     Establishing a list of agreed-upon causes of accidents and requiring a determination of cause
          for each accident/mishap will allow the organization to focus safety efforts and education to
          eliminate the acceptance of conditions that allow a cause to be present. If driving under the
          influence of alcohol is a cause, then an emphasis on programs which do not allow an individual
          who has been drinking to then drive will be successful.

  646     Focus on the number one safety issue, auto accidents. By reducing the need to drive, safety
          will be enhanced. For our agency, this will take place when we consolidate in our new
          building, eliminating the need to drive back and forth for meetings. Flexible work schedules
          and telecommuting are also key elements to improve safety.

  647     Have much better control over vehicles that run in the Pentagon. The operators are generally
          not careful and drive where they are prohibited.

  648     Have people see a tape of horrendous accidents.

  649     I agree that a best practices exchange program between organizations for safety ideas and
          procedures is a good idea to pursue.

  650     I am concerned about the plethora of agencies in both the county, DoD and State levels that get
          involved in any type of incident, specifically the anthrax scare that happened in March 2005 in
          the Falls Church, VA area. I am not sure that adequate pre-coordination is done in advance of
          events or that adequate training is done.

  651     I would install seatbelts on all DoD buses. I would check cars entering the Pentagon parking
          lot to see if seat belts are being used. Pass out warning first then tickets.

  652     Improve the environmental conditions within the Pentagon Reservation.



                                             - 169 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  653     Integrate safety, occupational heath, and injury compensation under a single head.

  654     Integration of safety should be accomplished with at least an Assistant Secretary of Defense of
          this mission and that is the sole mission. It should be removed from all other Under Secretary
          of Defense and Assistant Secretary of Defense programs and given to one Assistant Secretary
          of Defense. They should be empowered to leverage safety requirements globally with DoD,
          establish policy, be a MFP for safety and be part of the DepSecDef daily/weekly meetings.

  655     It is difficult to isolate one thing. Here are several which I believe would improve overall
          safety within DoD: Increase awareness levels of safety related data, initiatives, and programs;
          More closely align the achievement of specific safety improvements with performance
          plans/appraisals/incentives; Better stratify, analyze and communicate safety data so that all
          employees could get a better picture of the safety related challenges and opportunities in their
          specific work areas; Establish a more visible mechanism for sharing successes and lessons
          learned throughout the Department.

  656     Keep the focus on it.

  657     Lobby to improve mass transit in Washington DC area. Better/more train/metro advantages to
          attract passengers. Need to get folks off the streets. Imagine the year 2020 and what it will be
          like!

  658     Make it a higher priority for management.

  659     Make safety a routine part of any operation and not just a committee to review what happened.

  660     Make supervisors accountable for safety training, as appropriate to their organizations, in their
          evaluations and bonuses.

  661     Make sure everyone knows the true cost of being unsafe: Lost workdays, equipment
          replacement costs, lost personnel (priceless).

  662     Make sure that all staff are aware of what to do if an evacuation is ever necessary.

  663     Mandate safety goals and metrics.

  664     Marketing; develop a plan based on the mishap history, and tackle the top five causes with a
          campaign. We seem to be able to do very well on charitable contributions, why not safety? It
          is typical to do this in industry, so if you want it to happen sell it from the top. Don't rely
          solely on management word of mouth or initiatives, we have plenty of them. Make safety
          stand out with some heavy duty marketing, perhaps set standards, and track progress openly.




                                              - 170 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  665     Modify rules/regulations/laws to affect more personal liability for on the job injuries where
          individual judgment (or lack thereof) is a significant contributing factor. In other words, inject
          an element of personal accountability.

  666     More frequent (and unannounced) safety inspections.

  667     Nothing; I am not aware that we have a problem with safety in DoD.

  668     Place, in DoD organization's public areas, easels with safety facts (use few words) that would
          be meaningful to the organization's personnel. Do it every once in a while, but not on a regular
          basis, so people will look at it and take in the message.

  669     Provide concise safety training and reminders to all personnel.

  670     Provision of ergonomic chairs. Provision of adequate sized work cubicles. A rule no cell
          phone use while driving or at least no non-hands cell phone free use while driving.

  671     Raise visibility.

  672     Safety is more achievable when a common sense approach is taken. Too many incidents
          happen because the rules become too stringent which preclude one from taking appropriate
          actions. Safety is everyone's responsibility and when it becomes dictated and strict procedures
          are instituted, one loses perspective of what is appropriate immediate action and what is not.
          There is a limit to safety requirements which go beyond the bounds of reasonable and therefore
          actually create unsafe conditions.

  673     Safety must be a sixth sense and inculcated into individuals and organizations. Have
          organizations report out using balance scorecard.

  674     Safety tips and reminder newsletter distributed by e-mail on a regular basis.

  675     Safety training as part of getting military driver's license.

  676     Set aside part of one workday each year to have a safety event. This may include training,
          review of office procedures for handling emergencies, general safety activities (cleaning up
          office areas, removing hazardous items that block hallways.).

  677     Shorter work days.

  678     Stop using such young enlisted and officers. They tend to do unsafe things. For that reason,
          the statement about emulating best practices of other organizations may not perfectly translate
          to safety in DoD. If there was a some yes/some no answer, I would have chosen it.




                                               - 171 -
                                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                                       Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  679     Take actions to reduce POV accidents/deaths. For example, require all military motorcycle
          riders to wear helmets regardless of the state law. If military members are found not wearing
          seat belts take some type of punitive action. Do something about long hours and then driving
          home.

  680     The Defense Commissary Agency has had much success implementing something referred to
          as the buddy system. The program encourages active involvement in improving the safety of
          the work unit by all team members. Key agency safety metrics have improved significantly
          over the past three years, as team members have become more aware and involved in their
          safety as well as the safety of others. The agency also conducts a safety awareness month in
          January each year for commissary operations worldwide which serves to increase focus on
          safety for our team members, industry partners, and our customers. Our agency has also
          developed a joint program in conjunction with OWCP to provide commissaries training to not
          only improve safety, but also reduce workers' compensation cost. In FY04, the agency reduced
          workers' compensation cost by $758K as a direct result of the programs discussed in my
          comments.

  681     There is a need for a DoD standard for motorcycle safety. This would be especially useful in
          joint commands.

  682     Try to make all personnel more aware that they can make a difference in accident prevention.

  683     Visibly reward individuals for individual attempts to improve environments and safe practices.

  684     We have too few people to do the missions so they are working too many hours on not enough
          sleep without proper rest and proper relief! Having three or four men in a Bradley in an urban
          environment is crazy. They cannot even protect the vehicle let alone dismount and chase a
          terrorist. What was fine for manning a Bradley in the cold war isn't ok in this war. After 6
          months in a combat zone you are a safety risk because you are tired. Even WWII stats proved
          this. Even the people in garrison are stretched too thin. The most important way to achieve
          better safety is to have adequate manpower and PERSTEMPO for the mission!!! Even the
          maintenance folks are tired out!

  685     Adequately resource safety requirements; salt and sand icy surfaces in the winter.

  686     Clean out the air vents in the Pentagon. They're always dirty and continue to push out black
          soot. We called maintenance, months ago, to clean out the vents and no one has yet to come.

  687     Emphasize that safety is a leadership and readiness issue. Emphasize that discipline is key to
          realistic training with safety inherent in all that we do.

  688     Recognize that you cannot change the safety culture of an organization overnight. It takes
          years.



                                            - 172 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  689     1. Incentivise organizations with time off for accident/incident free time periods. For example,
          a training holiday for the unit that is accident/incident free for a month/quarter/six month
          period. 2. Recognized organizations at the unit level for accident/incident free training cycles.

  690     Accident investigations point out the factors in the mishap and make recommendations for
          fixes. Often these fixes are fleet wide or weapon system wide. The funding available to make
          these fixes has to compete with budgeted requirements. Suggest a fenced pot of funding to
          address these enterprise fixes.

  691     Add a safety comment to all efficiency reports.

  692     As with anything preventable (diseases and non-battle injuries), there needs to be resources
          invested toward safety initiatives. Even though it is difficult to prove what we prevent, we
          need to put money where our mouths are.

  693     Better lighting on roads.

  694     Command accountability.

  695     Create a process that holds both supervisors and the individual responsible for accidents. For
          instance if we see that many accidents have occurred but only a small number of specific areas
          were involved, check supervisor role. However if preventable, or a history of carelessness,
          some accountability to the individual. For instance, my organization did a best practice visit to
          a commercial company. For certain types of accidents, people were sent home; for others they
          were dismissed. Reason: These individuals were costing the company money and putting
          personnel at risk.

  696     Declare alcohol an illegal substance and prohibit DoD employees from consuming it.

  697     Dedicate funding at unit and installation level to support safety training and programs.

  698     Dedicated money for safety training!

  699     Empower the junior leaders of the Army to stop the training event if they observe something
          that is not safe. This pushes safety responsibility down to the lowest level. And when a junior
          leader or private first class stops the action, then the senior leaders need to honor that, develop
          mitigating actions and then resume the training. Safety is not top down driven, it is every
          soldier’s responsibility.

  700     Ensure that leaders lead from 1600 hours until stand-to/PT/0600. This is the period when most
          bad things happen; when soldiers need their leaders the most.

  701     Focus on the important safety issues and don't try to cover everything.



                                              - 173 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  702     From my perspective one of the biggest issues is the OPTEMPO. We are stretching our
          soldiers in terms of endurance and capabilities. This leads directly to a lack of attention to
          safety on the job as well as off duty, traffic accidents caused by fatigue or speed. The more we
          can do to reduce the OPTEMPO, the more we will accomplish in improving safety.

  703     Here are three: 1. Ensure adequate manning for the mission. It seems like we regularly
          experience unfunded mandates with regards to additional mission requirements. The result is
          less supervisory attention where it is needed; 2. Focus on the first level of supervision--E4/5s.
          They can make a real difference 3. Remove higher headquarters manning caps that limit
          effectiveness of planning and resourcing efforts.

  704     Implement a policy that if a soldier dies due to irresponsible behavior, such as drinking and
          driving, no benefits will accrue to the beneficiaries.

  705     Increase funding for safety programs at installation level to support training and meaningful
          demonstrations for troop units.

  706     Linking safety related incidents to both pay and performance.

  707     Manpower and time constraints exacerbate the mishap problem. If you have too few people
          doing the work, you increase mishap rates because they start taking shortcuts to get the work
          done. If they are working long hours consistently and are tired, the error/mistake rate
          increases. Additionally, in today's environment, we pile on more and more taskings and we
          burden everyone with ever-increasing administration requirements to the point that it impacts
          both workers' and supervisors' focus. One solution, control workload and prioritize, not
          everything needs to be done now. Eliminate administrative duties and reassign to admin
          personnel (which we have too few of).

  708     More emphasis on driving safety.

  709     More focus on lost time accidents and prevention. We track the catastrophic accidents and talk
          about them extensively (loss of life, limb, aircraft) but don't pay the same level of attention to
          slips/trips/falls/etc. that have a big impact on the workforce.

  710     Mr. Rumsfeld and the Service Secretaries must work together to review analysis of trends data
          and promote best practices which have applicability across the DoD. A stretch goal of 50
          percent reduction can only be achieved if every leader is engaged. It cannot be achieved by
          decree.

  711     My command is experiencing success in identifying soldiers at risk. I recommend adapting a
          toolbox that enables junior leaders to identify their soldiers at risk and what tools they have at
          their disposal to intervene.




                                              - 174 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT   IF YOU WERE TO SUGGEST ONE ACTION THAT WOULD IMPROVE SAFETY IN DOD, WHAT
  NO.     WOULD IT BE?


  712     Need to be focused on the culture/mindset of the people.

  713     Require semi-annual sessions (at least) to occur between leaders and subordinates. Develop a
          common approach such as films/information that shows accidents, what happens, why it
          happened, how to prevent, and maybe pictures of a funeral/grieving spouse/loved one! I've
          learned after many years in aviation that visual kinds of things coupled with leadership
          involvement can have a tremendous impact.

  714     Seems that mishaps occur mostly in training and pre-deployment workups, rare to see mishaps
          in combat or at least the rates are low. We need to examine the demands on our commands
          relative to experience/resources in the training cycle.

  715     Stop thinking about safety as a separate issue. Safety is the product of effective, well led, and
          expertly executed efforts.

  716     Take a tougher stance: no seatbelt, not wearing the proper safety equipment, over the legal
          limit for alcohol: not in line of duty, no benefits to survivors.

  717     The military needs to take safety seriously, but at times we, as an institution, take responsibility
          rather than making the individual responsible for their decisions/actions. In our quest to reduce
          accidents and save people from injuries/death, we have to ensure that we don't become so risk
          adverse that we lose our mission effectiveness. We also need to recognize that at times (stuff)
          happens despite our best efforts. While I applaud unraveling the chain of events to determine
          how it happened, we need to again ensure that we don't develop a zero defect/mistake mentality
          that cripples innovation.

  718     Wide dissemination of safety pubs (magazines). In my younger career, the real life stories in
          those publications made quite an impression on me.




                                              - 175 -
                                                              IE-2008-006 Evaluation of the DoD Safety Program:
                                                                             Senior Leader Safety Survey Results




Appendix J – Respondent Comments - General

                          U.S. DoD Survey Results - Senior Leader Survey


In the second of two open-ended written comment questions, respondents were asked, “Please
provide any other general comments you may have.”

We deleted the names, units and locations to preserve respondent anonymity, and edited out inappropriate
language, but otherwise the comments are verbatim.


 COMMENT
               PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
   NO.

      1        50 percent reduction of mishaps is so daunting a challenge as to be almost useless as an
               incentive at our level. We might want to look at a goal that is tied to improvement over time
               that gets us to something like the 50 percent level eventually, but is more focused on the
               benefit of sustaining steady improvement as opposed to attaining some absolute reduction.

      2        A fine line between doing great risk management to increase force protection and reduce
               accidents, versus creating an environment where leaders stop conducting realistic, demanding
               training because they are afraid to fail to make their accident numbers. Prudent risk taking
               involves some risk, and we should be cautious we don't get into a zero defects mentality.
               Finally, our safety specialists, based on some of the critiques I've seen lately ought to deploy
               and ride a few patrols and fly a few missions where you get shot at, attacked by a improvised
               explosive device to induce a better understanding of the conditions our soldiers are coping
               with. They would be better if they had a more clear understanding of the combat challenges
               out there.

      3        Accidents are going to happen no matter how intensive a program is planned or executed. The
               challenge to the leadership is constant awareness and personal involvement, as well as
               innovative ways to mitigate adverse conditions.

      4        All of our leaders are committed to reducing accidental deaths/injuries. That is known and
               everyone respects it. But why is it so difficult to get automated safety boards? There needs to
               be specific funding for these types of assets; instead we are fighting to get monies for safety
               assets such as these. The key is the interaction at the sergeant level, and their peers. They
               know that awareness is key. Fund the items unit commanders are requesting like safety boards
               that are automated.




                                                  - 176 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

   5      In our efforts to improve, we cannot lose sight of the tremendous strides the Army has made
          regarding safety. In my 26 years, virtually every aspect of safety performance has significantly
          improved. A death or serious accident during training used to be commonplace, now a real
          rarity. That said, not sure how much lower we can go without degrading the training value of
          what we are doing. Military operations are inherently dangerous and soldiers need to be fully
          tested during training. Training must be tough, realistic, and, yes, dangerous, to ensure lives
          are not lost during combat operations. Also, we cannot mirror civilian workplace performance,
          nor should we. I saw a report on TV the other night in which students in public schools in
          some places were no longer permitted to jump rope due to concerns of safety. A commentator
          complained of the wussification of America; our nation cannot afford a wussified military.
          Thanks.

   6      I appreciate the survey. In itself, the survey demonstrates leadership commitment. POVs are
          still the big killer from what I read. Many installations practice the buddy team. Many
          accidents seem to happen at 0200 and later. Keep preaching.

   7      As the commander of a training center (and as a 3 time combat veteran), safety in training and
          in combat is critical. I believe the Army has the systems in place to train the right things to
          prepare our soldiers and ensure their safety.

   8      As you suggest in your questions, safety is truly a command responsibility; it starts with the
          first-line leader and must be reinforced all the way up the chain of command. I would submit
          that we may not be involved enough from the bottom-up with safety based on the accident
          reports I see; too many of these accidents would appear to be preventable with some direct
          involvement and enforcement of standards. We know how to do this; we need to keep the
          chain of command fully involved. It will make a difference.

   9      Being in a staff assignment, I am not sure the questions posed above are pertinent. I can say,
          however, that the office of the Director of the Army Staff is aggressive in getting the word out
          to the whole staff on issues of safety, especially summaries of casualty reports, mainly related
          to vehicle operation.

  10      I believe there is a strong push within DoD to fix this significant challenge that we collectively
          face.

  11      Concur that safety must be in your face. The Army is very busy and soldiers are being
          complacent and not listening to the leadership. We must stress personal responsibility to safety
          at all times.

  12      Effective safety and force protection programs are essential in today's global war on terrorism
          environment. Every organization should implement the best possible integrated safety/force
          protection program they can and enforce compliance at the very lowest levels of the
          organization to ensure the workforce's safety and well being. It must start at the top!

  13      Fire most of the people running safety organizations. They don't get it.




                                             - 177 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  14      For personal safety, we are sending the wrong message when the alcohol displays are the first
          thing that is encountered in the AAFES shoppettes and you have to hunt for the nonalcoholic
          beverages.

  15      Good survey.

  16      Great progress is being made at lower levels with new initiatives. Joint dialogue is the best it
          has ever been. The process for policy, oversight and resources is dated is not effective. I&E
          process across all Services needs to be viewed for value added. Defense Safety Oversight
          Council funding needs to get thru the process and in the hands of users. JSSC needs a more
          direct role in tying together DoD vision and output in terms of initiatives.

  17      I am encouraged by seeing much more recent emphasis on safety issues. Continue to focus on
          problem areas rather than making policies that are generalized.

  18      I believe good units have good safety awareness, low incident rates and high mission
          performance. The common factor is good, trusted leadership. I do not believe there is a magic
          rule or regulation that will guarantee good safety. This is a leadership and individual growth
          issue.

  19      I noted that I did not think reducing accidents by 50 percent in the next 2 years is achievable.
          The Army's OPSTEMPO is so incredibly high and the specter of it increasing looms large. All
          senior Army leaders receive notification of every fatality within the Service, and from my
          perspective, many of the accidents are extended workday/workweek related. I believe the great
          efforts we're working to reduce the accident rate may well allow us to keep it level, but not
          reduce it.

  20      I think that the number of young men and women that are lost to the Services and to their
          families due to POV and Motorcycle accidents is absolutely too high. I also think that
          operating HMMWVs has become a special mission over and above a standard AMV license.
          HMMWVs have become mini-armored vehicles with different center of balance; handling; and
          speed considerations when operating. I think the services should establish a separate cross
          country and urban certification for HMWWV operators prior to licensing.

  21      It is unfortunate but people die due to unsafe acts. Carelessness is part of it but in my mind
          more often than not, accidents occur because our people are trying to do too much and are not
          ready or fit to drive.

  22      Make risk management a required subject at all levels of PME both EM and Officers. Not just
          a class a real subject. Hold people accountable. Some Services try to pass the responsibility
          for an accident up the chain as high as they can to diffuse the accountability. In reality hold the
          individual that failed to operate by an established standard accountable.

  23      Mandatory vehicle safety inspections, especially in states without an official inspection
          program. Identification of mode of transportation to be used on leave, allowing a safety
          inspection and safety brief if a POV is to be used.



                                             - 178 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  24      Members of units know who is at risk. They know which members of the organization take
          risks or are unsafe. An informal means of reporting or identification may help ID those in need
          of attention.

  25      Most accidents require completion of a complex causal chain of events. These circumstances
          normally come together within organizations under great stress. Organizationally, our
          leadership can do a better job at providing adequate resources to ensure units are not forced to
          operate beyond safe limits unless absolutely necessary. Risk assessment can, and does, make a
          big difference. However, we are stacking the deck against certain high risk units operating
          with high PERSTEMPO, combined with personnel and equipment shortages. We clearly
          understand and recognize these dangers in the aviation world, we now need to make the leap to
          ground units.

  26      Neutral ratings above reflect lack of information available to me to provide an informed
          answer. I didn't know enough to render an answer either way.

  27      On the family side, there is much more to do. Part of problem is encouraging families to
          participate; part of problem is we are not well resourced to advocate and teach safety in the
          home to the extent I think necessary. We are tracking soldier safety but not family safety.

  28      Overall this is a positive trend. The fact that the leadership is concerned is demonstrated by the
          execution of this survey.

  29      Persistence is essential. We have seen significant improvements in safety but traffic violations
          continue to be the greatest single source of safety risk. While most infractions are not
          significant as they are presented (minor moving and non-moving), in total number they suggest
          a lack of awareness by our young troops. Our most successful measures have been
          presentations/testimony to formations by troops who violated safety and traffic regulations and
          were seriously injured. There is a definite drop in violations for weeks afterwards and then
          rates creep up again. Journey not a destination since new troops are joining us each day.

  30      Q4. We have aviation/ground general officers that have an atrocious record of safety during
          their commands, but they are perceived as aggressive, highly motivated, and tactically sound
          officers. Their record of safety never enters into the equation. Yet, many with impressive
          records of safety commensurate with tactical accomplishments have been overlooked. Q6.
          Despite pleas for voice/data recorders in Army aircraft for over 6 years, we still have mishaps
          that can't get solved. Recent CH-47 mishap in Afghanistan is great case in point...no VADR.
          Thus, it will end up as pilot error due to bad weather. Possible that we'll never know if
          mechanical error contributed. Similar situation on groundside. I have lost many soldiers due
          to drowning in canals in Iraq, but no indication of changing any equipment. Improvements in
          safety are usually not made until catastrophic mishaps occur, and frequently it takes several to
          gain attention and funding. Q7. It can be achieved...stop flying and driving.




                                             - 179 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  31      In regard to the 50 percent reduction, while I certainly think we can, must, and will reduce
          safety accidents, I doubt that 50 percent is achievable. Unreasonable goals turn people off.
          This is about leadership not dollars and rules. We hire a young, aggressive, risk accepting
          population. Leader intervention in maturing our young population is where the focus should be
          focused along the lines described above. An action I have found to be useful is daily
          discussion of the past 24-hours, what we did and why it worked successfully, what we did well
          and then, how do we apply that to the next 24-hours.

  32      Safe operations in everything we do in DoD is not only a function of well-trained and well-led
          Service members and civilians, it is also in large part a function of our cultural and social
          backgrounds as Americans. In addition, I have found in 37 years of military service that young
          men (almost universally) between the ages of about 18 and 24 simply have no real, visceral
          understanding of the hazards, the dangers or the potential consequences that are likely to flow
          from some simple act like not wearing a seat belt or driving too fast for conditions. Moreover,
          these young men are frequently encouraged in what amounts to reckless conduct by their peers,
          who are in very subtle ways in some sort of competition with their peers to demonstrate their
          masculinity and exactly how bulletproof they are. Attacking this biological proclivity among
          young men may be possible with a persistent and thoughtful information campaign that
          leverages the power of social pressure and peer pressure to behave in acceptable ways.

  33      Safety awards program needs greater publicity and must be a commitment from the top to the
          bottom of the leadership chain. We need to emphasize the positive. All leaders must
          demonstrate a commitment to recognize individuals who are taking actions to change unsafe
          behavior and reduce risk in training and combat environments.

  34      Safety has to be mission one.

  35      Safety has to be taught as combat safety from day one of entry to the Service. A major part of
          our problem over my 29 year career has been a peacetime safety orientation which has
          inadvertently sent the message that in combat, we discard these procedures. That has been
          reinforced by some degree of zero risk taking approach to safety in peacetime rather than an
          acceptance of prudent risks. Our Army warrior ethos states upfront the mission comes first so
          arguing at DoD level for some misguided safety first approach for a military organization built
          for fighting wars automatically undercuts the message with both the leadership and rank and
          file who are warriors. Safety is not first, so if you argue that to military folks, you have zero
          credibility, which shows up in disregard for a zero-risk based safety first approach which is
          commonly the perception.

  36      Safety in my current organization, Multi-National Forces-Iraq, is synonymous with force
          protection. This is the basis upon which my responses above are based--protection of the force
          in a volatile combat zone.




                                             - 180 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  37      Safety is the responsibility of both the leader and the individual. Both must accept that fact for
          prevention programs to work. We must dedicate resources and energy to insuring that junior
          leaders know how to mitigate risk, identify those subordinates who are high risk, and take
          action when they see high risk activities being planned and/or executed. As that effort
          increases, I believe we will see a corresponding decrease in our injury and losses of personnel.

  38      Safety is very important and DoD senior leaders can never do enough to ensure it.

  39      Safety, discipline, and leadership linked. We must ensure every Service member understands
          this principle!!

  40      Senior leadership is committed but I don't think leadership at lower levels particularly at the
          non-commissioned officer level give safety enough consideration. I think part of this is due to
          lack of oversight and recognizing what conditions produce unsafe acts. Also, I don't think
          youthful Service personnel consider safety enough because of their mindset that they are
          invincible, which is what our culture engenders.

  41      Survey problem: Question 12 - if accidents and mishaps include soldiers being injured while
          driving POVs (at a rate equal to the national population) or being injured playing sports, or
          being wounded or killed in action then the answer cannot be anything other than agree and yet
          I suspect the answer you'd like to see is disagree based on a cultural belief that all accidents or
          mishaps are preventable.

  42      Thank you for looking into this important issue.

  43      The Army's Combat Readiness Center is doing a great job making information and resources
          available to Army leaders to improve safety.

  44      The chain of command is concerned about safety, but when all is said and done, the mission
          comes first, as it must.

  45      The focus on decreasing accidents is important and the message is getting through. Over time,
          we will see a decrease in deaths. Stay the course. However, setting goals like 50 percent
          reduction will not produce results as it might in business. During this war, with the stress on
          leadership and with the increase in OPTEMPO, setting goals like this will not, in themselves,
          result in significantly on deaths or rates. The goals will simply result in frustration by the
          senior leaders because we didn't make it. Set reasonable annual goals for reduction. Say 10
          percent a year for 5 years. Be reasonable and you will see results. 50 percent in one whack
          will not work I don't think, as it is a bridge too far for most leaders. Thanks.

  46      The inevitability of accidents and our efforts to decrease them by 50 percent over 2 years are
          not mutually exclusive. Safety requires resources, education, and leadership. It is a constant
          process and there are no off days, times, or events.




                                              - 181 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  47      The safety program is not coordinated across the Services. Standards are not the same across
          the Services and there is no one of authority on the Joint Staff or OSD to coordinate the
          program.

  48      The USA Corps of Engineers has a very good safety program and manual that has been used as
          a model by both US and foreign contractors. However, USA Corps of Engineers tries to
          continually learn and improve. This FY (FY05) it has implemented a new Safety Management
          Action Plan (SMAP) across the organization to try and improve safety performance even more
          - both for employees and for contractors.

  49      There is sufficient leadership focus on safety at all levels, it permeates all we do. The nature of
          our operations and training results in some unpreventable accidents, but that is not where we
          lose most soldiers. It is in preventable motor vehicle related accidents. While we expend
          significant man-hours and resources to combat immature acts (speeding, drinking and driving,
          not wearing seat belts), most deterrent actions are only partially successful.

  50      This was a badly designed survey, not sure your questions were meaningful. Waste of my
          time.

  51      US Army Europe has worked this better than any command I have ever served with.

  52      Want to clarify answer to question 12. Accidents, particularly vehicular, will occur in war
          based on the tremendous number of miles being driven, translating into accident exposure.
          They must be minimized to the maximum extent possible through rigorous risk assessments
          and the inculcation of safety in every facet of our operations. Risk, however, while being
          assessed and evaluated in the planning phase of a mission, does not imply failure to accomplish
          the mission. Rather it implies mitigation to the maximum. We don't have to accept accidents,
          but we do have to be realists and understand that, while unacceptable, they will occur. Bigger
          question is did we learn something from the accident so we don't have a continuation? Lessons
          learned.

  53      We are a military at war, and there is a relationship between the combat environment and the
          mindset our troops have when they return from Theater. Forces Command has done an
          excellent job in their 1st quarter safety report of capturing some of these high risk
          characteristics. It is this kind of insight that is helpful to commanders as we design risk
          reduction measures and procedures.

  54      We can and must do a lot better at eliminating accidents and mishaps among a population of
          soldiers who often feel themselves invulnerable.

  55      We do not resource military and POV drivers training nor sufficient OPTEMPO mileage to
          gain experience in driving military vehicles. We should look at creating driving courses that
          expose operators to the environments that they will see during operations. This realistic
          training will expose them to the safety hazards that could be encountered as well as cause them
          to plan for contingencies in the future.




                                             - 182 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  56      We must always underwrite the honest mistake. Too often, we hammer young leaders for
          safety mistakes. Combat is inherently not safe, and we must learn how to deal with risk. That
          will include some errors, and even loss of life.

  57      We're slowly getting better, and we can't afford to be slow.

  58      While I say that we must accept that accidents will occur...which is true, as we are inherently a
          dangerous profession that is not meant to say we shouldn't try. Most procedures, executed to
          standard, will be safe even though inherently dangerous. And we must continue to emphasize
          the precise, disciplined execution to standard of our tasks, and reinforce good off duty behavior
          by our young soldiers.

  59      While we must accept that accidents sometime happen in our business, we should never stop
          working to educate people about safety and resource safety programs, and surveys,. to
          constantly remove safety problems that can lead to accidents.

  60      Appreciate the survey. Look forward to receiving the results along with any recommendations
          to the States.

  61      Continue on with training to prevent POV and motorcycle accidents as well as DUIs.

  62      Continue to emphasize safety across the board!!

  63      Except for unforeseen equipment failures, most other accidents are preventable. It takes
          deliberate measures by leaders and soldiers to prevent mishaps.

  64      I am totally impressed with the initiatives of the Combat Readiness Center. I literally read and
          distribute all communications to my subordinate commanders. Unfortunately, our Services
          mirror our population and it will be difficult to reduce accidents/deaths to zero. But that does
          not mean that we collectively should not try.

  65      I believe that we can continue to increase our efforts to emphasize safety and to decrease
          accidents. However, I answered question #12 as I did because I believe there is simply some
          inherent risk in what we do as an organization and to implement a zero defects strategy does
          more harm than good as it affects Service members mind-set about safety.

  66      Leader training on risk management is part of all training and MDMP.

  67      Prior to OIF, the training preparation for ARNG units (especially Aviation) mobilizing was
          extensive. Wartime exigencies and the availability of equipment (helicopters) has had an
          inverse impact on post mobilization training. Aviators, for example, may not have flown their
          aircraft for protracted periods of time prior to arrival in theater and have not practiced the tough
          tasks in limited visibility.




                                              - 183 -
                                                            IE-2008-006 Evaluation of the DoD Safety Program:
                                                                           Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  68      Q12: In the military I don't think we accept that accidents will occur. But, the reality in what
          we do, where and when we do it, equipment used and understanding that our mission is often
          to assure the lack of safety of others (as in close with and kill the enemy) creates a unique
          safety environment.

  69      Safety is a priority in theater of operations (Iraq).

  70      Safety is one of those things that require constant reinforcement and emphasis at all levels of
          leadership. Soldiers will do what their leaders do and what their leaders check. Discipline is
          the key.

  71      Safety is preached at the senior leadership level. However, at the company grade level, and
          probably battalion and brigade, the OPSTEMPO is so furious that commanders do not have
          time to take all the safety precautions they should. All resources are adequate, except time.

  72      Safety personnel should a dedicated function and not treated as an additional duty. They should
          be assigned down to battalion level as part of the personal staff of all commanders.

  73      Synthetic trainers are an essential to enhance combat readiness.

  74      This is the second and final time I will take this survey.

  75      Too much reliance on technology to prevent accidents and too little attention given to
          leadership responsibilities at all levels.

  76      We all must realize the OPSTEMPO is higher for all commands than anytime in my 36 years
          of Service.

  77      We should concentrate on never ever having any tiered readiness concepts applied within the
          total force. Merge the US Army Reserve and the National Guard. Make the entire reserve
          force dual missioned. Call it the National Guard. This consolidates resources and the bulk of
          your responsive units in the Reserve Components are in the National Guard. Fund the full-time
          manning model for the National Guard and we can maintain and sustain the war-fight along
          side the Active Duty as a full partner in the total force.

  78      We spend a great amount of time and effort trying to reduce service member accidents when
          they are off duty and in the civilian environment. While it is a worthwhile goal, changing our
          people's habits and lifestyles off duty is unlikely. We should focus more energy on reducing
          accidents in the environment we can control and really integrate risk assessment as both a top
          down and bottom up process and hold people accountable for it before accidents occur.

  79      We spend lots of time talking about safety and very little getting it done. For nearly 20 years
          I've asked about seat belts and roll bars for five ton trucks that carry troops. There has been
          lots of talk and some engineering but the system is still the same as the one I had in 1985 as a
          battalion commander when my unit rolled its first truck.




                                               - 184 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  80      What are the current consequences for leaders (E5-O8) who have poor safety records in their
          units?

  81      A reduction of accidents by 50 percent is simply not achievable and therefore, robs the
          program of credibility. The most common accidents involve very young adults in private
          vehicles, which can not be reduced by such a high percentage. This is clear to everyone.

  82      Any emphasis on safety seems to be directly influenced by the nature/mission of the
          organization. For example, a MACOM headquarters appears to be less concerned about local
          safety than, perhaps, a tactical maneuver unit. The risks are certainly different, but the value of
          personnel assigned and the costs to the organization of accidents is the same. Safety gets more
          attention when there is an accident and is less of a focal point when there are no accidents.

  83      As a commander, I am adamant about risk management analysis preceding everything we do ...
          big and little, short-term and long-term. It needs to be a way of thinking and deciding a
          deliberate and formal process. The formal part is the thinking process, not the format form
          should follow function. The key thing is to be risk aware. Q12 expresses a sentiment that
          drives me crazy. What we do is dangerous, but accidents are not inevitable. It comes down to
          understanding the risk, mitigating to the degree possible and then making a deliberate decision
          about whether the potential good outweighs the risk.

  84      Being a soldier is inherently dangerous work. From jumping out of aircraft to working out
          daily, soldiers run the risk of being injured. We can not eliminate these dangers, however, we
          can conduct a comprehensive risk assessment before undertaking each task. For example,
          when a helicopter crashes because of poor visibility or other inclement weather, you have to
          wonder why it was flying in the first place. Was it mission essential to fly at that time or could
          the mission have been accomplished without unreasonably risking the lives of many
          soldiers/contractors? When soldiers drive tankers on snow/ice covered roads or hard pack and
          one of them rolls over, you have to ask the same question as stated in the example above.
          BLUF: It gets down to the leadership conducting a risk assessment that values the safety of
          those assigned to their care and insisting that the standard be reinforced up and down the chain
          of command.

  85      Continue to upgrade and simplify the risk assessment process. I recommend a small laminated
          card for leaders on the risk assessment process, a checklist.

  86      For an Army Reserve soldier, thinking through safety beyond safety in training is a difficult
          task. Programs like inspection of private vehicles, other than inspection stickers required by
          installations (which are not safety type inspections at all, just proof of ownership and
          insurance) are impossible for the reserve forces. Auto crash is the biggest issue we have other
          than accidents brought on by battle.

  87      I continue to be suspicious of statistics with small numbers, especially when the base
          population--my command--numbers its constituents in the thousands.




                                              - 185 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  88      My biggest concern is that safety and risk assessment may be afterthoughts that are addressed,
          but that soldiers sense leaders are merely checking the box. Indeed, we have not been
          conditioned to truly put safety first. Do we, the collective Army, really embrace that we can
          consistently mitigate accidents or do we believe that they are inherent in the risky business of
          life and that we are in a hazardous profession that will experience accidents? Does our mind
          agree that repetition of a thought process will truly reduce accidents? If it is to do that, we
          must start earlier in careers and be more consistent, as leaders grow into more senior leaders. I
          also feel, in the Army Reserve, that DRC MSC's should not be part of an Regional Readiness
          Command's safety program, but should have their own budget and allocation of other safety
          resources. Otherwise, you have a split...not in responsibility, so much, but the MSC
          commander must ask for resources and does not have dedicated personnel beyond TPU
          ADSO's.

  89      No matter how often or how hard we push safety, POV accidents will continue to challenge our
          ability to influence safety in our formations. Soldiers who are young men and women are
          aggressive and we cannot enforce their behavior once they are out of our bases and off duty. In
          the reserve components our ability to influence is even less.

  90      Reduce speed, wear seatbelts, and don't drive under the influence.

  91      Require Reserve Component leaders to check for seatbelt wear by soldiers leaving reserve
          centers and armories.

  92      Some feel there can be a paradox from over-focus on accident prevention that can lead to a less
          safe environment. Accentuate the positive such as in motor transport operations rewarding
          accident free miles for both units and drivers can pay big benefits if properly administered.
          Positive preventive actions to preclude incidents across a spectrum of negative actions
          (including safety) should be part of every leader's command philosophy.

  93      The Army risk assessment and commanders training programs are great. The online test as a
          safety update briefing is great.

  94      We need more online classes and self assessment dealing with safety across all Services lines.

  95      As long as we count sports injuries that occur off the job but on post as part of command
          injuries, we will not greatly reduce injuries. A sprained ankle obtained in a basketball game
          after work can be counted as a lost time injury.

  96      I am in an R&D organization that uses a lot of hazardous materials and equipment that can be
          dangerous to operate if not handled appropriately. There is no organized safety review process
          in my directorate other than that which I instituted myself, without any higher direction. I am
          sure that if a serious work-related accident occurred, that would change. However, it should
          change without an accident. I am pretty certain that safety is not a part of my supervisor's
          yearly objectives.




                                             - 186 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  97      In general, there really is a lack of knowledge of safe practices among drivers. In driving,
          safety is not only determined by the skill of the driver, but also the conditions under which he
          drives. Many drivers don't know the rules of the road (like where to wait to make a left turn),
          or that certain conditions demand that they slow down (like rain, night, being tired, on the cell
          phone). These non-skill oriented topics are at least as important as skill, per se.

  98      Increased work tempo equates to increased risk. Ingrained safety practices that soldiers will
          still accomplish when they are tired and pushed to the limit is key to reducing accidents.

  99      Last question is misleading. Yes, we have to accept there will be accidents in our profession
          because that is reality. That is why we have the risk assessment process we try to mitigate the
          risk as best we can.

  100     My organization is all civilians and consultants. Safety is not the same issue as in a troop
          environment.

  101     Need to ensure adequate funding for incorporating safety rather than having it as an
          afterthought.

  102     Recognizing that statistically zero defects is too high a goal, the goal of 50 percent is
          reasonable and perhaps achievable. But we want manage our expectation in that even this
          modest goal is a stretch in today's environment. High OPTEMPO works against this.

  103     Safety activities should always be a mandatory expense element.

  104     Safety is generally strongly emphasized in the Corps of Engineers. In most Corps offices, it is
          a fabric of how we do business.. Of course there is always room for improvement in our safety
          /accident rate. Reducing the incident rate by 50 percent may be imprudent if the existing rate is
          exceedingly low, say 1 to 2 percent per units of universe used. However, if there is a higher
          frequency rate, of course the 50 percent target reduction is desirable. The real value of safety
          programs from my perspectives is: What are we learning from accidents that improves
          learning and what can be done to keep solid safety practices in the fabric of daily routine of
          mission execution. In other words, train so that employees/military personnel instinctively go
          about the execution of their assigned mission in a constant state of good safety awareness.

  105     Safety takes a very low priority for the fielding of items, especially during a wartime effort. It
          needs to be part of the budget process and adequately funded.

  106     Thank you for making it concise.

  107     The Army does everything right, but bad things still happen to good people.

  108     The safety community that I deal with is a dedicated group that tries to get the message across
          but the message has not yet been institutionalized and it needs to be.




                                             - 187 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  109     We are losing folks in combat zones to a variety of causes. DoD needs to include that as a first
          priority followed by asking what are we doing in training and equipping to get at this.

  110     Appropriate programs are in place and are actively supported, but it's the errant decision based
          on incorrect or incomplete understanding of a situation that leads to accidents/injuries that
          concerns me most. We have got to get better at understanding how people think and how they
          make decisions. I am currently reading Sources of Power'. It is all about how people make
          decisions and I believe it might hold some keys to intervening in bad decision making. I
          recommend it. Additionally, we have got to provide opportunities to share experiences.
          Today's safety environment is much better than the one I grew up in. Today we don't have the
          aviation accidents I survived earlier in my career. Of course, I learned much from those
          accidents around me. They helped me recognize and respond much better to certain unsafe
          situations. I survived in spite of my surroundings because I went to school on others' mistakes.
           Today we don't have the same environment so our young service members aren't witness (to
          the same kinds of incidents).

  111     I believe we should target specific goals based on specific performance. If command X has a
          specific safety rate, then goal them to improve to an achievable (but stretch) target, and hold
          the commander accountable if not achieved, and reward if the goal is met.

  112     Considerable attention given to safety of forces in the field, and at posts around the area of
          responsibility. This is a major concern.

  113     Considering the environment we work in on a daily basis, we have an outstanding record for
          safety. If we could somehow get safety mastered on the liberty side of our lives, it would be a
          miracle.

  114     Don't see how this survey will provide anything of value.

  115     Encourage personal heath and fitness. We must find a way to get junior and senior personnel
          to take responsibility for their physical heath and fitness. The Pentagon culture does not
          support our Service members physical and mental heath when it comes to stress relief and
          fitness. Is that the way it is or can we do something to keep our folks safe and healthy?

  116     For the big mishaps there is a clear process improvement thread. For the day to day smaller
          mishaps/stupidity there needs to be a leadership tool that brings our young people into maturity
          that does not include GMT lectures or slogans. We need to invest in the time and closeness it
          takes to build our youngest into the young men and women who know what it takes to be
          responsible with alcohol, driving and sex.

  117     I am a Submarine Group Commander, as well as a Navy Region Commander. Need to get
          internet access to our piers, working the issue but there are a number of stakeholders. Not just
          a submarine problem, surface ships and Coast Guard commands suffer as well. Safety first.

  118     I believe everyone should be held accountable for bringing about safety and not accept
          accidents/mishaps as things that are going to happen anyway.



                                             - 188 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  119     I feel that we are making progress. The last few numbers are the hardest to get beyond.

  120     I think that when a mishap happens generally there has been a breakdown in the
          communication flow. To ensure that doesn't happen, leaders need to know and understand that
          they are also responsible for the education and conduct of their assigned personnel. Leaders
          need to make sure that the message is clear and then everyone needs to walk to the drumbeat.

  121     I'm not sure how this survey can adequately get at what you are trying to discern.

  122     In combat, walking across the street in budgeting processes and I presume also in safety there
          is an acceptable level of risk that we accept through ORM. I am not sure that that message gets
          to the deck plates with young and invincible sailors/officers. I don't sense it is something that
          leaps off the five vector mode (yet) so I'm not sure who does teach it in a deliberate manner to
          young officers and sailors.

  123     In the survey, I agree that accidents and mishaps are going to happen in our line of work.
          Question could imply that we should not drive for zero. Zero should always be the goal...I just
          am skeptical that given human behavior it is attainable.

  124     Leaders get the message. Challenge is to change culture of younger members to take action
          involving their peers when unsafe personal behavior is witnessed off duty.

  125     Lots of good people and experts who are addressing the matter of safety and who care deeply
          about it. For that I am most appreciative.

  126     Many opportunities can be identified by looking at specific epidemiology of injury/accident.
          Take a look at USMC's athletic trainer program in OCS.

  127     Need to ensure all levels understand the tactical necessity for safety first. Cutting corners is a
          commander's decision, implicit or explicit, executed either thoughtfully or by neglect.

  128     Realistically, there will be accidents and mishaps that occur, especially given the dangerous
          nature of our job in the Armed Services. However, we must not allow ourselves to accept that
          they will occur. If we strive for anything less than 100% safety, then we have opened the door
          to compromising the safety mindset that is so important. When mishaps occur, we need to
          continue to learn from the mistakes of others and apply those lessons to every aspect of our job.

  129     Safety is defined too broadly to be of real policy or programmatic utility in driving change.
          Focus, focus, focus is necessary.

  130     Thanks for the opportunity to participate.

  131     The fact I'm on a Service staff inside the Pentagon may not provide you with good data upon
          which to base your results. Safety is rarely a topic of discussion in our day-to-day operations.




                                              - 189 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  132     These questions are general in nature, and often assume a higher level of knowledge of funding
          than the respondent may have. I don't have any idea how much we spend on safety, Navy-
          wide, or in the office arena in the Pentagon. A survey based on general feelings or opinions of
          the person taking the survey may be of less value, as an opinion about funding levels (as an
          example) may not be within the individual's knowledge level. You should add a response
          which says no knowledge or some other opportunity to indicate the person cannot substantively
          respond to your question.

  133     Units and personnel need to be evaluated on their safety performance. Supervisors need to
          create a non-retribution environment where near misses can be discussed in a formal setting.
          Supervisors need to create an environment where sufficient sleep, sufficient hydration, proper
          physical fitness, and a healthy life style is the top priority. Many times it's all about work first
          and physical fitness is done after hours. Top down driven stressing individual accountability
          and small unit leadership. Continual need for drunk driving and speeding awareness. Solid
          vehicle licensing procedures.

  134     Vehicular mishaps continue to account for significant loss of life. Programs that assist in
          addressing vehicular mishaps must be implemented.

  135     We are very tuned to operational safety, and rightly so, while our biggest vulnerability is off-
          duty mishaps.

  136     We can get the biggest bang for the buck if we can deglamorize drinking and de-link drinking
          from driving.

  137     We need to have a culture change to hold individuals accountable for their own unsafe actions -
          even disciplinary action in some cases where warranted.

  138     Will be interesting to see if a 50 percent reduction can be achieved by edit.

  139     CNI cuts in safety and preventative maintenance programs are putting safety at risk and visibly
          countering leadership message to troops.

  140     DOD needs to improve resourcing of safety initiatives. This includes leadership time
          commitment as well appropriate funding.

  141     For 35 years, each new leadership has strived for improved safety. Everyone pledges to
          improve safety by a factor of two or more and finds a new way to capture or interpret the
          statistics. But the actual accomplishment became impossible a long time ago without bringing
          the enterprise to a halt. Accidents happen and will continue to happen even if we came to work
          each day and did nothing. In my opinion, we have long since reached the point where mission
          effectiveness is being reduced without corresponding payback.




                                              - 190 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  142     Funding should be provided at time goal is assigned. Expecting Services to skim from other
          budgeted programs does not show DoD leadership commitment to safety. It also sets up
          decremented programs for future reductions caused by the apparent inability to execute to the
          levels of budgeted funds.

  143     I had to answer neutral on many of the questions. I would have preferred a not applicable
          response because my job responsibilities and accountabilities do not provide me with the
          information in which to answer many of the questions.

  144     I work in a legal organization, the Office of the General Counsel. Safety is not a very
          significant issue because there are few if any accidents in our line of work.

  145     I work in an R&D organization, largely composed of professional scientists and engineers.
          Safety is something we are highly conscious of and have been since our entry into our
          professions. We have long since reached the point where only marginal improvements in
          safety are achievable since the safety record is already so low. As usual DoD is applying a
          standard to the whole organization that is only appropriate to a portion.

  146     In the almost 60 years at the Naval Research Laboratory there has been only two quite minor
          safety issues.

  147     It is terrific to see this attention to safety as evidenced by devoting a survey such as this to
          safety.

  148     More widespread use of operational risk management and similar techniques would improve
          the safety of operations.

  149     Safety is best handled through operational risk management processes. Increasing training and
          awareness in methods of risk assessment and the resulting improved judgment would go a long
          way towards creating better understanding, decision making, and resultant risk mitigation.

  150     Safety is one of many competing priorities. We need to show the cost value of safety, by
          following the money. Showcase the cost implications primary and secondary of not paying
          attention to safety.

  151     Safety is very broad. Safety in our own office work space is one avenue and we seem to be
          subjected to less than satisfactory sanitary conditions (specifics include chronically blocked up
          toilets and rodents in our buildings). Safety in what we are responsible to accomplish -
          managing ship construction and maintenance is clearly paramount. We budget and allocate
          personnel billets to insure submarines and ships go to sea. Funding is implicit in our way of
          doing business.

  152     Some DoD activities are very focused on improving safety. However, in general, there appears
          to be little enthusiasm for spending additional resources to achieve an improved safety
          environment.




                                              - 191 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  153     This survey did not offer the reply “No comment” so I worry that a neutral response can be
          misinterpreted.

  154     We find the DoD goal of 50 percent reduction in safety accidents and mishaps unacceptable.
          There should be zero tolerance. That is our benchmark. Further, we feel strongly that both
          supervisor and employee be held accountable for accidents/mishaps.

  155     We will not make any headway unless we put commitment and resources behind the effort.
          Telling people to be safe is not enough! We have been doing that for years and the results are
          not impressive!

  156     When we don't adequately fund our engineering work, safety issues increase.

  157     A 50 percent reduction is doable. We just need to demand higher standards of ourselves and
          those we work with and those who we lead.

  158     Anyone who says decreasing the DoD accident and mishap rate by 50 percent over the next 2
          years is achievable is saying we have a really abysmal program now, which is not true.
          Improvements are always possible, of course.

  159     Arbitrary goals like the 50 percent goal are good to get people to pay attention, but how we
          achieve that goal, and what is said if we do not achieve it will tell the field much about how the
          leadership appreciates their effort.

  160     Build an acceptable glide slope of change in the accident rate that puts a tough, but achievable
          goal in front of the troops. In that manner they have something to strive for. Our current
          program has turned them all off.

  161     Commanders understand they are their organization's safety officer. However, they need
          professional assistance with developing, implementing and overseeing safety programs.

  162     Common sense, coupled with active ORM, is critical. That's the message to get to the troops at
          all levels, especially in combat.

  163     Continue to emphasize that improved safety is a result of involvement by all levels of
          leadership and members of units/organizations.

  164     Establishing a goal of cutting mishaps by 50 percent in 2 years without any substantial
          evidence that this can be done, and without any realistic program to achieve that goal is an
          exercise in futility. When the goal is not achieved, it will very possibly be deemed a failure of
          leadership. This may be true but it will not be a failure to perform by the service leadership.
          Rather it will be a failure to set realistic goals by those who established the goal, with no more
          planning or follow-up than make it so.

  165     I am firmly convinced our people, across the board, care about safety and work diligently to
          make it a central element of their lifestyle and work habits.




                                             - 192 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  166     I believe we as senior leaders do a better job of talking about safety than living it or enforcing
          it.

  167     I responded neutral to many of the questions since they ask about leadership and I am the
          leadership in my organization. Also, some aren't very applicable since I'm in a NATO
          organization with many international members. The US DoD is not the driver for our
          organization.

  168     It's important to provide realistic goals 50 percent is hard and may set the bar too high. What
          we do is inherently more dangerous than most civilian jobs, we should set our own benchmarks
          versus comparing our activity to other organizations without similar tasks.

  169     Just saying cut mishaps by 50 percent doesn't work. It implies that we were not doing all we
          could to be safe before. And if that is what people thought, they should tell us how to be safer
          not what number to shoot for.

  170     Make goals reasonable. If they are seen as patently unrealistic, the troops on the ground won't
          take the program seriously.

  171     Mandate seat belts for bus passengers.

  172     Need to fund needed upgrades (wiring, airframe.) to old aircraft that we've decided to keep past
          their designed lifespan.

  173     On-duty safety is worked hard and largely successful within the AF. Off-duty safety is a
          harder issue. It provides less oversight opportunities, but is a bigger issue. I think
          incentivizing good organizational off-duty safety records with cash or time-off awards to
          individuals might have merit, but will take some real thought and trial to find what works.

  174     Our safety people are normally dedicated, but they get lousy support from leadership. Under
          this scenario, all they are ever viewed as is something akin to the IG just another agency to be
          tolerated not embraced.

  175     Q12 could be better stated. Better said, we have to accept that accidents and mishaps may
          occur in our line of work. It is our obligation to minimize them as much as possible. We
          should be working to achieve a zero accident/mishap rate.

  176     Q12 is a bit misleading. In the flying business, accidents and mishaps will continue because
          we are talking about machines that will fail and humans in difficult environments. That doesn't
          imply that I don't think we can do anything about it and ought to give up improving our safety
          record. Nothing could be further from the truth. I just realize that it will never be zero.

  177     Q12: Some accidents will occur no matter how much we aim to prevent them completely.




                                              - 193 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  178     Question #4: The answer is yes but. For example, in the USAF if a unit crashes an aircraft and
          the investigation finds fault with leadership the commander can be relieved. Question #7: We
          can influence some accidents and mishaps within 2 years but not all. For example, sports and
          recreation , private motor vehicles we can influence in the short term by leadership
          involvement, training and mentoring. However, with aircraft mishaps our changes will take
          longer to see the impact. In aircraft mishaps there is no low hanging fruit - programs like
          Military Flight Operations Quality Assurance (MFOQA) will greatly improve safety but not
          within the next 2 years. Question #9: This not the correct way to approach the problem. The
          IG is asking the Services to show best practices but have not defined what is meant by best
          practices. Without a proper definition, the answers from the Services will be all over the map
          and greatly decrease the value of the effort.

  179     In reference to the 50 percent reduction in accident and mishap rates, I believe rates are so low
          now that a 50 percent reduction is unachievable. I will do my best to get there though and
          hope I am surprised.

  180     Risk exists; it can be managed. Accidents do happen, but they can be prevented.

  181     Risk is a part of military operations. Operational risk management and mitigation of risk is the
          best avenue to attack operational safety issues. If we attempt to eliminate risk, or give the
          impression that we are attempting to eliminate risk, we will loose credibility with our force.
          Military operations are inherently dangerous, our obligation as leaders is to provide the best
          equipment, training, and leadership possible to mitigate the risks we can and accept those we
          can't.

  182     Safety can be seen as the intelligent use of planning, engineering, training, manning and
          facilities. These factors must be balanced so that one does not cancel the effect of another and
          so that one is not excessively funded to no effect. The assumption of risk must be both overtly
          considered and stated. This is so that deviations from what commanders have already accepted
          are both recognized and either overtly accepted by the commander whose organization
          surfaced the problem or forwarded to the next level of command for decision. Such specificity
          would broaden the practice of operational risk management into risk management, precisely
          what DoD does, much more unconsciously than it should.

  183     Safety is not about a management issue, it is a leadership issue.

  184     Services have emphasized safety for many years, with significant reductions. Achieving
          additional reductions to meet the 50 percent reduction goal may therefore be difficult. We
          should celebrate those reductions that we do in fact realize and not consider our efforts a failure
          if we do not meet a specific numerical goal.




                                             - 194 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  185     Some comment with regard to some of the questions. Question #4: Do not think you can rate
          someone based on their safety record. I think you should look at their safety record but must
          take it in context. As an example, just because a base has a motorcycle accident does not mean
          they have a poor motorcycle safety program. The base could be doing everything perfectly,
          and sometimes things just happen. Or individuals make a deliberate decision not to follow
          rules, guidelines, good techniques, or common sense. Question #7:. Mishap rates can be
          decreased by 50 percent in the next 2 years but at what cost? You can make statistics say
          anything you want them to. DoD must continue to get the word out, keep talking about how to
          be safe in all operations, both on and off duty, and follow up with good procedures and solid
          techniques. Question #9:. Best practices are not the best way to incorporate change. A best
          practice at Base X might not work at all at Base Y. Share the best practice, but let the decision
          be made at the local level.

  186     Thanks for asking these questions.

  187     Thanks for taking this on; a critical subject.

  188     The 50 percent reduction in safety incidents is unrealistic and does not give the Services credit
          for the huge improvement in safety that we have already achieved over the last few years. We
          are in an inherently dangerous occupation. While that does not mean we should accept unsafe
          tactics or procedures, setting a 50 percent reduction goal is more likely to generate creative
          paperwork to show improvement than real substantive improvements.

  189     There is no credibility in mandates from on high to reduce mishap and accident rates without
          thought and action being given as to what resources are required to make it possible.

  190     There should be a major DoD campaign that addresses excessive drinking and provides
          incentives to moderate such habits.

  191     Too many people are still being seriously injured through intoxication.

  192     Unachievable goals not based on science are potentially worse than no goals. If people don't
          believe they are relevant they will be ignored and, consequently, so will the entire safety
          program. Building a culture of safety should be the objective. Programs such as the AF
          Wingman program where senior leadership sets the example and gets visibly involved will
          make much more headway than any DoD goal could achieve.

  193     We are making progress all the while fighting the global war on terrorism.

  194     We drive the mission so hard that people take extraordinary measures to accomplish the
          mission and put themselves at risk. A lot of the time they are not even aware of the risk they
          are taking. People are our most valued resource yet we turn a blind eye to the risk they take as
          long as the mission gets done. Funding for safety related initiatives/training is one of the first
          things we cut. In the long run it ends up costing us more.




                                               - 195 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  195     We need to continue to share best practices between Services.

  196     We work very hard to emphasize and enable at safe behavior both on duty and off duty, for
          both military members and their families and our Air Force civilians and families. We work
          with our DoD schools to keep kids making good decisions. Our mishap rate is near zero so it
          works for duty behavior but our vehicle accident rate is terrible. There appear to be two
          common factors with accidents: alcohol, and fatigue. No one likes to admit they are
          experiencing chronic fatigue, but that combined with a single drink sets them up for disaster.

  197     We're serious about safety, but not enough to put real money behind it.

  198     While I applaud the SecDef initiative to slash safety mishaps by 50 percent within 1 year, that
          may not be a realistic goal. Also, what is the baseline being used for comparative purposes. Is
          this baseline definition the same for each service? (It isn't.) We need lasting solutions, not
          just 1 year's worth. Permit me a tangential comment: we should also be pushing to eliminate
          long-term risks...like tobacco use. In 15 years, those related medical bills will consume our
          budgets!

  199     Wording of some questions may lead to skewed results. For example, implementing best
          practices may be effective at increasing safety, but may not be a most effective way to bring
          about change. I laud the effort to get leadership thoughts on safety.

  200     You need to have a category don't know, or N/A. As it is, if a person has no knowledge about
          the area of a question, they have to make a declarative statement, hence, the survey instrument
          is fundamentally flawed.

  201     I answered this survey once before. I hope my response was not lost the first time or that this
          response is a double counter. If so the results will be in error.

  202     I apologize if I've missed any deadline. I'm deployed in theater and only check my AMC email
          address sporadically.

  203     We need to have the ability to have universal or joint safety programs in organizations that are
          Joint and are populated by personnel from different Services. Currently, we are required to
          have as many safety programs as we have different personnel, causing the programs to be
          diluted and less effective than if we could leverage safety programs.

  204     Our people are working harder and harder. The average experience level of the force seems to
          be decreasing; requirements have been gradually increasing over time with seldom any
          decrease to the work load. The ever increasing OPSTEMPO will need to be reversed to
          improve our mishap rate.

  205     Our people will pay attention to what we pay attention to. Those units with successful safety
          programs have well defined metrics and set improvement goals. DoD higher headquarters tends
          to react to poor safety statistics with a short term fix it now mentality. We need to be more
          proactive and long haul in our approach.



                                             - 196 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  206     Safety awareness has to be part of the Air Force culture, right from basic training activities and
          on. Reinforcement at all levels of command with greater regularity will instill an improved
          working environment.

  207     Safety offices at ANG units need increased manpower to support multitude of safety issues.
          Especially overtasked is the ground safety manager. He/she is responsible for a vast array of
          safety programs. It is impossible to adequately do the job, insure the wing is following all
          compliance issues, and instill a safety culture wing wide with one full time individual. Same
          manpower we had 20 years ago but programs have greatly expanded. Procedures to handle a
          ground Class A accident need emphasis. Procedures are very clear when it is an aircraft Class
          A but a different sense of urgency from the safety center and HQ safety office when it's a
          ground Class A. Either way, ground or air, a fatality is a fatality!

  208     Today is the only day that matters, yesterday's records and tomorrow's worries are not
          important, just today.

  209     Yes, the safety climate is superb. In the ANG fighter community, we are extremely pleased
          with our record of safety, but don't think about anything less than a complete emphasis on the
          program. I believe it always must remain our highest priority program and we can never cut
          corners in our training. Our seriousness will keep us out of trouble in the war zone. Perhaps
          more realistic training camps for such things as convoy procedures would be good. Also,
          continue to emphasize the physical training program for all of us. Good physically fit personnel
          are needed to keep standards high.

  210     Resources are always tight, and safety may be one of the areas that is not always funded
          appropriately in a constrained world.

  211     You can't walk the walk without learning to talk the talk. Formal training is important to
          enable our leaders and managers to talk safety programs and practices in a convincing manner.
           Leaders need to talk safety every day every chance they get in order to convince people that
          compliance with all regulations, instructions, and technical orders is indeed mandatory, and
          that any accident/mishap is unacceptable. I loved my people and I loved my airplanes and I
          truly didn't want to see either get hurt on my watch. That I was successful is the greatest
          accomplishment of my career. I'd rather be lucky than good any day, but was it luck or
          attention to detail? Or, a little of both! To reduce the accident rate by 50 percent in that short a
          period of time will require a lot of both and some money for training.

  212     Do not take a stick approach to safety. There must be as much carrot as stick.

  213     Doing more, faster, over a prolonged period of time with less drives is a formula for safety
          problems. I don't think you can have it both ways.

  214     Measures like a 50 percent improvement are meaningless out of context, maybe it should be 75
          percent, or maybe 20 percent is all that can be hoped for within realistically achievable levels
          of funding.




                                              - 197 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  215     Rate commanders on their safety knowledge and how it is implemented within their command.

  216     The AF has placed great emphasis in improving our safety record recently. Unfortunately that
          has been triggered by increases in accidents and mishaps.

  217     The Air Force's Wingman Day was a top notch effort that addressed the issues of suicide,
          safety and other issues that are stress factors. This effort should provide a good model for
          others to investigate.

  218     This is a really stupid survey!

  219     This is an important survey, and I hope the results are shared with the Services. It's my belief
          that supervisors have no idea of the cost of unsafe activities/operations in the workplace. For
          example, supervisors don't see the impact of workers' compensation costs or a consistent roll-
          up of lost work days across the supervised workforce. We treat military and civilians
          differently. We know the on and off duty accidents for our Airmen, but don't track the same
          for the civilian workforce. Until individual supervisors are held accountable, any goal won't be
          met. The goal should be zero accidents... it's achievable. You can't put a dollars and cents
          cost/benefit on it, especially if we're talking a human life.

  220     A 50 percent reduction within a couple of years is unachievable. Good men have been
          working hard at this for a long time. If it were easy we would already be having far fewer
          accidents and mishaps. DoD should set a lofty but reasonable goal, after analysis of the data,
          and then build on the momentum of achieving same. What is our branch plan? What are our
          actions if / when we don't achieve our 50 percent goal?

  221     All services have been conducting safety programs for many years, and all are well ahead of
          the national average of reducing accidents. Although an admirable goal, reducing all Services
          accident and mishap rates by 50 percent during major deployments supporting the global war
          on terrorism, is challenging at best. History shows where accidents and mishaps increase after
          every major contingency. Today's deployments only reinforce this. The best result that will
          come out of this effort will be to have all Services share common safety practices that do make
          a difference (there is no cookie cutter). The accidents and mishaps are coming down, but not
          down to the 50 percent reduction goal.




                                             - 198 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  222     Any complex activity with demanding physical tasks, use of machinery, and done by people
          (from individuals to large groups), especially one that trains for combat in uncertain
          environments, will be inherently more risky than typical industrial activities. When I say we
          have to accept that accidents and mishaps will occur in our line of work (war-fighting is the
          business here, supported by several industrial and business-like processes), it is not to say that
          we must simply accept that there are no safer ways to conduct training, exercises and
          operations. And it certainly does not accept that off-duty accidents and mishaps are not
          preventable. It only means that some level of accidents and mishaps, particularly given our
          line of work and the demographics and geographics of our populations, is a fact of the human
          condition. We need DoD-wide consistent training programs, including leader mentorship of
          juniors, to increase safe practices in planning and execution of activities at the individual as
          well as group level.

  223     Changing our young Marines' attitude that they are not always invincible remains a challenge.
          While we need this attitude in combat, we need to temper this view particularly with off-duty
          activities. They need to slow down while on the road and think about the unintended
          consequences of their actions.

  224     Dictating a 50 percent reduction rate for accidents in DoD is not realistic.

  225     Don't mistake the US Military for a business. Don't try and apply across the board civilian best
          business practices to what we do. There are so many examples in the past that often indicate
          civilian rules don't apply. What many of us do is inherently dangerous, and inefficient when
          compared to a business. Additionally, the civilian leadership may want to consider listening to
          the service leadership on this and many other issues.

  226     Military training and operations are inherently dangerous. It takes extraordinary efforts to
          maintain a safe environment and to drive the accident rate to the lowest possible number.
          Coupled with the young age of our force and the sense of invulnerability associated with young
          folks, this effort takes constant attention. Budget pressures have second and third order effects
          on our safety challenges, often delaying safer environments simply because the dollars aren't
          available against the backdrop of war-fighting priorities.

  227     None.

  228     I'm not sure the 50 percent mishap reduction is based upon scientific data. I do believe that we
          can do much better than we currently do. It needs to start at entry level training for both
          officers and enlisted. As we have said in the past, safety is not paramount, rather it is inherent
          in everything we do. That is a culture change that will take time, but I do believe those seeds
          have been planted. At least in the Marine Corps. Also I believe that having full time safety
          officers at ground battalions and brigades/regiments is an idea whose time has come. Just like
          the aviation community. That however needs to come with new structure, not from existing or
          as a collateral duty as we presently do.




                                              - 199 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  229     Properly resource commanders to implement an effective training program, personnel, funding,
          training, and career progression.

  230     Reducing DoD accident and mishap rate by 50 percent over 2 years is an absolutely arbitrary
          and a terrible goal regardless of who set it.

  231     Safety as a performance metric especially in terms of fitness reports is little more than a
          sentence in the fitness report. If we want to make safety important, make actual results of
          safety programs, initiatives, improvements a required entry in the fitrep not a trite sentence but
          actual performance data that can help selection boards judge the leadership potential of a
          candidate.

  232     Safety programs are best when they are unique to commands and when they are driven bottom
          up. Services and commands and missions drive different OPSTEMPO, PERSTEMPO and
          safety challenges. It is well and good to share best of breed ideas and successes, but safety is
          not a one size fits all. We should encourage command attention and supervision without
          forcing safety billet and/or program creation.

  233     Safety programs tend to get stale over time. We need to constantly evolve strategies and
          processes. Human dynamics are at the heart of most accidents and safety programs may fix an
          immediate problem but often fail in time. There are however specific, industrial processes that
          are an exception and do require menu-driven standards but these are the exceptions.

  234     Safety starts at the top but quickly is delegated to lower levels. The problem is, senior
          leadership steps back when execution of the safety programs reach the lower levels. The only
          time the young Marines see the top echelons of the leadership chain involving safety issues, is
          during safety stand downs. Safety has to become a cultural issue. For now, it is treated like a
          nuisance. Something that has to be done, but is taking away precious training time we would
          rather not spend commit to.

  235     Setting top down arbitrary goals that span the full range of various service demographics and
          operational scenarios is not particularly helpful. For example, some Services are fully engaged
          in combat operations (USA and USMC) and stressful deployment cycles while the other
          services are in a more business as usual mode. Comparing the very different Services against
          the same flawed statistical metrics simply diverts attention from each Service's legitimate
          safety objectives.

  236     Setting unrealistic goals detracts from the safety program. A 50 percent reduction is extremely
          unrealistic. The Services do not have the resources, manpower, money, or schools, to achieve
          this standard. How much has the DoD safety budget been cut over the last 3 year? Set
          achievable goal, I want to see a decrease in automobile accidents this calendar year. Finally,
          how does the accident record of DoD compare to the US national accident rate?

  237     Some accidents/mishaps will continue to occur in the military just due to the nature and
          complexity of our environment. However, I believe that we can certainly do more to prevent
          them.



                                             - 200 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  238     Some of the questions can not be answered so simplistically.

  239     The Marines that we recruit are by nature those individuals who like adventure and if they were
          not in the Marine Corps would likely be involved in high risk sports or jobs. Safety is often
          viewed as risk avoidance. Marines do not buy that. Operationally, we mitigate risk through
          planning and preparation prior to execution. We are trying to instill this on duty risk
          mitigation in our force 24 hours a day. Our day to day lives are full of hazards. We can only
          reduce accidents and injury by recognizing the hazards and mitigating the risk in those areas
          that we control. I believe our non-commissioned officers’ leadership program is making a
          difference in bringing those actions to fruition. I would only add that as we look at best
          practices across the Services we must be careful to recognize that each service is unique and an
          action that is working in one may not necessarily be effective across the force. The cookie
          cutter must be avoided if we are going to effect change and meet the mishap reduction.

  240     There remains an attitude that when we go to war, the rules don't apply. That's why, at least in
          the case of aircraft, we crash more than get shot down. In relation to ground mishaps, this
          applies to how vehicles are operated. Easy to see this when looking at the mishap rates of
          newly deployed units. While I believe senior leadership is committed to safety, the
          commitment is not open ended. In times of tight resources, we still do not bite the bullet and
          pay the safety bill. It takes people, money and time, all in short supply. When we properly
          resource safety, then that will be when we make real dents in the mishap rate. And I don't
          mean creating large bureaucratic organizations; it is investing in training, equipment and time.

  241     While it is important to hold leaders accountable, we must make sure we keep the proper
          balance of safety and realism in training and operations. Intimidation is the wrong answer.
          Accountability is the right answer, but we must give leaders the tools and training for
          accountability.

  242     Accidents will happen, but they should not be repeat events. Safety is an attitude that must
          continually be "reinvented" to avoid complacency

  243     The culture needs to start at day one at Officer Candidate School and boot camp. Funding
          must be adequate and easy to access for safety programs. We need to make safety officer and
          senior enlisted safety billets high visibility and sought after in terms of avenues for future
          promotion.

  244     Other than the question about whether an annual safety goal is established, I am not sure how
          much value there is in the survey since I found some of the questions to be of the motherhood
          and apple pie variety. In my organization, while there is no formal safety goal set locally, our
          leadership is forever reminding the staff and managers of the importance of safe practices and
          care of the workforce. I do know that as a headquarters organization, safety is very much in
          the forefront of thought of our leadership, especially to mishaps in the operational forces where
          the incidence and likelihood are more likely to occur.




                                             - 201 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  245     Safety within DoD is hard. We are a mission-oriented organization. No matter how much time
          and effort we put forward to provide leadership, schedule safety stand downs, and training,
          accidents will happen. It is especially difficult in this period with the high OPTEMPO and
          global war on terror. We are expending a lot of effort. Unfortunately, I don't believe we are
          achieving the desired results commensurate with our effort.

  246     Accidents are always something that happens to the other person. The average DoD employee
          has no idea of the frequency or cost of accidents. A continual education program would
          certainly help.

  247     Accidents cannot be completely taken out of the equation, given the nature and complexity of
          the DoD mission and environment. The operative word should be risk management, balancing
          the probability of an accident or safety factor with the impact to adequately balance and
          manage the risk.

  248     Being on the OSD staff here in the Pentagon, I don't recall hearing about a serious accident or
          other safety related incident. I am sure there are safety related incidents and accidents here.
          But in an office environment, we rarely think about such things, and given the press of urgent
          business, I would be surprised if it came to the attention of senior leadership either.

  249     Creating measures that were consistent across the Services/Agencies is imperative if we are to
          truly know what programs are working and which to benchmark as a best practice.

  250     Funding and personnel resource for safety programs are historically underrepresented in
          budgets. If the Department is serious about safety programs then it should commit resources
          towards them.

  251     I answered the questions from perspective of being from the DoD IG. I'm not sure how
          relevant the questions were to our function. I answered neutral in a lot of cases because I
          wasn't sure of the applicability.

  252     I completed an extensive survey on safety from Personnel and Readiness, not sure why I need
          to do this one too.

  253     I find this survey difficult. It is hard to tell the bounds of safety in your short questions. I was
          once a Navy pilot and I know a good deal about aviation safety and Navy safety in general. It
          was hard to tell what safety in DoD meant in this questionnaire. If it meant my organization, it
          meant the office environment of a government bureaucracy, unless it meant the entire DoD. It
          could mean vehicle safety, aircraft safety, safety within the Pentagon, or lots of undefined
          things. I now work on the Defense budget so professionally find it hard to offer opinions on
          the adequacy of funding. By definition, to a budget person, whatever the level of funding is
          adequate. Accordingly, I meant a neutral response to signify I don't know enough information
          to offer an opinion.




                                              - 202 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  254     I work in an office environment and my organization has no direct responsibility for safety
          policy. I consider our work environment to be relatively safe. Reasonable precautions are
          taken to ensure the safety of our workforce.

  255     I've never been trained on safety and it has never been a part of any performance standard in
          any job I've ever had.

  256     Let's get the force right-sized for the mission. People are getting killed because we have under-
          manned the missions in DoD.

  257     My job is to supervise people who work at desks. Our safety issues are not great, particularly
          as compared to those of the folks in the Services.

  258     We need more specific goals and objectives to meet the overarching goal of the SecDef, and
          more senior level involvement.

  259     On Question 12, I want to clarify, that in our office environment, accidents and mishaps should
          not happen, or should be minimized through effective training and attention to appropriate
          safety precautions. However, in "our line of work" being the US military, it is an inherently
          dangerous job, and even with the best preventative measures, accidents/mishaps occur.

  260     Our work and environment is not hazardous and routine is structured to include safety.

  261     Safety has received considerable attention in my agency and we have shown considerable
          improvement during the past year.

  262     Safety has to be included in the organization's strategic plan and resources should be
          programmed to support the safety objectives. Safety needs to be an operations effort, not just
          lip service. A safety program that prevents one accident or saves one life is worth the time,
          effort, and expense of the program. We need to get serious about safety from the top down!

  263     Safety is very important because it deals with our most important and expensive resource--the
          organization's personnel.

  264     Safety issues seem pretty removed from day-to-day activities in the OSD office environment.
          Maybe some background regarding the kinds of safety issues we face would be a useful
          motivator to understand the safety issues.

  265     The current high PERSTEMPO and OPTEMPO has contributed to the accident rates.




                                             - 203 -
                                                          IE-2008-006 Evaluation of the DoD Safety Program:
                                                                         Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  266     There are two elements to safety: 1. Workplace changes to reduce the number of routine
          accidents like people falling off ladders. 2. Workplace hardening to protect against terrorism
          like truck bombs. Our agency has an office style of work environment, so routine accidents are
          minimal and I don't perceive that any increased attention is warranted. But our building is
          vulnerable to terrorists and our mission makes us a potential target. It's not clear to me who is
          responsible for improving the situation nor how much would be an appropriate increase in
          budget to remediate the problem to some degree nor how we could obtain such funds given that
          we are a non-appropriated activity.

  267     This seems like a rather pointless survey.

  268     This survey could have used an I don't know or N/A column.

  269     This survey is so innocuous as to be virtually meaningless.

  270     This survey is totally inappropriate for a DoD policy office in the Pentagon.

  271     This survey seems to imply that there is a problem that needs fixing. I don't believe we have
          any such problems in the Missile Defense Agency.

  272     We work in an office environment. Therefore, some of the safety issues regarding large
          machinery don't exist. However, we do have civilian personnel deployed in Baghdad and
          Kuwait. Our policy has been that personal safety in these areas override mission when there
          are security issues. We have people take every precaution to assure that people understand
          where there are safe and unsafe areas to travel, and travel is accomplished with a military
          escort.

  273     When personnel shortages are created due to budget cuts, dedicated employees who work
          industrial type work experience fatigue and may be subject to increased accidents.

  274     Safety is a leadership issue. Balance of safety and realistic training is crucial. Nothing hurts
          readiness more than loss of personnel or other resources.

  275     While it is not possible to prevent all accidents, attention to accident prevention must be
          constant. It is a shared responsibility between individuals and organizations.




                                             - 204 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  276     As a Reserve officer, I have always been concerned with the risk involved when soldiers
          commute to their place of duty during weekend drills. Because the Army does not reimburse
          soldiers for overnight lodging during independent duty training periods, many are forced to
          drive to and from their home of record. In many instances these distances exceed 100 miles or
          more. This driving takes place very early in the morning hours in order to be on time for 7:00
          a.m. formations or late in the afternoon after 17:00 final formation. I see this becoming a
          bigger issue as we move forward with the reorganization of the Army Reserve requiring
          participating members to drive longer distances in order to find their unit of choice. We must
          move forward with actions that will allow the Soldier to remain overnight during his
          independent duty training period.

  277     Everything that we do in the uniformed military is inherently risky. As a result, we must
          ensure that every leader is engaged in risk assessment and risk mitigation for each mission. It
          is something for which we must be "unconsciously competent". As a senior leader it is a role
          requirement for me to inspect the risk management plans of my units when I am inspecting
          training. Troops tend to do well those things which the boss checks. Thanks for soliciting our
          views and recommendations.

  278     No serious command inspection policy improvements have been targeted to safety procedures,
          except in maintaining paperwork, for over 20 years. A positive command emphasis must be
          developed in all command environments.

  279     Reference Q5: This is a poorly worded question that reflects a lack of understanding of both
          mission and safety. Mission and safety are not in any way opposing factors. A good safety
          record is a by-product of doing the mission right the first time. Our operational risk
          management tools provide a means to ensure this is accomplished. Ref Q7: Beware of
          accounting changes that make us look like we are achieving this objective, while
          accomplishing nothing. Ref Q11: Wrong question. We don't need to focus on safety funding.
           We should adequately fund and man the mission safety will improve.

  280     Safety is important, and we must do all we can to reduce or mitigate accidents. My perception
          is that we are doing that. I see two problems with our current approaches. Safety goals are set,
          and we beat ourselves up over numbers that are statistically insignificant. This is something
          you can never say in a public forum, because, of course, every life is precious, and every death
          or serious accident is, indeed, a tragedy. But, for example, in an organization the size of the
          Army, when suicides go up from 26 to 32, that's a 23 percent increase. Six soldiers lost to
          suicide is a tragedy, but six more out of 425,000 is, indeed, statistically insignificant. The
          second problem has to do with the feeling that, when something happens, we should have done
          more. The logical extension is that whatever we are doing, it was not effective so we have to
          have yet another class or other requirement.




                                            - 205 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




COMMENT
          PLEASE PROVIDE ANY OTHER GENERAL COMMENTS YOU MAY HAVE:
  NO.

  281     The Army's safety program is viable, but we fail to look closely enough at the human factors.
          Most of our accidents involve motor vehicles operated by young, self confident soldiers who
          believe wholeheartedly in their own indestructibility. A way to recognize safe drivers and
          restrict those who do not drive safely, coupled with mandatory advanced safe motor vehicle
          operations training, may help. Training is often a large factor in accident/incident prevention.
          Install seat belts in tactical vehicles that extend around soldiers and their individual body
          amour, camelback and load bearing equipment. Air condition cabs of tactical vehicles to help
          alleviate fatigue that contributes to unsafe conditions.

  282     Too many leaders with motorcycles. Radar detectors in dash where subordinates are able to
          observe them assume that their leaders routinely and fully intend to speed, break the law.
          Consider mimicking AF line-of-duty no if deemed legal and appropriate. Train and behave to
          known standards and competencies. Don't allow at-war-mentality to diminish standards
          leading to dangerous, cavalier profiles.

  283     We must do more as leaders and hold ourselves accountable. One safety day a year is not
          enough. We must measure (metrics) and reward positive behavior. We must do more to
          ensure the use of seatbelts, and motorcycle helmets.

  284     We need to review how we train people on safety issues. Some processes have not changed in
          decades. As we get new people in and the older workforce leaves, many will have difficulty
          adapting to old training methods. Too many people are computer literate, and look for variety
          in a training scenario.

  285     Worthy pursuit, but can not be mandated. We need to get into the root causes.




                                             - 206 -
                                        IE-2008-006 Evaluation of the DoD Safety Program:
                                                       Senior Leader Safety Survey Results



Appendix K – List of Acronyms

  ANG              Air National Guard
                   Assistant Deputy Under Secretary of Defense for Environment,
  ADUSD (ESOH)
                     Safety, and Occupational Health
  CLAIMANT         Major Command (Navy)
  COCOM            Combatant Command
  DMDC             Defense Manpower Data Center
  DoD              Department of Defense
  DoD IG           DoD Inspector General
  DSOC             Defense Safety Oversight Council
  DUSD(R)          Deputy Under Secretary of Defense for Readiness
  JCS              Joint Chief of Staff
  JPDO             Joint Program Development Office
  MACOM            Major Command (Army)
  MAJCOM           Major Command (Air Force)
  NCO              Non-commissioned Officer
  NSC              National Safety Council
  OIG              Office of Inspector General (DoD)
  OPSTEMPO         Operations Tempo
  ORM              Operational Risk Management
  OSD              Office of the Secretary of Defense
  P&R              Personnel and Readiness
  PERSTEMPO        Personnel Tempo
  SecDef           Secretary of Defense
  SES              Senior Executive Service
  USAREUR          US Army Europe
                   Under Secretary of Defense for Acquisition, Technology,
  USD(AT&L)
                    and Logistics
  USD(P&R)         Under Secretary of Defense for Personnel and Readiness




                              - 207 -
                                                           IE-2008-006 Evaluation of the DoD Safety Program:
                                                                          Senior Leader Safety Survey Results




Appendix L – Definitions
Benchmarking. The process of identifying, learning, and adapting outstanding practices and
processes to help an organization improve its performance. Benchmarking gathers the tacit
knowledge (the know-how, judgments, and enablers) that explicit knowledge often misses.

Climate. A prevailing condition or set of attitudes.

Compliance. Meeting applicable statutory and regulatory standards, including standards for
protection of human health and the environment.

Culture. Set of distinctive spiritual, material, intellectual and emotional features of society or a
social group, and encompasses art and literature, lifestyles, ways of living together, value
systems, traditions and beliefs.

Percentile score. Expresses the percentage of database organizations with a lower average
response score than DoD senior leader survey responses.

Perception. Insight or intuition relative to information introduced through sensory reception.
The act of perceiving or being aware of objects or other data through any of the senses. The
meaning or interpretation given to stimuli received through the senses.

Prevention. A proactive process that empowers individuals and systems to meet the challenges
of life events and transitions by creating and reinforcing conditions that promote healthy
behaviors and lifestyles.
Risk management. Process that formalizes procedures for identifying hazards, assessing risks,
considering risk control measures, making control decisions, implementing risk controls, and
supervising and reviewing.
Safety Barometer. An employee safety perception survey tool created and used by the National
Safety Council.

Safety management system. An organized and structured means of ensuring that an
organization is capable of achieving and maintaining high standards of safety performance.

Safety program. An administrative and procedural plan for placing loss-prevention and hazard-
control systems into operation and maintaining their effectiveness.

Senior Leader. A Flag Officer (O-7 thru O-10) or Senior Executive Service member in the
Department of Defense.

World-class. Ranking among the foremost in the world; of an international standard of
excellence. The OIG, DoD recommends that, relative to perception surveys, the top 10
percentile be considered world-class (above 90 percent).


                                               - 208 -
                                                         IE-2008-006 Evaluation of the DoD Safety Program:
                                                                        Senior Leader Safety Survey Results




Appendix M – Distribution List
Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
Under Secretary of Defense (Policy)
Under Secretary of Defense (Comptroller)
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense (Intelligence)

Department of the Army
Assistant Secretary of the Army (Installations and Environment)
Inspector General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Installations and Environment)
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Installations, Environment, and Logistics)
Inspector General, Department of the Air Force

Joint Chiefs of Staff
Deputy Inspector General

Other Defense Organizations
Defense Security Cooperation Agency
Defense Commissary Agency
Defense Contract Audit Agency
Defense Finance and Accounting Agency
Defense Intelligence Agency
Defense Security Service
National Geospatial-Intelligence Agency
National Security Agency
Defense Advances Research Projects Agency
Defense Contract Management Agency
Defense Logistics Agency
Defense Threat Reduction Agency
Missile Defense Agency
Defense Information Systems Agency
Defense Legal Services Agency
Pentagon Force Protection Agency




                                              - 209 -
                                                     IE-2008-006 Evaluation of the DoD Safety Program:
                                                                    Senior Leader Safety Survey Results


Non-Defense Federal Organizations and Individuals
National Safety Council

Congressional Committees and Subcommittees, Chairman and Ranking
Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Judiciary Subcommittee on Technology, Terrorism, and Government Information
House Committee on Appropriations
House Subcommittee on Defense
House Committee on Armed Services
House Committee on Government Reform
House Committee on the Judiciary
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform




                                           - 210 -
THE MISSION OF THE DoD OIG
The Office of Inspector General promotes integrity, accountability, and improvement of
Department of Defense personnel, programs, and operations to support the Department’s
mission and to serve the public interest.

GENERAL INFORMATION

Forward questions or comments concerning the evaluation of the DoD Safety Program
and other activities conducted by the Inspections & Evaluations Directorate to:

                          Inspections & Evaluations Directorate
            Office of the Deputy Inspector General for Policy and Oversight
               Office of Inspector General of the Department of Defense
                                  400 Army Navy Drive
                             Arlington, Virginia 22202-4704
                                 crystalfocus@dodig.mil

An overview of the Department of Defense Office of Inspector General mission and
organizational structure is available at http://www.dodig.mil

TEAM MEMBERS

The Special Projects and Technical Support Division, Inspections and Evaluations
Directorate, Office of Deputy Inspector General for Policy and Oversight, Office of
Inspector General for the Department of Defense prepared this report. Personnel who
contributed to the report include Col Forrest R. Sprester (USAF) – project lead, LCDR
Robert N. Cooper (USN) – team leader, Michael R. Herbaugh, Lt Col Heidie R.
Rothschild (USAF), Dr. Sardar Q. Hassan, George P. Marquardt, Kayode O. Bamgbade,
Susann L. Stephenson, Carol Brink-Meissner, Stephen V. Chiusano, Maj Linda E.
Moschelle (USAF), Monica Noell, LTC Eugene Thurman (USA), and Jewel Morton
(Naval Audit Service).

Terry Miller and Jonathan Thomas, National Safety Council.

ADDITIONAL REPORT COPIES
Contact us by phone, fax, or e-mail:
Inspections and Evaluations Directorate, Deputy Inspector General for Policy and Oversight
 COM: 703.604.9130 (DSN 664.9130)
 FAX: 703.604.9769
 EMAIL: crystalfocus@dodig.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm
 DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL


                                                         MISSION STATEMENT

       The Office of the Inspector General promotes integrity, accountability, and
       improvement of Department of Defense personnel, programs and operations
            to support the Department’s mission and to serve the public interest.


                 Senior Leader                                                                Active Duty
Maj. Gen. John R. Vines, Commander Coalition                                 Aviation Ordnanceman Airman Brian Miller of
Task Force 82, and Brig. Gen. C. William Fox,                                Cleveland, Ohio, assigned to the "Mighty
Deputy Chief Joint Staff 180, salute as the                                  Shrikes" of Strike Fighter Squadron Nine Four
remains of an airman killed in action pass by                                secures the fins on an AIM-7 Sea Sparrow
them, during a ceremony held at Bagram Air                                   missile attached to an F/A-18E Super Hornet on
Field, Afghanistan.                                                          the flight deck of the nuclear powered aircraft
(U.S. Army photo by Sgt. 1st Class Milton H. Robinson)                       carrier USS Nimitz (CVN 68).
                                                                             (U.S. Navy photo by Photographer's Mate 3rd Class
                                                                             Maebel Tinoko)



                     Civilian                                                               Guard & Reserve
A civilian construction worker removes a nail                                Pfc. Melissa M. Telaak, from 1st Platoon, 164th
from a board during construction of a new                                    Military Police Company, pulls convoy security
cement security wall, Incirlik Air Base, Turkey.                             duty in Kabul, Afghanistan.
(U.S. Air Force photo by Senior Airman                                       (This photo appeared on www.army.mil)
Matthew Hannen)




                                               NATIONAL SAFETY COUNCIL

                                                         MISSION STATEMENT

                To educate, protect and influence society to adopt safety, health and                                            D E PA R T M E N T O F D E F E N S E

             environmental policies, practices and procedures that prevent and mitigate                                                                                 To report fraud, waste, mismanagement, and abuse of authority.

                              human suffering and economic losses.
                                                                                                                                 hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                                                        Phone: 800.424.9098          e-mail: hotline@dodig.mil         www.dodig.mil/hotline
  Department of Defense Office of Inspector General - National Safety Council




 Combat Power
  Begins with
   Safety
  DEPARTMENT OF DEFENSE
                                                 NATIONAL SAFETY COUNCIL
OFFICE OF INSPECTOR GENERAL
                     www.dodig.mil                                    www.nsc.org
